<html>
<title> - NORTHWEST SALMON RECOVERY</title>
<body><pre>[Senate Hearing 106-87]
[From the U.S. Government Printing Office]



                                                         S. Hrg. 106-87
 
                       NORTHWEST SALMON RECOVERY

=======================================================================

                             JOINT HEARING

                               before the

                        SUBCOMMITTEE ON INTERIOR
                          AND RELATED AGENCIES

            COMMITTEE ON APPROPRIATIONS UNITED STATES SENATE

                                and the

                        SUBCOMMITTEE ON INTERIOR

          COMMITTEE ON APPROPRIATIONS HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                               __________

                            SPECIAL HEARING

                               __________

         Printed for the use of the Committee on Appropriations




 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate

                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
57-921 cc                   WASHINGTON : 1999

_______________________________________________________________________
            For sale by the U.S. Government Printing Office
Superintendent of Documents, Congressional Sales Office, Washington, DC 
                                 20402
                           ISBN 0-16-058772-7





                      COMMITTEE ON APPROPRIATIONS

                     TED STEVENS, Alaska, Chairman
THAD COCHRAN, Mississippi            ROBERT C. BYRD, West Virginia
ARLEN SPECTER, Pennsylvania          DANIEL K. INOUYE, Hawaii
PETE V. DOMENICI, New Mexico         ERNEST F. HOLLINGS, South Carolina
CHRISTOPHER S. BOND, Missouri        PATRICK J. LEAHY, Vermont
SLADE GORTON, Washington             FRANK R. LAUTENBERG, New Jersey
MITCH McCONNELL, Kentucky            TOM HARKIN, Iowa
CONRAD BURNS, Montana                BARBARA A. MIKULSKI, Maryland
RICHARD C. SHELBY, Alabama           HARRY REID, Nevada
JUDD GREGG, New Hampshire            HERB KOHL, Wisconsin
ROBERT F. BENNETT, Utah              PATTY MURRAY, Washington
BEN NIGHTHORSE CAMPBELL, Colorado    BYRON L. DORGAN, North Dakota
LARRY CRAIG, Idaho                   DIANNE FEINSTEIN, California
KAY BAILEY HUTCHISON, Texas          RICHARD J. DURBIN, Illinois
JON KYL, Arizona
                   Steven J. Cortese, Staff Director
                 Lisa Sutherland, Deputy Staff Director
               James H. English, Minority Staff Director
                                 ------                                

             Subcommittee on Interior and Related Agencies

                   SLADE GORTON, Washington, Chairman
TED STEVENS, Alaska                  ROBERT C. BYRD, West Virginia
THAD COCHRAN, Mississippi            PATRICK J. LEAHY, Vermont
PETE V. DOMENICI, New Mexico         ERNEST F. HOLLINGS, South Carolina
CONRAD BURNS, Montana                HARRY REID, Nevada
ROBERT F. BENNETT, Utah              BYRON DORGAN, North Dakota
JUDD GREGG, New Hampshire            HERB KOHL, Wisconsin
BEN NIGHTHORSE CAMPBELL, Colorado    DIANNE FEINSTEIN, California
                           Professional Staff
                              Bruce Evans
                              Ginny James
                             Anne McInerney
                            Leif Fonnesbeck
                          Kurt Dodd (Minority)

                         Administrative Support
                             Joseph Norrell
                       Carole Geagley (Minority)
                      COMMITTEE ON APPROPRIATIONS

                   C.W. BILL YOUNG, Florida, Chairman
RALPH REGULA, Ohio                   DAVID R. OBEY, Wisconsin
JERRY LEWIS, California              JOHN P. MURTHA, Pennsylvania
JOHN EDWARD PORTER, Illinois         NORMAN D. DICKS, Washington
HAROLD ROGERS, Kentucky              MARTIN OLAV SABO, Minnesota
JOE SKEEN, New Mexico                JULIAN C. DIXON, California
FRANK R. WOLF, Virginia              STENY H. HOYER, Maryland
TOM DeLAY, Texas                     ALAN B. MOLLOHAN, West Virginia
JIM KOLBE, Arizona                   MARCY KAPTUR, Ohio
RON PACKARD, California              NANCY PELOSI, California
SONNY CALLAHAN, Alabama              PETER J. VISCLOSKY, Indiana
JAMES T. WALSH, New York             NITA M. LOWEY, New York
CHARLES H. TAYLOR, North Carolina    JOSE E. SERRANO, New York
DAVID L. HOBSON, Ohio                ROSA L. DeLAURO, Connecticut
ERNEST J. ISTOOK, Jr., Oklahoma      JAMES P. MORAN, Virginia
HENRY BONILLA, Texas                 JOHN W. OLVER, Massachusetts
JOE KNOLLENBERG, Michigan            ED PASTOR, Arizona
DAN MILLER, Florida                  CARRIE P. MEEK, Florida
JAY DICKEY, Arkansas                 DAVID E. PRICE, North Carolina
JACK KINGSTON, Georgia               CHET EDWARDS, Texas
RODNEY P. FRELINGHUYSEN, New Jersey  ROBERT E. ``BUD'' CRAMER, Jr., 
ROGER F. WICKER, Mississippi             Alabama
GEORGE R. NETHERCUTT, Jr.,           JAMES E. CLYBURN, South Carolina
    Washington                       MAURICE D. HINCHEY, New York
RANDY ``DUKE'' CUNNINGHAM,           LUCILLE ROYBAL-ALLARD, California
    California                       SAM FARR, California
TODD TIAHRT, Kansas                  JESSE L. JACKSON, Jr., Illinois
ZACH WAMP, Tennessee                 CAROLYN C. KILPATRICK, Michigan
TOM LATHAM, Iowa                     ALLEN BOYD, Florida
ANNE M. NORTHUP, Kentucky
ROBERT B. ADERHOLT, Alabama
JO ANN EMERSON, Missouri
JOHN E. SUNUNU, New Hampshire
KAY GRANGER, Texas
JOHN E. PETERSON, Pennsylvania
                James W. Dyer, Clerk and Staff Director
                R. Scott Lilly, Minority Staff Director
                                 ------                                

                        Subcommittee on Interior

                      RALPH REGULA, Ohio, Chairman
JIM KOLBE, Arizona                   NORMAN D. DICKS, Washington
JOE SKEEN, New Mexico                JOHN P. MURTHA, Pennsylvania
CHARLES H. TAYLOR, North Carolina    JAMES P. MORAN, Virginia
GEORGE R. NETHERCUTT, Jr.,           ROBERT E. ``BUD'' CRAMER, Jr., 
    Washington                           Alabama
ZACH WAMP, Tennessee                 MAURICE D. HINCHEY, New York
JACK KINGSTON, Georgia
JOHN E. PETERSON, Pennsylvania
                           Professional Staff
                           Deborah Weatherly
                          Del Davis (Minority)




                            C O N T E N T S

                              ----------                              
                                                                   Page
Statement of Hon. Gary Locke, Governor, State of Washington......     1
Opening remarks of Senator Slade Gorton..........................     1
Opening remarks of Representative Norm Dicks.....................     3
Opening remarks of Senator Patty Murray..........................     5
Opening remarks of Senator Ted Stevens...........................     6
Opening remarks of Representative Jim McDermott..................     7
Opening remarks of Representative Adam Smith.....................     8
Summary statement of Hon. Gary Locke.............................     9
Statement of Robert Anderson, president, Mid-Sound Fisheries 
  Enhancement Group..............................................    14
Statement of Al Adams, president, Hood Canal Fisheries 
  Enhancement Group..............................................    14
Statement of Roger Braden, Chelan Public Utility District........    14
Statement of Hank Sitko, executive director, Northwest Marine 
  Trade Association..............................................    14
Statement of William Ruckelshaus, Madrona Investment Group.......    14
Statement of Ed Owens, Coastal Fisheries Coalition...............    14
Summary statement of Robert Anderson.............................    14
    Prepared statement...........................................    18
Summary statement of William Ruckelshaus.........................    20
    Prepared statement...........................................    21
Salmon conservation in the Pacific Northwest: The need for more 
  effective coordination in the development of recovery plans....    21
Ensuring science-based action....................................    22
Designing an effective recovery strategy.........................    23
A new institutional arrangement for salmon recovery..............    24
Summary statement of Al Adams....................................    25
    Prepared statement...........................................    27
Summary statement of Roger Braden................................    27
    Prepared statement...........................................    29
Summary statement of Hank Sitko..................................    30
    Prepared statement...........................................    33
Harvest..........................................................    33
Hatcheries.......................................................    33
Habitat..........................................................    34
Summary statement of Ed Owens....................................    35
    Prepared statement...........................................    37
Endangered Species Act...........................................    38
Statement of Bill Wilkerson, Washington Forest Protection........    45
Statement of Linda Johnson, Washington State Farm Bureau, 
  Washington Cattlemen's Association.............................    45
Statement of Mike Miller, president, Pacific Properties..........    45
Statement of Robert Kelly, Nooksack Tribe........................    45
Statement of Tim Stearns, Save our Wild Salmon...................    45
Statement of Conrad Mahnken, National Marine Fisheries Service...    45
Summary statement of Bill Wilkerson..............................    45
    Prepared statement...........................................    47
Key points of the agreement......................................    47
Pesticide application............................................    48
Wetland protection...............................................    48
Watershed analysis...............................................    48
Alternative plans................................................    48
Small landowners.................................................    48
Revisions to the permit process..................................    49
Enforcement......................................................    49
Adaptive management..............................................    49
Assurances.......................................................    49
Funding..........................................................    49
Summary statement of Linda Johnson...............................    49
    Prepared statement...........................................    51
Federal funding to the State for haitat restoration..............    52
Federal funding to in-State Federal agencies for predation.......    52
Federal funding for buy-back of commercial and tribal licenses...    53
Key points of the forests & fish agreement.......................    53
Riparian protection..............................................    53
Westside riparian strategies.....................................    53
Eastside riparian strategies.....................................    54
Unstable slopes..................................................    54
Northwest Indian Fisheries Commission............................    54
Tribes encouraged by forestry pact discussions...................    54
Questions and answers on forests and fish........................    55
Summary statement of Mike Miller.................................    57
    Prepared statement...........................................    59
Summary statement of Robert Kelly................................    61
    Prepared statement...........................................    62
Summary statement of Tim Stearns.................................    63
    Prepared statement...........................................    65
Summary statement of Conrad Mahnken..............................    67
    Prepared statement...........................................    69
The present hatchery system......................................    69
Hatchery and wild fish interactions..............................    69
The changing role of hatcheries..................................    69
Hatchery reform..................................................    70
Statement of Bob Drewell, Snohomish County executive.............    73
Statement of Ed Hansen, mayor of Everett.........................    73
Statement of Jim Buck, Washington State representative...........    73
Statement of Debbie Regala, Washington State representative......    73
Statement of Ed Thiele, Okanogan County commissioner.............    73
Statement of Louise Miller, King County council..................    73
Summary statement of Bob Drewell.................................    73
    Prepared statement...........................................    76
Summary statement of Ed Hansen...................................    77
    Prepared statement...........................................    79
Habitat..........................................................    80
Unfunded mandate.................................................
``Harvest'' recommendation.......................................    81
Coordinating effort..............................................    84
Summary statement of Representative Jim Buck.....................    84
Summary statement of Representative Debbie Regala................    86
    Prepared statement...........................................    88
Summary statement of Ed Thiele...................................    89
    Prepared statement...........................................    91
Needs of eastern Washington......................................    92
Summary statement of Louise Miller...............................    93
    Prepared statement...........................................    95
Watershed level resource protection King County Waterways 2000...    95
How money should be spent........................................    97
Statement of Will Stelle, National Marine Fisheries Service......   105
Statement of Curt Smitch, special assistant to Governor Gary 
  Locke on natural resources.....................................   105
Statement of Billy Frank, Northwest Indian Fisheries Commission..   105
Statement of Bob Lohn, Bonneville Power Administration...........   105
Statement of Tom Dwyer, U.S. Fish and Wildlife Service...........   105
Summary statement of Will Stelle.................................   105
    Prepared statement...........................................   108
The coastal salmon initiative....................................   108
The science initiative...........................................   109
Prepared statement of Hon. David Anderson, P.C., M.P., Canadian 
  Minister of Fisheries and Oceans...............................   109
Summary statement of Curt Smitch.................................   112
Summary statement of Billy Frank.................................   114
    Prepared statement...........................................   116
Summary statement of Bob Lohn....................................   118
Summary statement of Tom Dwyer...................................   120
    Prepared statement...........................................   123
How the fiscal year 1999 salmon money was spent..................   123
How all the federal agencies are coordinating with regard to the 
  impacts of salmon and bull trout listings......................   124
What the Pacific Northwest will face in the coming year as a 
  result of the listings.........................................   124
How the agencies will make ESA compliance easier.................   125
What Federal and local needs are to be met to conform to the 
  demands of the listings........................................   126
How bull trout and salmon habitat needs do or don't overlap......   127
How HCPs will address the needs of bull trout and salmon.........   128
New State employees..............................................   129
  

                       NORTHWEST SALMON RECOVERY

                              ----------                              


                        WEDNESDAY, APRIL 7, 1999

  U.S. Senate, Subcommittee on Interior and
   Related Agencies, Committee on Appropriations,  
         and House of Representatives, Subcommittee
                  on Interior, Committee on Appropriations,
                                                       Seattle, WA.
    The subcommittees met at 10:30 a.m., in the auditorium, 
Seattle-Tacoma Airport, Seattle, WA, Hon. Slade Gorton 
(chairman), Senate Subcommittee on Interior and Hon. Norm Dicks 
(chairman), House of Representatives Subcommittee on the 
Interior, presiding.
    Present: Senators Gorton, Stevens, and Congressman Dicks.
    Also present: Senator Murray, Congressmen Adam Smith and 
McDermott.

                       NONDEPARTMENTAL WITNESSES

STATEMENT OF HON. GARY LOCKE, GOVERNOR, STATE OF 
            WASHINGTON


                opening remarks of senator slade gorton


    Senator Gorton. Can we get everyone to take a seat, please, 
so that we can start on time? We have a lot of people to hear 
from today.
    Thank you all very much for your attention and for your 
attendance. And I want to welcome all of my colleagues, the 
number of which indicates the importance of this hearing, not 
just to the community, but to members of Congress as well. 
Welcome, also, to all of the people who are going to testify 
before us here today on salmon recovery in the Northwest.
    This is a joint hearing of the House and Senate Interior 
Appropriations Subcommittees. I am chairman of the Senate 
Subcommittee; Congressman Dicks is the ranking Democratic 
member of the House Subcommittee. Of course, Senator Stevens is 
the chairman of the entire Appropriations Committee in the 
Senate, and is of particular importance to us and has a great 
interest in the subject.
    Northwest salmon populations have declined dramatically 
from historical levels. Even since 1990, a number of fish runs 
have been listed under the Endangered Species Act. With the 
recent addition of nine more runs to this list just last month, 
virtually every section of the State of Washington is now 
affected by this process, including the heavily populated Puget 
Sound region. In fact, the recent listing of Puget Sound 
chinook marks the first time that a major urban area has been 
directly impacted by the Endangered Species Act.
    The reasons for the decline in salmon are complex, but and 
vary from watershed to watershed. What has impressed me most in 
my travels across the State, however, is the recognition by 
Washingtonians of the importance of restoring salmon runs. 
Rather than focusing on past differences, farmers, 
conservationists, homebuilders, small businessmen and women, 
and locally elected officials are working together to reverse 
the declining trend of these magnificent fish. It's appropriate 
to commend everyone here today who has contributed to this 
effort already.
    People in Washington State are coming together in 
unprecedented ways. For example, the Avista Corporation in 
Spokane provides an example of the importance of collaboration 
among all affected interests in recovering salmon populations. 
Avista has worked closely with agencies, tribes, and 
conservation organizations to relicense its hydroelectric 
projects on the Clark Fork River. This spirit of cooperation 
has led to a landmark recovery plan for the recently-listed 
bull trout populations. The agreement allows Avista to continue 
operating its hydro projects while it supports habitat and 
fishery restoration. This approach may not exactly fit the 
situation in Puget Sound, but it is a clear example of what can 
be achieved when all interested parties work together at the 
local level rather than leaving exclusive control in the hands 
of federal agencies 2,500 miles away.
    I am also encouraged by a growing sentiment in our region 
that we need to focus on clear, measurable performance 
standards in terms for salmon recovery. What I hear is an 
emerging body of opinion that I believe is on the right track. 
Let me give you some ideas that I believe should guide us as we 
continue to work toward broader consensus.
    First, we must define success. We need clear, measurable 
goals defined as a percentage of juvenile passage and a 
percentage of adult returns to spawning grounds.
    Second, after we establish clear measurable success 
standards, someone, preferably at the State or local level, 
must be empowered to establish a specific plan to achieve those 
defined goals. This reform will then encourage the least-cost 
measures first rather than the most expensive.
    Third, we must protect State water rights, and at a 
minimum, we must ensure that private property is only 
transferred on a willing buyer, willing seller basis, and that 
the value of private property not acquired is not destroyed.
    And fourth, restoring our rivers and streams in the 
Northwest will not be enough to save our salmon. Salmon spend 
less than one-third of their lives in the river and the rest in 
salt water. The federal government must reform harvest 
practices and predator control or we will not succeed in 
restoring weak salmon runs.
    The purpose of this hearing, however, is to hear from you, 
and to get on record the great work being done in our State to 
restore salmon habitat. Holding a public forum like this will 
enable all of us sitting here to make an even stronger and more 
compelling case to our colleagues in the House and the Senate 
on the merits of your efforts. Some of the questions I intend 
to ask our witnesses today include:
    How will different localities and States within our region 
coordinate efforts to ensure the most effective regionwide 
recovery possible?
    Who will determine which projects receive federal funds and 
which ones don't?
    What's the role of federal agencies and Congress? Does 
Congress need to pass legislation to help implement some of the 
broadly supported goals we've outlined above?
    What can be done to expedite approval and on-the-ground 
implementation of recovery projects?
    As Chairman of the Senate Interior Appropriations 
Subcommittee, I've worked hard with Congressman Dicks and the 
rest of our Congressional delegation to secure initial funding 
for this effort last year. We continue to work for a 
substantially greater amount of funding for the coming year. In 
order to be successful in securing the necessary funds, 
however, we must build a solid record of success in on-the-
ground salmon recovery efforts. This can only be accomplished 
through your continued efforts and through a process that 
enables you enough flexibility to get the job done in ways that 
work best in each of our communities.
    With that, I look forward to a thought-provoking and 
informative hearing. We must continue to work and talk with all 
of those who share our goal of preserving both our salmon 
resource and our way of life in the Northwest. I've learned a 
great deal from many of you in this room, and want to continue 
to hear from you so that I can make the best case for salmon 
recovery in the Northwest.
    And with that, I recognize as the co-chairman of this 
hearing my friend and colleague, Congressman Dicks.


              opening remarks of representative norm dicks


    Mr. Dicks. Thank you very much, Mr. Chairman. Good morning. 
I would like to start by giving my thanks to Senator Gorton for 
proposing this hearing and for asking me to participate with 
him. As the new ranking minority member on the House Interior 
Appropriations Subcommittee I'm looking forward to the role 
Senator Gorton and I will be able to play in helping the region 
respond to the salmon listing.
    I am particularly pleased that Chairman Stevens could be 
here today. He has been a real friend of the Pacific Northwest. 
We will need his help and leadership both on funding and on the 
crucial need for a United States/Canada agreement under the 
Pacific Salmon Treaty. We are both very pleased that so many of 
our colleagues are able to join us here today.
    I also would like to welcome Governor Locke, who has shown 
strong leadership in addressing the salmon decline. And as we 
extend our appreciation for the individuals and groups who will 
be providing testimony for us today, we thank you for your 
commitment of time and effort, and your plan to restore these 
vital salmon runs.
    I'm pleased that we are here today to listen to the region 
first-hand. I think it is imperative that Congress fully 
understand the significance of these particular listings under 
the federal Endangered Species Act. People in the region have 
probably heard this before, but this point is extremely 
important: there has never been an ESA listing impacting such a 
large urban area, and the species itself is one of the most 
complex ever listed. We will need to pool our efforts and our 
expertise if we are to be successful in the recovery of these 
fish, but we will need help.
    As many of you are aware, Senator Murray and I, with the 
support of all of our colleagues, asked President Clinton and 
Vice-President Gore to include funding for the Pacific Coast 
Salmon Recovery Initiative in the Administration's budget for 
the fiscal year 2000. These funds, $100 million, if 
appropriated--that's where we need Senator Stevens' help--will 
provide critical support to our local governments and tribes as 
we implement restoration activities in the Puget Sound area.
    Last year Senator Gorton was able to include $20 million in 
the Senate Interior Appropriations bill, which I was able to 
keep on the House side. This initial funding will provide the 
State the ability to act quickly in response to the listing, 
but we know that ultimately recovery will be a multi-year 
effort. It is my hope that we can look at our experiences with 
the Northwest Forest Plan, both its successes and failures, and 
structure the salmon recovery money in a similar fashion with a 
strong federal commitment.
    But any federal commitment must be a partnership with the 
region. The proposed salmon money requires a State match. You 
have our assurance that we in the Congress will do whatever we 
can to get the money appropriated, but if the State match is 
not made, Washington and other States will not be eligible for 
these funds.
    The salmon recovery fund is crucial, and I believe it is 
crucial that we reach agreement with Canada in the Canada/
United States Pacific Salmon Treaty. Fisheries managers tell me 
that nothing will get fish into our rivers faster than a solid 
ten-year management agreement with the Canadians. We have been 
making good progress so far this year, and the Canadian 
government should be complimented on its prior implementation 
of stringent harvest reductions. The agreement last year 
between Canada and Governor Locke helped to bring back more 
salmon to Puget Sound rivers. A new agreement with Canada is 
essential. The Clinton administration, at our urging, has made 
this a top priority.
    We must also recognize our commitment and legal obligation 
to the Pacific Northwest tribes. I am please that my good 
friend Chairman Billy Frank of the Northwest Indian Fisheries 
Commission will join us today, and look forward to his 
testimony. As co-managers of our State's fisheries, we must act 
in tandem with the tribes on any and all recovery strategies. 
To that end, I want to compliment the Tri-County effort and the 
participating tribes for their cooperative and highly 
successful leadership. I hope your effort can serve as a model 
as we expand our efforts.
    I also want to briefly mention a creative program which I 
think can help us tremendously in the protection of habitat and 
restoration of salmon runs. The Conservation Reserve 
Enhancement Program will help private landowners receive 
compensation for the habitat they set aside, and can also apply 
for matching monies to provide enhancements such as shading, 
vegetation, erosion control measures, and larger buffers around 
fish-bearing streams. I think it is imperative that we look at 
all areas of concern to salmon and believe that an excellent 
example of creative problem-solving can be achieved through the 
Conservation Reserve Enhancement Program.
    Finally, I applaud the timber, fish, and wildlife approach, 
the so-called Forest Module, as an example of working together.
    Finally, to Al Adams and the Hood Canal Salmon Enhancement 
Group, and frankly, to all of the salmon enhancement groups in 
our State, I think you are doing a tremendous job, and the 
funds that we're trying to get are there to help you at the 
local level as you make the efforts to restore these runs.
    It is my hope that this hearing will help us clarify and 
focus our efforts on the massive task of recovering these fish. 
I look forward to hearing the witness testimony, as well as any 
additional testimony for the record.
    Mr. Chairman, I am proud to be with you here today.
    Senator Gorton. Thank you. Senator Murray.


                opening remarks of senator patty murray


    Senator Murray. Thank you, Mr. Chairman. First of all, let 
me thank you and Congressman Dicks for putting together this 
hearing in our region on a very critical topic that all of us 
are working very hard on. And I particularly want to thank 
Senator Stevens for being here with us today to hear the input 
from the State of Washington and this region on an issue that 
has really brought a lot of people together. And I want to 
thank all of our congressional delegation as well, who have 
joined us today.
    And I of course want to applaud this tremendous audience 
for coming today. I think it shows all of us how important it 
is to many people in the State of Washington, and we appreciate 
all of you coming today to be here to be part of this.
    I really want to applaud our region's overall reaction to 
the ESA listing of salmon. We have been faced with a tremendous 
challenge in our State, in our counties, our cities, our 
tribes, and local interest groups who have all come together to 
face the challenge of salmon recovery. We have known for over a 
year that these listing are going to be coming, and for a year, 
many people in our State have been working together in 
collaboration to develop the best plans possible to recover the 
salmon.
    It isn't surprising that in the face of such a challenge, 
that we've had some disagreements, and that some may be 
concerned about the pace of planning and recovery activities. 
I, for one, share the concern of many that the State 
legislature has not yet appropriated the money necessary so 
they can get the matching dollars that we hope to obtain, and I 
would encourage them to move forward quickly on that.
    But I think we all have to remind ourselves that the best 
opportunity to protect our economy and our quality of life in 
the Pacific Northwest is to work together, and that's why I am 
really pleased to see all of you here, and the excellent panels 
that have been put forward that we'll be hearing from today.
    The hardest work lies ahead of us, and there is a lot we 
must do. I am committed to working with Senator Gorton, 
Congressman Dicks, Senator Stevens and others from this region 
to put in place and meet the President's budget initiative of 
$100 million for salmon recovery. But I think we also have to 
remember, as Congressman Dicks pointed out, that we need to get 
our United States-Canada treaty signed, and I'm hopeful that we 
can set aside our differences and move forward on that quickly.
    And I of course have to mention designating Hanford Reach 
as a wild and scenic river. Preserving the last 51 mile stretch 
of the river for salmon spawning would be a very important step 
forward, and I hope that as a delegation and as a region we can 
move forward on that in this session of Congress.
    It's clear that the ESA listing of salmon can potentially 
affect every aspect of everyone's life here, and we're all 
going to have to revisit how we conduct our business, the way 
we grow as a population, the way we play and recreate, and 
examine the detrimental effects that those activities may have 
on salmon recovery and the long-term protection of other 
species. But I believe that, in the end, what is best for the 
salmon will likely be best for us and for our children's 
future. If we continue to make progress as we have over the 
past year, I believe that our listed salmon can recover, and 
that our overall State interests will be protected.
    Mr. Chairman, I will have to leave early because of 
previous engagements, but I really appreciate your bringing 
this hearing together, along with Congressman Dicks and others, 
and look forward to reading all of the testimony at the end of 
the day. So thank you very much.
    Senator Gorton. Thank you. Senator Stevens.


                 opening remarks of senator ted stevens


    Senator Stevens. Thank you very much, Mr. Chairman. I am 
delighted to be here not only as a representative of Alaska, 
but as the chairman of the Appropriations Committee.
    I believe that Alaskans, and I hope that everyone in the 
region agrees that we consider the fishery resources, 
particularly our salmon of the North Pacific and the Pacific, 
to be a national treasure, and that those of who live in the 
area are really stewards of that treasure. And I'm here to 
pledge to you my support, and I believe Alaska's support, in 
your efforts to help restore the salmon runs here in your part 
of the area.
    There is no question with what both of you, or I think all 
of you, have said, that it's necessary for us to make sure this 
is an international and totally regional approach to restoring 
the salmon runs. I do believe that Congress will be very 
receptive of the request for the money for this purpose, and I 
hope we can add some money to assure that we can really bring 
the Canadian groups, not only the sports fishing and commercial 
fishermen, but all of the participants in the Canadian area to 
the table, along with our Indian and Native friends, and try to 
make this a total regional protection concept and restoration 
concept for our salmon resources.
    But I congratulate you, too, Slade. I think it's a very 
timely thing to do, and I'm certain that the testimony we're 
going to hear today will help us all obtain the funds that will 
be necessary to proceed. Thank you very much.
    Senator Gorton. Thank you. Congressman McDermott.


            opening remarks of representative jim mc dermott


    Mr. McDermott. Thank you, Mr. Chairman.
    I first want to thank Senator Stevens. It's an exemplary 
position for somebody to come from another State, and sit and 
listen to our problems, and we're very grateful to you for 
taking the time to do that. I think both Senator Gorton and 
Congressman Dicks are to be commended for putting this hearing 
together.
    The need to save an endangered species and an endangered 
ecosystem is not a new phenomenon for any of us here in the 
Northwest. The tradeoff between protecting our forests and the 
forestry resource industry has occupied Washington and Oregon 
and its politicians and policymakers for a long time.
    This listing doesn't come as a surprise. For years we have 
seen the populations of salmon decline. Someone who's been 
around Lake Washington, as I have, for thirty years, has seen 
what has happened in that area alone. And we've known for 
months that federal protection would be afforded the salmon 
species in Puget Sound.
    Local officials, tribal governments and others have been 
working hard on solutions to the listing of the nine species of 
salmon and steelhead under the Endangered Species Act, which is 
really the first listing under the ESA in an urban area. And I 
want to commend the local officials who have taken on this 
complicated challenge of all the overlapping jurisdictions, and 
all who have risen to this challenge.
    In the federal government, I believe it's our duty to make 
sure you have the resources to put your plans into action and 
to ensure that the National Marine Fisheries Service and the 
Fish and Wildlife Service have the budgets to carry out their 
work.
    This is true also of State officials. I called Sid Snyder 
yesterday trying to get the number that was in the Senate 
budget, and there is no Senate budget yet, so there's still 
time to work on the State legislature about getting their money 
in. It's time the State government really stepped up to its 
role as a co-manager of the fishery and provided the needed 
funds to manage the other programs.
    Now, you just have to look at all the factors causing this 
danger to the salmon supply to see how difficult a situation we 
face. The National Marine Fisheries Service cited deteriorating 
watershed and stream conditions, habitat degeneration, dam 
construction and operation, harmful hatchery practices, and 
overharvesting all as contributing toward the plight of fish in 
this area. This didn't happen overnight. This is not something 
that started two weeks ago or a month ago. It is a reflection 
of decades of inadequate stewardship, and a situation in which 
various government agencies and governments responsible for the 
fishery have lacked either the necessary tools or the 
coordination to work together.
    This has occurred, in part, because so many of us have an 
interest in fish. We can't have it all. We can't have a full 
harvest, unlimited use of hydroelectric power, development, 
forestry, sport fishing, and irrigation, and still preserve the 
fishery. For us to reach a solution, all of those interests are 
going to have to give a little, and we'll have to put together 
a combination of components, education, financial incentives, 
restoration, and new rules and regulations in our final 
outcome.
    Now, some of you might say that it's easy for a congressman 
who represents the City of Seattle to talk about this, that the 
sacrifices that we make in an urban area may not be as 
difficult as they will be for salmon recovery plans in other 
parts of the State. I don't agree with that. We could face 
higher energy costs, restrictions on water use, and limits on 
development and real impacts in the urban area. And this is the 
first time that a State, and a major metropolitan area, have 
had to face that. I think it's very important for people to 
understand that. We are all in this together, and that's why 
I'm pleased to have these five panels here today representing 
State and federal officials, the tribes, the environmentalists, 
and all the industries that are involved, and I look forward to 
hearing from the panels as we set about this next stage of the 
work.
    And again, I want to thank Senator Gorton and Congressman 
Dicks for having this hearing.
    Senator Gorton. Congressman Smith.


              opening remarks of representative adam smith


    Mr. Smith. Thank you, Senator Gorton. And I want to thank 
Senator Gorton and Congressman Dicks for bringing this hearing 
together, and also for their leadership on this very important 
issue; and also thank Senator Stevens for coming down to this 
hearing as well. Since he's going to have a major impact on 
this issue for all of us, I appreciate his interest and 
involvement.
    Obviously this is an issue of dramatic importance for the 
entire region. I'm not going to just, you know, say everything 
that has already been said, because I think the people who have 
gone before me have outlined the issue very, very well, and 
I'll associate myself with those remarks. I think it's a pretty 
good summary of the issue.
    What's most important, as I see it, is broad cooperation 
throughout the region, State, local, and federal, and all 
interested parties. I do think that the efforts of the Tri-
County area to do that set a pretty good model for the rest of 
the region trying to follow in their footsteps and bring that 
same level of cooperation to this problem, which will be 
critical. And obviously, as well, adequate funds are important 
at both the State and Federal level, just as a starting point.
    I think those are the most important issues. It is a very 
significant challenge we face to try to save the salmon, but 
it's one that I think we can meet. The leadership that we've 
received, not just from the panelists here but from all those 
of you in the room over the last couple of years, actually, as 
we've built up and approached this issue, has been outstanding. 
We're just going to need a lot more of it, and obviously it's 
going to be a very significant challenge that we must step up 
to.
    And with that, I'm anxious to hear the testimony. Thank 
you, Senator Gorton.
    Senator Gorton. Thank you.


                  summary statement of hon. gary locke


    We are now going to begin the hearing and hear from 
Governor Locke.
    I will say, while the governor is approaching, because of 
the length of this hearing and the number of witnesses and the 
fact that we have written statements from almost all of them, 
we're going to ask witnesses to limit their comments here 
orally to five minutes each so that we'll have plenty of time 
to ask questions.
    That limitation, however, does not apply to you, governor. 
We will hear from you, because of your vitally important role 
in this, for whatever time you wish to speak to us.
    Governor Locke. Well, thank you very much Senator Gorton 
and Congressman Dicks for convening this summit. And it's a 
pleasure to see Senator Patty Murray and Senator Stevens from 
Alaska, and to have on the dais and also participating, 
Congressman McDermott and Congressman Adam Smith. I will assure 
you that my comments will be shorter than five minutes, and 
seeing the red and green lights reminds me of the time when I 
was in courts, the court of appeals and supreme court, arguing 
appellate cases, and I know very much what those lights mean.
    I'm very, very grateful for the bipartisan recognition that 
wild salmon are an irreplaceable treasure of the Pacific 
Northwest and for our Nation as a whole. The salmon, wild 
salmon, are in fact part of our--a very important part of our 
economy, as well as icons of the quality of life that we so 
much cherish here in the Pacific Northwest, and we want you to 
know that we are working hard to achieve bipartisan solutions 
in the recovery of wild salmon in our State capital in Olympia.
    Our administration is committed to restoring Washington's 
wild salmon to healthy, abundant, harvestable levels, both 
commercially and for recreation. And to do this, we've been 
working with the tribes, stakeholders in every corner of our 
State to develop a long-term strategy. And we're refining it 
now, and based on what the legislature does to our proposal, we 
anticipate sending it to the National Marine Fisheries Service 
this coming summer.
    But I have to tell you that we've also passed legislation 
in 1998 that has already established a State-wide watershed 
planning process. It's already provided grants to local groups 
who are restoring habitat. We've created a multi-agency Salmon 
Recovery Team that reports directly to me, and we've also 
created a Joint Cabinet on Natural Resources and a Government 
Council on Natural Resources that brings together people from 
local governments, State agencies, and the tribes.
    The 1998 legislation was a good start on watershed planning 
and voluntary actions, but we know that won't be enough. NMFS 
has made it very clear that they will require us to do much 
more, and to provide a much higher level of both substance and 
certainty. And that's why we're working with the State 
legislature this year to win passage of legislation to deal 
with other land and water management issues as well as 
enforcement of our existing laws, laws already on the books.
    One bill will assure more salmon-friendly timber harvesting 
practices, and I'm very optimistic that that will get through 
the legislature and be approved by our State Forest Practices 
Board.
    A second piece of legislation will ensure that we get more 
water in the streams when and where fish need it, while at the 
same time ensuring that communities and people have the water 
they need to grow. We are also working with the legislature to 
pass a salmon recovery budget. This is essential to 
implementing our State strategy, but also to meeting the 
federal matching requirement.
    And we're doing all this because for us, extinction of wild 
salmon is not an option. We're committed to the recovery of 
wild salmon, but we cannot do this alone. We need the federal 
help--or, we need federal help in two ways.
    First, we need federal funding, and we have devoted 
significant State and local resources to this effort, and we 
will continue to do so. And our budget proposal calls for $100 
million in State funds over the next two years, both new money, 
operational money, as well as money for projects on the ground.
    But we cannot succeed without federal help. We appreciate 
the President's initial commitment to this effort, but frankly, 
we need more, and so we very much applaud the advocacy of even 
more dollars by members of the Northwest delegation, Senator 
Gorton and Congressman Dicks.
    Second, we need a long-term United States-Canada agreement 
that will protect our most vulnerable wild salmon runs from 
harvest. Canadian Minister Anderson and I came to short-term 
agreements that have proven the benefits of conservation and 
putting fish first. Our agreements have resulted in many more 
wild salmon returning to rivers both in Canada and the State of 
Washington, and now we need help from you and the White House 
to ensure that a long-term treaty will make this the norm, 
rather than the exception.
    We respect and support the Endangered Species Act. At the 
same time, we want to control our own destiny, and frankly, we 
believe that we here in the State of Washington and in the 
States, all the States of the Pacific Northwest, can do a 
better job of salmon recovery than a federal judge or the 
federal agencies. We hope that you'll agree, and we very much 
thank you for your help in trying to help us succeed. Thank you 
every much.
    Senator Gorton. Governor Locke, if I can ask the first 
question. Though I think it is implied in all of the statements 
so far, including your own, what do you see this, say, four-way 
relationship being? What kind of division of responsibilities 
among the federal government, your office and your appointees 
at the State level, all of the local government efforts, and 
the participation of citizen volunteer groups? How much of the 
money, for example, that we appropriate and that you match will 
get down to local governments and to these citizen volunteer 
organizations? Would you sort of describe what you see the 
responsibilities of each of these levels being?
    Governor Locke. We have proposed roughly $100 million. 
Fifty of that is operational money.
    Senator Gorton. What do you mean by operational money?
    Governor Locke. Well, that'll be enforcement, that'll be 
studies and grants to local governments. We're not proposing to 
use $50 million in State dollars to create a huge bureaucracy 
or to have a lot of employees. And the $50 million that we 
propose in terms of construction, both the transportation 
dollars and dollars, are all projects on the ground. But we 
know that local governments and some communities that are much 
smaller and don't have their own staffs are going to need 
scientific support. They're going to need help in conducting 
studies and evaluating the projects. We also know that the 
members of Congress are going to want to know that their 
dollars are going into projects as well.
    Whatever we do has to demonstrate to the public and to the 
member of Congress and people all across the country that this 
money is not wasted, that the money is actually going to go 
into projects that have demonstrable measurable improvement for 
habitat and the recovery of salmon. That must be our ultimate 
measure. And we know that in Olympia we don't have all the 
expertise, nor are we trying to decide salmon recovery efforts 
out of Olympia. So for instance, when you all in the Congress 
were able to obtain some $20 million just last year, most of 
that money went out to the various regions of the State, and we 
depended on the local governments to identify which projects 
would be most successful and have the most impact in restoring 
salmon runs. That's basically what we're envisioning with the 
combination of State and federal dollars.
    No. 1, it all must be scientifically credible.
    No. 2, we need to determine the priorities all across the 
State, and as various salmon advocates, Republicans and 
Democrats, have indicated in the past, we ought to really focus 
on those areas that are already abundant salmon-bearing rivers 
and streams and make sure that we protect those. Before we go 
after those streams that perhaps have not seen salmon in fifty 
or a hundred, let's--you know, let's put our dollars where we 
have the biggest bang and get the most return and have the 
highest probability of success.
    So we're going to need local communities and the scientists 
at the federal and State level, involving tribes and others, to 
identify those areas that have the most promise. And so this is 
very much a collaborative effort.
    Senator Gorton. Is this a west-side problem only, or is the 
money that we appropriate and that you appropriate going to 
have some focus on the east side of the State as well?
    Governor Locke. Well, very much so, it'll have to be State-
wide, because we have very critical stocks in eastern 
Washington as well. And we've already some great examples of 
communities coming together, for instance, in Icicle Creek near 
the Wenatchee area, in which people have come together in 
voluntary efforts. And they could use some assistance, whether 
technical assistance, or dollars for actual projects and 
putting things on the ground, in which they've seen some return 
of salmon. And the list goes on and on and on. That's why we 
need to somehow promote community involvement, recognize that 
Olympia or the federal government doesn't have a one-size-fits-
all solution or the magic answers.
    And we've got to really focus on a State-wide recovery 
effort, and that's why we have already signaled to members of 
the legislature that if we have to go more slowly in some of 
the agricultural areas, so be it; but where there are 
communities that are raring to go, that have the political 
will, then let's move forward and help them and give them the 
tools that they need to put together salmon recovery efforts.
    Senator Gorton. Congressman Dicks.
    Mr. Dicks. Well Governor, I want to first of all thank you 
for your statement and applaud your effort last year, 
particularly the side agreement that was reached between 
Washington State and Canada. To me, that showed the importance 
of a United States-Canada agreement. We saw this year, in some 
of our key rivers, that we had more Chinook wild salmon return 
because of that.
    I also want to compliment you on your quick response to 
setting up a Conservation Reserve Enhancement Program in the 
State of Washington. I think over the next fifteen years that 
can be a significant tool in the salmon recovery effort.
    And you mentioned United States-Canada. I would like to get 
your perspective. How do you feel things are going this year? 
We're trying to support you and the governors in these 
negotiations. Do you think there is a chance to get an 
agreement with Canada?
    Governor Locke. My feedback so far has been that things are 
much more positive than they've ever been before; that the 
stakeholders are discussing issues in a very frank and candid 
way, much better than ever before; and that the governors are 
fully engaged in this. We've already had some meetings just 
among ourselves, governors of Alaska, Washington, and Oregon. I 
just met with Fisheries Minister Anderson last week, and he's 
very optimistic. He really believes that the atmosphere in the 
discussions that he's had with the various States is very, very 
positive. We have some meetings actually set up for later this 
month, so we're moving forward, and we're just going to keep 
going. We're just going to keep going. I mean, I can't predict 
whether or not we'll ultimately be successful, but I really 
believe there's a stronger political will among both Canadians 
and the stakeholders on the United States side than ever 
before.
    Mr. Dicks. Well, I compliment you for your involvement, and 
I think the United States-Canada agreement is the most 
important thing we can do in the short term.
    Senator Gorton. Senator Murray.
    Senator Murray. Thank you very much, Mr. Chairman.
    Governor Locke, thank you very much for your statement and 
for your leadership in our State on this really important 
issue. I know you've been working very hard to get a 
legislative agenda through on this.
    [Auditorium lights flickered.]
    Senator Murray. See, that's what's going to happen if we 
don't save the salmon. [Laughter.]
    Governor, you----
    Governor Locke. It really does affect all of us, doesn't 
it? Whether we fish or not.
    Senator Murray. That's right. Governor, your office 
released a report called Extinction Is Not An Option earlier 
this year, and I was curious whether you had submitted any part 
of that as legislation this year, and if you had, what chance 
we would see of some of that coming out.
    Governor Locke. Actually, we have used that as the basis 
for the legislation that we have introduced to the House and 
Senate in our State. It deals with water--that, of course, is 
very, very contentious--and it also deals with funding for 
projects at the local level. And I think that there's good 
progress, bipartisan support for that. We're trying to work out 
the differences between the Democrats and the Republicans in 
the House on that. They've come up with different versions. 
Both versions differ from our proposals, and we need to work 
that out. I'm optimistic we'll reach a good agreement, 
bipartisan agreement, on that.
    Then there's the changes in terms of harvesting of timber, 
and there was a multiyear effort involved there with many 
tribes, environmentalists, timber companies, federal and State 
agencies. While there was some disagreement near the end and 
some participants did not stay involved in the negotiations, 
nonetheless we did put out a proposal that initially was 
criticized by members of legislature as perhaps being too 
complex, too late. But nonetheless it's been simplified, and 
various State regulatory boards have now adopted or indicated 
that that agreement is the preferred alternative in terms of 
forest practices. And some of the due process issues that 
others have raised about the agreement have been addressed so 
that there can be some minor changes, substantive changes, to 
the proposal if necessary over time.
    So I think we're moving forward on that, but I have to tell 
you, the toughest issue before the legislature right now is the 
issue of water. And those of you who are lawyers know just how 
tough water policy is, not just in the State of Washington, but 
all along the West Coast. And we may have to phase that in. And 
some communities are ready to make some changes or take 
advantage of the tools that we're proposing to give them; 
others are not quite ready.
    So you know, our whole approach is giving local 
communities--State agencies, but primarily local agencies, 
cities, and counties--more tools that they can use in putting 
together a salmon recovery plan. And we're counting on local 
governments putting together plans, because each watershed, 
each community, differs from one part of the State to another. 
And so we need to give them more tools, and then it's up to 
them to decide which tools best fit their circumstances.
    Senator Murray. Mr. Chairman, just a quick followup.
    Do you think the legislature will put the fund in the 
budget for the State matching funds?
    Governor Locke. So far we proposed $100 million in both--
over the next two years, in capital and operating dollars. And 
the capital dollars and transportation dollars are pretty much 
at our level that we proposed. In the operating budget we 
proposed $50 million of new money. The legislature so far, in 
the House, Democrats and Republicans have focussed on around 
$36 million over two years. And so we're optimistic that it'll 
be close to the original requested level of $50 million on the 
operating side. And there's, I believe, over $50 million on 
both the transportation and construction dollars to remove the 
culverts in roads, and to put money on the ground for locals 
for restoration projects and so forth.
    Senator Gorton. Senator Stevens has passed, so Congressman 
McDermott.
    Mr. McDermott. Thank you, Mr. Chairman.
    Senator Murray asked my question, really, which was, how is 
the State legislature doing? I know you're down in the last few 
days, and if there are names that we need to know, give us the 
names to call. [Laughter.]
    Senator Murray is much more polite than I am. Having been a 
Ways and Means chairman, like you, I know what happens at the 
end of a session. So if there's some help you need, please let 
us know.
    Governor Locke. Thank you very much.
    Mr. McDermott. Thank you.
    Senator Gorton. Congressman Smith.
    Mr. Smith. Actually I had the same question, and would 
simply make the same offer. If we can help in any way, please 
let us know.
    Governor Locke. We'll be more than happy to give you all 
the names of people who have been really working hard on this 
issue, if you could compliment them on their diligent efforts.
    Senator Gorton. Governor, we appreciate your appearance 
here. And your speaking first was, at best, a symbol of your 
leadership in this regard. We wish you every success, because 
your success is our success.
    Governor Locke. Well, I really want to again thank you, 
Senator Gorton and Congressman Dicks, and others, for your 
counsel and advice that you've given me over the last couple of 
years in responding to this impending listing. When I first ran 
for office for governor, I never thought that salmon would be 
one of the top issues facing us. And it's come, and we've had 
to deal with it. We've been preparing for it for the last year 
and a half, and I really appreciate the counsel that all of you 
have given us, and me personally, in terms of how to approach 
this issue. And we very much support what you're doing back in 
D.C. on our behalf. Thank you.
    Mr. Dicks. Just one final comment. I want you to also know 
we appreciate very much the work that Curt Smitch is doing. He 
worked for the delegation very effectively, and we're in almost 
daily contact with him on the details of your effort.
    Governor Locke. Great. Thank you.
STATEMENTS OF:
        ROBERT ANDERSON, PRESIDENT, MID-SOUND FISHERIES ENHANCEMENT 
            GROUP
        AL ADAMS, PRESIDENT, HOOD CANAL FISHERIES ENHANCEMENT GROUP
        ROGER BRADEN, CHELAN PUBLIC UTILITY DISTRICT
        HANK SITKO, EXECUTIVE DIRECTOR, NORTHWEST MARINE TRADE 
            ASSOCIATION
        WILLIAM RUCKELSHAUS, MADRONA INVESTMENT GROUP
        ED OWENS, COASTAL FISHERIES COALITION


                  summary statement of robert anderson


    Senator Gorton. OK, the next full panel: Robert Anderson, 
Al Adams, Roger Braden, Hank Sitko, Bill Ruckelshaus, and Ed 
Owens. If they will come forward, please?
    Senator Stevens. Mr. Chairman, as I look at the clock, and 
look at these gentlemen and the time they're going to use, I'm 
sad to say I'll have to leave about a quarter of 12:00 to make 
my plane to Juneau. But I do appreciate the opportunity to be 
with you.
    Senator Gorton. OK. Thank you.
    And we will start with Robert Anderson, president of Mid-
Sound Fisheries Enhancement Group.
    Mr. Anderson. Senators Gorton, Murray, and Stevens, and 
Congressmen Dicks, McDermott, and Smith, good morning. It's an 
honor to provide testimony to you today on behalf of the 
community-based partners who are working diligently to restore 
salmon in Puget Sound and all of Washington State. My name is 
Robert Anderson. I am chair of the Regional Fisheries Citizens 
Advisory Board and also president of the Mid-Puget Sound 
Regional Fisheries Enhancement Group and vice-chair of People 
for Salmon Volunteer Initiative. I'm here this morning for 
three reasons:
    To update you on the activities and accomplishments of the 
community-based salmon restoration groups in Washington State;
    To describe the important role of the People for Salmon 
Volunteer Initiative in this effort;
    And to request your support for the federal and State 
resources that are needed to optimize this program.
    I want to start my testimony by personally thanking 
Congressman Dicks and Senator Gorton, who have provided 
outstanding support and funding for regional fisheries 
enhancement groups, as well as other community-based partners 
like conservation districts. Your ongoing support for community 
salmon restoration is deeply appreciated by all of us. Thank 
you.
    Today I want to emphasize three key points.
    Community-based organizations like regional fisheries 
enhancement groups and conservation districts are the most 
cost-effective salmon restoration project implementers in the 
State.
    Community-based salmon restoration groups are the key to 
accessing private landowners to implement cooperative, 
incentive-based salmon recovery programs.
    Broad support from local communities will be essential to 
successfully restoring our once-abundant salmon and steelhead 
runs.
    Over the last 10 years community organizations like 
regional fisheries enhancement groups, conservation districts, 
YMCAs, tribes, commercial and recreational fishers, timber, 
agricultural, and business interests have worked with limited 
resources at the local level to implement cooperative salmon 
restoration projects on private land. During 1997 the Regional 
Fisheries Enhancement Group program provided over 37,000 hours 
of volunteer service and $3.2 million to implement 160 
community-based salmon enhancement and restoration projects. 
This is the first key point I want to make to you today. 
Community-based salmon restoration programs are exceptionally 
cost-effective. Administrative overhead costs for the RFEG's 
during 1997 was $200,000 over the $3.2 million in projects, or 
about 6.5 percent. For every dollar that the State has 
dedicated to the Regional Fisheries Enhancement Group Program, 
we raise six additional dollars from other State and federal 
sources, private donations, and donated labor and materials. 
All of our local partners are similarly cost-effective and 
efficient.
    Typically, fully-loaded staff costs for community based, 
private non-profit organizations are 50 to 60 percent of the 
costs for full-time State or local governments. This means that 
providing support for project identification, design, 
permitting, and management costs less, so more money can go to 
salmon restoration.
    A second key point I want to emphasize in this regard is 
that private non-profit groups are the key to working with 
private landowners to restore and enhance salmon habitat in a 
non-regulatory, voluntary manner. In many cases, private 
landowners are reluctant to work with government agencies that 
also enforce land use and other regulations. Community-based 
organizations work cooperatively with landowners to identify 
projects, secure matching funds, and implement and maintain the 
projects. The support of landowners for salmon recovery is 
critical to the eventual success of our efforts. As Senator 
Gorton was able to see firsthand on Monday, the outstanding 
landowners like Dale and Al Reiner on the Skykomish River, who 
not only help implement projects on their land, but then help 
their neighbors to take advantage of restoration opportunities. 
We call this process the ``thousand cups of coffee'' since 
community-based groups have the local connections, trust, and 
the incentive-based approach that provides the toolbox to 
implement projects cooperatively with local landowners.
    In 1998, the regional fisheries enhancement groups were 
successful in leading a cooperative effort that secured $1 
million for a volunteer initiative from the State Conservation 
Commission. This leads to the creation of People for Salmon, a 
broad partnership dedicated to enhancing and expanding 
community-based salmon restoration State-wide. People for 
Salmon is the big tent for all of the communities who support 
salmon restoration. Many of our partners are here today, and 
I'd like to recognize them and ask them to please quickly 
stand, and--especially for their role and passion for People 
for Salmon.
    From the Associated General Contractors, AGC's ESA Task 
Force Chair Steve Davis and Gary Jones. AGC members in Pierce 
and Kitsap counties contributed over $15,000 in time and 
materials to salmon restoration projects in Roy and the Key 
Peninsula last year. In addition, the AGC Education Foundation 
provides on-the-ground training and technical services on 
project management, critical path management, job-site safety, 
and other pertinent topics. And besides that, they have heavy 
machinery. Nice touch.
    From the Northwest Indian Fisheries Commission, Billy 
Frank, Jim Anderson, and Steve Robinson, co-managers of the 
resource, have been involved in the program from day one. The 
Commission provides full-time liaison between tribes and local 
salmon enhancement groups. This helps ensure that local tribes' 
resources are actively involved with project ID, design, and 
implementation. They are also responsible for organizing 
Seattle Salmon Homecoming as well as other cultural events that 
build local support for salmon restoration.
    From the regional fisheries enhancement groups, 
representatives from Nooksack, Skagit, Stilli-Snohomish, 
Pacific Coast, Mid-Sound, South Sound, and Chehalis enhancement 
groups, and my friend Al Adams from the Hood Canal group who 
will be chatting with you in a moment about their excellent 
programs. All of these groups, as well as seven other non-
profit organizations receive funding for full-time volunteer 
coordinators from People for Salmon. These local coordinators 
are the backbone of our program.
    From the Pierce County Conservation District, Ted Bottiger 
and Brian Abbott who have been leaders in promoting 
agricultural community involvement in salmon recovery. Three of 
our local volunteer coordinators are funded through 
conservation districts or resource conservation and development 
councils.
    The YMCA. Katy Kennedy is here from Snohomish County YMCA 
Teen Services. She provides mini-grants to local schools to pay 
for substitute teachers and transportation so students can 
participate in these programs in the field.
    Other People for Salmon partners include Northwest Chinook 
Recovery, technical assistance and training services; Tri-State 
Steelheaders, who have hired a full-time volunteer coordinator 
to assist salmon and steelhead recovery efforts in the Walla 
Walla area; U.S. Natural Resources Conservation Service, who 
provide essential technical assistance and other services for 
salmon habitat protection and restoration; and a World 
Institute for a Sustainable Humanity, who manages our grant and 
fiduciary responsibilities.
    As you can see, we have a very big tent, which leads to my 
final point. This is the essence of community-based salmon 
restoration, all of us working together to restore salmon in a 
cooperative manner.
    In order to continue and expand this outstanding program to 
it's full potential, we need assistance. For the 1999-2001 
biennium we have asked that the State provide $5 million in 
capital funds to match $5 million in federal funds for projects 
currently proposed by regional fisheries enhancement groups and 
our community-based partners. If you only consider Hood Canal, 
Mid-Sound, Nooksack, and South Sound regional groups, you 
already have over $10 million in projects ready to go. In 
addition, we have requested $4.5 million for the next biennium 
to continue and expand the People for Salmon Volunteer 
Initiative. And finally, we have proposed $5.2 million in base 
funding for regional fisheries groups, tribes, conservation 
districts, and other community organizations to provide the 
local resources for project ID, design, permitting, and 
implementation. Any assistance you can provide us with securing 
this request would be deeply appreciated.
    I want to re-emphasize these three points. They're really 
critical.
    Community-based organizations are efficient. They're the 
best project implementers and the best bang for the buck in the 
State.
    Community-based salmon restoration groups are the key to 
working with private landowners.
    Broad support from local communities will be essential to 
restoring our salmon and steelhead.

                           prepared statement

    We are the right tool at the right time at the right 
location, a stiletto in a world of blunt instruments. Finely-
honed and purposeful, we are the essence of the community and 
the sharp expression of the passion for salmon recovery in 
Washington State. We deeply appreciate your support and stand 
ready to work tirelessly with you to bring back salmon runs.
    Senator Gorton. Thank you. Thank you, Mr. Anderson.
    [The statement follows:]
                 Prepared Statement of Robert Anderson
    Senators Gorton, Murray and Stevens; and Congressmen Dicks, 
McDermott, and Smith. Good morning! It is an honor to provide testimony 
to you today on behalf of the community based partners who are working 
diligently to restore salmon in Puget Sound and all of Washington 
State. My name is Robert Anderson. I am the Chair of the Regional 
Fisheries Enhancement Citizens Advisory Board. I am also the President 
of the Mid-Puget Sound Regional Fisheries Enhancement Group and Vice 
Chair of the People for Salmon Volunteer Initiative. I am here this 
morning for three reasons:
    1. To update you on the activities and accomplishments of the 
community based salmon restoration groups in Washington State.
    2. To describe the important role of the People for Salmon 
Volunteer Initiative in this effort.
    3. To request your support for the federal and state resources that 
are needed to optimize this program.
    I want to start my testimony by personally thanking Congressman 
Dicks and Senator Gorton who have provided outstanding support and 
funding for Regional Fisheries Enhancement Groups, as well as other 
community based partners like Conservation Districts. Your ongoing 
support for community salmon restoration is deeply appreciated by all 
of us.
    Today I want to emphasize three key points:
    1. Community based organizations like Regional Fisheries 
Enhancement Groups and Conservation Districts are the most cost-
effective salmon restoration project implementers in the state.
    2. Community-based salmon restoration groups are the key to 
accessing private landowners to implement cooperative, incentive based 
salmon recovery programs.
    3. Broad support from local communities will be essential to 
successfully restoring our once abundant salmon and steelhead runs.
    Over the last 10 years community organizations like Regional 
Fisheries Enhancement Groups; Conservation Districts; YMCA's; tribes; 
commercial and recreational fishers; and timber, agricultural, and 
business interests have worked with limited resources at the local 
level to implement cooperative salmon restoration projects on private 
land. During 1997 the Regional Fisheries Enhancement Group program 
provided over 37,000 hours of volunteer service and over $3.2 million 
dollars to implement 160 community based salmon enhancement and 
restoration projects. This is the first key point I want to make to you 
today. Community based salmon restoration programs are exceptionally 
cost-effective. Administrative overhead costs for the RFEG's during 
1997 was $209,000 for the over $3.2 million in projects, or less than 
6.5 percent. For every dollar that the state has dedicated to the RFEG 
program--we raise six additional dollars from other state and federal 
sources, private donations, and donated labor and materials. All of our 
local partners are similarly cost-effective and efficient.
    Typically, fully loaded staff costs for community based, private 
non-profit organizations are 50-60 percent of the costs for full-time 
state or local government staff. This means that providing support for 
project identification, design, permitting, and management costs less, 
so more money goes directly to on-the-ground activities.
    A second key point I want to emphasize in this regard, is that 
private non-profit groups are the key to working with private 
landowners to restore and enhance salmon habitat in a non-regulatory, 
voluntary manner. In many cases, private landowners are reluctant to 
work with government agencies which also enforce land use and other 
regulations. Community based organizations work cooperatively with 
landowners to identify projects, secure matching funds, and implement 
and maintain the projects. The support of landowners for salmon 
recovery is critical to the eventual success of our efforts. As Senator 
Gorton was able to see first hand on Monday, there are outstanding 
landowners like Dale and Al Reiner on the Skykomish River who not only 
help implement projects on their land, but then help their neighbors to 
take advantage of restoration opportunities. We call this process the 
``thousand cups of coffee'' since community based groups have the local 
connections, trust, and the incentive based approach that provides the 
toolbox to implement projects cooperatively with local landowners.
    In 1998, the Regional Fisheries Groups were successful in leading a 
cooperative effort that secured $1 million for the Volunteer Initiative 
from the State Conservation Commission. This lead to the creation of 
People for Salmon--a broad partnership dedicated to enhancing and 
expanding community based salmon restoration state-wide. People for 
Salmon is the big tent for all of the communities who support salmon 
restoration. Many of our partners are here today--and I would like to 
recognize them and their role with People for Salmon.
    From the Associated General Contractors--AGC's ESA Task Force Chair 
Steve Davis is here today who, with other AGO members in Pierce and 
Kitsap counties contributed over $15,000 in time and materials to 
salmon restoration projects in Roy and the Key Peninsula last year. In 
addition, the AGO Education Foundation provides on-the-ground training 
and technical services on project management, critical path management, 
job-site safety, and other pertinent topics to local volunteer groups 
through People for Salmon.
    From the Northwest Indian Fisheries Commission--Billy Frank, Jim 
Anderson, and Steve Robinson as co-managers of the resource have been 
involved in the program from day one. The Commission provides full-time 
liaison between tribes and local salmon enhancement groups. This helps 
ensure that local tribal resources are actively involved with project 
identification, design, and implementation. They are also responsible 
for organizing the Seattle Salmon Homecoming as well as other cultural 
events that build local support for salmon restoration.
    From the Regional Fisheries Enhancement Groups--representatives 
from Nooksack, Skagit, Stilli-Snohomish, Pacific Coast, Mid-Sound, and 
South Sound Enhancement Groups and my friend Al Adams from the Hood 
Canal Group who will be chatting with you in a moment about their 
excellent program. All of these groups, as well as 7 other private non-
profit organizations receive funding for full-time local volunteer 
coordinators from People for Salmon. These local coordinators are the 
backbone of our program to build local capacity and support for salmon 
restoration.
    From the Pierce County Conservation District--Ted Bottiger and 
Brian Abbott who have been leaders in promoting agricultural community 
involvement in salmon recovery. Three of our local volunteer 
coordinators are funded through Conservation Districts or Resource 
Conservation and Development Councils (RC&D's) YMCA's--Lucia Ramirez is 
here from Snohomish County YMCA Teen Services. The YMCA Earth Service 
Corps program provides mini-grants to local schools to pay for 
substitute teachers and transportation so students can participate in 
projects and train high school students as volunteer coordinators for 
middle and grade schools students.
    Other People for Salmon partners include Northwest Chinook 
Recovery, who provides technical assistance and training services; 
River CPR, which is developing training modules for use in local 
communities, the Tri-State Steelheaders, who have hired a full time 
volunteer coordinator to assist salmon and steelhead recovery efforts 
in the Walla Walla area; the U.S. Natural Resources Conservation 
Service, who provide essential technical assistance and other services 
related to salmon habitat protection and restoration for the 
agricultural community, and A World Institute for a Sustainable 
Humanity (A.W.I.S.H.), who provides all of the administrative support 
services for the Volunteer Initiative grant.
    As you can see we have a very big tent, which leads to my final 
point. The only way we will recover salmon is if for every stream, 
creek, river, wetland, oxbow or estuary we find a willing landowner, 
citizen, family, neighborhood, tribe, or community that will dedicate 
the time and energy to make sure that salmon can live and thrive there. 
This is the essence of community-based salmon restoration, all of us 
working together to restore salmon in a cooperative manner.
    In order to continue and expand this outstanding program to it's 
full potential, we need assistance from both the federal and state 
level. To that end, I want to discuss our request now being considered 
by the State Legislature as part of the 1999-2001 budget. I should note 
that this request anticipates some federal match for state funds 
dedicated to community-based projects and People for Salmon.
    For the 1999-2001 biennium we have asked that the State provide $5 
million in capital funds to match $5 million in federal funds for 
projects currently being proposed by Regional Fisheries Enhancement 
Groups and our community based partners. If you just consider the Hood 
Canal, Mid-Sound, Nooksack, and South Sound Regional Groups--you 
already have over $10 million in projects ready to go! In addition, we 
have requested $4.5 million for the next biennium to continue and 
expand the People for Salmon Volunteer Initiative. And finally we have 
proposed $5.2 million in base funding for Regional Fisheries Groups, 
Tribes, Conservation Districts and other community organizations to 
provide the local resources for project identification, design, 
permitting, and implementation. Any assistance you can provide us with 
securing this request would be deeply appreciated.
    I want to re-emphasize the three key points:
    1. Community based organizations like Regional Fisheries 
Enhancement Groups and Conservation Districts are the most cost-
effective salmon restoration project implementers in the state.
    2. Community-based salmon restoration groups are the key to working 
with private landowners.
    3. Broad support from local communities will be essential to 
restoring our salmon and steelhead runs.
    We are the right tool at the right time at the right location--a 
stiletto in a world of blunt instruments. Finely honed and purposeful, 
we are the essence of the community and the sharp expression of the 
passion for salmon recovery in Washington State. We deeply appreciate 
your support and stand ready to work tirelessly with you to bring back 
our once abundant salmon runs.

                SUMMARY STATEMENT OF WILLIAM RUCKELSHAUS

    Senator Gorton. We're going to go a little out of order. 
Bill Ruckelshaus, I want Senator Stevens to hear you before he 
has to leave, because you have had such a role in this and the 
work on the treaty. So we'll take you out of order and hear 
from you now.
    Mr. Ruckelshaus. Thank you, Mr. Chairman. I better re-
insert my words of praise for Senator Stevens in my statement, 
since he's going to be here.
    Senator Stevens obviously is crucial to the element of 
success here, as many of the members of the panel have 
mentioned. Achieving success in the treaty negotiations with 
Canada is essential, and the cooperation between Alaska and the 
States here, and as well as the tribes, is necessary if that's 
going to happen.
    I want to tell you about something we're doing here in 
Puget Sound for just a minute or two. We have provided a 
statement that is a result of a collaborative group that we've 
established here made up of environmental leaders and business 
leaders, jointly sponsored by the Bullitt Foundation and the 
Business Roundtable, to make joint recommendations to the 
governor and all of the various planning entities that are 
addressing the issue of salmon recovery. Puget Sound is our 
focus, and obviously the Chinook, being an ESU that encompasses 
all of Puget Sound, that is getting a great deal of our 
attention.
    Why have we come together? Well, we believe that the 
Chinook, and maybe other salmon in Puget Sound, are threatened, 
and that it is in our economic interest as well as the interest 
of--the obvious interest of the fish, that we cause these fish 
to recover. We believe that we know what to do to help the 
salmon recover, and that we need to work on all aspects of the 
salmon's life cycle, from habitat to harvest, obviously 
including the appropriate use of hatcheries, and address, too, 
the problems of hydropower. We also believe, if this is going 
to work, if our help is going to work, the region needs to stay 
in control of its own destiny.
    And last, recovery will only happen if there is a strong 
recovery plan prepared by, endorsed by, and implemented by all 
levels of government as if there were no barriers between 
government. And I would include, obviously, the tribes in that 
equation, as well as citizen groups that need to participate in 
the development of these plans.
    Now, this is something that our group has already 
recommended. We have submitted a set of recommendations for the 
record to this committee. We have also submitted--two of us; 
the coordinator of our group, Dr. Walter Reid, and myself--
something that goes a little beyond what the group has 
currently recommended in terms of coordination. We believe that 
our paper spells out why we think coordination is so essential 
between all levels of government if we're to really effect 
recovery of the salmon in Puget Sound, or for that matter, in 
the rest of the region where those fish are either endangered 
or threatened.
    We strongly believe that the governor and the president 
need to designate someone to play a coordinating function so 
that all the levels of government can direct their efforts at 
the end goal that we all endorse. We don't need a czar, we need 
a coordinator. He or she should also have the role of seeing 
that there is one table, and that everyone is at it, so that 
the plan is understood and implemented by all. I am personally 
of the belief that if this doesn't happen, this whole process 
will end up in court, with years of delay and great expenditure 
of money, while the salmon just fade away.

                           prepared statement

    We have submitted for the record, again, Mr. Chairman, 
reasons why we think this coordination is necessary. In my role 
as an envoy from the president to look at processes that could 
improve the negotiation between us and Canada, and in my 
current role as chairman of this collaboration, I have talked 
to virtually everyone involved in this process, and I'm 
convinced that a lot of people are doing an awful lot of very 
good things, but it is essential that they be better 
coordinated in what they're doing so that we can direct 
whatever resources we have at the recovery of these fish; and 
that if we don't have this coordinating mechanism, the risk of 
this whole process falling apart is just unacceptably high.
    Senator Gorton. Thank you.
    [The statement follows:]
   Prepared Statement of Walter Reid \1\ and William Ruckelshaus \2\
---------------------------------------------------------------------------
    \1\ Coordinator, Washington Salmon Collaboration. 731 N 79th St., 
Seattle, WA 98103; tel: 206-782-7963; fax: 206-782-5682; e-mail 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="82f5e3eef6f0e7ebe6c2ebe0efacece7f6ac">[email&#160;protected]</a>
    \2\ Chair, Washington Salmon Collaboration. 1000 2nd Ave., Suite 
3700, Seattle, WA 98104 tel:206-674-3009; fax: 206-674-3013.
---------------------------------------------------------------------------
    salmon conservation in the pacific northwest: the need for more 
      effective coordination in the development of recovery plans
    In its consensus statement of March 15, 1999,\3\ the Washington 
Salmon Collaboration identified the need to ``expand and intensify . . 
. efforts to ensure effective coordination and collaboration within and 
among all levels of government'' as one of its overarching 
recommendations for actions needed to recover the threatened Puget 
Sound Chinook salmon. In this paper we expand upon the rationale for 
greater coordination, provide specific examples where it would be 
helpful, and suggest one mechanism for achieving this goal. This paper 
represents the views of the authors only, and is not a consensus 
document of the collaboration. We plan to discuss these issues at 
upcoming meetings and may develop consensus recommendations at that 
time.
---------------------------------------------------------------------------
    \3\ Copies available from Walter Reid (<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="3a4d5b564e485f535e7a53585714545f4e">[email&#160;protected]</a>)
---------------------------------------------------------------------------
    The citizens of the Pacific Northwest face an unparalleled 
challenge in their efforts to design an effective strategy to restore 
the health of salmon populations throughout the region. Within 
Washington state alone, 16 species of salmon are listed as threatened 
or endangered, and the bulk of the state, including the heavily 
populated Puget Sound region, is now affected by listed species. A 
number of additional populations are listed as threatened and 
endangered in Oregon and California with still more proposed for 
listing in all three states.
    The number, scope, and nature of these endangered species listings 
have created a situation never before experienced in the implementation 
of the Endangered Species Act. Other endangered species such as the 
grizzly bear or the bald eagle have spanned large geographic ranges and 
still others, like the California gnatcatcher, have been listed near 
heavily urbanized centers. But no other listing or series of listings 
share the set of attributes of the threatened and endangered salmon. 
Some of the features of the salmon listings that have direct 
implications for the design of recovery efforts are the following:
    Regional scale.--The set of salmon listings will significantly 
affect four states (California, Oregon, Washington, and Idaho) and will 
have some effect on Alaska and Canada. Federal, state, local, and 
tribal governments and agencies, as well as relationships with Canada, 
must be effectively integrated across this region.
    Multiple listings.--Because multiple species and Evolutionary 
Significant Units (ESUs) are being listed, the application of science 
to the design of recovery strategies and the nature of recovery 
activities themselves must be different for salmon than has been the 
case with other wide-ranging species. Since the ecology and demography 
of each salmon ESU is distinct, extensive data and analysis is needed 
to develop recovery strategies for each ESU and recovery actions must 
be taken across all ESUs. Setting aside a few large protected areas can 
sometimes be pivotal in maintaining populations of wide-ranging 
species. That strategy cannot work in the case of the multiple ESUs of 
salmon.
    Freshwater life stages.--Freshwater ecosystems are the ultimate 
``integrator'' of land use practices. Changes in land or water use or 
release of pollutants anywhere within a watershed can, and often does, 
affect the downstream freshwater ecosystem. Consequently, in principle 
human actions anywhere across the landscape could potentially harm 
salmon habitat and be considered a ``take,'' which makes it difficult 
to establish practical but scientifically based take prohibitions. 
Conversely, recovery strategies need to take into account the entire 
set of human actions within a region in order to protect and restore 
salmon habitat.
    Multiple driving forces.--Salmon have declined as a result of 
habitat loss and degradation, water pollution, overharvesting, and 
negative impacts of hatchery programs. Effective recovery efforts 
require actions that address all of these driving forces, yet each has 
its own institutional and political dynamics and its own stakeholders. 
Whereas the spotted owl listing required that a solution was acceptable 
to one important industry (forest products) and its stakeholders 
(including forest dependent communities), the salmon listing multiplies 
this challenge many-fold.
    Low ``Signal to Noise'' ratio.--Salmon populations are notoriously 
variable. Year to year stochastic variations in recruitment and 
survival, compounded by decadal variation in such variables as ocean 
productivity, make the detection of population trends and the analysis 
of the effectiveness of management interventions extremely difficult. 
Long-term studies are typically needed to isolate the ``signal'' from 
the environmental noise in any demographic study of salmon.
    These attributes of the salmon listing pose obstacles to the design 
of effective recovery efforts in the Pacific Northwest and it is 
unlikely that experiences with previous endangered species listings can 
provide suitable models for this situation. Successful recovery efforts 
will require a level of coordination ``horizontally'' across states 
(and nations), and ``vertically'' from local governments to federal 
agencies, unprecedented in the history of resource management in the 
western United States. For this reason, the Washington Salmon 
Collaboration has identified the need for more effective coordination 
among and within all levels of government as one of the primary 
overarching needs for scientifically based, cost efficient, and 
effective recovery strategies. In particular, we believe that there is 
an opportunity within the Puget Sound region to attempt a ``pilot'' 
effort at this type of coordination, with a focus on the recovery of 
the Puget Sound Chinook and other listed species within this ESU.
    The current efforts to establish the scientific basis for recovery 
strategies and the processes underway to develop recovery plans 
themselves illustrate both the need for more effective coordination and 
the costs associated with the lack of that coordination, and we discuss 
these two situations below.
                     ensuring science-based action
    Numerous initiatives are now being launched across the Northwest to 
help provide the scientific basis for salmon recovery planning. In the 
case of Puget Sound, the various science bodies that exist or are being 
proposed that would have input into the design of a recovery strategy 
include:
  --The Independent Science Panel established by State legislation 
        (HB2496) to provide peer review of recovery efforts;
  --The Interagency Review Team established by State legislation to 
        ensure (among other tasks) that project funding is based on the 
        best science;
  --Technical Advisory Groups (TAGs) established for each Water 
        Resource Inventory Area (WRIA) to identify limiting factors for 
        salmon in each watershed;
  --A proposal by the Northwest Chapter of the Society for Ecological 
        Restoration to establish an independent science panel for the 
        Puget Sound Chinook ESU;
  --A study being launched by the Trust for Public Lands to undertake a 
        GIS-based assessment of highest priority habitats for salmon 
        recovery in the Puget Sound region;
  --A study funded by various local companies (Port Blakely Tree Farms, 
        Simpson Timber, and others) of limiting factors for salmon in 
        the Puget Sound ESU; and
  --The NMFS recovery planning effort.
    This proliferation of assessment activities reflects the importance 
of ``getting the science right'' but also presents significant costs 
and risks. Multiple scientific assessments will result in duplication 
of effort. Moreover, rather than resolving areas of scientific 
uncertainty, the many different initiatives will inevitably reach 
somewhat different conclusions and identify somewhat different 
priorities, posing the risk that recovery efforts will be slowed while 
the reasons for differences are explored, debated, and resolved.
    There would be significant cost and efficiency benefits to be 
gained by a coordinated effort to: (a) identify limiting factors within 
each ESU, and (b) prioritize potential recovery actions in terms of 
their biological effectiveness in recovery, and (c) ultimately 
determine the population size and characteristics necessary for de-
listing and the recovery actions that will be required to achieve those 
goals. Either NMFS or the State could take the lead in coordinating 
such ESU-focused assessments, building on the WRIA activities underway 
and the other scientific efforts listed above.
                designing an effective recovery strategy
    Both the State and many local governments in the Northwest are 
developing salmon recovery plans in anticipation of, or response to, 
the Endangered Species Act listings. Within Washington state, 
legislation passed in 1998 established a Salmon Recovery Office and 
launched a series of watershed-based recovery planning activities. In 
January 1999, the Governor released a draft recovery strategy 
``Extinction is not an Option'' laying out a series of actions to be 
taken to ensure salmon recovery. The three most urbanized counties, 
King, Snohomish, and Pierce Counties have coordinated their activities 
through the ``Tri-County Process'' and have submitted a recovery 
strategy to the National Marine Fisheries Service. And individual 
cities, such as Bellevue and the City of Seattle are also developing 
and negotiating recovery plans and HCPs with the National Marine 
Fisheries Service.
    Here too, the lack of effective coordination of these planning 
activities poses significant risks for the design of effective recovery 
efforts. Neither NMFS nor the Fish and Wildlife Service, the two 
federal agencies responsible for determining whether the recovery plans 
meet the requirements of the ESA, are centrally engaged in the planning 
effort. Instead, influenced by their regulatory role and their 
interpretation of their legal obligations, the federal agencies have 
provided advice in the development of plans but, with the exception of 
a process to negotiate new forest regulations, have not directly shared 
responsibility for the development of those plans. A more effective 
approach would be for all levels of government to ``sit at the same 
table'' and jointly craft a recovery plan meeting the legal 
requirements of the ESA. (In many cases, such plans may well exceed the 
legal requirements due to the general public and political support for 
salmon recovery in the Northwest.)
    Two examples from the Pacific Northwest of this type of 
coordination and engagement of various government agencies with shared 
responsibility for the resource are the Timber Fish and Wildlife (TFW) 
agreement in Washington state and the Forest Ecosystem Management 
Assessment Team (FEMAT) established in response to the listing of the 
Spotted Owl.
    In the case of the TFW, federal agencies are one of six 
``stakeholders'' in the negotiating process for setting timber 
management regulations in Washington State. Other stakeholders include 
the tribes, local governments, state agencies, private business, and 
environmental organizations. Although the most recent TFW negotiations 
failed in August 1998, when environmental groups decided not to 
continue with the negotiations, aspects of this model provide a much 
more promising arrangement for ensuring that all levels of government 
successfully develop a ``joint'' plan.
    FEMAT is another institutional arrangement established to meet the 
unique needs of responding to the listing of an endangered species that 
crossed multiple institutional boundaries. Following President 
Clinton's April 2, 1993 Forest Conference, the President established 
the Forest Ecosystem Management Assessment Team to develop options for 
the management of Federal forest ecosystems. Each option was to provide 
habitat that would support stable populations of species associated 
with late-successional forests, including the northern spotted owl. On 
July 1, 1993, the President identified the FEMAT report's Option 9 as 
the preferred alternative for amending the Federal agencies' land 
management plans with respect to late-successional and old-growth 
forest habitat. This option was ultimately challenged in court but on 
December 21, 1994, Federal District Court Judge William L. Dwyer 
rejected a number of plaintiffs' challenges and issued an order to 
uphold the Forest Plan. According to Judge Dwyer, the Forest Plan ``. . 
. marked the first time in several years that the owl-habitat forests 
will be managed by the responsible agencies under a plan found lawful 
by the courts. It will also mark the first time that the Forest Service 
and BLM have worked together to preserve ecosystems common to their 
jurisdictions.''
    The salmon listings differ somewhat from both the TFW and FEMAT 
experiences. Unlike FEMAT, the need for coordination in the case of the 
salmon listings extends well beyond federal lands and must involve 
states, tribes, local governments, and private landowners. Unlike TFW, 
the salmon issues extend to non-forest ecosystems. But what these 
models share, and what can likely be applied to the salmon recovery 
challenge, is the need to empower one collaborative body with the 
requirement of crafting a joint solution. This does not yet exist in 
the case of salmon recovery efforts. Instead, the coordination that 
does exist tends to be restricted largely to information exchange. For 
example, the Tri-County Executive Committee developed a set of early 
action proposals in the hopes that they would be considered sufficient 
by NMFS, but not in direct collaboration with NMFS. Similarly, NMFS, 
state legislators, and local government officials participate in a 
coordinating council chaired by the Governor's Special Advisor for 
Natural Resources. However, in neither of these venues are the various 
parties collectively responsible for crafting solutions.
    As the Tri-County process has moved forward, by some accounts the 
interaction with NMFS has increasingly become one of joint negotiation 
and collaborative planning. However, even if the various levels of 
government become better coordinated in the case of these three 
counties, the problem still remains that the process of ``rolling up'' 
the various recovery proposals and actions in other counties around 
Puget Sound into an overall strategy for the recovery of the Puget 
Sound Chinook ESU is not one of partnership among all levels of 
government.
    The costs of proceeding without a more effective means of 
coordinating the development of a response strategy are likely to be 
high. Without a collectively ``owned'' plan, the likelihood for legal 
challenges is heightened, and the likelihood of success of such 
challenges is also increased since different institutions will take 
different positions on recovery needs. A proliferation of separate 
planning activities and separate negotiations with NMFS will diminish 
the ability to use science as the basis for recovery planning, since 
individual negotiations will be driven by the unique political aspects 
of each local or regional government. Multiple planning activities will 
tend to overwhelm the already stretched federal agencies charged with 
implementation of the ESA and may overtax the limited number of 
scientists who have expertise on these systems. And, there is a 
significant risk that a more fragmented approach to developing recovery 
plans will become bogged down in inter-institutional rivalries and 
proceed at a glacial pace. Such delay in the development of an 
effective plan will inevitably increase the ultimate cost of recovery 
and the likelihood of judicial intervention and decrease the potential 
for successful recovery.
          a new institutional arrangement for salmon recovery
    In light of the unique features of the listing of salmon in the 
Northwest and the challenges that it currently poses for the 
institutions responsible for recovery, more effective means of 
coordination within and among the responsible governments seem 
essential. We believe that this situation may demand a novel 
institutional arrangement.
    A priority should be the establishment of a single negotiating 
process that involves state, tribal, local, and federal agencies in the 
joint development of both statewide and ESU-specific recovery plans. 
More specifically, we believe that as a pilot activity, a new mechanism 
for coordination among all levels of government should be established 
for the development and implementation of recovery planning efforts 
within the Puget Sound ESU. Such a process could be created by the 
joint appointment by Governor Locke and President Clinton of a special 
representative with authority to oversee the coordination of the 
scientific assessments of: (a) limiting factors, (b) recovery 
priorities, and (c) recovery targets and with the authority and 
responsibility for overseeing the negotiation of the ESU-specific 
recovery plans for the Puget Sound basin. Following the example of 
other state/federal collaborative models, such as the CALFED Bay-Delta 
program and the South Florida Ecosystem Restoration Program, the 
coordination would also likely involve the establishment of a 
Memorandum of Understanding among the various agencies. The special 
representative or ``coordinating council'' of agencies would not take 
on project responsibilities and would not undertake their own 
assessments or planning activities but would instead ensure that the 
activities being undertaken by the member agencies are effectively and 
strategically coordinated. And, this council would provide the venue 
for negotiation of recovery plans or the development of alternative 
plans for the final review and approval by policy-makers.
    A number of alternative arrangements could be considered with 
various strengths and weaknesses. For example, the special 
representative could be appointed by the President and the Governors of 
Oregon, Washington, and California (and possibly a Tribal 
representative) to ensure effective coordination at a regional level 
(e.g., Pacific Northwest) or for the State of Washington rather than 
just the Puget Sound Chinook ESU. Whatever mechanism is established, a 
key to its success is likely to be the presence of a clear mandate from 
the State and Federal level so that the individual and institution are 
seen to be acting under the direct authority of the governor and 
President.
                              conclusions
    The challenge of recovering endangered salmonids in the Puget Sound 
Region is significant, but the willingness of individuals and 
institutions to take on this challenge is perhaps unique in the history 
of the application of the ESA. Given the number of different agencies 
and levels of government that must be involved in successful recovery 
of the fish, however, there is a very high likelihood that recovery 
efforts could be slowed dramatically without the creation of an 
effective means of coordination across all levels of government. 
Already, we see a risk that the lack of effective coordination is 
leading to inefficiencies and redundancies. We suggest that a pilot 
effort be undertaken to appoint a special representative for the Puget 
Sound region and formalize an agreement among the relevant governments, 
agencies, and tribes to ensure that the responsible institutions 
develop and implement a single cohesive recovery plan.

                     SUMMARY STATEMENT OF AL ADAMS

    Senator Gorton. Now Mr. Adams.
    Mr. Adams. Thank you, Senator Gorton and Congressman Dicks, 
for inviting us and allowing us to share about Hood Canal.
    Twenty-two days ago the ESA landed. Now everyone is aware 
that our Hood Canal wild Chinook and summer chum are in peril.
    From the beginning of Hood Canal Salmon Enhancement Group 
in 1990, we were aware of the alarming decline of wild salmon 
in Hood Canal. In 1992 in partnership with Long Live The Kings, 
we initiated our first wild summer chum recovery effort in 
Lilliwaup Creek. At the same time, we also started spawning 
wild Chinook in Big Beef Creek, incubating, rearing and 
releasing smolts into Hood Canal. These efforts were conducted 
by volunteers on a very limited budget.
    Fortunately in 1994, Congressman Dicks directed federal 
funds to help restore wild salmon in Hood Canal. Hood Canal 
Salmon Enhancement Group and Long Live The Kings created the 
Wild Salmon Conservancy. The concept is to incubate and rear 
Chinook salmon in natural conditions in six rivers in Hood 
Canal and volitional release as smolts into the streams. In the 
past two years, we have added wild steelhead and wild summer 
chum to the conservancy concept on the Hama Hama River. This 
year was the fourth year of Chinook conservancy efforts on 
three rivers.
    Ten times the average number of Chinook returned to spawn 
in those three rivers as compared to the last eight years. All 
projects and goals of the Hood Canal Salmon Enhancement Group 
are guided by the salmon managers and helpers of Salmon 
Resource including Hood Canal Coordinating Council, Long Live 
The Kings, Washington Department of Fish and Wildlife, DNR, 
Hood Canal tribes, counties, U.S. Fish and Wildlife Service, 
and National Marine Fisheries.
    In 1996, Hood Canal Salmon Enhancement Group expanded their 
activity to include restoration of habitat. Senator Gorton 
secured funding for the regional fisheries enhancement groups 
in 1997 and we took advantage of it to do culvert engineer 
design. Recognizing the blocked access on many of the superb 
spawning streams, we began a methodical process to identify and 
properly design culverts to eliminate barriers. We are leading 
the removal of all the man-made obstacles with federal, State, 
county, and private funding. Most of the blockages on the 
Dewatto River were eliminated last summer and wild salmon 
traversed through the new spawning areas last fall. This year 
we plan to remove fourteen barriers in the Tahuya River and our 
goal is to remove all blockages on all Hood Canal rivers and 
streams by the year 2003.
    In addition, we are making a detailed scientific habitat 
survey and gridding of each river. This is done by our six high 
school and college scholarship winners who also work as summer 
interns under the direction of DNR scientists. All of this data 
becomes a part of our Global Information System, the GIS, which 
we have started with the help of Naval Undersea Warfare Center 
and DNR. In four years--I repeat; in four years--we will be 
able to demonstrate visually the trip that a pair of wild 
salmon take returning to spawn up any Hood Canal river, 
including all the physical features like ripples, large woody 
debris, fish passage, salmon gravel, and much more.
    We are twenty-two days and counting.
    From our viewpoint there are five essential elements to 
restoring wild Chinook, summer chum, and all other salmon to 
our Hood Canal rivers and streams:
    One is sufficient escapement;
    Two is supplementation and/or restarting the extinct runs 
through wild salmon conservancies;
    Three is restoration and protection of habitat;
    Four, community-based watershed stewardship;
    And number five, a comprehensive plan for all species of 
wild salmon in Hood Canal.

                           prepared statement

    We are confident that wild salmon will be restored in some 
manner when the impacts of the four H's are equally considered, 
but we are less certain of the lasting effect once the ESA 
pressure is reduced. The wisdom of the 535 Hood Canal Salmon 
Enhancement Group members tells us the only chance of permanent 
success is through community-based watershed stewardship. There 
is not enough money or personnel for the government to ever 
completely restore and continuously regulate the wild salmon in 
all the rivers and streams. Only through watershed stewardship 
by the local small and large landowners, government agencies, 
and tribal governments will long term, self-sustaining wild 
salmon recovery be achieved. And all--I repeat; all--must have 
an equal voice at the table in making lasting decisions about 
our wild salmon.
    Twenty-two days and counting. The Hood Canal Salmon 
Enhancement Group has been counting for nine years.
    Senator Gorton. Thank you very much, Mr. Adams. We greatly 
appreciate that.
    [The statement follows:]
                      Prepared Statement Al Adams
    Thank you Congressman Dicks and Senator Gorton for the opportunity 
for HCSEG to be here and to make this presentation to the Salmon 
Recovery Hearing.
    22 Days ago the ESA landed. Now everyone is aware that our Hood 
Canal Wild Chinook and Summer Chum are in peril.
    From the beginning of HCSEG in 1990, we were aware of the alarming 
decline of Wild Salmon in Hood Canal. In 1992 in partnership with LLTK, 
we initiated our first Wild Summer Chum recovery effort in Lilliwaup 
Creek. At the same time, we also started spawning Wild Chinook in Big 
Beef Creek, incubating, rearing and releasing smolts into Hood Canal. 
These efforts were conducted by volunteers on a very limited budget.
    Fortunately in 1994, Congressman Dicks directed federal funds to 
help restore Wild Salmon in Hood Canal. HCSEG and LLTK created the Wild 
Salmon Conservancy concept: incubate and rear Chinook Salmon in natural 
conditions in 6 rivers in Hood Canal and volitional release as smolts 
into the streams. In the past two years, we have added Wild Steelhead 
and Wild Summer Chum to the Conservancy concept on the Hama Hama River. 
This year was the 4th year of Chinook Conservancy efforts on three 
rivers. Ten times the average number of Chinook returned to spawn in 
those three rivers as compared to the last 8 years. All projects and 
goals of the HCSEG are guided by the managers and helpers of the Salmon 
Resource including HCCC, LLTK, WDFW, DNR, Hood Canal Tribes, Counties, 
USFWS and NMFS.
    In 1996, the HCSEG expanded their activity to include restoration 
of the habitat. Senator Gorton secured funding for the RFEG's in 1997 
and we took advantage of it to do culvert engineering design. 
Recognizing the blocked access on many of the superb spawning streams, 
we began a methodical process to identify and properly design culverts 
to eliminate barriers. We are leading the removal of all the man-made 
obstacles with federal, state, county, and private funding. Most of the 
blockages on the Dewatto River were eliminated last summer and Wild 
Salmon traversed through to new spawning areas last fall This year we 
plan to remove the barriers on the Tahuya River and our goal is to 
remove blockages on all Hood Canal rivers and streams by 2003.
    In addition, we are making a detailed scientific survey and 
gridding of each river. This is being done by our 6 high school and 
college scholarship winners who also work as summer interns under the 
direction of DNR scientists. All of this data becomes a part of the new 
Global Information System (GIS) which we have started with the help of 
the Navy Undersea Warfare Center and DNR. In 4 years, we will be able 
to demonstrate visually the trip that a pair of Wild Salmon take 
returning to spawn up any Hood Canal river including all the physical 
features; ripples, large woody debris, fish passageways and spawning 
gravel.
    We are 22 days and counting. From our viewpoint there are four 
essential elements to restoring Wild Chinook and Summer Chum Salmon to 
our Hood Canal rivers and streams: (1) Sufficient escapement of 
spawning Salmon to sustain the run, (2) Supplementation and/or 
restarting the extinct runs through Wild Salmon Conservancies, (3) 
Restoration and protection of habitats, and (4) Community Based 
Watershed Stewardship.
    We are confident that Wild Salmon will be restored in some manner 
when the impacts of the 4 ``H's''--Hatchery, Harvest, Habitat and Hydro 
are equally considered. But we are less certain of the lasting effect 
once the ESA pressure is reduced. The wisdom of the 535 HCSEG members 
tells us the only chance of permanent success is through Community 
Based Watershed Stewardship. There is not enough money or personnel for 
the government to ever completely restore and continuously regulate the 
Wild Salmon in all the rivers and streams. Only through Watershed 
Stewardship by the local small and large landowners, government 
agencies and tribal governments will long term, self-sustaining Wild 
Salmon recovery be achieved. And all, I repeat ALL, must have an equal 
voice at the table in making lasting decisions about the 4 ``H's''.
    22 days and counting!

                   SUMMARY STATEMENT OF ROGER BRADEN

    Senator Gorton. Mr. Braden, Chelan Public Utility District.
    Mr. Braden. Yes, thank you, and good morning. Roger Braden. 
I'm the general manager of Chelan County Public Utility 
District. We are the owners and operators of two hydroelectric 
projects on the main stem of the Columbia River, Rock Island 
and Rocky Reach. As a result, we've actually been involved in 
the salmon debate and the salmon protection issues for over 
twenty years. We were initially brought into the debate under 
the terms of the Federal Power Act, and now also have the 
issues related to the Endangered Species Act to deal with.
    I'm here not to talk what's going on over there 
particularly--I know this is focusing primarily on the Puget 
Sound area--but there are some things that we have managed to 
achieve over there that I think could be of interest and 
potentially of value to Puget Sound. What we have done is, we 
have had a treaty established in the fish wars in the Mid-
Columbia region by the negotiation of a habitat conservation 
plan that covers five stocks of anadromous fish, salmon and 
steelhead, in our section of the river system. This is the 
first of its kind anywhere in the United States.
    What we were able to achieve there I think was based on 
three key principles that it took us twenty years to learn. I 
don't think the people in the Puget Sound area have twenty 
years to spare, so let me share them with you, and hopefully 
they can be of value.
    Principle No. 1, the fish have to recover. No matter who 
you are, what your activities are, or how they affect the 
habitat and condition of the fishery, the fish have to recover 
before you, or any of your neighbors, or your businesses, or 
our community are going to be able to go back to the lifestyle 
that we all seek here in the Pacific Northwest. There's simply 
no way to fight it in the courts. There's no way to hide from 
it. Until the fish are healthy, the Northwest will not be 
healthy. You have to start with and understand that basic 
assumption and premise, because denial will not get you there.
    No. 2, you've got to work together. There's no single 
agency, no particular interest group, no government entity 
that's going to have all of the answers. Those of us in the 
Mid-Columbia who operate hydroelectric projects have a certain 
pool of knowledge. The fishery agencies, federal and State, 
bring in their experience and knowledge. The tribal groups, the 
environmental groups, all of whom were involved in our process, 
bring in an increment of knowledge that is necessary because, 
as was stated earlier, this is an extremely complex situation. 
The salmon life cycle is one of the most common forms--or, most 
complex forms of life on this planet. You cannot look at one 
aspect of their life cycle, look at one measure or activity, 
and expect to find a solution. You have to work together. If 
you have old animosities, if you have biases, put them aside, 
get an open mind, and come to the table.
    The third step is that you've got to base your agreements 
and your actions on results. They've got to be performance 
measures, survival standards, that you're targeting.
    In the past--now I'll go back for a moment to our 
experience under the Federal Power Act. We had many situations 
where regulatory agencies would prescribe a particular measure. 
A good example might be spilling water through our spillways at 
one of our projects, 20 percent of the river flow, for example, 
through the month of July. Well, we could certainly meet that 
obligation quite easily and quite definitively, but there was 
no measure of whether that did a darn bit of good for the fish.
    What we found is it's necessary, instead, to say, ``What 
are you going to do that will help the fish in terms of their 
survival level?'' For example, turn that around and say, ``For 
the month of July, you're required to pass safely 95 percent of 
the out-migrating smolts.'' Then we, as operators of the 
project, can decide, does spill over the spillway do that? Does 
improved turbine efficiencies, do other operational changes get 
us to the 95 percent? Do we do more predator control? Is it a 
little bit of all of these things? Whatever it takes, as long 
as we've got a target that we know results in a benefit to the 
species, then we can act effectively and responsibly, and--
going back to my first key part--we know that the fish benefit, 
and therefore we, all of us in the region, will benefit.
    These three components I think are going to be essential to 
dealing with the problems that we have and the problems that 
are in the Puget Sound.

                           prepared statement

    Now, globally throughout the Puget Sound it's going to be a 
very, very difficult task to deal with this, but taking a sub-
basin by sub-basin approach, or a local area approach such as 
we've heard from already, many of the good measures that are 
being undertaken, I think we can locally apply good science and 
commonsense measures that relate directly to how well the fish 
do, and come up with actions that are going to lead us to the 
recovery of the fish and therefore to the lifestyle that we all 
seek in the Northwest. Thank you very much.
    Senator Gorton. Thank you very much, Mr. Braden.
    [The statement follows:]
                   Prepared Statement of Roger Braden
    Good Morning. I would first like to thank Senator Gorton and 
Congressman Dicks for their tireless attention to an issue of great 
importance to our state. The issue is, of course, the protection of our 
region's salmon resources.
    Although the Columbia River salmon and other fish resources are not 
the focus of today's hearing, to a certain extent, they should be. We 
all can learn from the history of Columbia River salmon policy. To be 
certain, there are a multitude of challenges facing the Columbia River 
salmon protection efforts. Despite a significant dedication of effort 
and the expenditure of significant levels of funds to protect our 
salmon resources, we all have expected better results. Our chances for 
better results in the future depend upon how well we have learned from 
our past experiences and apply those lessons to new solutions. We hold 
to the view that we can do better and do so without a win for fish 
resulting in a loss for the NW economy and vice versa.
    Today, I want to talk with you about the innovative approach to 
salmon protection that Chelan and Douglas PUDs have developed with the 
federal and state agencies, tribes and other interested parties. 
Although this approach was designed to address our responsibilities to 
Columbia River salmon, we suspect it has the potential for much broader 
application. Chelan PUD is nothing more than an interested bystander 
with respect to Puget Sound salmon issues; however, the Chelan/Douglas 
model could perhaps have some useful applications as the western side 
of our state struggles with its own salmon listings.
    For years, the federal and state governments followed the 
traditional regulatory model, telling hydroelectric project owners and 
operators along the mainstem of the Columbia precisely what measures 
had to be implemented. We were told to spill so much water, build so 
many fish screens, and the like. In the management training classes 
many of us attend, this approach is called ``command and control'' and 
is universally criticized as the least effective technique for 
achieving organizational objectives. Of course, all the parties 
involved in the traditional regulatory model continually argued whether 
a particular measure was cost effective or even whether the measure was 
actually effective in protecting or enhancing salmon populations. We 
remained in a constant state of frustration. If Chelan objected to cost 
or questioned whether a measure would really work, we were viewed as 
lacking commitment to fish. If the agencies and tribes insisted we 
implement a controversial measure, we viewed them as oblivious to cost.
    We believed there was a better way to get the job done and getting 
the job done meant wins for both sides of the issue. Although we didn't 
realize it at the time, subconscious messages from management training 
classes must have led us to a concept that was participative in nature 
with clearly defined and measurable objectives.
    With this in mind, Chelan PUD began to work with the federal and 
state agencies, the tribes and other interested parties to develop a 
habitat conservation plan that embodies the principles of 
participation, collaboration and measurable objectives. Briefly, the 
collaborative approach between the parties sets a standard for the 
survival of salmon as they move through our hydroelectric projects. The 
measurable standard is a minimum percentage for fish survival--when the 
day is done, this is the number of fish which must survive passage 
through our projects. Taking into account natural non-hydro mortality, 
the remaining unavoidable hydro-related mortality is addressed through 
off-sight mitigation to total a no-net-impact standard. We signed a 
legally binding contract in the form of a Habitat Conservation Plan 
(HCP), recognized as part of an Incidental Take Permit to be issued 
under section 10 of the Endangered Species Act, in which we agreed to 
meet this standard for fish survival. In exchange for agreeing to 
accept this precise survival standard, Chelan is given considerable 
freedom within a collaborative structure to be creative and innovative 
in the development of the means to achieve the standard. Finally, the 
methods for measurement of our results are specified in the agreement 
to avoid later arguments over the results and whether or not we have 
met our responsibilities.
    Although we don't know enough about the Puget Sound issues to be 
specific, Chelan PUD believes that the principles that underlie our HCP 
can be used and useful to Puget Sound salmon recovery efforts. Even 
General George Patton, who I would have viewed as a symbol of command 
and control management, said: ``Never tell people how to do things. 
Tell them what to do and they will surprise you with their ingenuity.'' 
Just as in management training classes where we are taught that 
defining expectations makes the front end more difficult but the 
results far better, take the time to set a clear and identifiable 
standard for the public to meet and they will surprise you with their 
ingenuity. Use a command and control approach and salmon recovery 
remains the government's problem and yours alone. You will have to come 
up with all of the answers. Offer a participative alternative, telling 
the public what needs to be done and they will share the problem and 
astonish you with the creative and innovative solutions that result.
    Thank you for the opportunity to testify today. I would be pleased 
to answer any questions you may have.

                    SUMMARY STATEMENT OF HANK SITKO

    Senator Gorton. Mr. Sitko.
    Mr. Sitko. Thank you, sir. Our association represents the 
recreational boating industry and has over 900 members. We 
produce the third largest boat show in the United States, the 
Seattle International Boat Show, and a smaller show called the 
Shilshole Boats Afloat Show.
    Currently, we have close working relationships with 
federal, state, and county legislative bodies and departments 
that make policy decisions concerning the salmon. We also have 
a close working relationship with the commercial fishing 
industry, tribes and sport fishing groups. We are a $2 billion 
industry employing 16,000 individuals, and 8 out of 10 boats 
sold in our state are, in one way or another, used for fishing.
    Today I would like to talk to you about our involvement in 
harvest and hatchery issues.
    Harvest levels for chinook and coho have plummeted 
dramatically in the last 25 years. The number of coho caught in 
Washington ocean fisheries has dropped 98 percent in 25 years 
for treaty, non-treaty, sport and troll fisheries. That drop is 
a drop from 2.3 million coho caught when runs were healthy, to 
31,000 coho caught last year.
    In the same 25-year period, Chinook catch in the Puget 
Sound for marine sport fisheries dropped 70 percent with a high 
of 334,000 to the current average level of 58,000.
    With reduction in the catch came curtailments in fishing 
opportunities in the form of much shorter fishing seasons.
    Westport Washington, once referred to as the salmon capital 
of the world, had 200 days of salmon sport fishing in 1974. In 
1998 it had only 11.
    In 1974, Sekiu had 245 days of marine sport fishing. Now it 
only has 37.
    With the reduction in catch and shortening of the seasons, 
the sport fishing infrastructure began to collapse. Once home 
to a major charter fleet, Washington state has only a handful 
of that fleet left to provide that service.
    The majority of Mom and Pop tackle shops have closed and 
the remaining few that are remaining are hanging on by a 
thread.
    As I mentioned to you earlier, the economic impacts on the 
sport fishing industry as well as the boating industry have 
been devastating. The Northwest Marine Trade Association is 
doing our fair share to help turn this situation around.
    We and the tribes share a common goal that harvest 
decisions must be made on a biological and scientific basis. If 
there is any question of adequate escapement of wild Chinook, 
then fisheries must be curtailed. However, if in some terminal 
areas, such as Elliott Bay, the returning salmon are well above 
escapement goals, then limited harvest should be allowed for 
both tribal and nontribal fishers, as long as the fisheries 
permit escapement goals are met.
    As far as hatcheries, in the past, salmon hatcheries were 
mainly used to compensate for the loss of natural production 
due to overfishing and destruction of habitat critical to the 
reproduction and survival of wild salmon. Today the emphasis on 
hatcheries is to support the wild salmon recovery effort. Some 
hatcheries are used to rear wild fish from depressed 
populations in an environment that increases their survival. 
Currently, more than a third of the salmon hatcheries are being 
used in this way to restore wild salmon runs, including the re-
seeding of water sheds where runs no longer exist.
    We are seeing success in some of these projects. The White 
River wild spring Chinook is an example of a rebuilding and 
reseeding program that was relieved, in part, on hatchery 
supplementation. These fish were saved from extinction.
    NMTA believes that the need for hatchery reform is being 
recognized, but more needs to be done. The scientific community 
is still debating the specifics. However, agreement still have 
to be reached concerning the need to conserve the genetic 
integrity of the remaining wild stocks and to assist in the 
recovery of naturally spawning fish.
    We also believe, and most reasonable observers would also 
agree, that hatcheries will be needed for the foreseeable 
future to produce salmon that can be harvested by tribal and 
nontribal fishers. Currently, nearly 70 percent of all 
harvested coho and Chinook originated in hatcheries.
    Discussion of hatcheries and harvest issues would not be 
complete without a mention of mass marking and selective 
fishing.
    In 1995, our organization, along with other sport fishing 
groups, initiated and succeeded in the passage of a bill that 
would require the Washington State Department of Fish and 
Wildlife to clip the adipose fins of all coho produced in state 
hatcheries. A similar bill was passed in 1998 for Chinook. The 
purpose of this clipping is to help differentiate between a 
hatchery fish and a wild stock fish. Therefore, if an angler 
catches a fish with a clipped adipose fin, he or she would keep 
it, realizing that it is a hatchery-produced product. However, 
if the fish caught has an adipose fin intact, he or she would 
realize that it is a wild stock fish and release it 
accordingly. In essence, mass marking of our state's Chinook 
and coho is a win-win for both sport fishers and the 
conservationists.
    Perhaps the best argument for marking of all hatchery 
Chinook in an ESA-listed area is the need to address the issue 
of wild versus hatchery fish interaction on the spawning 
gravels. We need to know, accurately, what the true population 
of wild Chinook is for a given river system as a part baseline 
of information so that we can measure progress toward recovery 
and hopefully, eventually, delisting of Chinook. When marked 
coho returned to Willapa Bay last year biologists were very 
surprised to find out that the population of wild coho, 
unmarked coho, was greater than estimated for some systems.
    Hatchery operations need to be improved and made compatible 
with recovering wild Chinook. However, throwing away the baby 
with the bath water, as some anti-hatchery groups seem to 
advocate, will neither save our wild salmon nor retain any 
meaningful fishing opportunities. The Boldt decision presumed 
that we would continue to produce salmon for the tribal and 
non-tribal fishers. We believe that the federal government 
should assist in hatchery reform, and in financing of hatchery 
programs and other aspects of wild stock management associated 
with ESA and tribal treaty rights.
    Salmon are part of our history, culture and heritage. They 
are a symbol of the Pacific Northwest. They are a symbol that 
connects us to our environment.
    Our organization has been involved in the salmon issue for 
over 7 years now. Like many of you here, we have put in 
countless hours and attended thousands of meetings to help 
define the problems and seek solutions. Many of us here have 
done this without pay and in a volunteer spirit because of our 
commitment to the salmon issue. We salute these people.
    This issue is complex and crosses cultural, economic, 
social and political creeks, but together we have come far 
upstream, and still have a way to go.
    NMTA is committed to this issue for the long haul, and has 
enjoyed working with many of you here and being part of the 
process. We look forward to working with you in the future and 
helping to preserve one of the most precious resources, the 
salmon. Thank you.
    Senator Gorton. Thank you.
    [The statement follows:]
                    Prepared Statement of Hank Sitko
    My name is Hank Sitko and I am the Executive Director of the 
Northwest Marine Trade Association. Our Association represents the 
recreational boating industry and has over 900 members. We produce the 
third largest boat show in the United States, the Seattle International 
Boat Show, and a small in the water boat show called the Seattle Boats 
Afloat Show.
    Our interest and commitment to the salmon can be demonstrated by 
our involvement in the entire spectrum of the salmon management 
process. Currently, we have close working relationships with the 
federal, state and county legislative bodies and departments that make 
policy decisions concerning the salmon. We also have a close working 
relationship with the commercial fishing industry, tribes and sport 
fishing groups.
    We are a two billion dollar industry employing 16,000 individuals, 
and 8 out of 10 boats sold in our state are, in one way or another, 
used for fishing.
    Today I would like to talk to you about our involvement in harvest, 
hatchery and habitat issues concerning salmon.
                                harvest
    Harvest levels for Chinook and Coho have plummeted dramatically in 
the last 25 years.
  --The number of Coho caught in Washington ocean fisheries has dropped 
        98 percent in 25 years for treaty, non-treaty, sport and troll 
        fisheries. That is a drop from 2.3 million coho caught when 
        runs were healthy to 31,000 coho caught last year.
  --Chinook caught in Washington ocean fisheries dropped 96 percent for 
        treaty, non-treaty, sport and troll fisheries from a high of 
        560,000 to a low of 23,000.
  --In the same 25 year period the Chinook catch in the Puget Sound for 
        marine sport fisheries dropped 70 percent with a high of 
        334,000 to the current average level of 58,000.
    With the reduction in catch came curtailments in fishing 
opportunity in the form of much shorter fishing seasons.
  --Westport Washington, once referred to as the salmon capital of the 
        world, had over 200 days of sport salmon fishing in 1974. In 
        1998 it had only 11 days.
  --In 1974, Sekiu had 245 days of marine sport fishing. It now has 
        only 37 days.
    With the reduction in catch and shortening of the seasons, the 
sport fishing infrastructure began to collapse.
  --Once home to a major charter boat fleet, Washington state has only 
        a handful of that fleet left to provide that service.
  --Boat houses that were used to rent skiffs are virtually non-
        existent.
  --The majority of Mom and Pop tackle shops have closed and the 
        remaining few are hanging on by a thread in order to survive.
    The Northwest Marine Trade Association has two very knowledgeable 
persons engaged in the ongoing salmon season setting North of Falcon 
process, along with other recreational fishing representatives. This 
process is very complex and arduous and includes commercial fishers, 
the tribes and state and federal agencies.
    As I mentioned earlier, the economic impacts on the sport fishing 
industry as well as the boating industry have been devastating. The 
Northwest Marine Trade Association is doing our fair share to help turn 
this situation around.
    We and the tribes are in agreement that harvest decisions must be 
made on a biological and scientific basis. If there is any question of 
adequate escapement of wild Chinook, then fisheries must be curtailed. 
However, if in some terminal areas, such as Elliott Bay, the returning 
salmon are well above escapement goals, then limited harvest should be 
allowed for both tribal and non-tribal fishers, as long as the 
fisheries permit escapement goals to be met.
                               hatcheries
    The first hatchery in Washington State, Fallert Creek, was built on 
the Kalama River in 1895 for $5,000. Currently, the state of Washington 
operates the largest network of hatcheries in the world, producing 
salmon, steelhead, trout and warm water fish.
    In the past, salmon hatcheries were mainly used to compensate for 
the loss of natural production due to over fishing and destruction of 
habitat critical to the reproduction and survival of wild salmon. Today 
the emphasis on hatcheries is to support the wild salmon recovery 
effort. Some hatcheries are even used to rear ``wild'' fish from 
depressed populations in an environment that increases their survival.
    Currently, more than a third of the salmon hatcheries are being 
used in this way to restore wild salmon runs, including the re-seeding 
of water sheds where runs no longer exist. We are seeing success with 
some of these projects. The White River wild spring chinook is an 
example of a rebuilding and reseeding program that relied in part on 
hatchery supplementation. These fish were saved from extinction.
    NMTA believes that the need for hatchery reform is being 
recognized, but more needs to be done. The scientific community is 
still debating the specifics. However, agreement seems to have been 
reached concerning the need to conserve the genetic integrity of the 
remaining wild stocks and to assist in the recovery of naturally 
spawning fish. We also believe most reasonable observers would agree 
that hatcheries will be needed for the foreseeable future to produce 
salmon that can be harvested by tribal and non-tribal fishers. 
Currently, nearly 70 percent of all harvested coho and chinook 
originated in hatcheries.
    Discussion of Harvest and Hatchery Issues would not be complete 
without a mention of mass marking and selective fisheries.
    In 1995 the Northwest Marine Trade Association along with other 
sport fishing groups initiated and succeeded in the passage of a bill 
that would require the Washington State Department of Fish and Wildlife 
to clip the adipose fin of all coho produced in state hatcheries. The 
purpose of this clipping is to help differentiate between a hatchery 
fish and a wild stock fish. Therefore, if an angler catches a fish with 
a clipped adipose fin he or she would keep it, realizing that it is a 
hatchery-produced product. However, if the fish caught has an adipose 
fin intact, he or she would realize that it is a wild stock fish and 
release it accordingly. In essence, mass marking of our state's chinook 
and coho is a win-win for both sport fisherman and the 
conservationists.
    In 1998 the Northwest Marine Trade Association along with other 
sport fishing groups helped pass a bill to mass mark (clip the adipose 
fin) of all hatchery produced chinook in the state for the same 
reasons.
    Perhaps the best argument for marking all hatchery chinook in an 
ESA-listed area is the need to address the issue of wild versus 
hatchery fish interaction on the spawning gravels. We need to know, 
accurately, what the true population of wild chinook is for a given 
river system as part base-line of information so that we can measure 
progress toward recovery and hopefully, eventually, de-listing of 
chinook. When marked coho returned to the Willapa Bay last year 
biologists were surprised to find that the population of wild coho 
(unmarked coho) was greater than estimated for some systems.
    Hatchery operations need to be improved and made compatible with 
recovering wild chinook. However ``throwing the baby out with the bath 
water,'' as some anti- hatchery groups seem to advocate will neither 
save our wild salmon nor retain any meaningful fishing opportunities. 
The Boldt decision presumed that we would continue to produce salmon 
for the tribal and non-tribal fishers. We believe the federal 
government should assist in hatchery reform and in the financing of 
hatchery programs and other aspects of wild stock management associated 
with ESA and tribal treaty rights.
                                habitat
    NMTA is engaged in habitat restoration through our support for non-
profit organizations such as Northwest Chinook Recovery and Trout 
Unlimited. The Haskell Slough project in the Skykomish River Basin was 
constructed last year under the leadership of these two organizations 
with three and a half miles of side channel habitat reclaimed for 
natural salmon spawning.
    Our sport fishing advisor serves on the Lake Washington Watershed 
Executive Steering Committee, which is focused on habitat preservation/
restoration as part of the tri-county salmon recovery efforts being 
done in response to the ESA listing of chinook. He also serves on the 
Cedar River Council where habitat is a major focus as part of a King 
County basin plan.
                               conclusion
    Salmon are part of our history, culture and heritage. They are a 
symbol of the Pacific Northwest. They are a symbol that connects us to 
our environment.
    Our organization has been involved in the salmon issue for over 7 
years now. Like many of you here, we have put in countless hours and 
attended thousands of meetings to help define the problems and seek 
solutions. Many of us here have done this without pay and in a 
volunteer spirit because of our commitment to the salmon issue. We 
salute these people.
    This issue is complex and crosses cultural, economic, social and 
political creeks, but together we have come far up stream and still 
have a ways to go.
    NMTA is committed to this issue for the long haul and has enjoyed 
working with many of you here and being part of the process. We look 
forward to working with you in the future and helping to preserve one 
of our most precious resources--the salmon.
    Thank you.

                     SUMMARY STATEMENT OF ED OWENS

    Senator Gorton. And Mr. Owens.
    Mr. Owens. Thank you, Senator, Congressman Dicks, members 
of the Committee. I'm here today to speak on behalf of the 
commercial fishing industry of the State of Washington. The 
Coastal Coalition represents----
    Senator Gorton. Ed, why don't you pull that mike a little 
bit closer. I don't think you're----
    Mr. Owens. Is this a little better?
    Senator Gorton. Yeah.
    Mr. Owens. How about that?
    Senator Gorton. All right. Perfect.
    Mr. Owens. Ordinarily I don't have a problem. My voice has 
a tendency to be a bit penetrating, but maybe we can fix that.
    The Coastal Coalition represents approximately 2,000 
vessels, 40 percent of which fish historically for salmon, and 
475 associated businesses attached to the Coalition. I'm also 
speaking today on behalf of the Puget Sound gill net and purse 
seine vessel fleets.
    The implications of the recent salmonid listings in 
Washington State are dramatic, and I think we all know that. 
I've been involved in this particular issue since 1974, with 
the Charter Boat Association on the coast, who are one of the 
members of our coalition. There were 450 vessels in that 
charter boat fleet in 1974. Today there are twenty-four. That's 
a sign of what is going on.
    In the commercial side of the equation, we had over 10,000 
licenses active in the State of Washington 25 years ago. Today 
there are less than 1,700 commercial salmon licenses.
    Most of the jobs associated with my industry are rural 
jobs. They're not in downtown Seattle. They're in places like 
Ilwaco, and Pacific County, and Westport, and Aberdeen and 
elsewhere, and we don't see that impact. It's a very human and 
very personal impact, however, and one that we must deal with 
and recognize as we move forward on this issue.
    The issues also include habitat, water and property rights, 
Canadian and Alaskan harvest of endangered species, high seas 
harvest by foreign flag vessels--I'm very pleased, Senator, to 
see that you made that mention in your prefatory remarks--land 
management, the Pacific Salmon Treaty, agricultural practices, 
the breaching of dams issue on the Snake and Columbia Rivers 
and elsewhere, fish farming, marine predation, El Nino, La 
Nina, road and building construction, barriers to fish passage. 
In other words, the list is endless, the list is universal.
    Each of these issues are important to salmonid recovery in 
one form or another and do deserve the attention of Congress. 
My purpose, however, is to focus in a somewhat narrower manner 
on the two components of the mix most directly affecting my 
industry, and that happens to be fleet reduction and harvest 
practices in the State of Washington.
    The rural-dependent areas have already been adversely 
impacted through a number of ESA-related issues, most notably 
the spotted owl issue, the timber harvest practices, and those 
issues. The unemployment rate, while the economy in the State 
of Washington is very good overall, in some of these rural 
communities is very bad. We have businesses failing or barely 
managing to survive, and we hope that Congress keeps that 
thought in mind as we move forward on this issue.
    What has commercial fishing done to contribute to the 
solution of the problem thus far? Well, for the last decade 
we've been under very strict limited entry management regimes. 
The commercial harvest seasons that typically ran four to six 
months in the 1970s are now measured in weeks, days, or in some 
cases, hours. Our non-tribal Chinook troll fishery, as 
mentioned by Mr. Sitko, has seen a 98 percent reduction since 
1974. And I do concur, by the way, that the sports folks have 
shared in that reduction.
    The bottom line of raising that issue is to point out that 
despite such serious reductions, there are some that would have 
you believe, as members of Congress, that harvest is the 
problem. We see that rhetoric repeated quite frequently 
throughout the media. In other words, the claim is, if we just 
stop sport and commercial fishing, the fish will return. The 
record proves these claims to be false, inaccurate, and 
misleading.
    We need to have sport and commercial fishermen sitting at 
the table together. They're the strongest advocates for the 
resource. In my case, I have over 400 of my 1,700 commercial 
fishers who are active volunteers in programs, some of which 
you've already heard about, the Hood Canal, and others across 
the state. That's not to say that further reductions in harvest 
capability are not required, however. They are--and that's on 
both sport and commercial sides of the equation--if we are to 
succeed in meaningful salmonid recovery in the State of 
Washington.
    For nearly 5 years now, the Canadian and United States 
commercial fishers, through vehicles such as the Southern Panel 
Stakeholders Agreement, have called upon their respective 
federal governments to finance significant reductions in 
harvest capability. They've also called for proper salmonid 
research funding to determine what the optimum harvest levels 
and strategies truly are.
    Last year our industry, along with the sport fishing 
industry, supported House Bill 2496, a measured approach to try 
to reach some of these conclusions. And we would strongly 
encourage, Senator, and Congressman Dicks, and members of the 
Committee, that that process be continued.
    We see the fleet reduction component, and agreed with our 
Canadian counterparts that we had to do something about it. 
Canada has stepped forward and put $100 million in their fleet 
reduction program. We've had to fight tooth and nail to get 1.2 
million last year out of the state, and barely three and a half 
million out of the federal government. Well, so far in the 
state budget there's an $8 million line item. That $8 million 
line item requires some federal match if we're going to 
continue to pursue meaningful fleet reduction in the State of 
Washington.
    We'd also like to call for Congress to take a good hard 
look at funding the research necessary to make some reasonable-
man determinations about what meaningful harvest management has 
to be if we're going to succeed.

                           prepared statement

    And then finally, we'd like to point out that the Columbia 
River Mitchell Act hatcheries are mitigation hatcheries for the 
dams, and we need to deal with that issue as well. And I stand 
available to answer any questions the Committee might have.
    [The statement follows:]
                     Prepared Statement of Ed Owens
    Senator Gorton, Congressman Dicks, members of the committee: Thank 
you for the opportunity to speak today on behalf of commercial salmon 
harvesters as we enter a new era of ESA management of salmonids in 
Washington State.
    For the record, I am Ed Owens, Executive Director of the Coalition 
of Coastal Fisheries. Our member seafood harvest industry trade groups 
and associations represent approximately 2,000 commercial and charter 
boat vessels, 52 oyster plants and charter boat offices and 423 other 
businesses who are associate members. Our member vessels, plants and 
offices have over $349 million invested in the economic future of 
coastal communities and as recently as 1995 provided about 5,500 
family-wage jobs in Washington State.
    A significant portion of the capital and jobs represented by the 
Coalition are headquartered in, or operate from, rural Washington State 
ports from the San Juan Islands to the Columbia River. Our fleets and 
shore-based facilities are active throughout the western Pacific in the 
harvest and processing of pink shrimp, albacore tuna, salmon, 
groundfish and oysters. About 40 percent of the Coalition member 
vessels have historically been active in salmon harvest. I am also 
speaking today on behalf of the Gillnet and Purse Seine fleets that 
operate in Puget Sound.
    The implications of the recent salmonid listings in Washington 
State are dramatic. The issues are many including: habitat, water and 
property rights, Canadian and Alaskan harvest of endangered species, 
high seas harvest by foreign flag vessels, land management, the Pacific 
Salmon Treaty, agricultural practices, the breaching of dams, fish 
farming, marine predation, El Nino and La Nina impacts, road and 
building construction, barriers to fish passage, hatchery reform, 
Tribal treaty rights, domestic harvest, and forest practices.
    Each of these issues, and others, are important to salmonid 
recovery in one form or another and deserve the attention of Congress. 
My purpose, however, is to focus on a small portion of the larger 
picture and to address only a few narrow elements of the overall 
discussion. Specifically, I wish to focus attention on commercial 
salmon seafood harvesters and on the role of hatcheries in maintaining 
viable sport and commercial fisheries in Washington State.
    In the 1970's there were over 10,000 active commercial salmon 
licenses in Washington State. Today, there are about 1,700 active non-
tribal troll, gillnet and purse seine licenses. Most of these 
commercial fishers reside in rural, resource-dependent coastal 
communities already devastated by significant reductions in timber 
harvest restrictions related to the Spotted Owl and similar ESA-related 
actions.
    Commercial salmon harvesters in our state have been under strict 
limited entry management regimes for at least the last decade. 
Commercial harvest seasons that typically ran for four to six months in 
the 1970's are now measured in weeks, days or, in some cases, hours. 
Our non-tribal ocean chinook troll fishery, for example, has 
experienced a 96 percent reduction since 1974. Other elements of the 
industry have experienced comparable harvest reductions over the last 
ten to fifteen years, and we are not alone. Sport fishers have 
experienced similar reductions in harvest, as well, as they have seen 
their chinook seasons reduced to about 70 percent of what they were in 
1975.
    Despite such serious reductions, there are some that would have you 
believe that harvest is the problem, and that if we would just stop 
sport and commercial fishing the fish will return. The record proves 
such claims to be false, inaccurate and misleading. That's not to say 
that further reductions in harvest capability are not required. 
Additional reductions in commercial, and sport, harvest capability are 
required if meaningful salmonid recovery is to occur.
    For nearly five years now Canadian and United States commercial 
fishers, through vehicles such as the Southem Panel Stakeholders 
Agreement, have called upon their respective federal governments to 
finance significant reductions in harvest capability. They have also 
called for proper salmonid research funding to determine optimum 
harvest levels and strategies and to provide meaningful funding for the 
Columbia River Mitchell Act hatcheries and for hatchery management 
reform generally.
    The Canadian government has spent well in excess of $100 million 
just in fleet reduction alone in the spirit of the Southern Panel 
Stakeholders Agreement. Fleet reduction was seen five years ago as a 
critical path component for resolving a portion of the salmonid 
harvest-related problem and continues to be a major, even if 
misunderstood, issue today.
    If for no other reason than good faith, the United States needs to 
accelerate its fleet reduction efforts. Towards that objective, the 
industry has worked with the state legislature and managed to secure an 
$8 million line item in our current budget. However, this line item 
calls for federal support that is currently not in the federal budget. 
The industry estimate, to reach the level of reduction called for in 
the Southem Panel Stakeholder Agreement, would require comparable 
funding for a period of between four and five years. The industry 
agreed to pursue this objective and continues to honor the agreement we 
made with our Canadian counterparts.
    In addition, the research needed to determine future optimum 
harvest levels remains largely unfunded, and funding for modernization 
of the state hatchery system and Columbia River Mitchell Mitigation Act 
hatcheries is required if we are to maintain viable sport and 
commercial fisheries for the state in the future.
    In closing, I would ask that Congress address the hatchery- and 
harvest-related issues of fleet reduction and hatchery management based 
on balanced, sound and reasoned research with an eye to the future and 
a return of viable commercial and sport fisheries in the State of 
Washington.

                         ENDANGERED SPECIES ACT

    Senator Gorton. I thank you all for very constructive 
testimony. I think I'd like to start by asking every member of 
the panel except for Mr. Ruckelshaus to comment on Mr. 
Ruckelshaus' paper and recommendation about the way in which we 
coordinate or put together the solution to the problems with 
which we're faced. We'll just start, and move across the table.
    Mr. Adams. I would love to. It's one of the thing that--the 
perception often is that we are left out until it's all done, 
then we're handed something, and say, ``How do you like it,'' 
without any input. Getting everybody at the table to cooperate, 
including the people out in the grassroots area, I think is 
critical. Without them, you lose a very, very big participant 
that can help a lot.
    Mr. Braden. I believe the idea of a coordinator is an 
excellent idea, but there is a big problem with it in the sense 
that until the Endangered Species Act is changed, NMFS will 
always have the trump card. So whatever is done locally, 
whatever is done by way of coordination, will always be subject 
to that final review and discretion of NMFS. And if we're going 
to really consolidate the efforts locally and really have a 
group that'll be able to make changes and stick with the 
proposals and protections that may come out of those changes, 
we're going to have to have some modification in that authority 
structure federally.
    Senator Gorton. Mr. Anderson.
    Mr. Anderson. Senator Gorton, I haven't read that paper 
yet. And the idea of a single coordinator probably makes some 
pretty good sense. There's a huge issue about inclusiveness and 
trust that is pervasive within the fish wars. There's a old 
adage that basically the people in the salmon business will eat 
their own young. And that's a pretty standard kind of problem 
that has to be addressed.
    One of the issues for volunteers is that we're volunteers, 
and when the meetings are held during the weekday, most of us 
have day jobs, and so even being able to attend the plethora of 
meetings and the thousands of hours invested in this is very 
difficult for us.
    Also, funding within the state and federal budgets are 
necessary for us to be able to have the infrastructure to be 
able to attend those. And so if we really want to use the 
volunteers and the community, there has to be a level of 
support and a realization that as volunteers, we have to have 
some consideration to be able to attend and contribute.
    Senator Gorton. If you have--I wish you'd take the chance 
to read Mr. Ruckelshaus' paper----
    Mr. Anderson. I will. Certainly.
    Senator Gorton [continuing]. And maybe follow up with a 
letter to us----
    Mr. Anderson. Thank you.
    Senator Gorton [continuing]. On your more precise 
reactions.
    Mr. Sitko.
    Mr. Sitko. Yes. I think, if I look at it, the solution has 
to come from the bottom up. It can't come from the top down. 
And if we are going to have a consolidated coordinated effort, 
I think we have to build into that methods of communication 
dissemination so that we're all praying from the same hymnal, 
and we're all coordinated in our effort. And then built into 
that is your suggestion of, how do you measure success? And 
built into that, overlayed on top of that, is accountability 
into the system. So I think there are some of the ingredients 
that we have to look at.
    And then the other thing is, how do we keep volunteer 
burnout from occurring? Because like the gentleman just says, 
it's--a lot of hours and a lot of time is put into this, plus, 
the other folks have day jobs.
    Senator Gorton. Mr. Owens.
    Mr. Owens. Thank you, Senator. The--our industry is a 
strong proponent of the local-up participation. We have a lot 
of independent folks in the State of Washington. If we don't 
have local participation and local involvement, we're not going 
to have a solution. And we believe that coordination should be 
very much a centralized function, and balanced by some kind of 
reasonable scientific process.
    Now, there are two pieces of legislation currently in the 
legislature, one sponsored by Senator Jacobs and one by 
Representative Jim Buck, that are dealing with trying to 
wrestle with this issue as we speak. There are so many players 
involved. If we don't get everybody on the same page, we're 
going to have a long-term problem, and I believe Mr. 
Ruckelshaus' focus is very accurate in that regard.
    Senator Gorton. Bill, would you react to Roger Braden's 
statement that it doesn't matter, 'cause someone can overrule 
the coordinator?
    Mr. Ruckelshaus. Well, I will. I'd also like to react to 
the bottoms-up recommendation.
    Senator Gorton. Fine.
    Mr. Ruckelshaus. Because I personally believe that bottoms-
up is the only way that you're ultimately going to get success. 
If you get the people who are most dramatically affected by the 
recovery efforts up and down these river basins to endorse 
the--number one, what is the need in that particular river 
basin, and endorse the process for resolving that need, you've 
got a much better chance of success than you do if you try to 
set up some kind of centralized enforcement process to force 
people to do things. It just doesn't work in this area.
    We've been wrestling with non-point-source pollution in 
water for thirty years. I was at EPA when the current Clean 
Water Act first passed. We haven't figured out how to deal with 
non-point-source pollution without getting the right kind of 
incentives and support of farmers, and others who are affected 
by runoff, to get behind whatever solution there is.
    And I think it's necessary, in the case of the current 
Endangered Species Act that I don't think is going to be 
changed--maybe in our lifetime it will, but certainly not in 
the next couple of years--to think outside the box. There's 
nothing in that Endangered Species Act that says the President 
and the governor could not designate somebody as a coordinator 
and say, ``I want all of you, all the agencies under my 
responsibility''--and the governor says the same thing, the 
same with the local governments--``to work with this person to 
develop plans, implement plans, endorse plans that are all of 
our plans.'' For the federal government to sit at the same 
table and say, ``You tell us what you want to do, and we'll 
tell you whether you can do it'' is a prescription for 
disaster. But for them to sit at the table and say, ``We've got 
a problem here in this region. What do we need to do to solve 
it? What is our role, the federal role? What is the state role? 
What's the local role? What is the role of all these citizen 
groups that are working so hard to try to restore salmon,'' and 
then get on with resolving, or with implementing whatever plans 
have been developed.
    I think if we do that, and if both the governor and the 
President say, ``This is the person I want to help coordinate 
that, and I want all of you to cooperate with them in doing 
it,'' in the first place, I can't think of any judge in this 
land who would overrule a group of agencies at every level of 
government that said: ``This is the way we're going about 
trying to solve this problem, and we think it's got--it's the 
right solution here. We've involved all of the people.'' Where 
is the room for the judge to come in and say, ``Here's the 
solution''? Not that a judge is going to act unreasonably, but 
simply because I think that's the way our legal system will 
work, and if we're not careful, we'll get a thousand different 
solutions by judges that will simply stall the whole thing.
    Senator Gorton. Go ahead.
    Mr. Dicks. I think this idea has merit. And we've 
witnessed, for example, the timber, fish, and wildlife group 
that met over a significant number of years. It included the 
tribes, had all the federal, state agencies involved, and they 
stayed together. What if we took your idea and, let's say, we 
put Mr. Stelle and Mr. Smitch as the cochairs of this group, 
one representing the governor, one representing the federal 
agencies--and NMFS ultimately is going to make a lot of these 
decisions, or give a lot of direction or help--and work on a 
recovery strategy and include all the parties?
    And in fact, the governor has a group called the Governor's 
Council on Natural Resources, which I understand includes the 
cities, counties, tribes, federal agencies, the legislature, 
ports, maybe PUDs, environmental groups. It seems to me, I 
think we might need to do this. I was skeptical at first, but 
the more I think about this, some kind of coordination--but I 
don't think you have to bring a new outside player. Why 
couldn't you take the two key people, the governor's assistant 
and Mr. Stelle, have them co-chair this and work like we did 
under timber, fish and wildlife with everybody participating? 
Could that work as a model?
    Mr. Ruckelshaus. Yes, it's both--I have great respect for 
both Mr. Smitch and Mr. Stelle. They are working very hard at 
their current jobs, and I think doing a very good job at it. 
And it could work. The most important element is not--it is 
important who the person or persons that could be co-chairmen 
are. The most important thing in my view is that the governor 
and the President say, ``We want this to be a coordinated 
effort.'' We don't want this to be one level of government 
second-guessing what another level of government is doing and 
then we all get in a big fight and end up in court. If that's 
the way it proceeds, that's where I think were in trouble. And 
if both the president and the governor said, ``We don't want 
that to happen. We want this to be a coordinated effort, and 
these two people are the ones that we're charging with the 
responsibility of bringing everybody to the table,'' it could 
work. I'm only suggesting someone else just because it further 
dramatizes----
    Mr. Dicks When we get to somebody else, then does that 
person become the so-called czar?
    Mr. Ruckelshaus. No. Certainly not.
    Mr. Dicks. That's the concern that I've heard. I think this 
is a very constructive idea, and your leadership is very 
important in this, and we want to try to work with you. But I 
do believe that something modeled on the timber, fish and 
wildlife process might be a useful example. It's worked in this 
state. These people were all involved. And I would like to 
continue to have some dialog with you about this----
    Mr. Ruckelshaus. All right.
    Mr. Dicks [continuing]. And try to see if we can't work out 
something that's acceptable to the people in this room.
    And let me make just one final comment. To Mr. Adams and to 
Mr. Anderson, people who've worked on the local salmon 
enhancement groups, I applaud what you've done. Al, I read your 
recent letter on all the work that's been done in the Hood 
Canal area. I think it's incredible. I think the habitat that's 
been restored, the local involvement, the incubators--you've 
taken me out there and shown me what you're doing. The Senator 
and I both have helped fund funding not only for your effort, 
but for the enhancement groups in general, and we think this is 
essential in keeping the local involvement. And you're right; 
over the long term, you've got to have this grassroots effort 
in order to get this done.
    I also believe, of course, that essential to your success 
is a United States-Canada agreement that will put more fish 
back in those rivers fast to help us. And if we can blend those 
two things together, I think it makes a real success story.
    And Ed, you know, I used to go down to Westport with Glenn 
Jarstad from Bremerton, and the fleet has diminished rather 
significantly. And we want to see this resource recover so that 
some day again we can have, maybe, Westport as the salmon 
capital of the world, but it's going to take a while, and 
effort.
    I want to thank all the members of the panel for their 
testimony.
    Senator Gorton. Jim.
    Mr. McDermott. Thank you, Mr. Chairman.
    I listened to you, and I understand the importance of 
coordination and that whole aspect of this problem. What I'd 
like to ask the members of the panel--each of you come from 
somewhat different positions in this whole operation. I'd like 
to hear what you think is the toughest issue that we're going 
to have to face in solving this. What, of all the things that 
are out there, when we get this table and get everybody sitting 
around the table, what is the issue that you think will be the 
toughest issue to solve?
    Mr. Adams. Long-term?
    Mr. McDermott. Yup.
    Mr. Adams. Long-term. Well, it's been repeated many times, 
but it doesn't get acted on. It is still a long ways away from 
having me or somebody else of the ground people at these 
tables. Never have we been invited by Bill Ruckelshaus or 
others to come to a table like this. It must--if you're going 
to have long-term success, the only way it's going to happen is 
in the watershed, by the watershed people. You can get all the 
money you want, the hundreds of millions of dollars spent on 
wild salmon recovery, but you just wait for five, or ten, or 
fifteen years when people are sick and tired of hearing about 
it, and things will slowly go back to where they were unless 
you have a strong watershed group of people who are saying ``No 
more. We will enforce things. We won't allow it to happen.'' 
Until that happens. But we can't be left out of it in the 
discussions, and we have been left out.
    Mr. McDermott. So it's the issue of enforcement within the 
watersheds? You think that's the toughest thing to keep in 
place?
    Mr. Adams. Well, it's part of a big picture. Enforcement is 
a big thing. In Hood Canal we see a lot of things go on in the 
watershed that are very unhealthy.
    Mr. McDermott. On the non-point-source issue?
    Mr. Adams. Well, all of habitat as well as harvest. So--but 
if you get--we intend to spend the next five years of Hood 
Canal Salmon Enhancement Group energy on developing watershed 
stewardship throughout Hood Canal, hopefully in almost every 
watershed area. And we truly believe it. And all the wisdom 
that we can come up with, all the things that we've read and 
listened to, that's the only way that you're going to get 
success in thirty years from now, twenty-five years, or fifty 
years from now. It's got to be that way. But in order for it to 
happen, you have to recognize it at that top and bring people 
in from the ground. Somebody has to represent these groups, and 
nobody has been offered that, to represent them.
    Mr. McDermott. Mr. Braden.
    Mr. Braden. In a nutshell, I think the salmon crisis is due 
to civilization, the fact that we have many, many people living 
in the Northwest, and they have many, many diverse impacts on 
the salmon life cycle. I think that what we've got to do is get 
away from the idea that you can pinpoint a source or a problem. 
The non-point-source of pollution was a good example because 
it's very diverse. We need to get people prepared to talk and 
to compromise, not to point the finger, not to have the 
harvesters point to the hydro, or the hydro to the harvesters, 
or someone else to hatcheries. It's a problem that we all share 
in, and until we all are prepared to make movement and change 
some of the adverse impacts of Northwest development and 
civilization, I think we won't get there.
    Mr. McDermott. Mr. Anderson.
    Mr. Anderson. Speaking for the volunteer community, we're 
players. We're extraordinarily passionate and excited about the 
opportunity to make a difference. We would like to be involved, 
and at present we are begging, pleading, beseaching you for 
some--or, to be able to live up to what our beliefs are and 
what are passions allow us to accomplish within the community. 
Short-term, issues of turf will get in the way. No kidding. And 
maybe they'll go away, but trust is earned.
    Mr. McDermott. Mr. Ruckelshaus.
    Mr. Ruckelshaus. It's a--listening to what these gentlemen 
on both my right and left have been saying, it's indicative of 
what people throughout this region feel about the fish. They 
feel very strongly about it. I think there's a tremendous 
amount of momentum right now that's been generated in the 
Northwest to try to save these fish. That's why I think it's so 
important to coordinate it. I think ultimately we're going to 
come to the decision we've got to coordinate the science, we've 
got to coordinate the governmental address to this. Now is the 
time to take advantage of all of this enthusiasm and momentum 
that's been created, instead of waiting until it's so obvious 
to everybody that we need to coordinate it, that we have to do 
it. So that's why I think it's important to do it now.
    Mr. McDermott. Mr. Sitko.
    Mr. Sitko. Sure. I think for too long we've been defining 
and redefining the problem. We knew what the issues were for a 
long time, if you go back and look at this issue. The critical 
problem that I see with it is that the constituents involved in 
the players, the developers, the agricultural community, the 
commercial fishermen, sport fishermen, there's no consensus of 
agreement on how to solve the problem, and no one willing to 
make the sacrifice for it. And then overlayed on top of that 
is, there is the issue of who's in charge, who could really 
call the shot to make us all come together, with the 
leadership. And I think that lack of political will is also a 
problem.
    Mr. McDermott. Ed.
    Mr. Owens. Congressman, I don't believe there's any one 
single magic bullet out there. I'd also like to note for the 
record, Puget Sound is not the center of the known universe. We 
have a state-wide problem here, and we need to balance those 
kinds of competing interests. I think the toughest problem is 
the water issue, the dams, the water-in-the-streams issue for 
the fish. I don't believe we've been creative enough in trying 
to find some solutions for that, and I think we need to put 
some energy into it.
    And I'd also like to note that the competing interests 
issue--I'd like to reinforce what Mr. Sitko has said. We need 
to have some forceful leadership, and I'm not sure it should be 
governmental agencies. One of the problems that I've seen is, 
is that when you go to these meetings, the people dominating it 
are all government, and they're all competing to keep their 
people in employment. Seldom do we see citizens, the 
volunteers, my 400 people, his thousand, whoever we've got 
going here, adequately represented so that voice is at the 
table. I'd like to see an emphasis in that direction.
    Mr. McDermott. Thank you.
    Thank you, Mr. Chairman.
    Senator Gorton. Bill, for maybe a couple minutes, would you 
put on a different hat and speak to what Norm Dicks was talking 
about? Tell us how important you think United States-Canada is 
in this, and how close we may be to a constructive solution.
    Mr. Ruckelshaus. I think it's essential to solving the 
problem, and I think we've come a long way. As the governor 
mentioned in his remarks, we apparently are--as best I can 
gather from the people currently involved in the negotiations, 
we are getting close to a Chinook agreement, particularly in 
the south, but maybe up and down the coast. The coho agreement 
that was entered into last year is--again, a similar agreement 
is on the table, and that is also possible, so that the 
allocation part of the equation looks like it is progressing 
pretty well. We're not home free yet, but it looks like we may 
be able to get a multi-year allocation agreement under the 
current negotiating process.
    What I think we risk is not thinking broadly enough about 
this, and making sure we fix the whole thing and not just the 
allocation process. And by ``the whole thing,'' I mean we need, 
up and down the Northwest coast of North America, a scientific 
process which is coordinated with the policy-making process 
that sets the allowable catch as to how many fish should be 
caught each year based on escapements that are actually 
observed during the year, and then we enforce against those 
escapements; that there is a fish management process up and 
down the coast that ensures that those--that TAC, or total 
allowable catch, is met each year, and that TAC is set on the 
basis of continually expanding the pie, the size of the pie 
itself.
    And then the allocation process, how you allocate that, is 
inherently a political--small ``p'' political process. You're 
not going to avoid the problems associated with it, but that's 
what we're spending all the time on. And we risk missing 
ensuring that the Pacific Salmon Commission works--right now 
it's dysfunctional--and that we've got the science properly 
plugged into the policy-making process, and that the science 
really doesn't recognize any international boundaries. If we do 
that, we can fix it.
    The only risk I think we have right now is, we don't think 
big enough about solving the problem up and down the coast, and 
we just focus our attention on the allocation part of it.
    Senator Gorton. Thank you. And I want to thank all of the 
members of the panel for their most constructive suggestions. 
Thank you very much.
    Mr. McDermott. Mr. Chairman.
    Senator Gorton. Yes.
    Mr. McDermott. May I say I want to thank you again publicly 
for allowing us to participate in this. I've got to go and try 
and explain to some high school students about Kosovo, and I 
don't know which is tougher, this or Kosovo, but I appreciate 
you calling this hearing. I have to leave, but I look forward 
to being able to read the testimony from the rest of the 
hearing.
    Senator Gorton. Thank you. Thank you very much.
STATEMENTS OF:
        BILL WILKERSON, WASHINGTON FOREST PROTECTION
        LINDA JOHNSON, WASHINGTON STATE FARM BUREAU, WASHINGTON 
            CATTLEMEN'S ASSOCIATION
        MIKE MILLER, PRESIDENT, PACIFIC PROPERTIES
        ROBERT KELLY, NOOKSACK TRIBE
        TIM STEARNS, SAVE OUR WILD SALMON
        CONRAD MAHNKEN, NATIONAL MARINE FISHERIES SERVICE

                  summary statement of bill wilkerson

    Senator Gorton. OK. Bill, Mr. Wilkerson, we will start with 
you.
    Mr. Wilkerson. Thank you very much, Mr.--co-chairs. First 
of all I want to thank you for creating this opportunity. 
Obviously the interest is substantial, and I think you're 
hearing why.
    I'm Bill Wilkerson. I'm the executive director of the 
Washington Forest Protection Association. And I think we 
bring----
    Senator Gorton. Can we reduce the noise level in the rest 
of the room so that we can hear the witness? OK. Go ahead.
    Mr. Wilkerson. Thank you, Senator. I think we bring to you 
some very good news today. As Governor Locke suggested, over 
the last 18 months, and as both of you well know, the timber 
industry has been working with all federal, state, counties, 
tribes, originally the environmental groups, and ourselves to 
try to be on the proactive side of this issue long before the 
listings did occur.
    In fact, I recall about 18 months ago Senator Gorton, 
Congressman Dicks, and Governor Locke met with us and 
encouraged our industry to get on the proactive side to try to 
avoid another train wreck that had occurred with respect to our 
respective experiences on the spotted owl, and to try to 
develop a state-based plan that would meet the needs of the 
fish on the one hand, and try to keep an economically viable 
industry together.
    Over those eighteen months we've had the opportunity to 
work with federal and state agencies, tribes--counties and the 
tribes, and we have come to what I would call a historic 
agreement. We have basically developed for the 8 million acres 
of private timberlands in our state the equivalent of an HCP 
for all of those lands. And let me put that in perspective. 
Eight million acres is more than 20 percent of the land in the 
state. Coupled with the federal lands that are covered by the 
Clinton plan, wilderness acreage, and with lands covered by the 
Department of Natural Resources HCP, what we are bringing to 
the table is the last increment of means--what will mean 20 
million acres of our state are covered by some form of a 
conservation plan. And I think that that is, if you think about 
that, that's more than half the land of the state.
    So are we off to a good start in terms of being proactive, 
``we'' being the entire state? I think Governor Locke and you 
all are to be congratulated for creating an atmosphere where 
already half the state is determined to be ESA-compliant. And I 
think in our case, one of the most significant things is, we 
have been told by the Environmental Protection Agency and the 
Department of Ecology that we are--we also have a plan that 
we're moving forward that is Clean Water Act compliant, which 
was a goal of ours when we started about eighteen months ago.
    This is the first time in the United States where the 
federal agencies, EPA, the Fish and Wildlife Service, and 
NMFS--the first time that we're aware of--where they have 
gotten their acts together and put together a Clean Water Act 
strategy and an ESA strategy at the same time. So to say the 
least, I think that there's a lot on the table to be proud of.
    Congressman McDermott asked the question whether the state 
legislature is being supportive, and I can tell you right now 
that we could not ask more from our state legislature in terms 
of the Forest and Fish report. In the House, Representative 
Regala and Representative Jim Buck have taken extraordinary 
leadership and put together a much-improved bill from the one 
that we gave them, which had been developed at the tail end of 
exhaustive negotiation, and I think we will see movement on 
that bill in the House here very soon.
    On the Senate side, Senator Ken Jacobsen and Senator Sid 
Snyder and other Senate leaders have made sure that we put 
together a bill that will be responsive to the needs of the 
fish and to the needs of supporting the Forest and Fish plan.
    A couple of things that have been discovered by our 
legislature that are important in our plan, that I think are 
important to you as well. One is--one of the most important 
elements is, is that we are dealing with the economic impact 
differential between large and small landowners. DNR has done a 
study that says if our regulatory base were to be adopted, that 
the impact on smaller landowners, because they have more water 
and less acreage, would be almost double that of large 
landowners. And we've established a compensation plan which 
will require, I believe, state and federal funding, to help 
compensate through a conservation easement program for the 
leaving of these trees on the ground for buffers and for 
landslide-prone areas, and so forth, that are all in the plan. 
And I think that's a huge package. It looks a little bit like 
the CREP Program which you are aware of, and I do think that's 
very important.
    Finally, I would just say that we've worked with the Tri-
County executives. I think they're to be congratulated. I think 
that some of the coordination that Bill Ruckelshaus has called 
for is starting to occur, and I do think that we cannot be 
successful in rebuilding fish runs if we don't do our part, and 
frankly, if they don't do their part. And I also think that we 
have to look at this issue on a total watershed basis.

                           prepared statement

    What's your role? I think your role is to keep encouraging 
us, as you have, to work on these issues and solve them; and 
secondly, to help us with funding, because these programs that 
we are bringing you do cost money to fully implement.
    Thank you again for the opportunity to be here, and we look 
forward to your questions.
    Senator Gorton. Thank you.
    [The statement follows:]
                  Prepared Statement of Bill Wilkerson
    My name is Bill Wilkerson and I am Executive Director of the 
Washington Forest Protection Association in Olympia, Washington. Our 
board is composed of large and small forest landowners who own or 
represent about 8 million acres of private forestland in Washington 
State.
    I appreciate the opportunity to report to you today about a 
positive solution that has been developed to meet salmon recovery needs 
on private forestlands in our state. After nearly two years of work, 
five diverse groups with a stake in salmon recovery successfully 
negotiated a science-based agreement that will protect fish habitat and 
water quality on more than 60,000 miles of streams on private land. Now 
called the Forests and Fish plan, the agreement is part of Governor 
Gary Locke's statewide salmon recovery strategy. Legislation to 
implement the plan now is being considered by the Washington State 
Legislature, and the state Forest Practices Board has made the Forests 
and Fish plan its preferred alternative as it develops new permanent 
rules for fish and water protection. The plan is endorsed by state and 
federal regulatory agencies, a number of Native American tribes, county 
government, and the private forest landowners.
    Though there are other fish and water proposals for private forest 
land, the Forests & Fish plan has the best chance for success in actual 
practice because there is commitment to it from the five key 
stakeholder groups. The agreement was worked out in 15 months of tough 
negotiations among the parties. The environmental community was part of 
the discussions for the first 10 months. Their participation helped 
shape the final agreement, though they voluntarily left the table 
before the plan was completed.
    As importantly, the scientists from the three federal agencies 
involved--National Marine Fisheries Service, U.S. Fish & Wildlife 
Service and Environmental Protection Agency--and the scientists from 
the Washington Department of Ecology, Department of Fish & Wildlife, 
and Department of Natural Resources, and many tribal scientists, all 
have been involved every step of the way. They say this plan will work.
    The Forests and Fish plan meets the requirements of both the 
federal Endangered Species Act and Clean Water Act, an historic first. 
The scientists from the six agencies and the tribes agreed that the 
Forests and Fish plan is a biologically sound way to protect fish and 
water on 8 million acres of private forests. The plan will greatly 
expand forested buffer zones along streams to provide shade, including 
almost 40,000 miles of non-fish-bearing streams. There are stronger 
standards for road construction and maintenance, and new protections 
for steep and potentially unstable slope areas. The agreement also has 
a rigorous adaptive management section, which will use science to judge 
future fish and water needs. These and other protections will ensure 
that forest streams continue to flow with the cool, clear water that 
fish need.
    Because the agreement would cost landowners more than $2 billion in 
land and timber value in western Washington alone, the Forests and Fish 
agreement includes an economic incentive package, including a reduction 
in the state timber tax rate by one percentage point. There also is a 
compensation plan for small landowners similar to the Conservation 
Reserve Enhancement Program. With the incentives, the Forests and Fish 
plan is the only fish protection proposal that allows forestry to 
continue as a viable part of our state's economy. If private forest 
land can no longer be managed for economic success, then it will be 
converted to other uses, and the state would lose valuable open space 
in addition to habitat for fish and wildlife.
                      key points of the agreement
    The most far-reaching changes in the Forests and Fish agreement 
will take place in riparian zones--the streambank areas right next to 
water--where new forest buffers will provide shade and contribute large 
wood pieces into streams. A complex set of standards prohibits forest 
management activity near streams and limits activity in areas up to 200 
feet on each side of a stream. All fish, resident and anadromous, game 
fish and non-game fish will receive protection. Current rules limit 
protection to game fish or salmon. All steams that provide fish habitat 
will receive the same protection as streams where fish are currently 
present.
    West of the Cascade crest, fish habitat streams will be protected 
with three-zone buffers, based on the potential height of a tree on a 
specific site. The core zone, next to the stream, is a 50 foot-wide 
``no-touch'' area, where no harvest activity will take place. Next, an 
inner zone, from 80 up to 150 feet wide, will have restricted 
management. Beyond that will be an outer zone, managed to leave up to 
20 trees per acre for the protection of special features. Again, almost 
40,000 miles of non-fish habitat streams or streams that are not 
expected to be occupied by fish will be protected, as well.
    The agreement also protects streams east of the Cascade crest with 
three-zone buffers, again based on tree height, while recognizing the 
Eastside's different climatic and forest health conditions. There is a 
no-touch core zone of 30 feet, which is equivalent to the Westside 
buffers when the Eastside's smaller tree size is taken into account. 
Next is an inner zone with restricted management, either 45 feet or 70 
feet wide, depending on stream size and location. An outer zone, 
determined by potential tree heights, will be managed to leave between 
10 and 20 trees per acre depending on forest habitat types. Non-fish 
habitat stream protection is equal to the western Washington strategy.
    I can't emphasize enough the importance of this regional approach. 
All parties rejected a ``one-size-fits-all'' approach. This is 
important as you look to other sectors for ESA and CWA strategies.
    The Forests and Fish agreement also has significant changes in the 
forest practices permit process to prevent landslides. Improved 
topographic and geologic mapping will provide landowners and the state 
Department of Natural Resources with more accurate prediction of where 
slides may occur. Detailed standards will be established to field 
identify the most hazardous areas and operation on these areas will be 
severely restricted.
    Another area of major change affects forest roads. All existing 
forest roads must be improved and maintained to a higher standard for 
fish passage, preventing landslides, limiting delivery of sediment and 
surface runoff water to streams and avoiding capture or redirection of 
surface or ground water. To accomplish this, landowners will be 
required to bring all of their forest roads into an approved 
maintenance plan within five years and complete improvements within 
fifteen years. Standards, priorities and implementations guidelines are 
established. This will involve a private landowner investment of at 
least $250 million.
    In addition, there are these other provisions in the Forests and 
Fish agreement:
                         pesticide application
    Recommended changes in buffering rules and best management 
practices for the application of forest pesticides to prevent 
significant entry of pesticides into water. There are also 
recommendations which will prevent damage to riparian vegetation by 
limiting entry of pesticides into riparian management zones.
                           wetland protection
    Improved mapping of wetlands and clarification of existing rules 
will provide additional wetland protection.
                           watershed analysis
    The watershed analysis process will be modified to recognize rule 
changes in riparian protection, road construction and maintenance, and 
restrictions on unstable slopes. Assessment modules for monitoring, 
restoration opportunities and cultural resources would be added for new 
analyses. The water quality, hydrology and fish habitat modules be 
upgraded to reflect current knowledge. Watershed analysis would remain 
voluntary with these recommendations.
                           alternative plans
    A process would be created for landowner initiated alternatives to 
standard forest practices rules, where a different solution would 
provide protection equal to standard rules. The recommended process 
includes guidance for submitting alternative plans, standards for state 
resource agency and tribal review and an approval process for DNR.
                            small landowners
    Small landowners will meet the same habitat protection standards 
and rules as large landowners. However, because small landowners are 
disproportionately impacted by wider buffer and more complex rules, 
half of the value of trees left for riparian protection would be 
returned to the landowner through purchased conservation easements. 
This program is absolutely critical to keeping small landowners from 
converting their lands for other uses less friendly to fish, and will 
require a long-term investment by both federal and state governments.
                    revisions to the permit process
    The agreement proposes longer-term forest practices and hydraulics 
permits, and progress toward eliminating the dual authority over forest 
practices in the administration of the Hydraulics Code and the Forest 
Practices Act. This also puts the state Department of Fish and Wildlife 
on the Forest Practices Board, ending an almost 25-year-old battle as 
to whether this was appropriate.
                              enforcement
    The state Department of Natural Resources would gain greater 
authority to identify and punish repeat forest practices violators 
through requirements for financial assurances and denial of forest 
practice permits.
                          adaptive management
    To ensure that science continues to guide forest management, 
specific technical research will be conducted to test the cause-and-
effect relationship of management changes. New changes will be directed 
by research results. The adaptive management process includes planning, 
budgeting and project management along with technical and policy 
review, and dispute resolution. The recommendations place final 
authority in the hands of the Forest Practices Board, with federal 
agency oversight to determine whether the Board is responding to new 
scientific findings. The commitment to go where cooperative science 
leads us is a cornerstone of the agreement.
                               assurances
    All regulatory bodies anticipate that the agreement will meet the 
requirements of applicable laws.
                                funding
    Funding for the provisions of the agreement is contained in the 
Governor's proposed biennial budget and in proposal currently before 
Congress.
    Private forest landowners voluntarily joined the other stakeholder 
groups in the negotiations that led to the successful Forests and Fish 
agreement. We are willing to do our fair share for salmon recovery, and 
we applaud the efforts now underway among other groups and governments 
to develop lasting solutions for their impact on the salmon cycle. We 
are a strong supporter of the Tri-County effort, and the three county 
executives and the Washington Association of Counties unanimously 
support the five caucus plan. The five parties to the Forests and Fish 
agreement believe that our process can be a model of government and 
private sector cooperation to produce a workable solution. Thank you 
for inviting me to this field hearing today to report how the Forests 
and Fish agreement will protect fish habitat and water quality on 
private forests in Washington. I am submitting for the record these 
comments and some additional materials describing the Forests and Fish 
strategy for our state.

                   SUMMARY STATEMENT OF LINDA JOHNSON

    Senator Gorton. Linda Johnson.
    Ms. Johnson. Thank you, Senator Gorton, Congressman Dicks, 
for----
    Senator Gorton. A little closer.
    Ms. Johnson. A little closer--for allowing us to come. We 
were asked by staff to provide the private landowners' view on 
how the federal dollars that would be coming into the state 
could be spent on salmon recovery, so that's what I'm going to 
focus our comments on.
    We believe that Congress needs to allocate federal dollars 
in several areas: directly to the state for funding on-the-
ground projects for habitat restoration; we believe funding 
needs to go to federal in-state agencies for addressing the 
predation problems; and we'd also like to see money coming in 
for license buy-back for both commercial and tribal fishing. We 
believe that without a comprehensive funding approach for all 
three of these areas, that our state will be setting itself up 
for failure.
    We believe it is critical that Congress appropriate funding 
directly to one source, as you've heard mentioned this morning, 
and that would be to the state legislature, not to a government 
agency or to individual organizations. We want to ensure 
accountability to the public for the taxpayer dollars which 
will be spent.
    At the state legislature there is a strong concern on both 
sides of the aisle that without all funding going through one 
source, we will find ourselves, six years down the road, with 
hundreds of millions of dollars spent and nothing to be shown 
for it. The legislature is seriously looking at setting up a 
board that would be appointed by the governor, but would have 
legislative oversight. We support an approach of this kind 
because it ensures that dollars are being spent on the big 
picture approach.
    Now I want to address funding for restoration. We believe 
Congress should specify that federal funding must be used only 
for on-the-ground projects. This funding should not be 
allocated for administration. We believe paying for employees 
within agencies or private organizations should be the 
responsibility of the state's taxpayers, not the federal 
taxpayers.
    Last year Governor Locke signed into law two bills that we 
believe provide solid groundwork for salmon recovery efforts in 
our state. HB 2496 is the critical pathway piece which places 
funding on the ground for stream projects such as removal of 
fish passage barriers and creating resting pools. HB 2514 
authorized watershed planning which takes place at the local 
watershed area. You will hear more about these, I'm sure, from 
Representatives Buck and Regala, who have been very active in 
this process. Farm Bureau and Cattlemen both supported these 
bills because we take a strong local approach to salmon 
recovery. We ask that federal dollars be provided for these 
locally-driven programs.
    We believe that federal and state funding should be made 
available for off-stream storage projects, because it's an 
excellent way to mitigate in-stream flow. We believe we don't 
have a water shortage problem in this state, we have a water 
management problem. Every winter we receive an abundance of 
rain, especially here on the west side. We think it makes more 
sense to capture those flood waters before they destroy 
property, salmon habitat, and nests of salmon eggs every 
winter. Every year, and this year was no exception, Governor 
Locke has to declare a state of emergency and provide disaster 
assistance to the counties. If we captured water in off-stream 
storage, it would be available later in the year when fish, 
cities, and agriculture all are competing for water. This 
approach would be a win-win for fish and for people.
    However, if we do not address predation and only focus on 
habitat, we will not succeed in restoring salmon to our rivers 
and streams. Farmers are prepared and are doing things on the 
ground to ensure good habitat, but if salmon can't get past the 
predators, that habitat will go unused, and the money will have 
been spent in vain. Therefore we'd like the federal government 
to address the predation issue because our state isn't 
authorized to do so. We would like Congress to authorize 
funding to the Washington State branch of the Wildlife Service 
under USDA so they can take care of the terns at Rice Island at 
the mouth of the Columbia River, and we'd also like to make 
sure there's funding provided to whichever federal agency can 
address the sea lion problem.
    If we address habitat and eliminate the natural predators, 
we would still not be successful if we chose not to address the 
harvest issue. It is critical that we stop all fishing of 
salmon by-catch for a period of at least fifteen years in order 
to allow the maximum number of salmon to reach their ultimate 
destination, the habitat our farmers are going to make sure is 
there.
    Commercial fishermen are facing the same dilemma our 
loggers faced during the spotted owl debacle, and both of you 
know what we went through on that. And our farmers and ranchers 
are very sympathetic to them. We firmly believe that the 
government should not eliminate the livelihoods of fishermen, 
as was done to the loggers. We believe it would be a wise use 
of taxpayer dollars to buy back the commercial fishing 
licenses.
    If you address commercial, you must also address tribal 
fishing, and we ask the federal government to negotiate with 
the tribes and appropriate funding and help to pay back for 
their tribal fishing rights over the next fifteen years as 
well. We're all going to have to be in this together.
    Farmers and ranchers are facing tough economic times at the 
same time that they're being asked to pay for improving salmon 
habitat. If we are going to preserve salmon habitat, we need to 
focus on keeping out landowners in business. Farmers are 
seriously looking at getting out of business because of 
burdensome regulations and bad markets, and even our government 
agencies agree that productive farmland provides better habitat 
for salmon than subdivisions.

                           prepared statement

    Congressman Dicks, you mentioned the CREP program. We think 
that's an excellent program, but we want to make sure that not 
all the funding would go to that, because it does not meet the 
needs of all of our farmers out there. So we want to make sure 
that there is--'cause it does not--it does not fit all the 
commodity groups.
    We were pleased that you asked for ways to empower private 
and volunteer efforts, and we urge you to seriously consider 
it, and we look forward to working with you. Thank you.
    Senator Gorton. Thank you.
    [The statement follows:]
                  Prepared Statement of Linda Johnson
    We appreciate the opportunity to provide the private landowners 
view on how federal dollars should be spent for functionally important 
salmon recovery projects. We believe that Congress needs to allocate 
federal dollars in several areas: directly to the State for funding on-
the-ground projects for habitat restoration. To Federal In-State 
Agencies for addressing predation problems, which can not be addressed 
by the State. And for license buy-back for both commercial & tribal 
fishing. Without a comprehensive approach to all three of these areas, 
we believe our state will be setting itself up for failure. I will 
address each of these areas briefly.
    We firmly believe that any federal funds made available must not 
infringe on the autonomy of individual states, nor hamper the states, 
local governments, private landowners and concerned individuals from 
developing creative and flexible solutions.
    Both Farm Bureau and the Cattlemen's Association believe it is 
critical that Congress allocates federal funding to the State 
Legislature, not a government agency or individual organizations. The 
Legislature, as well as agriculture and the business community want to 
ensure accountability to the public for the taxpayer dollars which will 
be spent. As a result, there is currently legislation moving which has 
strong bi-partisan support in both the Senate & House that will require 
that all salmon recovery funding, state and federal, go to one central 
group. All private landowners, volunteer organizations and agencies 
will have to apply to this central group for project funding. Those 
receiving funding must report back to the Legislature the next year 
with results. The Legislature believes those who receive funding need 
to show their projects were successfully completed before applying for 
additional project funding.
          federal funding to the state for habitat restoration
    We believe Congress should specify that federal funding must be 
used only for on-the-ground projects. This funding should not be 
allocated for studies, or full-time employees within agencies or 
organizations, as we firmly believe these should be the responsibility 
of state, not federal, taxpayers. Last year the Governor signed into 
law two pieces of legislation which we believe provide the groundwork 
for salmon recovery efforts in our state. HB 2496 is the critical 
pathway piece, which places the funding on the ground for stream 
projects, such as, removal of fish passage-barriers, and creating 
resting pools. HB 2514 authorized watershed planning, which takes place 
at the local Water Resource Inventory Area (WRIA). Both of these take a 
strong local level approach to salmon recovery and FB and Cattlemen 
supported these bills for that reason. The state legislature has 
indicated strongly that it plans to continue in this direction and will 
ensure that federal funding is directed through these locally driven 
programs.
    Currently our State Legislature is considering providing funding 
for the U.W. School of Fisheries, Columbia Basin Research office for 
the purpose of a Geographical Information Survey or other appropriate 
scientific reconnaissance survey of Washington State for potential off 
stream water storage projects. The purpose and focus of the study is to 
identify those basins which would benefit from stream flow 
augmentation, temperature and other limiting factors for salmon/
steelhead restoration. The result of such study shall be reported to 
the legislature by the end of this year and then be provided to all 
watershed planning groups authorized under HB 2514. Watershed planning 
groups would use the results of this study for critical pathway 
projects authorized under HB 2496.
    Federal and state funding should be made available for off-stream 
storage projects, which is an excellent way to mitigate instream flow. 
This approach ensures instream flow when it's needed by capturing 
floodwaters that destroy property, salmon habitat and reads, the nests 
containing salmon eggs, every winter. In December of 1998, Governor 
Locke had to declare a state of emergency and provide disaster 
assistance to 11 counties. Off stream storage would then be available 
later in the year when fish, cities and agriculture are competing for 
water, which helps the economy and the fish.
    We believe that federal funding could also be directed (via the 
central state program) to the Conservation Districts, which already 
work closely with private landowners. The Conservation Districts are 
currently very focused on farm plans and implementation of the 
Conservation Reserve Enhancement Program. However, since not all 
commodity groups are eligible for CREP we would ask that Congress not 
place all their funding into this specific program. We would instead 
ask that additional funding be directed towards farmers and ranchers 
that have specific projects that if implemented on their private 
property would be beneficial for salmon recovery. This would 
accommodate the much needed innovation farmers are so good at.
       federal funding to in-state federal agencies for predation
    We firmly believe that if we do not address predation and only 
focus on habitat that we will not be successful in restoring salmon to 
our rivers and streams. Agriculture is prepared to do what needs to be 
done on the ground to ensure good spawning habitat, but if salmon can't 
get past the predators at the mouth of the rivers we will have spent 
money in vain. Therefore it is critical that the Federal Government 
address the predation problems that our State is not authorized to 
handle. We would like to see Congress authorize funding to the 
Washington State branch of the Wildlife Service under USDA. Provide 
them the resources to take care of the terns at Rice Island at the 
mouth of the Columbia River. Perhaps it is as simple as Senator Marilyn 
Rassmussen suggested. We place pigs on the island to root out and eat 
the eggs. Terns won't stay where they can't nest and that eliminates 
them feeding the young smelts to their young. We also want to ensure 
that Congress provides funding to the federal agency that can address 
the sea lion predation.
     federal funding for buy-back of commercial and tribal licenses
    Federal management has led commercial fishermen to the same dilemma 
our farmers' face and we are very sympathetic to them. However, we 
believe that if we are to provide good habitat, and eliminate the 
natural predators we would be remiss in not addressing the harvest 
issue. It is critical that we stop all fishing of salmon by-catch for a 
period of 15 years in order to take the pressure off and ensure that 
the largest number of salmon reach their ultimate destination and are 
able to lay eggs and fertilize the next generation. We also firmly 
believe that the government should not be eliminating the livelihoods 
of fishermen, as was done to the loggers during the spotted owl 
debacle. Therefore, we believe it is a prudent use of taxpayer dollars 
to buy-back both commercial fishing licenses and tribal fishing rights.
    Farmers and ranchers are facing very tough economic times at the 
same time that they are being asked to pay for improving salmon 
habitat. If we are going to restore and preserve salmon habitat we need 
to focus on keeping landowners in business. Farmers are seriously 
looking at getting out of business because of over burdensome 
regulations and bad markets. Even government agencies agree that 
productive farmland provides better habitat for salmon than subdividing 
farms into five-acre home-sites. We firmly believe the government 
should be looking at tax incentives for those individuals who want to 
stay in agricultural production, perhaps things like the open space tax 
breaks, which we believe has helped to keep land in open space.
    We are pleased that you are asking for ways to empower private and 
volunteer efforts and urge you to seriously consider the suggestions we 
have provided.
                                 ______
                                 
               Key Points of the Forests & Fish Agreement
    After two years of preparation and negotiations, five stakeholder 
groups produced a science-based protection plan for water quality and 
fish habitat covering 8 million acres of private forest land in 
Washington. This Forests & Fish agreement will make significant changes 
in forest management practices and ensure that forest streams continue 
to flow with the clear, cool water that fish need.
    The Forests & Fish agreement is part of Governor Gary Locke's state 
Salmon Recovery Strategy, and the legislation to implement the 
agreement is being considered by the Washington State Legislature. In 
addition to the governor's office, the parties to the agreement include 
federal and state agencies, a number of the treaty tribes, county 
government and private forest landowners. The agreement is historic in 
that it is anticipated to meet the requirements of both the federal 
Endangered Species Act and federal Clean Water Act. Here are key points 
of the agreement:
                          riparian protection
    The most far-reaching changes are in riparian (streamside) zones, 
where new buffer zones will provide shade and contribute large wood 
pieces into streams. A complex set of standards prohibits forest 
management activity near streams and limits activity in areas up to 200 
feet on each side of a stream. The agreement covers 60,000 miles of 
streams.
  --All fish, resident and anadromous, game fish and non-game fish will 
        receive protection. Current rules limit protection to game fish 
        or salmon.
  --All steams that provide fish habitat will receive the same 
        protection as streams where fish are currently present.
                      westside riparian strategies
    West of the Cascade crest, fish habitat streams will be protected 
with three-zone buffers, based on the potential height of a tree on a 
specific site.
  --The core zone, next to the stream, is a 50 foot-wide ``no-touch'' 
        area.
  --Next, an inner zone, from 80 up to 150 feet wide, will have 
        restricted management.
  --Beyond that will be an outer zone, managed to leave up to 20 trees 
        per acre for the protection of special features.
    Non-fish habitat streams or streams that are not expected to be 
occupied by fish will also be protected.
                      eastside riparian strategies
    The agreement also protects Eastside streams with three-zone 
buffers, again based on tree height while recognizing different 
climatic and forest health conditions east of the Cascade crest.
  --A no-touch core zone of 30 feet, equivalent to the west based on 
        Eastside's smaller tree size.
  --Fixed inner zones with restricted management of either 45 feet or 
        70 feet, depending on stream size.
  --An outer zone, determined by potential tree heights, managed to 
        leave between 10 and 20 trees per acre depending on forest 
        habitat types.
    Non-fish habitat stream protection is equal to the western 
Washington strategy.
                            unstable slopes
    Significant improvements in the forest practices permit process to 
prevent landslides. The most hazardous areas will be identified and 
operations there severely restricted.
                                 ______
                                 
                 Northwest Indian Fisheries Commission
             tribes encouraged by forestry pact discussions
    Olympia (3/12/99).--Treaty Indian tribes in Washington are 
encouraged by results of recent discussions regarding implementation of 
a new statewide forestry compact that responds to the demands of the 
Endangered Species Act by protecting salmon and their habitat while 
still allowing timber harvests on private lands.
    The compact, called the Forestry Module, was negotiated in a 
collaborative process over the past year. In addition to the tribes, 
participants included the timber industry and state and federal 
agencies. Legislation to enact the proposal is now before the State 
Legislature. Tribal, industry and federal participants met earlier this 
week in Portland to fine-tune the proposal. The pact will be refined 
over the next two years, when it is expected that the agreement will be 
given federal approval.
    ``We were encouraged by efforts to address tribal concerns,'' said 
Pearl Capoeman-Baller, chairwoman of the Quinault Indian Nation. ``We 
have developed draft language for the agreement that generally 
addresses tribal concerns,'' she said. Those concerns included:
  --A need for stated resource objectives to provide standards against 
        which protection measures can be measured. The participants 
        expect to complete the objectives within the next few months.
  --A need for further refinement of targets for ``desired future 
        conditions'' along streams. This is a requirement that an 
        adequate volume and number of trees per acre be left along 
        streams after timber harvesting has occurred to ensure 
        appropriate habitat conditions for fish.
  --Development of so-called ``off-ramp'' options must be developed to 
        address what happens to the pact if part or all of the 
        agreement's requirements are not met.
  --Development of a dispute resolution process must be developed if 
        the parties are unable to meet the stated objectives.
    ``Each tribal government will eventually have to decide whether 
this package is acceptable,'' said Billy Frank Jr., chairman of the 
Northwest Indian Fisheries Commission. ``Some tribes have concerns 
about riparian zone widths, the complexity of the agreement, and 
assurances that it will be implemented. The tribes have suffered 
disproportionately from non-Indian land-use practices, particularly 
timber harvests. This is not an easy decision for the tribes.''
    ``While not perfect, this agreement should provide meaningful 
protection to salmon and their habitat,'' said Lorraine Loomis, 
Swinomish tribal fisheries manager. ``Oversight by other participants 
in the process, such as the National Marine Fisheries Service, will 
help ensure that protection is meaningful,'' she said. The NMFS is 
responsible for implementing the Endangered Species Act.
    ``Cooperation has been the key in developing this agreement and 
cooperation will be the key to its implementation. We can only get to 
where we need to be if we work together. We must manage our natural 
resources as a whole in a way that addresses their needs,'' she said.
    ``The adaptive management provisions are solid and will close the 
loop to scientific uncertainty and risk,'' said Bob Kelly, Nooksack 
tribal natural resources director. ``When new information comes 
available through the prescribed process, we are assured that it will 
be fully evaluated and appropriately acted upon,'' he said.
    ``This is just the first plank in of a statewide salmon recovery 
effort,'' said Dave Sones, Makah tribal natural resources director. 
``We must now turn our sights upon poor agricultural practices, 
excessive water withdrawals and excessive, growth-induced urban and 
suburban sprawl.''
    For more information contact: Jim Anderson, Executive Director, 
NWIFC, (360) 438-1180; Tony Meyer, NWIFC, (360) 438-1181 ext. 325.
                                 ______
                                 
               Questions and Answers on Forests and Fish
    What is the Forests and Fish agreement?
    It's an agreement developed over 18 months by scientists, resource 
management specialists and leaders in federal and state agencies, 
counties, large and small forest landowners and Native American Tribes. 
It creates rigorous new forest practice requirements designed to meet 
the federal Endangered Species Act and Clean Water Act. It's a critical 
component of an overall plan this state must develop to respond to the 
listing of salmon and other fish species under the Endangered Species 
Act.
    How is it different than the legislation in Olympia?
    The legislation, introduced as House Bill 2091 and Senate Bill 
5896, provides the mechanisms to implement the agreement.
    What are the major provisions of the legislation?
    It directs the Forest Practices Board to adopt the Forests and Fish 
agreement, which makes major changes in state regulations affecting 
more than 60,000 miles of streams on 8 million acres of private 
forestland. To meet Clean Water Act goals, the regulations are based on 
thorough scientific review and debate and are designed to provide cool, 
clear, clean water in streams on private lands. To meet Endangered 
Species Act goals of protecting fish and their habitat, the bill 
establishes wider areas of no-cut buffers to be left along streams, 
restrictions on logging on steep slopes, and calls for new, strict 
standards for road construction to reduce sediment. It also ensures 
that if these goals aren't met, changes to the regulations will be 
based on science.
    What will the legislation do?
    It more than triples the amount of private land that must be set 
aside to protect fish-bearing and non-fish-bearing streams. It will 
improve roadbuilding and other forest practices. The state of 
Washington has already negotiated a Habitat Conservation Plan for 70 
years on 1.6 million acres of land. Together with the Habitat 
Conservation Plans already in place in this state for federal and state 
forestlands, this legislation will provide the State of Washington with 
the greatest level of protection for forests and streams of any state 
in the country. The legislation protects salmon, protects water, grows 
old growth streamside habitat, and preserves a viable forest products 
industry.
    Critics characterize the legislation as a windfall for the timber 
industry. Is it?
    The bill will restrict activities on private forestland that has an 
estimated current value of $2 billion in western Washington alone. In 
other words, private landowners in western Washington would forego an 
estimated $2 billion inland and timber value. The bill provides some 
compensation, in the form of a cut in taxes that private landowners pay 
on timber that is harvested. It also provides compensation to small 
woodlot owners as an incentive to keep lands as forests, rather than to 
turn them into more profitable development. That compensation would be 
50 percent of the value of the timber they couldn't harvest. For large 
landowners it will be less than 10 percent of the value of the timber 
dedicated to the fish.
    What impact will this legislation have on the timber industry?
    To comply with the legislation, many companies would have to reduce 
their harvest levels over time. Keep in mind that many harvest plans 
already reflect stream set-asides that go beyond the current rules. 
Despite reductions in harvest, the result of the legislation will help 
the industry viable and allow landowners to stay in the business of 
growing forests on private lands.
    Is this an industry agreement?
    No. This is an agreement negotiated among five key groups with a 
stake in fish and water protection. The industry gave up a great deal 
and in exchange will be able to remain a viable industry into the next 
century. State, federal and tribal scientists and responsible leaders 
drove this agreement and dictated its terms.
    Who is supporting the agreement?
    The signatories to the agreement include the National Marine 
Fisheries Service and U.S. Fish & Wildlife Service, which are 
responsible for the Endangered Species Act as relates to fish species, 
and the Environmental Protection Agency, which is responsible for the 
Clean Water Act. Others include the state departments of Ecology and 
Fish & Wildlife, the governor's office, Treaty Tribes, the timber 
industry, both small and large woodland owners, and the counties.
    Is this just an attempt by industry to avoid a federal endangered 
species listing?
    There is no avoiding a listing--we've known it was coming for some 
time. But the federal government allows a landowner to continue 
operations if they negotiate a Habitat Conservation Plan. This HCP-like 
agreement does more than spell out protections for the fish; it also 
meets the standard set by the Clean Water Act. The negotiations leading 
to this agreement were entered into by state and federal agencies, the 
tribes, environmental groups, the timber industry, small landowners and 
the counties to fashion a solution that meets the requirements of both 
the federal Endangered Species Act and the Clean Water Act on 
nonfederal forestland. That's what's been done, and that's why the 
federal agencies responsible for the Endangered Species Act and the 
Clean Water Act are supporters of this agreement. As far as we know, 
it's the first time that a state-based plan has been proposed to meet 
both of these federal laws, an historic and important national 
precedent.
    Why are forest landowners part of this process? What do they want?
    Forest landowners, both large and small, want a balance between 
habitat and business needs. Since 1987, the forest products industry 
has worked collaboratively through the Timber, Fish & Wildlife process 
to resolve concerns over forest practices. The belief is that 
collaboratively developed, scientifically based solutions are the most 
lasting and minimize the risk of litigation and controversy. Landowners 
must be successful as a business, and if people want them to keep 
growing trees, the only way to seek a balance is to be part of 
developing a solution.
    Weren't environmentalists part of this process? What do they think?
    The Forests & Fish legislation is based on a package negotiated 
among large and small landowners, tribes, state and federal agencies, 
and county governments. It began as part of Timber-Fish-Wildlife, a 
unique forum created in 1987 in Washington as a way to resolve forestry 
issues without court or regulatory battles. Negotiation on this 
agreement began in November 1997. Members of the environmental caucus 
withdrew from the discussions at a meeting in September 1998 saying 
they had run out of time and resources. They since have come up with 
their own salmon protection package, but it would exact a much higher 
toll--so high that few private landowners could afford to operate and 
would have to consider converting their land to other uses. The hope is 
that the environmental groups will be part of the process again, 
joining in implementation, monitoring and adaptive management 
processes.
    Why are forest landowners asking for compensation?
    Implementing these rules will result in management restrictions on 
more than 15 percent of private forestlands in Washington, resulting in 
a loss of value estimated at more than $2 billion in western Washington 
alone. These are public resources being protected. It's imperative that 
the public share in these enormous costs so that forestlands can 
continue to be managed as forests into the future. Absent compensation, 
some landowners would choose to convert these lands from forests to 
housing, parking and other uses. How will the salmon survive such 
choices?
    What about risk? Isn't there too much risk to salmon and other fish 
in this bill?
    Scientists from all sectors believe the Forests & Fish legislation 
will lead to significant improvement along 60,000 miles of stream 
habitat. Scientists from state and federal regulatory agencies have 
been part of the process since the beginning. The plan is dynamic--with 
built-in systems for adaptation and change to protect precious public 
resources. On the other hand, there will be tremendous risk if action 
is not taken. In the time it takes to have this issue resolved in a 
federal courtroom, significant amounts of land could be converted to 
other uses and depressed fish stocks could dwindle even further. The 
salmon can't wait.
    What is ``adaptive management''?
    It is management that adapts to new information or changing 
conditions. The agreement is the most flexible of any plan agencies 
have negotiated under ESA in that it includes strong adaptive 
management measures, ensuring that if monitoring or research data 
demonstrates problems, changes will be made. Most important, these 
changes will be based on science, not politics.
    Wasn't this agreement worked out in a vacuum without public 
participation?
    The Forests & Fish agreement was developed by public agencies and 
private landowners working through tough issues together over more than 
15 months. The public and the Forest Practices Board were updated 
almost monthly during that time. Now that it's been crafted, it is the 
subject of very public debate in the Legislature. There have been and 
will be numerous public hearings and additional opportunities for 
public input. Every citizen in the state will have representatives and 
senators voting on this issue. Finally, both NEPA and SEPA processes 
will be fully invoked during the next two years, assuring further 
public involvement before final approval.
    Why is a negotiated agreement going to the Legislature? Why doesn't 
the agreement go to the state Forest Practices Board?
    The Forests & Fish plan will go to both bodies. The federal 
agencies that negotiated this agreement want ``certainty of 
implementation.'' They didn't spend 15 months developing an agreement 
just to have it overturned or debated another 15 months or more. It is 
uncertain whether the Forest Practices Board would approve the 
negotiated agreement, change it entirely, or just keep debating it. 
Given that uncertainty, the only alternative was to turn to the state's 
elected body, give the agreement a fair hearing and ask legislators to 
ratify an agreement that has the blessing of the governor, government 
scientists, landowners and tribes. By passing this legislation, the 
Legislature can speed up what would be an otherwise time-consuming 
rules-adoption process that might otherwise take two to three years, to 
the benefit of fish, who can't wait. It would allow the state Forest 
Practices Board to adopt the negotiated package as interim rules exempt 
from the time-consuming administrative procedures process. The Forest 
Practices Board would then follow a normal rule-making process to adopt 
the permanent rules. Adoption would also allow federal agencies to get 
a jump start on their approval process, which can take 18 to 24 months. 
And, federal agencies require the certainty of funding, which must come 
from the Legislature.
    Why does the legislation require a two-thirds majority vote of the 
Forest Practices Board to change the negotiated agreement?
    The legislation provides a mechanism for the board to change the 
agreement, provided that such changes are necessary after environmental 
and economic review. Given the broad support for this agreement, it is 
reasonable for our elected representatives to provide guidance to the 
Forest Practices Board. In addition, when the state and federal 
agencies, tribes, landowners and others have negotiated such an 
important agreement, it should be hard to change. The supermajority 
voting requirement applies only to initial adoption of the rule 
package, not to adaptive management. The board returns to its normal 
processes when amending the plan based on adaptive management. Partners 
to the agreement have discussed alternative approaches to the 
supermajority with a number of key legislators.

                    SUMMARY STATEMENT OF MIKE MILLER

    Senator Gorton. Mr. Miller.
    Mr. Miller. Thank you. Good afternoon.
    I'm President of Pacific Properties, one of the Murray 
Franklyn family of companies. We are one of the largest home 
builders in the Northwest, so the listing of the salmon 
obviously has a direct impact on----
    Senator Gorton. Would you get the microphone a little bit 
closer?
    Mr. Miller. Oh, I'm sorry.
    Senator Gorton. And lift it up a little.
    Mr. Miller. Lift it up?
    Senator Gorton. Yeah. Tilt it upwards. Yeah.
    Mr. Miller. I am here on behalf of the Master Builders, the 
2350 members of the--company members of the Master Builders 
Association of King and Snohomish Counties and their more than 
50,000 employees in the Puget Sound region home building 
industry, and I am pleased to comment on the recent listing of 
the Chinook salmon as threatened under the Endangered Species 
Act.
    I want to thank both of you for inviting us to participate 
in this meeting today, and without your commitment and hard 
work on our behalf, complying with the ESA requirements 
regarding Chinook habitat protection would be prohibitively 
expensive and difficult for this region to accomplish. Also, 
the Master Builders Association thanks each of you for taking 
time from your very busy schedules to be here and to listen to 
us all.
    The Master Builders have been active participants in the 
Tri-County salmon process for the past year. Our Executive 
Officer, Sam Anderson, is an appointee to the thirty-four-
person Tri-County Executive Committee and association members 
participate in or monitor meetings of various Tri-County 
subcommittees and watershed planning groups. Also, we are part 
of the Tri-County 4(d) rule negotiation process with the 
National Marine Fisheries Service.
    The Association embraces the Tri-County process because 
builders felt it was important that the economic and 
environmental destiny of this region must be determined 
locally, not by a federal agency. Originally, the Tri-County 
effort was to emulate the Oregon coastal coho threatened 
listing model by attempting to avert listing of the Chinook 
through creating preservation and restoration plans which NMFS 
could endorse as not requiring listing of the species. That 
goal was abandoned after the court struck down the Oregon plan. 
However, the philosophy of the original goal should not be 
lost.
    Like most businesses in this region, home builders are 
committed to preserving and restoring the Chinook salmon, while 
continuing to build the homes demanded by our booming economy. 
We are willing to do our fair share to preserve and protect 
salmon habitat through environmentally responsible development 
regulations, environmentally sensitive building practices and 
growth management strategies.
    King, Snohomish and Pierce Counties already have many of 
the toughest storm water drainage requirements, critical area 
protection ordinances, shoreline development restrictions, and 
mandatory environmental analysis of any local government in 
America. For years, Tri-County builders have protected salmon 
and their habitat by complying with the existing development 
regulations. To the credit of the regional governments, it 
doesn't take the listing of Chinook to establish protection for 
the species; it is already here in the current regulatory 
scheme. What is needed is better enforcement of the current 
processes and requirements.
    It is important to note that the listing of the Chinook 
does not occur in a vacuum. In 1990, Washington adopted the 
Growth Management Act, which required comprehensive land 
planning aimed at protecting rural lands, preventing sprawl, 
conserving environmentally sensitive areas, and maximizing 
infrastructure cost/benefit and other objectives. In the Puget 
Sound region, comprehensive plans were approved, after public 
debate, and Urban Growth Areas were established. Within the 
Urban Growth Areas is where the density of housing development 
is to be concentrated. It is in this context of maximizing 
land-carrying capacity within designated growth areas that 
salmon habitat preservation and restoration must be addressed.
    I am here today to urge two points. First, the three Puget 
Sound counties have each submitted an early action plan to NMFS 
asking that the Service create a flexible 4(d) rule concerning 
land use activities. We believe that NMFS must write a rule 
that adopts the current counties' development regulations and 
commitments made in the early action plans. Without such a 
flexible rule, local development permitting authorities may be 
afraid to issue the various permits needed for lot development 
and home building because to do so could be defined as a 
``take'' under the ESA. Moreover, failure of NMFS to write a 
flexible rule acknowledging that land development or home 
building activities are not prohibited actions, will assuredly 
unleash numerous third-party lawsuits against both public and 
private land-impacting projects by individuals who desire only 
to stop growth, and not protect fish.
    All through the Tri-County process, NMFS representatives 
have maintained that the solution to saving the Chinook should 
be locally based. Now is the time for them to adhere to their 
rhetoric. Comprehensive long-term watershed plans are being 
written which will protect and restore salmon habitat forever. 
NMFS must be reasonable and allow those planning efforts to 
unfold without imposing a 4(d) rule that causes short-term 
hardship on the region's citizens and businesses. All Puget 
Sound residents and businesses are being told we must spend 
billions of dollars and modify our personal and business 
behavior to protect and restore salmon. NMFS needs to write a 
4(d) rule that facilitates such actions, not create fear, chaos 
and unnecessary expense.
    My second point is that local governments, regional 
businesses, and citizens can do nothing to protect salmon from 
harvest practices. This region is being asked to invest 
billions of dollars, much of it federal funds, in protecting 
salmon habitat, while the species is still being harvested. The 
federal government must address the harvest issue and address 
the salmon treaty with Canada. That is not something the local 
region can do.
    Builders in the Puget Sound region will accept 
responsibility to protect salmon habitat and supply the housing 
this region will need for decades to come. We have already 
demonstrated our commitment through participation in the Tri-
County process and support of enhanced enforcement of current 
development regulations, but we cannot do it without 
consideration from NMFS in drafting the 4(d) rule and some 
change in policy regarding habitat--salmon harvest practices.

                           prepared statement

    As newspaper story after story has indicated, the citizens 
of this region want to recover the salmon. However, the 
importance of that is tied to the economy, and without a strong 
economy, or if the economy starts to falter because of this, I 
think you're going to start seeing people falling off. So it 
has to be done in the context with maintaining a strong, 
vibrant economy in this region. To prevent that type of 
situation from happening, we need to have NMFS writing 
responsible 4(d) rules that allow us to maintain that strong, 
vibrant economy.
    I want to thank you for allowing me to testify today. And 
thank you again for holding this field hearing.
    Senator Gorton. Thank you.
    [The statement follows:]
                   Prepared Statement of Mike Miller
    Good afternoon, I am Mike Miller, President of Pacific Properties, 
one of the Murray Franklyn family of companies. Murray Franklyn is one 
of the largest homebuilders in the Puget Sound region, constructing 
both single family and multifamily projects. On behalf of the 2,350 
member companies of the Master Builders Assn. of King and Snohomish 
Counties (MBA) and their more than 50,000 employees in the Puget Sound 
region homebuilding industry, I am pleased to comment on the recent 
listing of the Chinook salmon as threatened under the Endangered 
Species Act (ESA).
    Initially, I want to thank you Senator Gorton and Congressman Dicks 
for your efforts in securing federal funding to address the regional 
financial burden that listing of the Chinook will impose on local 
governments, businesses and citizens. Without your commitment and hard 
work on all our behalf, complying with the ESA requirements regarding 
Chinook habitat protection would be prohibitively expensive and 
difficult. Also, Master Builders Assn. thanks each of you for taking 
time from your very busy schedules to hold this field hearing and 
listen to the various groups and citizens on this important issue.
    The Master Builders has been an active participant in the Tri-
County salmon process for the past year. Our Executive Officer, Sam 
Anderson, is an appointee to the 34 person Tri-County Executive 
Committee and association members participate in or monitor meetings of 
various Tri-County subcommittees and watershed planning groups. Also, 
we are part of the Tri-County 4(d) rule negotiation process with the 
National Marine Fisheries Service (NMFS.)
    The Association embraced the Tri-County process because builders 
felt it was important that the economic and environmental destiny of 
this region must be determined locally, not by a federal agency. 
Originally, the Tri-County effort was to emulate the Oregon coastal 
Coho threatened listing model, by attempting to avert listing of the 
Chinook through creating preservation and restoration plans, which NMFS 
could endorse as not requiring listing of the species. That goal was 
abandoned after the Court struck down the Oregon plan. However, the 
philosophy of the original goal should not be lost.
    In our opinion, there is little that comes from listing the Chinook 
that could not be accomplished under the threat of listing. Listing 
only adds section 7 consultation requirements for federal agencies, 
puts public and private landowners and users at risk for ``take'' and 
opens the door for indiscriminate third party lawsuits. Planning and 
committing to restore the Chinook can be accomplished without listing 
it as threatened. But, it is listed and we will work to make sure that 
a long-term plan for its recovery is adopted.
    Like most businesses in this region, homebuilders are committed to 
preserving and restoring Chinook salmon, while continuing to build the 
homes demanded by our booming economy. We are willing to do our fair 
share to preserve and protect salmon habitat through environmentally 
responsible development regulations, environmentally sensitive building 
practices and growth management strategies. In fact, homebuilders in 
the Tri-County region already build some of the most ``salmon 
friendly'' and environmentally compatible homes in the country.
    King, Snohomish and Pierce Counties already have many of the 
toughest storm water drainage requirements, critical area protection 
ordinances, shoreline development restrictions and mandatory 
environmental analysis of any local governments in America. For years, 
Tri-County builders have protected salmon and their habitat by 
complying with existing development regulations. To the credit of the 
regional governments, it doesn't take the listing of the Chinook to 
establish protection for the species; it is already here in the current 
regulatory scheme. What is needed is better enforcement of the current 
processes and requirements.
    It is important to note that listing of the Chinook does not occur 
in a vacuum. In 1990, Washington adopted the Growth Management Act, 
which required comprehensive land planning aimed at protecting rural 
lands, preventing sprawl, conserving environmentally sensitive areas, 
maximizing infrastructure cost/benefit and other objectives. In the 
Puget Sound, comprehensive plans were approved, after public debate, 
and Urban Growth Areas (UGA) were established. Within the UGAs is where 
the density of housing development is to be concentrated. It is in this 
context of maximizing land carrying capacity within designated growth 
areas that salmon habitat preservation and restoration must be 
addressed.
    I am here today to urge two points. First, the three Puget Sound 
Counties have each submitted an Early Action Plan to the NMFS, asking 
that the Service create a ``flexible'' 4(d) rule concerning land use 
activities. We believe that NMFS must write a rule that adopts the 
current Counties' development regulations and commitments made in the 
Early Action Plans. Without such a ``flexible'' rule, local development 
permitting authorities may be afraid to issue the various permits 
needed for lot development and homebuilding because to do so could be 
defined as ``take'' under the ESA. Moreover, failure of NMFS to write a 
``flexible'' rule, acknowledging that land development or homebuilding 
activities are not prohibited actions, will assuredly unleash numerous 
third party lawsuits against both public and private land impacting 
projects by individuals who desire only to stop growth, and not protect 
fish.
    All through the Tri-County process, NMFS representatives have 
maintained that the solution to saving the Chinook should be locally 
based. Now is the time for them to adhere to their rhetoric. 
Comprehensive long-term watershed plans are being written which will 
protect and restore salmon habitat forever. NMFS must be reasonable and 
allow those planning efforts to unfold without imposing a 4(d) rule 
that causes short-term hardship on the region's citizens and 
businesses. All Puget Sound residents and businesses are being told we 
must spend billions of dollars and modify our personal and business 
behavior to protect and restore salmon. NMFS needs to write a 4(d) rule 
that facilitates such actions, not creates fear, chaos and unnecessary 
expense.
    My second point is that local governments, regional businesses and 
citizens can do nothing to protect salmon from harvest practices. This 
region is being asked to invest billions of dollars, much of it federal 
funds, in protecting salmon habitat, while the species is still being 
harvested. Just recently, a Canadian government report by natural 
resources economist, Marvin Shaffer, reported that over $1 billion will 
be spent on in-river salmon recovery programs to improve salmon 
habitat. Shaffer's report concluded that reduced ocean fishing was 
critical to the success of salmon recovery efforts.
    Even Trout Unlimited President, Charles Gauvin, argued in a New 
York Times letter that the benefits of the sacrifices the Puget Sound 
region is being asked to make is for naught, unless over-harvesting of 
salmon on the high seas is addressed. He points out the obstacle to 
better harvest management is the deadlocked negotiations over the 
United States and Canada salmon treaty.
    Builders in the Puget Sound will accept responsibility to protect 
salmon habitat and supply the housing this region will need for decades 
to come. We have already demonstrated our commitment through 
participation in the Tri-County process and support of enhanced 
enforcement of current development regulations. But, we cannot and will 
not do it without consideration from NMFS in drafting the 4(d) rule and 
some change in policy regarding salmon harvest practices. As newspaper 
story after story has indicated, the citizens of this region want to 
recover the salmon. That level of enthusiasm and support will remain as 
long as the economy is growing, unemployment is low and people have a 
place to live. We wonder if the public's zeal for salmon recovery would 
be the same, if there were no jobs, recession and unaffordable housing. 
We submit it would not. To prevent that situation, we need NMFS writing 
a responsible and ``flexible'' 4(d) rule, tougher harvest management 
and continued federal financial resources.
    Thank you for allowing me to testify today. And thank you again for 
holding this field hearing.

                   SUMMARY STATEMENT OF ROBERT KELLY

    Senator Gorton. Mr. Kelly.
    Mr. Kelly. Thank you, Senator. First of all, I'd like to 
thank both yourself and Congressman Dicks for your leadership 
in the past few months as far as funding is concerned----
    Mr. McDermott. Pull it a little closer.
    Senator Gorton. Yeah. A little closer. Yeah.
    Mr. McDermott. Speak into it.
    Mr. Kelly [continuing]. As far as funding is concerned for 
the region. I'm assuming that you have a copy of my written 
testimony, so----
    Senator Gorton. We do, and it's in the record.
    Mr. Kelly [continuing]. I am going to limit my comments to 
just a few bullets.
    First of all I'd like to say that the tribes are committed 
to doing their part to recover salmon in the State of 
Washington. We always have been committed to recovering salmon 
and sustaining harvestable numbers of fish.
    In regards to United States-Canada, tribes are at the 
table. We have a tribal representative in Ron Allen from the 
Jamestown S'Klallam tribe that's a very active participant on 
the tribes' behalf. We feel that the discussions are going 
well, and that within the next--hopefully within the next 
coming months, due to some concessions on large part by the 
tribes and others in the fishing community, that we can get an 
agreement that we will be able to----
    Senator Gorton. Keep yourself close to that microphone. I 
don't think people in the back are hearing you.
    Mr. Kelly [continuing]. That we will be able to integrate 
into some watershed planning efforts that are currently under 
way.
    Tribes--we basically have a tribe in every river basin at 
least on the west side, if not the whole State of Washington. 
And those folks--and we feel that that expertise will be an 
integral part of recovery efforts, and are willing to lend that 
expertise as needed. Many of the tribes have already formed 
partnerships with local governments in an effort to form 
recovery plans that are based on science. We do not want to see 
money spent on projects that are not tied to solid 
implementation plans because of what we have heard from NMFS.
    Our goal is obviously harvestable number of fish, not only 
for ourselves, but for all the citizens of the state. Having 
said that, we do not feel that we need to apologize for the 
harvest. Conservation has always been a cornerstone of tribal 
fisheries management, and will continue to be so in the future.

                           prepared statement

    Tribes, many years ago, seeing that Chinook were declining, 
in some cases have not conducted fisheries for over twenty 
years on those wild stocks. Those--some tribal Chinook 
fisheries should not be confused with fisheries that are 
targeted towards hatcheries. It's for this reason that we, the 
tribes, feel the federal government has a trust responsibility 
to protect treaty fishing rights as a property right of tribes, 
and that there is a need for some sort of mitigating the loss 
of this property until the resource is recovered to harvestable 
numbers.
    With that, I'll end my testimony.
    Senator Gorton. Fine. Thank you very much.
    [The statement follows:]
                   Prepared Statement of Robert Kelly
    Honorable members of the committee, I am Robert Kelly, Natural 
Resource Manager for the Nooksack Indian Tribe and Commissioner to the 
Northwest Indian Fisheries Commission. I am pleased to testify before 
you today on behalf of the Treaty Indian Tribes of western Washington 
as well as my own tribe.
    As Chairman Billy Frank has told you, the Treaty Indian Tribes are 
the co-managers of the fisheries resource in this state. I am pleased 
to inform you that we have always taken our role as fisheries managers 
very seriously. We live on the rivers. We are connected with them 24 
hours a day, and we know what they need to be happy. We know what it 
will take to restore the salmon resource, and we are actively engaged 
in the effort to do so. Salmon restoration is not a matter of even more 
cutbacks in fishing as much as it is a matter of restoring the habitat 
needed to sustain fish. Fishing should be a desirable objective for us 
all. It is particularly significant to the tribes. It has been our 
legacy for thousands of years. Our objective is to increase, not 
decrease, our ability to harvest--with nets, in rivers. As good 
managers, we have always developed fisheries plans designed to conserve 
the resource, and we will continue to do so. Although it is popular 
among some people to think this form of fishing is the cause of salmon 
decline, the fact is that it is not. The fact is that salmon have 
continued to decline despite major cutbacks in our fisheries, and even 
in areas where there has been no fishing at all. Habitat restoration 
and protection are the keys to salmon recovery. That is the fact.
    The tribes do not apologize for fishing. To us, that would be like 
apologizing for breathing. We will fish whenever there are sustainable 
harvestable numbers of fish available. It is our treaty-protected 
right. It is who we are, and you, and anyone who understands and cares 
about the resource should be supportive of this position.
    To help preserve this lifestyle, we have always been involved in 
salmon management, and we will continue to do so. As the co-managers of 
the fisheries resource, we seek every opportunity to work with the 
state of Washington, as well as the federal government, in cooperative 
fisheries management. As inhabitants of our watersheds, we seek every 
opportunity to work with local governments, as well as other people, 
businesses and organizations that also call our watersheds their home.
    It is critical for this cooperation to take place, if the salmon 
resource is to be restored. The time for confrontation and polarization 
is long gone. If there is to be a salmon resource to sustain our 
children and our children's children we must be a team, and we must 
work together to protect our watershed home and the quality of life we 
enjoy.
    So, whether or not you view it as a legal mandate, the tribes must 
be integrally involved in salmon management at all levels, from 
resource assessment to land and water use planning, and from recovery 
efforts to monitoring. The tribes must be included with the state and 
federal government as co-managers of the resource, and in every aspect 
of local watershed planning.
    It is critical for you to join in assuring that government at all 
levels, as well as industry and the people at large understand these 
facts so that we all have the greatest possible opportunity to base 
salmon restoration on a solid foundation of comprehension and team 
effort. Such understanding is integral to meaningful progress. We are 
the fishing people. We are actively working on every watershed, and we 
need your support to continue doing so. We know what restoration looks 
like. It means ample, clean water in the rivers, free passage for 
adequate escapements to healthy spawning grounds. It means good 
riparian habitat, from the headwaters to the mouths of the rivers. It 
means ample natural feed in the form of insects, etc. It means healthy 
estuaries, meandering rivers and large organic debris. Habitat 
restoration projects must be designed with entire watersheds in mind, 
rather than just ``feel good'' or public relations opportunities. They 
must be planned with entire river systems in mind, and be based on good 
science, which the tribes help define. Healthy habitat must come hand-
in-hand with proper enhancement to provide broodstock for naturally 
spawning fish, as well as vital fisheries.
    Fisheries are, indeed, a vital component to the restoration and 
protection of the fish resource, and the objective of salmon recovery 
must be to achieve ``harvest-levels'' in our fish runs. The opportunity 
to fish is an opportunity to be in-tune with nature. To the tribes, it 
is essential to the fulfillment of our legacy. It is who we are. It is 
also fundamental to the fulfillment of treaty-protected rights and the 
federal trust responsibility.

                    SUMMARY STATEMENT OF TIM STEARNS

    Senator Gorton. Mr. Stearns.
    Mr. Stearns. Good morning.
    Senator Gorton. Get that microphone close.
    Mr. Stearns. OK. Hello. My name is Tim Stearns, and I'm one 
of the tri-chairs of Campaign for the Northwest, and the policy 
director for Save Our Wild Salmon. And I hope I'm up to the 
daunting task of trying to represent all of the conservation 
community today that works on forest planning, growth 
management, toxics issues, water quality, and water quantity, 
Puget Sound issues, dam issues, local, state, and regional 
groups.
    Campaign for the Northwest was put together because I think 
the environmental and conservation and fishing community found 
that our previous approaches were obsolete and needed to 
change. And we've worked to focus on the needs of the health of 
the salmon, and try to develop a coordinated campaign that is 
working around the needs of salmon.
    I went to a hearing yesterday in Hood River, Oregon where, 
frankly, the senators there dwelled on what we can't do and 
what we shouldn't do, and really we couldn't talk about what we 
should do. And this has been a nice departure, that we actually 
are talking about how we can work together and how we can move 
forward. We have a challenge ahead, and it was particularly 
valuable to have Senator Stevens here, whose cooperation and 
impatience we're going to rely on. Our failure to deal with our 
problems is affecting his fishery, and is affecting the United 
States-Canada agreement, and he's going to be crucial to 
developing that agreement.
    I look at this challenge as one of, we're trying to develop 
a new ethic; and that is, trying to redefine civilization so 
that it works with biologic health, so that the two things work 
together.
    It's clear that we have both urban and rural support to 
move through this challenge, but it is going to be a challenge. 
It's also clear that people have come to realize that what is 
good for salmon is also good for people, that protecting clean 
water and our high quality of life and restoring ailing 
watersheds is going to be good for all of us. Now, there's a 
lot of folks out there who just--all they can see when we talk 
about salmon and the Endangered Species Act are cost, cost, 
cost, and they ignore the benefits of the quality of life in 
this gorgeous area that we live in.
    This is a discussion of choices and decisions, of science 
and economics, but really it's a fundamental discussion about 
transition. Are we going to change by embracing it, or are we 
going to fight it? Now, my father is eighty-six, and he has an 
old philosophy I'd like to remind people of. In his eighty-six 
years he tells me that he's seen a lot of changes, and he's 
been against every single one of them. [Laughter.]
    And I would suggest that most of us come reluctantly to 
change, and big changes are harder.
    We've also had an interesting discussion of this issue in 
that the Snake and Columbia side of the state looks very tough. 
Puget Sound has clearly a booming economy that people are 
reluctant to jeopardize, so they're trying to take steps 
forward and embrace recovery. We need to take that whole ethic 
state-wide and embrace this issue.
    Salmon recovery is not rocket science. There is a famous 
science paper that suggests that rocket science has it easy--
rocket scientists have it easy. We know what salmon need. It's 
just the challenge is, how do we control our own activities and 
rely on our friends and neighbors to control their activities 
as well?
    What we need from you, and what we need now, is political 
leadership at every stage of government. I've been part of the 
Ruckelshaus process where we call for better coordination, and 
I don't think we have a magic bullet of how to coordinate. It's 
just, local watershed groups need to feel like they're part of 
it. They need to feel like the state and federal government are 
hearing them and including them.
    But there is going to be three basics to moving forward on 
this issue.
    One is, we need to follow the science. And the science is 
going to take us down some painful paths, but it's going to 
define what tracks we must react under. We cannot use science 
as a weapon for delay, or a weapon to divide. We need to use 
science to pull us together.
    The second major thing is, while restoration is vitally 
important, we cannot lose the good habitat and good stocks that 
we have now. We first must need to focus on protection. We also 
need to stop the harm that we continue to do. And we're doing 
that gradually, but we need to step that up. And we also can't 
roll the dice and take chances. For instance, we still don't 
have tugboats bringing oil tankers into Puget Sound. You know, 
we have the temporary program; we need a long-term program, 
because cleaning up all of Puget Sound after that kind of a 
disaster would be a disaster for all of us.
    Third major element: We need to enforce the law. We have 
lots of good laws on the books, but it's been difficult for us 
to do them.
    I just want to offer a few things that you two can help us 
deliver in the next year, and that are vitally needed. One is, 
it's time that we finally move forward on the Elwah dams. It's 
time that we finally protected Hanford Reach once and for all. 
It's also time that we expanded the CREP program so that it 
includes all crops, so that all of our agricultural folks can 
be included and take advantage of it.
    Follow the law, follow the science, stop the harm. Let us 
not go down the painful path we gone down on the Columbia, 
where we have been incapable of putting together one plan. Just 
saying no to dam removal is not a plan. We cannot suffer, in 
this basin and the rest of the state, from the inability to 
make decisions. We simply cannot throw $100 million a year at 
projects and hope they're going to work. We have to be much 
more disciplined. And we cannot depend on techno-fixes. We need 
healthy rivers.

                           prepared statement

    In closing, this is about relationships across geographies, 
across economies, across priorities. And frankly, we're all 
playing catch-up. We don't know how to coordinate across all 
these bodies. The feds haven't really given us a framework that 
can tell us what they want to need, but what--we need to leave 
this hearing today newly committed toward moving through these 
tough issues together. We're going to need to educate 
ourselves, advocate to each other, cooperate, negotiate, and 
probably even litigate. But the test that we all need to apply 
is, are we protecting and restoring salmon?
    Let's follow the science, stop the harm, enforce the law. 
Thank you.
    Senator Gorton. Thank you very much.
    [The statement follows:]
                   Prepared Statement of Tim Stearns
    Hello, I am glad to have been selected as the lone conservationist 
today, and the only one to represent the anglers of the state, and the 
non-tribal commercial fishing representative.
    I am here representing many thousands of residents and businesses, 
both in Washington State and across the Pacific Northwest who view the 
most recent set of ESA listings as an opportunity for the region. We 
recognize wild salmon and steelhead as the canary in our coalmine or 
more accurately a keystone species. If salmon are allowed to decline 
towards extinction, it is because we are not doing our job well enough. 
In order to move into the 21st century as a healthy region where our 
grandkids will want to live and work, we need to use salmon recovery as 
the measure of that health.
    In response to the salmon declines, many members of the state's 
conservation community have come together as Campaign for the NW, 11 
organizations working together in an unprecedented fashion. We want to 
see the state, federal, and local governments, the business community, 
NW tribes, and all the salmon advocates work together to recover our 
Puget Sound and our Columbia and Snake River runs to sustainable, 
fishable levels.
    What is good for salmon is good for people. We are convinced that 
by doing what it takes to save salmon, we will also be doing right for 
people too: protecting clean water and our high quality of life, 
restoring ailing watersheds and rivers, and restoring jobs and 
businesses in tackle shops, on fishing boats, and in tourism and 
recreation-based economies.
    A lot of people have been focusing on the costs of recovery, and 
are ignoring the benefits. In addition to a healthy environment and 
salmon, recovery means a revitalized fishing industry in the Northwest. 
For example, the 8-year old listings on the Columbia and Snake Rivers 
and the subsequent listings that have piled up across the Pacific Coast 
are constraining fisheries from California to Alaska. Until we see runs 
increase, that will worsen, and fishing businesses will continue to 
decline.
    We are encouraged to see an increasing interest on the part of 
members of the NW delegation to accomplish statewide salmon recovery. 
We want to make sure that the recovery efforts are coordinated, aren't 
just a westside story and include the Columbia and Snake River runs, 
that money is spent wisely, and that it is effective.
    How can we work together to ensure that recovery is effective?
    Salmon recovery is not rocket science. We know what salmon need. 
Wild salmon need clear, cold water in free-flowing rivers, passage to 
and from the sea and adequate escapement. What we need now is the 
political leadership, at the local, state, and federal levels, to make 
the decisions that will lead us to recovery.
    1. Follow the Science Today: We need healthy rivers and healthy 
watersheds. The science tells us what to do. We need to make sure, for 
example, that our forests support salmon. Salmon need new forest rules 
in Washington State that provide them with high degree of certainty. We 
need to ensure that whatever new forestry rules emerge in Washington 
State, that they have a solid foundation that has been peer-reviewed, 
provide a high likelihood of success, and emerge after an open public 
process.
    2. Stop the Harm Now: Restoration is an important tool of recovery, 
but it alone will not take us there. We have got to protect and prevent 
first, and restore and recover second. We need, for example, tugs on 
the Strait of Juan de Fuca to safely bring oil tankers to port. We 
can't afford, in dollars or salmon, a Puget Sound-wide restoration 
project after a catastrophic oil spill occurs.
    3. Enforce the Law Now: We have federal and state laws, already on 
the books, that are gathering dust, and that need to be enforced and 
implemented to protect our salmon stocks. Among the many prompt actions 
the federal government can take to restore Puget Sound salmon runs, one 
issue clearly rises to the top of the list: Implement the 1992 law 
authorizing removal of the two antiquated Elwha River dams. Elwha River 
chinook are part of the group of Puget Sound salmon recently listed 
under the Endangered Species Act. A 1996 scientific report, Status of 
Pacific Salmon and Their Habitats on the Olympic Peninsula states 
``Removal of the dams on the Elwha River remains the best and most cost 
effective opportunity for salmon restoration on the Olympic Peninsula, 
and possibly the western United States.'' The report predicts that 
habitat to support nearly 400,000 fish is locked up behind those two 
dams.
    Follow the Science. Stop the Harm. Enforce the Law.
    Our experience on the Columbia and Snake Rivers is a case study in 
what won't work:
    Let's not continue the mistakes on the Columbia and Snake. And 
let's not repeat them on the westside.
  --We cannot move ahead without a plan. Just saying no to dam removal 
        does not constitute a plan.
  --We cannot suffer from an inability to make decisions.
  --We cannot simply throw money at the projects and expect to see more 
        fish.
  --We cannot depend on technofixes like hatcheries and barges and 
        expect to see more fish. Fish need healthy rivers and 
        functioning watersheds.
    Follow the Science. Stop the Harm. Enforce the Law.
    Let's all work to reach recovery together.
    Thank you.

                  SUMMARY STATEMENT OF CONRAD MAHNKEN

    Senator Gorton. Mr. Mahnken.
    Mr. Mahnken. Senator Gorton and Congressman Dicks, my name 
is Conrad Mahnken, and it's a pleasure for me to be here today.
    I'm a research scientist with the National Marine Fisheries 
Service. I'm director of one of Will Stelle's laboratories 
located in Kitsap County. The research in my laboratory is 
aimed at salmon recovery and hatchery reform. I've been asked 
to address certain issues related to the appropriate science-
based role that regional laboratories might play in the 
recovery of our salmon resources.
    Hatcheries have served the purpose for which they were 
originally intended, and that is, mitigation for lost habitat 
and fishery augmentation. The goal of these production 
hatcheries has been to maintain commercial and recreational 
harvests, and more recently to provide tribal harvests. 
Hatcheries have had considerable success at producing 
harvestable fish, and in most instances, hatchery stocks 
provide the larger proportions of catches in sport, commercial, 
and tribal fisheries.
    Some of the facts about hatcheries are as follows:
    Hatchery facilities in Puget Sound and Coastal Washington 
produce more than 100 million juvenile salmon and steelhead 
annually. On the Columbia River alone, nearly 100 hatcheries 
produce about 200 million fish which provide up to 80 percent 
of the resource in several key fisheries. Over 5 billion 
hatchery-reared juveniles are released annually into the 
Pacific Ocean from North American and Asian hatcheries.
    However, in recent years, the industrialization of Pacific 
Northwest hatcheries has been identified as one the causes for 
decline of wild stocks, and current hatchery practices may be 
contributing to their demise. This criticism is based on the 
knowledge that the artificial rearing environments of 
hatcheries can yield fish that differ biologically from their 
wild counterparts. Certain life history traits are lost in 
hatchery fish through years of culture in unnatural hatchery 
environments, which may affect survival if they were to be used 
in recovery of wild stocks. Within a hatchery population this 
may be desirable, but in the long term it is detrimental if 
fish are expected to rear and spawn in the wild.
    Concerns within the scientific community focus on the 
interaction of wild and hatchery fish once fish are released to 
the environment. Negative ecological interactions are known to 
occur. For example, social interactions between hatchery and 
wild fish can occur in the ecosystem and can be detrimental to 
wild fish. For example, if large numbers of hatchery fish are 
released into small populations of wild fish, larger hatchery 
fish prey on smaller wild fish, and dominate competition for 
food and territory.
    In the area of genetic interactions, domesticated genetic 
properties of hatchery fish can be transferred through 
interbreeding with wild fish. Interbreeding of hatchery with 
wild stocks is believed to result in loss of local 
adaptability, best described as a loss of fitness to survive 
challenges of living under natural environmental conditions.
    With the emphasis on wild fish required under ESA, there is 
an opportunity to transfer the role of certain hatcheries from 
mitigation to wild stock enhancement. You have heard some 
discussion of that today, where some of these hatcheries are in 
fact already being transferred over to that need.
    The wide natural variability in development and timing 
characteristic of wild fish may be an inherent factor which 
enables them to adapt to changing freshwater and marine 
conditions. Therefore, the protocols which emerge for the 
effective operation of hatcheries dedicated to recovery of wild 
fish populations will be directed towards the production of 
smolts with similar behavior, that exhibit similar physiology 
and genetic diversity as their wild counterparts. These 
conservation hatcheries will operate on the concept that high-
quality fish, behaviorally and physiologically similar to their 
wild counterparts, can be produced in conditions which simulate 
the natural life histories of each particular species under 
culture.
    Scientific information now available makes it feasible and 
practical for hatcheries to propagate juveniles similar in 
growth, development, and behavior to their wild cohorts. For 
example, animal behaviorists have shown that behavioral 
repertoires can often be recovered, even after many 
generations, simply by providing appropriate environmental 
stimuli during rearing. To do this, hatcheries would adopt 
rearing practices that might include the following:
    Prohibit nonindigenous fish stock transfers;
    Use more complex rearing environments that more closely 
simulate natural habitat;
    Reduce selection for domestication by introducing more 
natural rearing protocols;
    Condition hatchery fish to behave more like their wild 
counterparts;
    Introduce hatchery techniques which reduce harmful post-
release interactions between wild and hatchery fish;
    And impose, if necessary, production caps to match release 
numbers with the finite carrying capacity of both fresh and 
saltwater habitats.
    Most of these strategies are based on a combination of 
modern conservation principles and basic salmonid biology. Some 
are backed by scientific research; others are currently being 
researched. To incorporate such changes will require adoption 
of more flexible policies to integrate public and private 
hatcheries into comprehensive restoration plans, both 
practically and economically.
    As a scientist, I must say that I believe that hatcheries, 
if they assume a reformed role of producing fish with more 
natural life history traits, can play an important role in the 
recovery of wild fish. In the Snake River Basin, hatcheries are 
already being employed to save the last remaining gene pools of 
listed sockeye and Chinook from extinction through the use of 
captive breeding.

                           prepared statement

    I also believe that we can, during recovery of Chinook and 
summer chum salmon in the Puget Sound Basin, maintain some 
semblance of a fishery sustained primarily by hatchery fish. 
However, it will require that we do business differently than 
in the past, and that these hatcheries function in ways which 
reflect the latest scientific information and conservation 
practices.
    [The statement follows:]
                  Prepared Statement of Conrad Mahnken
                      the present hatchery system
    Hatcheries have served the purpose for which they were originally 
intended; mitigation for lost habitat and fishery augmentation. The 
goal of these production hatcheries has been to maintain (or increase) 
commercial and recreational harvests, and more recently to provide 
tribal harvests. Hatcheries have had considerable success at producing 
harvestable fish, and in most instances, hatchery stocks provide the 
larger proportions of catches in sport, commercial, and tribal 
fisheries (at times producing more than 90 percent of the fish 
available for harvest).
Facts
  --Hatchery facilities in Puget Sound and Coastal Washington produce 
        more than one hundred million juvenile salmon and steelhead 
        annually.
  --On the Columbia River alone, nearly 100 hatcheries produce about 
        200 million fish which provide up to 80 percent of the resource 
        in several key fisheries.
  --Over 5 billion hatchery-reared juveniles are released annually into 
        the Pacific Ocean from North American and Asian hatcheries.
                  hatchery and wild fish interactions
    However, in recent years, the industrialization of Pacific 
Northwest hatcheries has been implicated as one the causes for decline 
of wild stocks and current hatchery practices may be contributing to 
their demise (Schmitten et al., 1995, NRC 1996).
    This criticism is based on the knowledge that the artificial 
rearing environments of hatcheries can yield fish that differ 
biologically from their wild counterparts. Certain life history traits 
are lost in hatchery fish through years of culture in unnatural 
hatchery environments, which may affect survival if they were to be 
used in recovery of wild stocks. Within a hatchery population this may 
be desirable but in the long term it is detrimental if fish are 
expected to rear and spawn in the wild. Concerns within the scientific 
community focus on the interaction of wild and hatchery fish once fish 
are released to the environment:
    (I) Ecological interactions. Social interactions between hatchery 
and wild fish can occur in the ecosystem and can be detrimental to wild 
fish. For example; if large numbers of hatchery fish are released into 
small populations of wild fish, larger hatchery fish prey on smaller 
wild fish, and dominate competition for food and territory.
    (II) Genetic interactions. Domesticated genetic properties of 
hatchery fish can be transferred through interbreeding with wild fish. 
Interbreeding of hatchery with wild stocks is believed to result in 
loss of local adaptability, best described as a loss in fitness to 
survive challenges of living under natural environmental conditions.
                    the changing role of hatcheries
    With the emphasis on wild fish required under ESA, there is 
opportunity to transfer the role of certain hatcheries from mitigation 
to wild stock enhancement. The wide natural variability in development 
and timing, characteristic of wild fish, may be an inherent factor 
which enables them to adapt to changing freshwater and marine 
conditions. Therefore, the protocols which emerge for the effective 
operation of conservation hatcheries (hatcheries dedicated to recovery 
of wild fish populations) will be directed towards the production of 
smotts with similar behavior, physiology, and genetic diversity as 
their wild counterparts. These conservation hatcheries will operate on 
the concept that high quality fish, behaviorally and physiologically 
similar to their wild counterparts, can be produced in conditions which 
simulate the natural life histories of each particular species under 
culture. Scientific information now available (and growing daily) makes 
it feasible and practical for hatcheries to propagate juveniles similar 
in growth, development, and behavior to their wild cohorts. For 
example; animal behaviorists have shown that behavioral repertoires can 
often be recovered even after many generations simply by providing 
appropriate environmental stimuli. To do this, hatcheries would adopt 
rearing practices that might include the following:
  --Prohibit non-indigenous fish stock transfers (intentional 
        transplantation);
  --Use more complex rearing environments that more closely simulate 
        natural habitat;
  --Reduce selection for domestication by introducing more natural 
        rearing protocols;
  --Condition hatchery fish to behave more like their wild 
        counterparts;
  --Introduce hatchery techniques which reduce harmful post-release 
        interactions between wild and hatchery fish; and
  --Impose, if necessary, production caps to match release numbers with 
        the finite carrying capacity of fresh and saltwater habitats.
    Most of these strategies are based on a combination of modern 
conservation principles and basic salmonid biology. Some are backed by 
scientific research; others are currently being researched. To 
incorporate such changes will require adoption of more flexible 
policies to integrate public and private hatcheries into comprehensive 
restoration plans, both practically and economically.
    As a scientist, I must say that I believe that hatcheries, if they 
assume a reformed role of producing fish with more natural life history 
traits (characteristics), can play an important role in the recovery of 
wild fish. In the Snake River Basin, hatcheries are already being 
employed to save the last remaining gene pools of listed sockeye and 
chinook from extinction through the use of captive breeding. I also 
believe that we can, during recovery of chinook and summer chum salmon 
in the Puget Sound Basin, maintain some semblance of a fishery 
sustained primarily by hatchery fish. However, it will require that we 
do business differently than in the past and that these hatcheries 
function in ways which reflect the latest scientific information and 
conservation practices.

                            HATCHERY REFORM

    Senator Gorton. Doctor, are these prescriptions for 
hatchery reform that you've described here widely accepted 
among fisheries scientists at the present time? Are they still 
experimental? Are there disputes over them?
    Mr. Mahnken. Well, there's always dispute over new ideas 
and new techniques, especially when it comes to hatcheries, but 
I think in general the hatchery community and the scientists 
within the hatchery community agree that certain reform 
principals need to take place, and that they're based on solid 
science.
    Senator Gorton. Now, in the very last comment you made, is 
it your view that all hatcheries should be reformed in this 
manner, or was your comment with respect to harvest, to keep a 
certain degree of harvest, there should be some hatcheries that 
operated simply for production, for relatively large production 
for harvest purposes?
    Mr. Mahnken. Yes, I think that eventually we will see just 
exactly that. Especially, some of the tidewater hatcheries that 
exist in Puget Sound that have particularly high survivals and 
high contributions to fisheries will remain in that role, 
providing we can separate both adults and juveniles in their 
habitat from the wild fish. I think that you will also see 
hatcheries that are at the other end of the spectrum, that 
serve primarily a conservation role in rebuilding wild 
populations, and I think you'll see mixes in between of all 
possible combinations.
    Senator Gorton. In Puget Sound has the decline in runs 
equally affected both wild and hatchery stocks?
    Mr. Mahnken. Yes. I think that's been shown. In the mid--up 
to the mid-1970s you could have survivals in Puget Sound stocks 
of, say, coho, that exceeded 20 percent. Starting about 1976 
there was a major oceanic regime shift that caused the survival 
of hatchery fish and wild fish, pretty much coastwide, to 
decline.
    Senator Gorton. What was that regime shift?
    Mr. Mahnken. Well, that regime shift is still under debate, 
but in general, it was a warming trend in the coastal currents 
that affect primarily Coastal Washington, Oregon, and Southern 
British Columbia, Northern California. At the time that the 
survival on stocks in those areas began to decline, it began to 
rise in the North Pacific, in Alaska, Russia, and Northern 
Japan, and they enjoyed some of the best survivals and best 
runs during the period of time when we are suffering in the 
southern areas. So this is believed to be a general climatic 
shift. Many scientists believe it's cyclic; some believe it may 
be associated with a general global warming trend. In any 
event, we are now experiencing much lower survivals in both our 
hatchery and wild fish.
    Senator Gorton. Given at least relatively limited amounts 
of money in Puget Sound--indeed, the combination of federal and 
State appropriations at one level are generous; at another 
level are rather modest--how do we set priorities on the use of 
that money?
    Mr. Mahnken. You mean with regards to hatcheries, or with 
regards to the whole mix of four H's?
    Senator Gorton. The whole mix.
    Mr. Mahnken. Boy, Senator, you're asking me a question that 
really ought to asked by Will--or, answered by Will Stelle.
    Senator Gorton. Well, he'll get it, too. [Laughter.]
    Mr. Stearns. It's just a policy issue.
    Mr. Mahnken. Yeah. It's just a policy issue, sir.
    Senator Gorton. OK. We'll let you waive that one.
    Go ahead.
    Mr. Dicks. One of the other ideas about coordination was 
coordination on the science in terms of the recovery effort 
here in the State. Do you think there needs to be some kind of 
a scientific panel put together that advises policy makers on 
the science of this whole matter beyond just the people at NMFS 
and the Fish and Wildlife Service?
    Mr. Mahnken. Yes, I think with regards to hatcheries in the 
Puget Sound Basin it might be considered that you develop a 
kind of an independent--a group of independent scientists 
that--especially if there was increased funding, federal 
funding, for example, into the Puget Sound Basin for these 
hatcheries--a group of independent scientists, much the way the 
panel has been established in the Columbia Basin, that would 
perhaps be a mix of scientists respected in the field not 
necessarily involved with hatcheries, as well as a group of 
agency scientists involved with hatcheries that would continue 
to see that the system was operated in the best scientific 
manner.
    Mr. Dicks. Are the Mitchell Act hatcheries being reformed 
as you suggested here in terms of trying to produce fish that 
replicate wild fish?
    Mr. Mahnken. I think there's a lot of discussion. There's 
not much activity yet in the Mitchell Act hatcheries. And 
again, I would refer that question to my boss, Will Stelle.
    Mr. Dicks. All right. But you think something needs to be 
done there, as a scientist?
    Mr. Mahnken. Yes. Yes, I--as a scientist, I think something 
needs to be done there.
    Mr. Dicks. And if, Mr. Stearns, you want to comment, or any 
of the other members of the panel want to comment on this, 
please do so.
    You mentioned science in terms of the evaluation, which I 
strongly agree with. I think we need to have good scientific 
input into the projects that are funded, that we have a 
credible scientific basis for the funding decisions that are 
made.
    Mr. Stearns. Congressman Dicks, I think you're absolutely 
right. On the specific question of the Mitchell Act hatcheries, 
I think you need to think of analogy of, you're driving down 
the highway at 100 miles and hour, and you're trying to change 
drivers and rebuild the engine at the same time, that we have 
expectations and needs for these facilities to continue 
producing. Plus, we have substantial inequities in that 
hatchery production. You know, we've made commitments to shift 
production to the upper part of the basin, so you've got a 
whole transition.
    I serve on the artificial production review of the 
Northwest Power Planning Council, which Senator Gorton asked us 
to do, and I think we're working through those issues. The 
challenge is connecting the people who actually operate 
hatcheries with the bureaucrats who deal with the management of 
the hatcheries, dealing with the research biologists who focus 
on literature and testing, and trying to bring those various 
communities together and then develop substantial transition in 
what are very large facilities that have tight budgets.
    And just as a criticism of Congress--since we've got a 
couple Congress people here, I might as well criticize--our 
budget process is--it's overly-explicit, line item by line 
item. You don't really give the managers flexibility to move 
money from one program to another, so implementing these kind 
of changes is somewhat challenging. I'm not saying you should 
give them a blank check, because we don't want to give any 
bureaucrats blank checks. It's just the transition process is 
fairly challenging.
    Mr. Dicks. Mr. Wilkerson.
    Mr. Wilkerson. Yeah, just a quick comment on that, and kind 
of the management issue that Bill Ruckelshaus raised on the 
last panel. I don't think we can repeat the Columbia River 
situation. And we have twenty-five to fifty years of history 
there, and I've worked there, and you've all been down there, 
and there was no leadership for years. And the easiest game in 
town is to point to the other person. So I think the idea of 
having someone that's in charge both on the policy side and the 
science side that has real leadership responsibility is going 
to be required here in Puget Sound. I mean, just look at the 
room behind us. There are myriad interests, all with different 
opinions about what works and what doesn't work. And the fact 
of the matter is, is that without leadership we will all 
continue to disagree forever, and I don't think that'll work, 
to rebuild the salmon. So if we don't get in there early with 
real defined, clear leadership and responsibility for making 
something work better here in the Puget Sound region or out on 
the coast, I just don't see how we won't repeat the mistakes of 
the past.
    Mr. Dicks. You think it has to be somebody other than Mr. 
Stelle and Mr. Smitch? I mean, could they co-chair this?
    Mr. Wilkerson. No, I----
    Mr. Dicks. Or do you have to bring in another person?
    Mr. Wilkerson. Well, you raised the TFW experience.
    Mr. Dicks. Right.
    Mr. Wilkerson. And Will, and Bob Turner from NMFS, and 
Chuck Clark from EPA, and Curt Smitch from the governor's 
office were the leaders of those negotiations, and they were 
there every step of the way. And I don't think we would have 
gotten where we had gotten if they hadn't been there every step 
of the way. Now, if that was on just one segment of our 
economy, and whether we can spread those people out so far as 
to deal with all the other issues here that are just 
represented on this panel, I don't know. But if somebody isn't 
empowered to form the team that's in charge, which is what you 
did on the timber module--you empowered us, basically, and I 
think if you do that with respect to some of these other issues 
on the table, then people can solve the problems.
    Mr. Dicks. But do you think this would have to be done on a 
State-by-State basis? In other words--is this going to be 
regional?
    Mr. Wilkerson. Well, I can't speak to the Columbia River 
example, again, because that's multi-state. But to the extent 
that most of these watersheds that people are worrying about in 
Washington are Washington-oriented, I think there ought to be a 
Washington strategy to deal with them. And I think that's what 
Governor Locke is trying to take on. NMFS has coordinating 
responsibility in terms of the Columbia River stocks, the Snake 
River stocks, that obviously require multi-state strategies. 
But in terms of the many watersheds in our State that are 
Washington-oriented, I don't know why we'd complicate it with 
regional strategies.
    Mr. Dicks. I wanted to say to Linda Johnson that I too have 
been concerned about the terns. And I feel that there can be a 
successful way of putting new habitat on that island that will 
make it less hospitable to the terns. The idea that we would 
let 8 to 25 million smolts be taken each year by those birds, 
while we're spending $3 billion on the Columbia/Snake River 
thing is very hard for me to understand, so I'm very 
sympathetic to your comments.
    And Connie, I just want you to know that we're still 
working on lingcod as well, and we know of your abiding 
interest in that, and the viewpoint of the tribes as well.
    I don't have any further questions.
    Senator Gorton. Fine. Thank you. This has been a very 
constructive and enlightening panel, and we appreciate the 
contribution that each of you has made.
STATEMENTS OF:
        BOB DREWELL, SNOHOMISH COUNTY EXECUTIVE
        ED HANSEN, MAYOR OF EVERETT
        JIM BUCK, WASHINGTON STATE REPRESENTATIVE
        DEBBIE REGALA, WASHINGTON STATE REPRESENTATIVE
        ED THIELE, OKANOGAN COUNTY COMMISSIONER
        LOUISE MILLER, KING COUNTY COUNCIL

                    summary statement of bob drewell

    Senator Gorton. The next panel: Bob Drewell, Ed Hansen, Jim 
Buck, Debbie Regala, Ed Thiele, and Louise Miller.
    We don't seem to have Louise Miller here at this point, but 
I think perhaps we'll start and hope that she comes in.
    Bob Drewell, you were first on our list, and we'll hear 
from you first.
    Mr. Drewell. Good afternoon, Senator. Thank you very much 
for the opportunity----
    Senator Gorton. And you also need to get that microphone a 
little closer in.
    Mr. Drewell. Okay. All right.
    Senator Gorton. That's advice to all of you.
    Mr. Drewell. Thank you again, Senator. And thank you very 
much for the opportunity to testify before you today. And on 
behalf of the entire Tri-County salmon group, I want to thank 
you for all of your efforts in securing federal funding for our 
Tri-County plans to date. Yourself, Senator Gorton, and 
Congressman Dicks, have been very instrumental in our successes 
to this point.
    And in particular, I understand that Senator Stevens has 
left, but we certainly want to acknowledge his presence here 
earlier today, and the help that he has given.
    It's my pleasure to speak with you about the approach and 
efforts under way within the three counties of King, Pierce, 
and Snohomish. We voluntarily came together over a year ago. We 
asked our cities, the tribes, the business community, the 
environmental community, frankly anyone that wanted to come to 
the table, to help recover salmon in the beautiful Puget Sound 
area.
    We made a conscious decision to spend our time, energy, and 
resources on salmon recovery rather than trying to fight the 
proposed listing. It was the right decision. We are focussed, 
we are committed, and we are already making progress. We are 
pleased to report that our efforts to partner with National 
Marine Fisheries Service are progressing.
    The three counties, and many of our cities, prepared a 
series of proposed early actions to be taken during 1999 and 
the year 2000 that provide substantive, science-based 
strategies to make incremental process to stop the rate of 
decline of salmon while at the same time working in our 
watersheds to develop long-term salmon recovery plans. It's a 
phased approach that we believe in the long--that we believe is 
in the long-term interest of the species and of all the 
jurisdictions involved in this challenging effort.
    The Tri-County group is to develop an agreement with NMFS 
on a complex 4(d) rule which covers the day-to-day activities 
and responsibilities that local governments have in serving our 
citizens while we work together for a long-term recovery 
strategy. We are currently negotiating with NMFS, and have 
included the tribes, the State of Washington, representatives 
of the business coalition and the environmental coalition in 
our negotiations. We cannot underscore enough the need for 
creativity and flexibility in developing the initial 4(d) rule.
    The long-range strategy is founded on science-based plans 
for the conservation and restoration of habitat systems in the 
six Water Resource Inventory Areas, the WRIAs, that are located 
within the three counties. The WRIA-based planning efforts will 
assist in the preparation of regulations, best management 
practices, capital improvement programs, and monitoring 
programs that will ensure the implementation and adaptive 
management necessary to sustain salmon recovery. The last 
speaker on our panel today, Councilwoman Louise Miller from 
King County, will talk more specifically about the WRIA 
efforts. And I know you've expressed an interest on that on a 
number of occasions.
    In addition, I've brought with me twenty-five copies of the 
Tri-County Executive Summary that outlines our work plan and 
strategy to recover the Puget Sound Chinook. I would invite you 
and your staff to review the document because it will certainly 
give you a better understanding of the complexities of this 
recovery effort.
    I want to take a few moments to discuss the Tri-County 
perspective on federal funding, and our thoughts on how the 
dollars would be allocated. We have five basic recommendations 
that we would hope that you would consider.
    First, we support a cooperative State-wide approach to 
salmon funding. While we recognize the Tri-County effort is 
unique, we also recognize all areas of the State are impacted 
by the salmon listings, and therefore must be eligible for 
available federal funding.
    We would suggest that you explore the possibility of having 
Eastern Washington efforts funded through earmarked Bonneville 
Power Administration funds. BPA is an existing source of 
revenue to Eastern Washington tribes and other entities. Making 
some of those existing funds available to Eastern Washington 
counties and cities to meet their important needs would be very 
beneficial to all concerned.
    Western Washington needs could be met through the coastal 
salmon initiative currently being discussed by the Washington 
delegation and the Clinton Administration. No one knows what 
the total cost of salmon recovery will ultimately be, but we do 
know it will be millions of dollars. Our Tri-County members are 
only asking for a fair share of that allocation.
    Second, we believe that available federal funds should only 
go--only go--to activities that have gone through an ESA 
approval process or are consistent with an approved 4(d) rule, 
which will likely be operational at the time these funds are 
expended. It is our intent to have our scientific experts 
involved in reviewing these projects for their value to fish.
    Third, federal funds should only go to entities that are 
prepared to match the funds.
    Fourth, we, like yourselves, want a process developed that 
makes thoughtful and timely decisions on funding. It is in no 
one's interest to fritter away valuable funding on activities 
that simply do not make a difference to fish. There is a Tri-
County subcommittee specifically working on the processes and 
criteria for allocation. We are working closely with the 
governor's office and other appropriate State agencies.
    Fifth, the National Marine Fisheries Service needs staff. 
It will not help this region if NMFS does not have adequate 
staff to do the necessary biological assessments and section 7 
consultations.
    Therefore, we believe a system which represents local 
control, emphasizes sound science and biology, and encourages 
on-the-ground benefits, and is approved by NMFS makes the most 
sense.

                           prepared statement

    In closing, the Tri-County Executive Committee is very 
focussed on working collaboratively among the stakeholders, 
which includes all of you. Let us know what we can do to help 
you. And again, I want to thank you for your time today, and 
for your leadership on behalf of the citizens in our State in 
meeting this challenge.
    Senator Gorton. Thank you.
    [The statement follows:]
                   Prepared Statement of Bob Drewell
    Thank you very much for the opportunity to testify before you 
today. On behalf of the entire Tri-County salmon group, I want to thank 
you for all of your efforts in securing federal funding for our Tri-
County plans to date. Senator Gorton and Congressman Dicks, you have 
both been instrumental to our success thus far. In particular, we want 
to recognize and welcome a good friend to this region on salmon and 
economic issues--the Honorable Senator Ted Stevens of Alaska. We 
appreciate the leadership all of you are providing on this critical 
issue.
    It is my pleasure to speak with you about the approach and efforts 
under way within the three counties of King, Pierce, and Snohomish. We 
voluntarily came together over a year ago, asked our cities, the 
Tribes, the business community, the environmental community, frankly, 
anyone that wanted to come to the table, to help recover salmon in the 
beautiful Puget Sound.
    We made a conscious decision to spend our time, energy, and 
resources on salmon recovery rather than trying to fight the proposed 
listing. It was the right decision. We are focused, we are committed, 
and we are already making progress. We are pleased to report that our 
efforts to partner with National Marine Fisheries Service are 
progressing.
    The three counties, and many of our cities, prepared a series of 
proposed early actions during 1999 and 2000, that provide substantive, 
science-based strategies to make incremental progress to stop the rate 
of decline of salmon, while at the same time, working in our watersheds 
to develop long-term salmon recovery plans. It is a phased-approach 
that we believe is in the long term interests of the species and of all 
of the jurisdictions involved in this challenging effort.
    The Tri-County goal is to develop an agreement with NMFS on a 
complex 4(d) rule, which covers the day-to-day activities and 
responsibilities local governments have in serving our citizens, while 
we work on our long-term recovery strategy. We are currently 
negotiating with NMFS and have included the Tribes, the state of 
Washington, and representatives of the business coalition and the 
environmental coalition in our negotiations. We cannot underscore 
enough the need for creativity and flexibility in developing the 
initial 4(d) rule.
    The long-range strategy is founded on science-based plans for the 
conservation and restoration of habitat systems in the six Water 
Resource Inventory Areas (WRIA) within the three counties. The WRIA-
based planning efforts will assist in the preparation of regulations, 
best management practices, capital improvement programs, and monitoring 
programs that will assure the implementation and adaptive management 
necessary to sustain salmon recovery. Our last speaker on the panel 
today, King County Councilwoman Louise Miller, will talk more about our 
WRIA efforts.
    In addition, I have brought 25 copies of the Tri-County Executive 
Summary that outlines our work plan and strategy to recover the Puget 
Sound Chinook. I would invite you and your staff to review the document 
because it will certainly give you an understanding of the complexities 
of this recovery effort.
    I want to take a few moments to discuss the Tri-County perspective 
on federal funding and our thoughts on how the dollars would be 
allocated. We have five basic recommendations for you to consider.
    First, we support a cooperative statewide approach to salmon 
funding. While we recognize the Tri-County effort is unique, we also 
recognize all areas of the state are impacted by the salmon listings 
and, therefore, must be eligible for available federal funding.
    We would suggest you explore the possibility of having eastern 
Washington efforts funded through earmarked Bonneville Power 
Administration funds. BPA is an existing source of revenue to eastern 
Washington tribes and other entities. Making some of those existing 
funds available to eastern Washington counties and cities to meet their 
important needs would be beneficial to all concerned.
    Western Washington needs could be met through the coastal salmon 
initiative currently being discussed by the Washington delegation and 
the Clinton Administration. No one knows what the total cost of salmon 
recovery will ultimately be, but we do know it will be millions of 
dollars. Our Tri-County members are only asking for a fair share of the 
allocation.
    Second, we believe the available federal funds should only go to 
activities that have gone through an ESA approval process or are 
consistent with an approved 4(d) rule, which will likely be operational 
at the time these funds are expended. It is our intent to have our 
scientific experts involved in reviewing these projects for their value 
to fish.
    Third, federal funds should only go to entities that are prepared 
to match the funds.
    Fourth, we like yourselves, want a process developed that makes 
thoughtful and timely decisions on funding. It is in no one's interest 
to fritter away valuable funding on activities that simply do not make 
a difference for fish. There is a Tri-County subcommittee specifically 
working on the process and criteria for allocation. We are working 
closely with the Governor's office and appropriate state agencies.
    Fifth, NMFS needs staff. It will not help this region if NMFS does 
not have adequate staff to do the necessary biological assessments, 
section 7 consultations and other activities with us in a timely 
manner.
    Therefore, we believe a system which respects local control, 
emphasizes sound science and biology, encourages on-the-ground 
benefits, and is approved by the National Marine Fisheries Service 
makes the most sense. We at Tri-County need NMFS approval for our 
funding efforts so that we in turn can receive credit for those 
activities as part of our long-term salmon recovery plans.
    In closing, the Tri-County Executive Committee is very focused on 
working collaboratively among the stakeholders, which includes all of 
you. Let us know what we can do to help you, and again, I want to thank 
you for your time today, and for your leadership on behalf of the 
citizens in our state in meeting this challenge.

    [Clerk's note.--Due to its volume, the above mentioned 
material is being retained in subcommittee files.]

                     SUMMARY STATEMENT OF ED HANSEN

    Senator Gorton. Mayor Hansen.
    Mr. Hansen. Thank you, Senator Gorton and Congressman 
Dicks, in particular for hosting this hearing and also 
providing this opportunity for me to provide a perspective as 
one city elected official on the effort to increase the numbers 
of Chinook salmon in Puget Sound.
    I'd like to make three points today.
    First, the City of Everett has been actively engaged for at 
least the past 25 years in protecting and restoring habitat in 
environmentally sensitive areas of our city. We will continue 
this important work both at the local level and through our 
participation in the region's unprecedented efforts to increase 
the number of Chinook salmon in Puget Sound. And that includes 
the efforts that Executive Drewell just described.
    Second, as Mayor of the City of Everett and President of 
the Association of Washington Cities, I must bring to your 
attention my concern that the Endangered Species Act listings 
by the National Marine Fisheries Service will have significant 
financial impacts on local governments. Washington's cities 
have limited financial resources and increasing demands from 
our citizens for public safety, parks, libraries, 
transportation improvements, and a wide array of other services 
and facilities. More specifically, I fear this will be the 
largest unfunded mandate I have faced in my 5-plus years as a 
mayor.
    Third, as we at the local level are asked to address 
habitat issues, we must be assured there will be adequate 
numbers of Chinook salmon returning to the rivers and streams 
of Puget Sound. Specifically, there must be significant 
progress in addressing harvest issues at the State and Federal 
levels. In this testimony I suggest several federal legislative 
and regulatory changes. In making these comments under the 
third section of my testimony, I am not speaking for the 
Association of Washington Cities, so I want to make that clear.
    And I wish, in the very limited time I have available, that 
I could spend more time discussing the first point, the active 
work that we are doing and we intend to continue to do, but I 
feel that in my duties, again, as a mayor and a spokesman for 
the Association of Washington Cities, I must emphasize the 
financial concerns during the limited time I have available.
    And as a local elected official, we are all governed by a 
State law that requires each of our local government 
jurisdictions to have balanced budgets each year. And I had a 
very painful experience my first year as Mayor of Everett. I 
inherited a budget that was balanced by selling a million 
dollars' worth of real estate. In my first week in office, I 
had the very painful experience of eliminating sixty-five 
positions from the budget. And those were people who were 
providing valuable services in our community and doing a good 
job. We just did not have the resources to continue to employ 
those people. During the first three months of my term I spent 
a lot of additional time in finding other ways to cut costs to 
live within our budget and the resources available.
    I've also learned during the 5 years that we do have 
economic uncertainties and cycles. We're looking at another 
downturn, at least in Everett, and perhaps in Snohomish County, 
as a large manufacturer is facing production reductions and 
employment reductions which we think will have some impacts 
both on our city revenues and also on our economy. We've also 
seen some restrictions on city revenues through State 
limitations on property taxes, and some exemptions from the 
sales tax.
    You're also aware of another issue of concern at the 
federal level that also substantially could affect our tax 
base, and that's the Internet taxation moratorium that could 
reduce our sales tax revenue.
    So in summary, local governments are facing some revenue 
challenges, and I have a council member who continually reminds 
me, there's only so many beans in the jar. And that's one of 
the issues that I need to convey from the perspective of 
cities, that we want to help, we're prepared to roll up our 
sleeves and do as much as we can, but we do have limited 
resources.
    As part of my testimony I have a list of exhibits. I've 
included a copy of the Unfunded Mandates Reform Act of 1995, 
and that was certainly legislation that was very much welcomed 
by local government. I have quoted several provisions from that 
legislation in my testimony. I've also attached to my testimony 
Exhibit 2, which is a list of unfunded mandates, both State and 
Federal, just to give you an idea of what we're talking about 
at the local level. And then also attached as an exhibit is a 
matrix that shows a number of costs and mandates that we're 
anticipating at the local level from the ESA listing.
    So I guess the bottom line is to express the concern of the 
financial implications of what we are asked to do. I know some 
earlier spokespersons mentioned comments about financial 
accountability and spending our limited dollars as wisely as we 
can. And I think that needs to be one of the issues to explore, 
is how we can best spend the limited taxpayer dollars we have 
available, both dollars from the federal level--and we 
appreciate very much your efforts, Senator Gorton and 
Congressman Dicks, in trying to get some federal funding to 
help, but it's very likely, candidly, that whatever federal 
dollars you do provide are not going to come very close to 
covering the costs we're going to see at the State and local 
level.
    I noticed in Governor Locke's testimony, we still don't 
know what kind of State dollars are going to be provided 
through this legislative session, but again, it's very unlikely 
there'll be very much additional money available to local 
governments. So this is one of the real challenges that I think 
we all face and need to keep in mind.
    I see the red light's on. I've run out of time. There's a 
number of other comments that I would like to make, perhaps 
just a couple of quick suggestions from the third part of my 
comments.
    One issue that I haven't seen much discussion of, and 
that's the Magnuson-Stevens Act and the Sustainable Fisheries 
Act. At least in our staff's preliminary analysis, there appear 
to be some potential conflicts between the Endangered Species 
Act. And I do understand the Magnuson-Stevens Act is up for 
reconsideration later this year, and I would hope that you 
would take this opportunity to review it in the context of the 
listings and what changes might be made, including some changes 
that might give NMFS some additional authority that may well be 
needed to help us in our salmon recovery efforts.

                           prepared statement

    But the third point that I really wish to emphasize is 
that, as we do all the work in the region on restoring and 
enhancing habitat, it's going to be extremely important that at 
both the State and Federal level all efforts are made to assure 
that there are adequate levels of Chinook salmon returning to 
the habitat that we intend to preserve and enhance.
    And I could get into a lot more detail, but thanks again 
for the opportunity to make these limited comments.
    [The statement follows:]
                  Prepared Statement of Edward Hansen
    Senator Gorton and Congressman Dicks, thank you for co-hosting this 
hearing and providing me with an opportunity to provide a perspective 
from one city official on the effort to increase the numbers of Chinook 
salmon in the Puget Sound.
    I would like to make three points today.
    First: The City of Everett has been actively engaged for at least 
the past 25 years in protecting and restoring habitat and 
environmentally sensitive areas of the city. We will continue this 
important work, both at the local level and through our participation 
in the region's unprecedented efforts to increase the number of Chinook 
salmon in Puget Sound.
    Second: As Mayor of the City of Everett and President of the 
Association of Washington Cities (AWC), I must bring to your attention 
my concern that the Endangered Species Act (``ESA'') listings by the 
National Marine Fisheries Service (``NMFS'') will have significant 
financial impacts on local governments. Washington's cities have 
limited financial resources and increasing demands from our citizens 
for public safety, parks, libraries, transportation improvements, and a 
wide array of other services and facilities. More specifically, I fear 
this will be the largest unfunded mandate I have faced in my five-plus 
years as a Mayor.
    Third: As we at the local level are asked to address habitat 
issues, we must be assured there will be Chinook salmon returning to 
the rivers and streams of Puget Sound. Specifically, there must be 
significant progress in addressing ``harvest'' issues at the State and 
Federal levels. In this testimony I suggest several federal legislative 
and regulatory changes. In making these comments under this third 
section, I am not speaking as president of the Association of 
Washington Cities.
                                habitat
    We agree that increasing Chinook salmon populations is important. 
This goal is achievable if we use common sense and there is a 
coordinated federal and State effort to assure that salmon make it to 
the mouths of Puget Sound rivers to utilize the enhanced habitat we at 
the local level will be providing.
    I am proud to say that in the City of Everett, we have taken 
seriously our responsibility for environmental stewardship. We have 
worked hard to provide habitat friendly to salmon. We have been in the 
forefront of repairing and protecting habitat and we will continue our 
efforts:
    Our City utilities department has joined with the Snohomish Public 
Utility District and spent millions of dollars on successful fisheries 
and wildlife enhancement efforts in the Sultan River Basin;
    Everett has an effective water conservation program, and a water 
filtration system that is state-of-the-art;
    Our City Council has adopted Environmentally Sensitive Areas 
ordinances under the Growth Management Act and the City uses these 
ordinances to conserve and protect natural resources;
    Our planning department, with the assistance of a broad-based 
citizens advisory committee, is currently developing recommended 
amendments to the City's Shoreline Master Plan;
    Our City led an effort, in concert with federal, state, and local 
officials, to develop a plan to identify and protect critical habitat 
within the Snohomish River estuary. As the result of the ESA listing, 
we will be updating that plan to respond to specific species such as 
Chinook salmon. We intend to use this estuary plan to update our 
regulatory process and will be encouraging other nearby jurisdictions 
to do the same.
    Everett has a surface water management, or ``stormwater'' program, 
which has been called a model by state agency officials;
    Our city has spent significant dollars to treat wastewater and meet 
standards under the Clean Water Act--with plans underway to do even 
more.
    In summary, we have worked hard to protect and enhance our natural 
environment, and we will continue our efforts subject to our available 
resources.
    For all of the actions we have taken to date and intend to take in 
the future, there is little in the way of credit, or comfort, or 
recognition, by NMFS. Instead, we are told by NMFS representatives 
there must be ``properly functioning conditions, everywhere, all the 
time.'' Never before have local governments been burdened with doing so 
much, in such an urbanized area, to sustain a species over which they 
have such limited control. Which brings me to my second point--the 
application of the federal Unfunded Mandates Reform Act of 1995 to the 
listings. (See Exhibit 1)
                            unfunded mandate
    I along with many of my colleagues at the local government level 
were very pleased with Congress' passage of the Unfunded Mandates Act, 
which recognized and addressed the often-unintentional consequences of 
federal legislation and regulations on local, tribal, and state 
governments. To illustrate the range of unfunded mandates, a 
comprehensive ``Unfunded Mandates List'' is attached as Exhibit 2.
    We believe the following sections of the unfunded mandates 
legislation apply:
    1501 Purpose (2): ``to end the imposition, in the absence of full 
consideration by Congress, of Federal mandates on state, local, and 
tribal governments without adequate Federal funding, in a manner that 
may displace other essential State, local, and tribal government 
priorities;''
    1513 Findings (a)(1)(2) and (3): ``The Senate finds that (1) the 
Congress should be concerned about shifting costs from Federal to State 
and local authorities and should be equally concerned about the growing 
tendency of States to shift costs to local governments; (2) cost 
shifting from States to local governments has, in many instances, 
forced local governments to raise property taxes or curtail sometimes 
essential services; and (3) increases in local property taxes and cuts 
in essential services threaten the ability of many citizens to attain 
and maintain the American dream of owning a home in a safe, secure 
community.''
    1532 Statements (a)(2)(A) and (B) and (3)(A) and (B): ``The agency 
shall prepare a written statement containing . . . (2)(a) an analysis 
of the extent to which such costs to State, local, and tribal 
governments may be paid with Federal financial assistance (or otherwise 
paid for by the Federal Government); and (B) the extent to which there 
are available Federal resources to carry out the intergovernmental 
mandate; (3) estimates by the agency, if and to the extent that the 
agency determines that accurate estimates are reasonably feasible, of--
(A) the future compliance costs of the Federal mandate; and (B) any 
disproportionate budgetary effects of the Federal mandate upon any 
particular regions of the nation or particular State, local, or tribal 
governments, urban or rural or other types of communities, or 
particular segments of the private sector;''
    1535 Least Burdensome Option (a): ``Except as provided in 
subsection (b), before promulgating any rule for which a written 
statement is required under section 202 (2 USC Sec. 1532), the agency 
shall identify and consider a reasonable number of regulatory 
alternatives and from those alternatives select the least costly, most 
cost-effective or least burdensome alternative that achieves the 
objectives of the rule . . .'' (Emphasis added)
    One of the potentially most expensive provisions of the ESA 
authorizes ``citizen'' suits to enforce the ESA. This is a particularly 
significant concern for local governments which may be sued under ESA 
in challenge to city actions and city permitting or approval of 
projects. Also attached as Exhibit 3 to this testimony is a copy of an 
article which appeared in the Environmental Newsletter of the 
Washington State Bar Association. Adding further insult to injury, the 
ESA also exposes local governments to paying the opposing parties' 
attorneys fees, costs and expert witness fees.
    Local governments' decision making may be paralyzed by the threat 
of citizen lawsuits. On the other hand, local governments who deny 
project approvals or permits may be sued by property owners claiming an 
``unconstitutional taking'' of their property resulting from the denial 
of their application. We will be damned if we do and damned if we 
don't.
    We appreciate your effort to provide some federal funding for 
salmon recovery. We understand the proposed funding is intended to pay 
primarily for salmon recovery projects. But, how much of the federal 
project dollars will be available for local government projects remains 
to be seen. And, unfortunately, little funding is proposed to cover 
local governments' non-project costs including process, enforcement, 
staffing or litigation.
    Ironically, our local dollars may be required to fund litigation, 
staffing, and other actions which provide little or no benefit in our 
effort to improve salmon runs. Can't we bring some common sense to the 
table and develop a cost-effective salmon recovery plan that puts our 
limited taxpayer dollars to work saving salmon?
    Let's be clear that the financial impacts on local government under 
the ESA could be unprecedented. Dollars spent by cities for salmon 
restoration and other actions resulting from the ESA listings will not 
be available for other critical municipal functions. This will be 
particularly true if we are faced with a series of new requirements and 
insufficient funding to carry them out. Compounding these ESA-related 
financial obligations is the reality that the City of Everett, due to 
production and employment declines being experienced by the Boeing Co., 
will be facing several years of flat or declining revenues.
    In any case, whether the regulator is NMFS, another federal agency, 
a court, or a state agency, local government is on the receiving end of 
the ``mandate'' line. Examples of mandates include: updating shoreline 
regulations; updating critical areas ordinances; meeting new 
conservation requirements; adding enforcement staff; changing 
wastewater practices; changing the way streets are cleaned, maintained, 
and constructed; implementing millions of dollars in new stormwater 
detention and retention. And on and on. To illustrate the point, I have 
included a matrix, which I have shown as Exhibit 4, showing the range 
of requirements placed upon local government under ESA.
                       ``harvest'' recommendation
    As I stated initially, salmon recovery requires a comprehensive and 
well-coordinated effort at all levels of government--local, state, 
federal and tribal. From my perspective, it appears that most of the 
habitat restoration efforts are required of local government. There 
does not appear to be a coordinated federal plan to assure there are 
adequate levels of Chinook salmon returning to our Puget Sound rivers 
and streams.
    If our local efforts are to have any meaningful effects on salmon 
recovery, there must be significant state and federal actions to 
address what some call ``harvest'' issues. I question federal policies 
that allow harvest or killing of any species that has been determined 
to be ``threatened'' or ``endangered'' under ESA.
    Similarly, as elected officials, we must be mindful of the limited 
taxpayer dollars available to us at all levels of government, be it 
local, state or federal. We can't just throw unlimited taxpayer dollars 
at the problem without a thoughtful, comprehensive, coordinated and 
cost-effective plan. How can such a plan be developed? Where are our 
limited dollars best spent?
    Consider the $3 billion or more that has been spent in the Columbia 
River. Do the results achieved appear to be in proportion to the 
expenditures? Are we destined to spend additional billions before we 
address adequately the obvious problem of excessive mortality caused by 
fishing and the reductions in fish stock caused by lack of adequate 
escapement?
    High levels of salmon mortality caused by fishing have 
significantly reduced spawning to dangerous levels. We must see that 
salmon are allowed to return to the rivers. We cannot succeed through 
habitat improvements alone.
    Salmon mortality from fishing is between 68 to 83 percent, 
according to the National Marine Fisheries Service (NMFS) Status Review 
of Chinook Salmon, the report upon which NMFS has based its proposed 
listing of Puget Sound Chinook salmon.
    I also want to call your attention to a December 31, 1998 study 
entitled, ``Pacific Northwest Salmon Recovery Efforts and the Pacific 
Salmon Treaty.'' \1\ While I am not a fish biologist and cannot pass 
scientific judgment on the study, its conclusions are quite dramatic.
---------------------------------------------------------------------------
    \1\ This study can be accessed at www.deo-mpo.gc.ca
---------------------------------------------------------------------------
    In this study sponsored by the Canadian Government, a comparison 
was made between:
    1. habitat and freshwater survival rate improvement; and
    2. changes in the levels of fishing mortality.
    The study's purpose was to gauge the effectiveness of each in 
affecting the probability of extinction. Or, said another way, what is 
their relative importance in restoring salmon stocks?
    The study concluded that, ``sustained reductions in ocean harvest 
of endangered Pacific salmon stocks are proportionately as important, 
in some cases more important, for salmon recovery than costly in-river 
programs to improve habitat, productivity and survival.''
    The study also concludes that, ``salmon recovery efforts to date 
have concentrated almost exclusively on in-river programs. . . . A 
clear implication of this study is that harvesting control, which is 
orders of magnitude less costly, is as important and potentially 
effective for salmon recovery.'' (emphasis added)
    The study further points out that Pacific Northwest salmon are 
vulnerable to fishing carried on in Canadian and Alaskan fisheries. The 
study notes that fish exploitation in Canadian and Alaskan fisheries 
generally exceeds the fishing along the U.S. coast from Washington to 
California and concludes:
    ``Measures to control, on a sustained long-term basis, interception 
of endangered Pacific Northwest salmon in [Canadian and Alaskan 
fisheries] are critically important to the success of recovery 
efforts.''
    I have included as Exhibit 5 several charts from the Canadian 
study. These charts suggest that a reduction of as little as 10 percent 
in harvest mortality in Canadian, Alaskan and U. S. West Coast 
fisheries will provide significant increases in the survival rate of 
Columbia River salmon.\2\ This may well explain the failure of the 
massive habitat efforts in the Columbia. The same reduction in harvest 
will have even more dramatic results in the Puget Sound fisheries, 
providing significantly higher survival rates than a corresponding 10 
percent in habitat productivity.\3\
---------------------------------------------------------------------------
    \2\ Pacific Northwest Salmon Recovery Efforts and the Pacific 
Salmon Treaty, Department of Fisheries & Oceans & Foreign Affairs 
December 31, 1998.
    \3\ Id.
---------------------------------------------------------------------------
    The Canadian study--as well as the dramatic result that occurred 
this year from the ad hoc agreement between the State of Washington and 
the Canadian government to reduce fishing--clearly shows that the 
federal government must reach agreement with Canada under the terms of 
the Pacific Salmon Treaty. We have gone five years without an 
agreement, which is simply not acceptable.
    Other fisheries experts have reached a conclusion similar to the 
aforementioned Canadian study. In August of 1998, fisheries biologists 
Peter Bergman and Frank Haw in a report to President Clinton estimated 
that reaching a settlement under the Pacific Salmon Treaty would only 
cost the United States about $10 million annually. Reducing fishing 
mortality appears to be a very cost-effective way of increasing salmon 
populations. By paying for increased escapement, we could help prevent 
undue burdens on fishermen. By purchasing some or all harvest rights 
from fishermen, we could help to ensure adequate levels of escapement.
    Closer to home, we were successful in meeting and exceeding 
escapement goals in 1998 for Snohomish River Chinook, thanks largely to 
the ad hoc accord between the State and the Canadian government. See 
article attached as Exhibit 6. However, in the nine years prior to 
1998, inadequate fisheries management resulted in the failure to meet 
established escapement standards for Snohomish River Chinook. The 
failure to meet escapement goals over time has had a very serious 
negative impact on the size of the Chinook population in the Snohomish 
River system. See chart attached as Exhibit 7.
    Canada's Fisheries Minister Dave Anderson recently stated:
    ``Regardless of how much you spend on in-river work, it all will be 
of little value unless the fish can get to the mouth of the river.''
    The compelling evidence we now have of impacts caused by fisheries 
from Alaska to California suggests the salmon decline must be addressed 
by fundamental changes in fisheries management. These can be achieved 
at a relatively low cost.
    Suggestions for timely amendments to federal statutes to bolster 
salmon recovery:
    In Puget Sound, we have a large, extensively developed urban area. 
We also have the inherent conflict that goes with ``listing'' a species 
on the one hand and simultaneously ``harvesting'' it on the other. 
These two factors pose significant problems for local governments. To 
address this, I propose that Congress amend the Magnuson-Stevens and 
Sustainable Fisheries Acts to achieve the following goals:
    1. Improve Harvest Control. There is a conflict between the goals 
of ESA, the Magnuson-Stevens Act and the Sustainable Fisheries Act. In 
order to adequately address the conflict, NMFS must be empowered to act 
quickly and directly on harvest issues. It should be freed of 
cumbersome procedures imposed under the Magnuson-Stevens Act and the 
Sustainable Fisheries Act. It should be granted authority to establish 
and raise escapement goals, limit commercial and recreational harvests, 
require fishing in terminal areas only (when appropriate, only after 
escapement), and even to halt all fishing until escapement and 
population goals can be met. There must be adequate provisions in 
federal law to give NMFS the authority to act quickly and decisively 
when a species that is being harvested is also listed.
    2. Prioritize Habitat Expenditures. One of our goals is to maximize 
Puget Sound Chinook habitat. The NMFS approach of evenly layering 
limited monetary resources throughout the Puget Sound will not achieve 
the goal. An attempt to get properly functioning conditions for salmon 
at all times in all places, as NMFS proposes, as a practical matter is 
not likely to maximize habitat. We need to amend current law so that 
fiscal resources from all levels of government can be prioritized. 
Prioritize preservation of pristine habitat, then restore habitat 
easily restorable, and third, restore degraded habitat in order of 
importance. Reexamine requirements which cost money but have little or 
no benefit in terms of restoring habitat or otherwise improving Chinook 
salmon levels.
    3. Phasing. Allow local governments time to phase in changes in 
regulations, acquisition of habitat, restoration of habitat, and other 
protective and restorative changes before they are subject to the 
``take'' prohibition of ESA. Presently NMFS is being requested by local 
governments to provide interim ``take'' exemptions under section 4(d) 
of ESA. The need for such requests can be eliminated by a few well-
crafted amendments. This change would liberate NMFS personnel from 
reviewing these requests and allow them time for other important salmon 
protection and restoration activities.
    4. Reexamine ESA ``Citizen'' Suit Provisions. Rescue local 
governments from the threat and expense of ``citizen'' lawsuits. The 
``citizen'' suit provision should be recrafted to ensure that local 
governments can spend their resources on protection and restoration, 
not on litigation. Exposing local governments to these litigation 
expenses diverts limited local revenues from salmon recovery, or other 
public purposes.
    In conclusion, recognize the importance of fair and equitable 
treatment of all parties impacted by the listing of Chinook salmon. 
Local taxpayers' willingness to allow their precious tax dollars to be 
spent on habitat protection, rather than police protection for example, 
may well depend upon whether they perceive that others are paying their 
fair shares of the costs, and otherwise sharing equitably the burdens 
of an ESA listing.

    [Clerk's note.--Due to its volume, the above mentioned 
material and exhibits are being retained in subcommittee 
files.]

                          COORDINATING EFFORT

    Senator Gorton. I'm going to take the prerogative of the 
chairman before we go on to our next witnesses to ask the two 
of you, who are sitting together and who work very closely 
together, how well the efforts of the City of Everett and 
Snohomish County have been coordinated in the beginning 
elements of this effort.
    Mr. Drewell. Mr. Mayor?
    Mr. Hansen. Yeah. I think we would both agree that 
Snohomish County and the City of Everett have worked extremely 
closely together on a number of issues, and I think we intend 
to continue to work closely together. We also hope to work 
closely with a number of others in our region, and again, at 
the State and Federal levels.
    Mr. Drewell. Thank you for the opportunity, Senator. It's--
as the mayor said, we work closely on all issues where we have 
to share our resources, both fiscal and human. But I think 
there's has been an exemplary display between Everett and 
Snohomish County, and other cities in Snohomish County on this 
particular effort, because we all understand the magnitude, and 
the size, and the scope, and the responsibilities that we're 
faced with.
    But if I might take advantage of your inquiry for just a 
moment, the remarkable thing that's evidenced in the Tri-County 
area is that that ethic is throughout the three-county area, 
and it's been a--I think a marvelous process to watch come 
together with the environmental community, the business 
community, and all folks that will be impacted by this. So 
it's--I think we're doing some--plowing some new ground here, 
if you will, in coming together in a partnership that will make 
a significant difference.
    Senator Gorton. Thank you.
    Representative Buck.

              SUMMARY STATEMENT OF REPRESENTATIVE JIM BUCK

    Mr. Buck. Thank you, Senator, Congressman Dicks. Thank you 
for the opportunity to meet here with you today in our home, 
the other Washington. For the record, I'm State Representative 
Jim Buck from the 24th Legislative District on the Olympic 
Peninsula.
    The people of my district know the Endangered Species Act 
well as a result of the spotted owl. Indeed the district is 
still dealing with the turmoil caused by the loss of the timber 
industry, and I carry that experience with me every day as I 
try to help my constituents deal with rural economic 
development, worker retraining, and erosion of the tax base.
    It became apparent 2 years ago that Washington State was 
about to face its second Endangered Species Act experience. 
This time, however, it would not affect just timber 
communities. Listing salmon, we knew, would affect everyone in 
the State.
    Discussions with other legislators led to the formation of 
a joint committee in 1997. The committee structure provided an 
opportunity for many members of the House and Senate to learn 
about the issue. The committee traveled around the State, held 
hearings and took public testimony. We visited hatcheries, 
dams, and restoration projects, and we began to get a first-
hand preview of what a salmon listing would mean.
    What we found was that we had a choice to make. It was 
obvious the Endangered Species Act was not going to be changed, 
so we could either deny we had a problem, as happened during 
the spotted owl listing, and let a federal judge determine the 
recovery plan, or we could develop our own plan to restore our 
salmon runs, hopefully with as little federal intervention as 
possible, and continue to be the masters of our own destiny. We 
chose the latter.
    Only one issue counts for the State, and that's local 
control. We must persuade federal authorities that we can 
handle this problem ourselves. The federal government wants 
certainty, a clear commitment to salmon restoration, something 
more than promises. It's not good enough to say that we are--we 
have agreement with all parties that salmon restoration is 
important. We recognize the need for action, and this year 
we're proposing a plan of smart recovery to address the major 
areas of concern. Last year we passed the Salmon Recovery Act 
of 1998 which established a framework for recovery efforts 
based on the principal of putting our resources where they will 
do the most good, and we're building on those efforts this 
year.
    Our proposal emphasizes science and restoration projects. 
We don't want to create a fish bureaucracy. Fish aren't dying 
due to a shortage of State employees. How much we spend matters 
less than how well we spend, and our budget reflects this 
priority. Out of roughly 200 million in projected funding, we 
expect to dedicate almost 145 million to projects in the water 
and on the ground such as stream restoration, acquisition of 
riparian easements from timber companies and small timber 
landowners, and improved fish passageways.
    We've created a dedicated fund called the Salmon Recovery 
Account to receive State and Federal funds. We've also created 
a Salmon Funding Board which will review all projects to ensure 
they are sound before we appropriate the money. Although the 
federal dollars from last year did not go through the 
scientific screening process, we believe future dollars should. 
This gives us a central clearing house with a single checkbook 
to ensure that the projects are based on science, built 
properly, and that the money spent is accounted for properly.
    Rolling out the welcome mat for salmon is a good idea, and 
we've already started twenty-two projects in sixteen counties 
this year. We've opened up 180 miles of stream habitat that was 
inaccessible to salmon before this, and there is more to come.
    We're going to need Congress' help to address other factors 
that contribute to salmon decline. Salmon spend most of their 
lives in the sea, and our authority ends at the three-mile 
limit. Given the economic impact the listing will have on our 
economy, our communities expect the federal government to show 
greater interest and urgency in resolving the problems with the 
Pacific Salmon Treaty between the U.S. and Canada.
    We also need Congress' help to continue studying the 
impacts of marine mammals on the salmon runs. Does it sound 
kooky to say seals and sea lions are eating too many fish? 
Don't dismiss this factor. Just last month National Marine 
Fisheries Service released the results of a federally-funded 
study on the issue and concluded that seals and sea lions, 
quote, ``Can harm salmon stocks and other fish that are at low 
levels, including those listed or proposed to be listed under 
the federal Endangered Species Act.''
    We've got to address as many factors as we can, and we have 
to curb our desire to lay blame. In this debate it's all too 
easy to find scapegoats. Scapegoats feed our desire for easy 
answers, so blame dams, and we blame commercial fishermen, or 
Native Americans, or timber companies, or big cities. That's a 
mistake. The fact is, no single factor is responsible for the 
decline of our wild salmon. We're all responsible, and we're 
all going to have to share the burden of the recovery. That's 
why our legislative efforts in the last two years have made 
sure that we dealt with the fish from the time they emerged 
from the gravel, to the farthest reaches of the Pacific, until 
they come back to spawn again. And that's why it's important 
that we have a comprehensive plan, which we're working on in 
the legislature, that deals with the four H's and is based on 
science, and goes ahead and includes as many citizens as we can 
get our hands on in this State, because they want salmon 
recovery.
    Thank you for an opportunity to testify today.
    Senator Gorton. Thank you.
    Representative Regala.

           SUMMARY STATEMENT OF REPRESENTATIVE DEBBIE REGALA

    Ms. Regala. Thank you very much. I also want to thank you, 
Senator Gorton and Congressman Dicks, for the opportunity to 
testify before you today. I am Representative Debbie Regala 
from the 27th District. That's the Tacoma area. And with 
Representative Buck, I am co-chair of the Natural Resources 
Committee in the House.
    Recovery of Washington State salmonid stocks is indeed a 
challenge, but a challenge that I believe the State and our 
citizens are committed to undertaking. Healthy salmon runs are 
a significant part of our State's heritage. I recognize that 
our challenge is about much more than simply saving fish; it's 
about maintaining the very important link between past 
generations and generations to come. It's about living out the 
stewardship ethic that my grandparents gave to me, and that I 
am passing on to my granddaughter and to her children.
    As I know you are very well aware, the challenge for 
Washington State is multi-dimensional. We have listings in 
almost every part of our State, and the geography of our State 
varies greatly from forested slopes, to agricultural prairies, 
to rural communities and thriving urban areas. The listed 
species vary from the Chinook to the sockeye, chum, coho, to 
steelhead and bull trout, so our challenge is great.
    Our challenge is to develop the recovery plan for each of 
those species, while at the same time ensuring the viability of 
our economy, which includes timber and agriculture, and 
preserving the rural, suburban, and urban diversity that we 
have in our State. It's a sizable task, but like any task, it 
is easier with assistance. As a State, we're committed to 
submitting a credible recovery plan to the National Marine 
Fisheries Service, which recognizes what the responsibilities 
are that we have that we must address in the areas where we 
have control.
    We also believe that our success is dependent on 
collaboration, cooperation, and partnerships, and so we are 
asking Congress and the federal government to work with us as 
partners to address some of those issues that others have 
mentioned where you have control: international fishing 
treaties, high-seas fishing, issues surrounding predator 
control, funding for Mitchell Act hatcheries, which were 
mitigation for the Columbia River dams. We need your help also 
with clarity from federal agencies to ensure that we're not 
receiving conflicting directions as we work with the National 
Marine Fisheries on salmon recovery, with the U.S. Fish and 
Wildlife on recovery for bull trout, and with the Environmental 
Protection Agency on Clean Water Act compliance. We need your 
assistance with funding. We truly appreciate the $20 million 
that was provided last year, and we anticipate at least 50 
million to match dollars that we will be providing in our 
budgets this year.
    We recognize a credible recovery plan must contain three 
important elements. First, we must demonstrate that we 
understand the problem and that we have substantive strategies 
for corrective action. We know we must provide funding and 
personnel to implement those strategies. And third, we must 
continue to monitor for results to make sure that we have made 
effective adjustments where needed.
    We began development of our strategies last year, as you 
heard from Representative Buck, recognizing again that each of 
those listed species and the areas of our State are very 
different, we chose to develop recovery strategies unique to 
the Evolutionary Significant Units in our State, rather than a 
one-size-fits-all-type plan.
    We know that our recovery effort must be based on sound 
science, and so one facet of the legislation that we passed 
jointly together was to develop the establishment of an 
independent science panel. And as you heard, last year's 
legislation began the process of reaching out to local 
communities, because as legislators we know we won't be 
successful without broad-based involvement and commitment by 
all of our citizens.
    We've been fortunate that tribal members have, for many 
years, been working with many groups, and their collaboration 
on the efforts to recover our salmon in our State has been 
absolutely invaluable. The process that we have started to 
restore degraded habitat, to preserve the best habitat, and to 
provide access to quality habitat has included tribal groups, 
cities, counties, environmental groups, salmon fishermen, and 
citizens of all ages. This year our capital budget contains 
over $33 million in State funds for grants to local entities 
which will continue those efforts, and our operating budget 
includes 38 million in State funds for salmon recovery, 50 
percent of which is focussed on those local recovery efforts.
    Our citizens and legislators have been grappling with some 
very hard choices in these last few years. For the past ten 
years, our State has been at a stalemate with regards to 
revisions to the water code. Last year, for the first time, we 
took a significant step forward with watershed planning 
programs. Water and its use is still a very contentious issue, 
but progress is being made. Numerous pieces of legislation 
dealing with sufficient clean water for fish and people are 
under consideration. The House Democratic budget proposal 
includes funding for water conservation and re-use measures. 
There's also funding for stream gauges and metering, as well as 
pollution reduction through the Total Maximum Daily Load 
Allocation Program. Of course, our budgets are still under 
negotiation, and we will be working to make sure that all of 
these things are funded in the end. The capital budget does 
contain 8 million to purchase water rights to augment in-stream 
flows, so we are trying to make progress on that all-important 
component of salmon recovery that is known as water.
    Our budget also contains funding for implementation of some 
new forest practice rules and to increase compliance with any 
existing statutes that deal with water or fisheries that will 
aid in salmon recovery. We've included funding to implement 
selective harvest strategies and revise hatchery practices so 
our hatchery production is not in conflict with wild stock 
recovery goals. Additionally, we've provided funds to buy out 
commercial fishing licenses that will be matched by federal 
funds that we appreciate from you. Monitoring our efforts to 
determine our level of progress is a key strategy, and we have 
also begun funding that process.

                           prepared statement

    We know we still have much to do. We've come a long way in 
one year. Throughout Washington, State agencies, tribal 
governments, counties, cities, and citizen groups are working 
together in partnership to meet the challenge before us. We 
know it's a long-term effort.
    We again thank you for your past support, and we request 
that you also commit yourselves to being our long-term 
partners. Thank you very much.
    [The statement follows:]
           Prepared Statement of Representative Debbie Regala
    Thank you for the opportunity to testify before you today on this 
very important issue.
    Recovery of Washington State's salmonid stocks is indeed a 
challenge, but a challenge we are committed to undertaking. Healthy 
salmon runs are a significant part of our State's heritage.
    I recognize our challenge is about much more than saving a fish, it 
is about maintaining an important link between past generations and 
generations to come. It's about living out the stewardship ethic my 
grandparents gave to me and passing that heritage on to my 
granddaughter and her children.
    As I am sure you are aware, the challenge for Washington State is 
multi-dimensional. We have listings in almost every part of our state. 
The geography of Washington varies from forested slopes to wide 
agricultural prairies, from rural communities to crowded urban cities. 
The listed species vary also from chinook to sockeye, chum and coho; to 
steelhead; and to bull trout.
    Our challenge is to develop a recovery plan for each of these 
species while at the same time ensuring the viability of our economy 
including timber and agriculture and preserving our rural, suburban, 
and urban diversity.
    This is a sizable task but like any task, it is easier with 
assistance. As a state, we are committed to submitting a credible 
recovery plan to the National Marine Fisheries Service which recognizes 
our responsibility to address the areas where we have control. We also 
believe our success is dependent on collaboration, cooperation and 
partnerships. So we ask Congress and the Federal government to work 
with us as partners to address issues like international fishing 
treaties and high-seas fishing, issues surrounding predator control, 
funding for the Mitchell Act hatcheries which were mitigation for the 
Columbia river dams. We need your help with clarity from Federal 
agencies to ensure we are not receiving conflicting directions as we 
work with NMFS on salmon recovery, US Fish and Wildlife on recovery for 
bull trout, and EPA on Clean Water Act compliance.
    We need your assistance with funding. We truly appreciate the $20 
million in funding that was provided last year and we anticipate at 
least $50 million to match the dollars we will be providing in our 
budgets.
    We recognize that a credible recovery plan must contain three 
important elements. First, we must demonstrate that we understand the 
problem and have substantive strategies for corrective action. Second, 
we know we must provide funding and personnel to implement those 
strategies and third we must continue to monitor for results and make 
effective adjustments where needed.
    We began development of our strategies last year. Recognizing again 
that each listed species and area of our state are different, we chose 
to develop recovery strategies unique to the seven Evolutionary 
Significant Units rather than a one-size-fits-all strategy.
    We know that our recovery plan must be based on sound science and 
so one facet of the legislation that I helped to develop included 
establishment of an Independent Science Panel. Last year's legislation 
also began the process of reaching out to local communities. We know we 
won't be successful without broad based involvement and commitment by 
all of our citizens. The process for restoring degraded habitat, 
preserving and providing access to quality habitat has included Tribal 
governments, cities, counties, environmental groups, salmon fisherman, 
and citizens of all ages. This year's Capital budget contains over $33 
million in state funds for grants to local entities to continue these 
efforts. Our proposal for the Operating budget includes $38 million in 
state funds for salmon recovery, 50 percent of which is focused on 
local recovery efforts.
    Our citizens and legislators have begun grappling with some very 
hard choices. For the past ten years our state has been at a stalemate 
with regards to revisions to our water codes. Last year we took a 
significant step forward with a Watershed Planning program. Water and 
its use is still a contentious issue but progress is being made; 
numerous pieces of legislation dealing with sufficient clean water for 
fish and people are under consideration. The House Democratic budget 
proposal includes funding for water conservation and re-use measures. 
There is also funding for stream gauges and metering, as well as 
pollution reduction through a Total Maximum Daily Load Allocation 
program. The Capital budget contains $8 million for the purchase of 
water rights to augment in-stream flows.
    Our budget also contains funding for implementation of new forest 
practice rules and to increase compliance with existing statutes on 
water and fisheries that will aid in salmon recovery. We have included 
funding to implement selective harvest strategies and to revise our 
hatchery practices so hatchery production is not in conflict with wild 
stock recovery goals. Additionally, we have provided funds to buy out 
commercial fishing licenses that will be matched by federal funds. 
Monitoring our efforts to determine our level of progress is a key 
strategy and funding is provided to begin that process.
    We still have much to do but we have come a long way in one year. 
Throughout Washington, state agencies, Tribal governments, counties, 
cities, and citizen groups are working together in partnership to meet 
the challenge before us. We know this is a long-term effort. We again 
thank you for your past support and we request that you also commit 
yourselves to being our long-term partners.

                     SUMMARY STATEMENT OF ED THIELE

    Senator Gorton. Commissioner Thiele.
    Mr. Thiele. Senator Gorton and Congressman Dicks, I thank 
you very much for allowing me to be here today. I feel quite 
humble, being just a little county commissioner over here, 
talking with all these very astute people, but I will tell it 
to you as I see it as a plain old sheepherder from Okanogan 
County.
    Eastern Washington and the Upper Columbia River have two 
endangered species, the steelhead and the spring Chinook. The 
bull trout is scheduled to be relisted threatened in June. The 
Upper Columbia ESU has more sensitive habitat than any other 
ESU in the State. The counties in Eastern Washington have 
protected our streams either through the GMA, or voluntarily by 
enacting shorelines legislation, set-backs, developmental 
control of sensitive areas, wildlife movement areas, and 
establishing strict comprehensive plans. We've done this 
through cooperation with tribes, the State, whenever we can 
with federal agencies, and I think we've done a good job.
    That habitat is now awaiting the return of the endangered 
species to spawn. We don't know how many fish we can adequately 
handle, but we are working at every level that we possibly can 
to get this done. The local governments do know that we can 
make many, many improvements to various habitats to allow for 
more protection and higher smolt return to the ocean, but this 
is going to cost money. And it's been said here today that we 
should receive our money from the BPA, which I will give a 
readout, and later on in my presentation, as to how that money 
is split up.
    The National Marine Fisheries Service, which Congress has 
put in charge of the salmon recovery, has not provided any 
plans or policies as to how the recovery should be 
accomplished. In order for me as a county commissioner, we 
should know how our small portion of the Recovery Act should 
fit into the larger picture. They are afraid of third-party 
lawsuits which challenge their plans as being inadequate, so 
they have chosen not to pursue a plan as larger umbrella, but 
to put that responsibility on other agencies.
    Mr. Ruckelshaus brought it up real strongly that somewhere 
we have to have somebody, or a plan, or--what do you call it--a 
czar, or a dictator, or whoever, that will work progressively 
with the people who are out there trying to do this recovery, 
that we're not taking a shotgun approach, that we can, as you 
would with a large rifle, bring it into the target and work 
very explicitly on the problems in our areas. We can handle 
those, but we've got to know how it's going to fit into the big 
picture, and how that problem also is going to be funded.
    Of the federal funds projected for the year 2000 available 
in 1999, the governor's salmon recovery team has told Eastern 
Washington ESUs that all of the $25 million that you are 
providing are scheduled for Western Washington. As per this 
agreement with the administration, they tell us to seek funds 
from the BPA for our needs, and enclosed is a breakdown of how 
the monies of the BPA are funded. There's $461 million of total 
funds. 112 million of this goes for work on the mainstream dam 
projects, and $180,000 [sic] they pay themselves back for water 
spilled in order to cover the fish. $42 million of this is to 
cover encumbered agreements which they've already made. That 
leaves 127 million for direct costs for fish and wildlife.
    Of this direct cost for fish and wildlife, $8 million--goes 
to the administration only of the fish and wildlife, $6 million 
goes to the Northwest Power Planning Council to oversee them, 
$1 million goes to your amendment, Senator Gorton, which is the 
IR--or ISRP, which is a good idea; you've got people of science 
overlooking these projects, and I applaud you for it. There's 
$25 million dedicated to ESA. That leaves $87 million. That's 
divided up, 70 percent to anadromous, 15 percent to 
residential, and 15 percent to wildlife.
    Last year there was $13 million dedicated in the State of 
Washington: $9 million of that was pre-designated for the 
Yakima Basin and the Southwest ESU, leaving $4 million for the 
remainder of the State of Washington. Of these funds, the Upper 
Columbia reaches received $200,000 for work on the Salmon Creek 
by the Colville Confederated Tribes, a very good project that 
will open up 26 miles of excellent habitat. The tribe and 
several other entities have made application for funds, and the 
science panel has strongly approved them, only to be turned 
down by the political panel later.
    The needs of eastern Washington are:
    A dedicated funding source of adequate dollars to do the 
protection and restoration projects needed to restore the runs; 
this should be in the neighborhood of $4 to $5 million;
    Request that NMFS or somebody publish a plan of goals, 
needs, priorities, actions, and areas of concern for other 
governors to follow; the government has spent $3 billion on the 
Columbia now to fix the problem, with no appreciable gain;
    Extend the federal NEXUS on Forest Service and BLM lands to 
allow the irrigation ditches to operate this year. Fourteen 
irrigation districts in the Methow Valley may not be able to 
get water this year because of biological assessments not being 
done. The Forest Service has not been told by the National 
Marine Fisheries Service of the need until January 1999. I have 
provided a letter in my packet to you for that.

                           prepared statement

    It's taken 100 years to get in this mess; another year will 
not affect anything. We need to address the other three Hs of 
harvest, hydro, and hatcheries, not just the spawning areas of 
habitat.
    Thank you.
    Senator Gorton. Thank you.
    [The statement follows:]
                    Prepared Statement of Ed Thiele
Fact
    1. Eastern Washington and the Upper Columbia River have two 
endangered species, the Steelhead and Spring Chinook. The Bull Trout 
are scheduled to be relisted from threatened to endangered in June 
1999.
    2. The Upper Columbia ESU ``Evolutionarily Sensitive Unit'' has 
more sensitive habitat than any other ESU in the state.
    3. The Counties in Eastern Washington have protected our streams 
either through GMA ``Growth Management Amendment'', or voluntarily by 
enacting shorelines legislation, set backs, development control of 
sensitive areas, wildlife movement areas, and establishing strict 
comprehensive plans.
    4. The habitat in Eastern Washington is anxiously awaiting the 
return of the endangered species to spawn. We don't know how many fish 
we can adequately handle. The local governments do know that we can 
make many improvements to various habitats to allow for more protection 
and higher smolt to return to the ocean, but this will cost money.
    5. The National Marine Fisheries Service (NMFS), which congress has 
put in charge of salmonid recovery, has not provided any plans or 
policies as to how the recovery should be accomplished. All they talk 
about is ``you come up with a plan and if it looks good we will approve 
it''. They are afraid of third party lawsuits that would challenge 
their plans as being inadequate so they have chosen not to pursue a 
plan, but to put that responsibility on other agencies. All NMFS is 
working on now is enforcement strategies.
    6. Of the federal funds projected for the year 2000 available in 
1999, the Governor's Salmon Recovery Team has told the Eastern 
Washington ESU's that all 25 million dollars of these funds are 
scheduled for Western Washington. As per the agreement with the 
administration, they tell us to seek funds from the BPA for our needs, 
enclosed is the breakdown of BRA funding for 1999.
                      needs of eastern washington
    1. A dedicated funding source of adequate dollars to do the 
protection and restoration project needed to restore the runs. (4 to 5 
million dollars annually).
    2. Require NMFS to publish a plan with goals, needs, priorities, 
actions, and areas of concern for other governments to follow. The 
Government has spent 3 billion dollars to fix the problem with no 
appreciable gain so far.
    3. Extend the Federal NEXUS on Forest Service and BLM lands to 
allow the many small irrigation ditches to operate this year. 14 
ditches in the Methow Valley may not be able to get water this year 
because of Biological Assessments not being completed by the Forest 
Service. The Forest Service had not been told by NMFS of this need 
until January 1999. It has taken 100 years to get into this mess 
another year will not affect it in any way.
    4. We need to address the other 3 H's, of harvest, hydra, and 
hatcheries, not just the spawning areas of habitat.
    Thank you.

BPA Budget

Total Funds.............................................    $461,000,000
For work on the Main Stem Dam Projects..................    -112,000,000
To pay themselves back for water spilled................    -180,000,000
To cover encumbered agreements..........................     -42,000,000
                    --------------------------------------------------------
                    ____________________________________________________
For direct costs, Fish and Wildlife.....................     127,000,000

    Direct Fish and Wildlife Budget $127,000,000

                                                            $127,000,000
To Fish and Wildlife Administration.....................      -8,000,000
                    --------------------------------------------------------
                    ____________________________________________________
                                                             119,000,000
Northwest Power Planning Council Administration.........      -6,000,000
                    --------------------------------------------------------
                    ____________________________________________________
                                                             113,000,000
Sen. Gorton Amendment ISRP..............................      -1,000,000
                    --------------------------------------------------------
                    ____________________________________________________
                                                             112,000,000
Dedicated to ESA........................................     -25,000,000
                    --------------------------------------------------------
                    ____________________________________________________
To be divided up as follows:............................      87,000,000
    70 percent to anadromous fish
    15 percent to residential fish
    15 percent wildlife

Of these percentages the State of Washington last year 
    received a total of.................................     $13,000,000
Pre-designated for the Yakima Basin and SW ESU..........      -9,000,000
                    --------------------------------------------------------
                    ____________________________________________________
Remains for the rest of Washington State................       4,000,000

    Of these funds the Upper Columbia received $200,000 for 
work on Salmon Creek by the Colville Confederated Tribes, a 
very good project that will put fish back up 26 miles of 
excellent habitat.
    The Tribe and several other entities have made application 
for funding that the science panel has strongly approved, only 
for the political panel to turn it down.

Preliminary estimate of salmon recovery costs for the Methow River 
basin--
November 1998

Instream flow measurement devices.......................        $100,000
Off-channel wetland restoration/enhancement for rearing/
    food chain..........................................       2,000,000
Conversion of irrigation canals to wells................       3,000,000
Easements, shoreline protection.........................       6,000,000
Culverts, other blockages...............................       1,200,000
Road improvement, sediment control......................       1,400,000
Instream storage........................................       4,000,000
Fluvial Geomorphological studies........................         100,000
Groundwater/surface water interaction studies...........         100,000
Stream channel modifications to enhance fish passage/
    migration...........................................         800,000
Trust water right program designed to put water back 
    instream for minimum flows..........................         500,000
Technical assistance from consultants, universities.....         800,000
Funding of Okanogan County staff for coordination, 
    project implementation per year.....................         250,000
                    --------------------------------------------------------
                    ____________________________________________________
      Total.............................................      20,250,000

Preliminary estimate of salmon recovery costs for the Okanogan River 
basin--November 1998

Instream flow measurement devices.......................        $100,000
Off-channel wetland restoration/enhancement for rearing/
    food chain..........................................       2,000,000
Conversion of irrigation canals to wells................       1,000,000
Easements, shoreline protection.........................       3,000,000
Culverts, other blockages...............................       1,200,000
Road improvement, sediment control......................       1,400,000
Okanogan instream flow studies..........................         300,000
Fluvial Geomorphological studies........................         100,000
Groundwater/surface water interaction studies...........         100,000
Stream channel modifications to enhance fish passage/
    migration...........................................         800,000
Trust water right program designed to put water back 
    instream for minimum flows..........................         500,000
Technical assistance from consultants, universities.....         800,000
Funding of Okanogan County staff for coordination, 
    project implementation per year.....................         250,000
                    --------------------------------------------------------
                    ____________________________________________________
      Total.............................................      11,550,000

                   SUMMARY STATEMENT OF LOUISE MILLER

    Senator Gorton. Ms. Miller.
    Ms. Miller. Thank you. First I want to compliment both 
Senator Slade Gorton and Congressman Norm Dicks on the 
leadership they've already provided.
    And as spoken before, the $20 million is going to come to 
on-the-ground projects.
    To save the salmon, we really need three things: good 
science, involved citizens, and committed leaders. One piece of 
that leadership is the partnership between federal, State, 
tribal, and local officials. The importance of federal dollars 
dedicated to projects on the ground that save salmon cannot be 
overemphasized.
    I want to briefly explain the two maps that we've provided 
for you. The first--the term WRIA on the first map refers to 
the six water resource inventory areas in the Puget Sound Tri-
County region.
    Each WRIA has its own steering committee and a science/
technical group. Membership on the steering committees includes 
tribes, citizens, environmental and business representatives, 
as well as local elected officials. These WRIA committees 
developed the early action plan for fish recovery, and will 
spend the next twelve to eighteen months on long-range 
conservation plans that we hope NMFS definitely will consider 
as a big step toward addressing this issue.
    As you've noticed from the map, we are addressing these 
issues from the viewpoint of nature and the fish, not by using 
rigid political boundaries.
    The second map, and we have a large version of that map, 
will help illustrate the approach that King County has been 
using. I believe it demonstrates a model for how to keep an 
urban waterway healthy for fish.
    You will notice that there is a boundary all around this 
map, and that is basically what we call the Bear Creek Basin. 
Then we also show on this map where the urban/rural lines are, 
which indicates cities and urban areas under the States' Growth 
Management Act. And then you will begin to see greens and 
yellows and blues and all of those colors that begin to fill in 
what I call the corridors of the important waterways in Bear 
Creek.
    Over five years ago, the King County Council established a 
pilot program that we called Waterways 2000. The map is of the 
Bear Creek Basin, one of the stream systems in the Cedar/
Sammamish WRIA number 8. You'll notice that's a multi-
jurisdictional WRIA, and it includes both Snohomish and King 
Counties. It's located in the heart of my council district, 
District 3.
    Bear Creek is considered to be the most productive stream 
for its size in the lower forty-eight. It still has wild 
populations of six salmon species, including Chinook, and also 
has fresh-water mussels, which are an indicator of a stream's 
health.
    Waterways 2000 set aside $15 million. It then--first 
established a science panel that evaluated all seventy stream 
reaches in King County. They identified seventeen as top 
priorities. A citizens panel then picked seven of the highest 
priorities for salmon habitat, still properly functioning but 
most at risk. We have now spent $21 million in those seven 
stream reaches.
    Bear Creek was a model for using scientists, citizens, and 
targeted dollars, along with volunteer stewardship such as 
water-tenders, adopt-a-park, and revegetation citizen work 
groups. The Bear Creek system has thirty-one miles of streams, 
with one quarter of it in urban areas. We eventually spent $4.3 
million for targeted investments on Bear Creek, but added 
another $7 to each $1 invested through incentive programs, 
stewardship, and support from the people in our community.
    We purchased 400 acres of streamside buffers, 80 acres of 
conservation easements, and used tax incentive programs such as 
Forest and Agriculture Current Use Taxation and the Public 
Benefit Rating System to preserve another 865 acres in this 
Bear Creek Basin alone.

                           prepared statement

    The people of King County are committed to saving fish. In 
the past thirty years, by voting for both Forward Thrust, 
farmland and open space bond issues, the people of King County 
have invested $274 million in watersheds, acquiring over 29,000 
of open space--that's 29,000 acres of open space and farmlands, 
and have conserved and restored miles of stream reaches. We 
know what works: good science, courageous leadership, and 
committed citizens who provide their own resources, whether it 
be money or long-term stewardship. The fish need properly 
functioning systems with enough clean, cool water. With the 
help from Congress of additional resources, I know we can 
continue to experience the return of the salmon to their birth 
streams.
    Senator Gorton. Thank you very much.
    [The statement follows:]
                  Prepared Statement of Louise Miller
    To save the salmon, we need three things--good science, involved 
citizens and committed leaders. One piece of that leadership is the 
partnership between federal, state, tribal and local officials. The 
importance of federal dollars dedicated to projects on the ground that 
save salmon can't be over-emphasized.
    I want to briefly explain the two maps provided. The term WRIA on 
the first map refers to the 6 Water Resource Inventory Areas in the 
Central Puget Sound Tri-County Region.
    Each WRIA has its own steering committee and science/technical 
group. Membership on the steering committees includes tribes, citizens, 
environmental and business representatives, as well as local elected 
officials. These WRIA committees developed the early action plan for 
fish recovery and will spend the next 12 to 18 months on the long-range 
conservation plans. As you notice from the map, we are addressing these 
issues from the viewpoint of nature and the fish--not by using rigid 
political boundaries.
    The second map will help illustrate the approach King County has 
been using--I believe it demonstrates a model for how you keep an urban 
waterway healthy for fish.
    Over 5 years ago, the King County council established a pilot 
program we called WaterWays 2000. The map is of the Bear Creek Basin, 
on of the stream systems in the Cedar-Sammamish WRIA No. 8 which is 
located in the heart of my council district, district 3. Bear Creek is 
considered to be the most productive stream for its size in the lower 
48. It still has wild populations of 6 salmon species, including 
Chinook, and also has fresh water mussels, which are an indicator of 
stream health.
    WaterWays 2000 set aside $15 million, established a science panel 
that evaluated all 70 stream reaches in King County, and identified 17 
as top priorities. A citizen's panel then picked 7 as the highest 
priority for salmon habitat still properly functioning, but most at 
risk. We've now spent $21 million in those 7.
    Bear Creek was a model for using scientists, citizens and targeted 
dollars along with volunteer stewardship, such as Water Tenders, adopt 
a park and revegetation citizens work groups. The Bear Creek system has 
31 miles of streams with one-fourth in urban area. We eventually spent 
$4.3 million for targeted investments, but added another $7 to each $1 
invested through incentive programs, stewardship and support from the 
people in our community.
    We purchased 400 acres of streamside buffers, 80 acres of 
conservation easements and used tax incentive programs, such as, Forest 
and Agriculture Current Use Taxation and the Public Benefit Rate System 
to preserve another 865 acres.
    The people of King County are committed to saving fish--in the last 
30 years by voting for Forward Thrust, farmland and open space bond 
issues the people have invested $274 million in watersheds, acquired 
over 29,000 acres of open space and farmlands and have conserved and 
restored miles of stream reaches.
    We know what works--good science, courageous leadership and 
committed citizens who provide their own resources, whether it be money 
or long term stewardship. The fish need ``properly functioning 
systems'' with enough clean, cool water. With the help from Congress of 
additional resources, I know we can continue to experience the return 
of the salmon to their birth streams.
     watershed level resource protection king county waterways 2000
Outcome
    On the ground resource protection that works because of: (1) A 
rigorous scientific process; (2) Interjurisdictional cooperation; (3) 
Citizens invested in their role as stewards of a valuable salmon 
resource; (4) Effective and flexible funding options through public/
private partnerships.
    1. Rigorous scientific process: Scientists identify high-quality 
habitat for salmon; and scientists identify opportunities for 
interpretive sites and passive recreation which are compatible with 
resource protection.
    2. Partnerships between cities and the county.
    3. Community partnerships:
  --Educate the community about resources and resource protection.
  --Work with individual property owners along waterways on resource 
        stewardship.
  --Employ basin stewards to provide basin-wide community outreach.
  --Support community stewardship groups: Adopt a Park; and Water 
        Tenders.
  --Create broad-based citizen-involvement opportunities such as stream 
        corridor clean-ups and native plant revegetation.
  --Schools groups and scout troops; and
  --Volunteer programs.
    4. Resource protection through public/private partnerships.
  --Identify critical habitat for protection and restoration.
  --Structure Public/Private Partnerships to leverage public dollars.
  --Conservation Easements.
  --Tax incentive programs (PBRS and Forest Use Taxation).
  --Open space acquisition.

           NATURAL LANDS ACQUISITION IN KING COUNTY SINCE 1970
                             [March 1, 1999]
------------------------------------------------------------------------
                                                   Amount
             Programs              -------------------------------------
                                     Acres  acquired     Funds expended
------------------------------------------------------------------------
Countywide:
    Riparian......................              9,414       $123,002,445
    Watershed.....................             19,849        150,996,657
                                   -------------------------------------
      Total.......................             29,263        273,999,102
                                   =====================================
King County:
    Riparian......................              7,660         71,665,774
    Watershed.....................             18,882         91,104,002
                                   -------------------------------------
      Total.......................             26,452        162,769,776
                                   =====================================
Cities:
    Riparian......................              1,753         51,336,671
    Watershed.....................                967         59,892,655
                                   -------------------------------------
      Total.......................              2,271        111,229,326
------------------------------------------------------------------------


                ACQUISITIONS IN KING COUNTY BY WATERSHED
------------------------------------------------------------------------
                                                      Amount
                Watershed                -------------------------------
                                          Acres acquired  Funds expended
------------------------------------------------------------------------
Cedar/Lk Washington:
    Riparian............................           4,548     $60,849,016
    Watershed...........................           2,618      77,259,587
                                         -------------------------------
      Total.............................           7,166     138,108,603
                                         ===============================
Green River:
    Riparian............................           2,117      20,768,136
    Watershed...........................           5,506      33,388,601
                                         -------------------------------
      Total.............................           7,623      54,156,737
                                         ===============================
Puget Sound:
    Riparian............................             913      27,055,848
    Watershed...........................             880      10,647,990
                                         -------------------------------
      Total.............................           1,793      37,703,838
                                         ===============================
Snoqualmie:
    Riparian............................           1,836      14,329,445
    Watershed...........................           8,943      22,468,450
                                         -------------------------------
      Total.............................          10,779      36,797,895
                                         ===============================
White:
    Riparian............................  ..............  ..............
    Watershed...........................           1,902       7,232,029
                                         -------------------------------
      Total.............................           1,902       7,232,029
------------------------------------------------------------------------
Source: Return of the Kings Executive Summary, submitted to National
  Marine Fisheries Service by the King County Endangered Species Act
  Policy Office, March 16, 1999.

                       HOW MONEY SHOULD BE SPENT

    Senator Gorton. I think I'll work down the line from Ed 
Hansen. If we, Congressman Dicks and I and our colleagues, 
could come up with $20 million or $200 million for salmon, for 
salmon recovery, how should the determination be made on where 
and how that money is spent? Should we say that a certain 
portion of it should go past the State to local communities, 
and perhaps local communities to the private organizations that 
have testified here previously? Or should we leave that 
determination to the State legislature and whatever 
coordinating body it has set up for these programs? Or 
alternatively, should we earmark anything for particular kinds 
of programs, whatever unit of government or people are in 
charge of them, or should we leave that entirely to decision 
that are made here, either at the State or the local level? 
Would each of you comment on your recommendations on that, if 
you'd like?
    Mr. Hansen. Your question, I think, raises several issues. 
And I might also comment a bit on a couple of the points made 
earlier this morning.
    For example, Mr. Ruckelshaus mentioned the need for 
coordination and also a table. It seems to me before we start 
spending money, limited--what I think is limited money, even 
though $20 million sounds like a lot of money, we really need 
to come up with a plan. And I didn't get a chance to discuss 
that in my oral testimony, but in my written testimony I did 
mention in a couple of different times the need for better 
coordination and also the need to come up with a plan. It seems 
to me that until we come up with a plan, we may not be 
spending, again what I think are limited dollars, most wisely. 
So not to discourage Congress from providing additional 
funding, but it seems like concurrently we ought to really be 
coming up with a plan to decide where are the best places to 
spend this money. And how we get there, I'm not sure. Maybe 
it's through the type of process that Mr. Ruckelshaus 
suggested, where we do, in fact, you know, get a very large 
table. And whether we go into Congressman Dicks' comments, 
whether it's two people or who exactly are coordinating and 
convening this, but if we had--have a large enough table and 
folks can talk through what are the kinds of projects and where 
are the best ways to spend the money, I think we'll make better 
decisions. I guess I've rambled a bit.
    I'm not sure your question is easy to answer with a Yes or 
No answer. But it just seems to me, as a local elected 
official, I'd first like to have a plan: how am I going to 
spend the money? If I'm asking the taxpayers to spend their 
precious taxpayer dollars, I'd better have a plan in mind. I'd 
better be able to tell them ``Here's how we're going to spend 
the money; here are the good things we're going to do with that 
money.'' And so it seems like part of this process, we almost 
need to say, ``Time out.''
    Mr. Dicks. Aren't you developing in your tri-county effort 
just that plan with NMFS?
    Mr. Hansen. But that plan only deals with one piece of the 
things which need to be done. And I don't know what all needs 
to be done at the federal level. There's been some discussion. 
I think we need to be looking at a comprehensive plan. 
Certainly at the local level there are many projects in each 
jurisdiction that will--I think you'll quickly find that $20 
million for local projects will not begin to cover the very, I 
think, commendable and worthwhile local project that are going 
to be presented.
    We also need to figure out a way to prioritize which of 
these various projects may provide the most bang for the buck. 
We need to look at----
    Senator Gorton. It seems to me that's what we--it seems to 
me that's what Louise Miller was just talking about.
    Mr. Hansen. Yeah. So we need--there's a number of different 
things here, and I think we need to be talking about 
prioritization as well, and what's the best way to prioritize, 
where are the best ways to spend whatever limited Federal, 
State, and local dollars.
    Mr. Drewell. Senator, thank you. Thank you for that 
inquiry.
    And congressman, there might be a tad bit of confusion as 
to how we best can respond to this. For the $20 million that 
we've chatted about earlier, and I'm sure has been spent a 
number of times already today----
    Senator Gorton. You got that right.
    Mr. Drewell. Yeah. The tri-county effort, and you should 
have in the packet that I shared with you--we have established 
a committee from representation across the tri-county area that 
has a matrix, has a decision matrix and a criteria matrix for 
projects that will be funded. And in fact, we are in the 
process of doing that right now.
    As to future dollars, I would agree totally with Mayor 
Hansen and others that there probably has to be a coming 
together at the table to see how those allocations will be 
made.
    The caution, though, that I would provide is that any 
encounter that I have had with citizens groups is that there is 
a very strong expectation that we move and we move 
expeditiously--not foolishly, but that we take these funds and 
get them into the ground while they can still make a 
difference. I'm sure that Louise Miller will want to comment 
about--we're getting close to the season now when we can get in 
the streams, but shortly thereafter we're not going to be able 
to. So I think we need to be responsive with this first 
allocation of resources. We do have a decision matrix; those 
priorities are being established.
    As to who ought to make those decisions, I guess I would 
again say that this a ground-up or water-up effort. The work 
that is being done in the WRIAs where everyone comes together 
to make those types of decisions--this is a problem that is 
close to the people, and those folks who are closest to those 
geographical areas, I believe, are the most prepared to respond 
to it.
    Mr. Buck. Thank you, senator. I'd prefer that--and I think 
that at least my colleagues on the Republican side of the House 
would prefer that we have the appropriation as a lump sum to 
the State or as a block grant to the State.
    The law that we passed last year specifically requires that 
each WRIA in the State that has a salmon listing prepare a 
prioritized list. It's a--requires that a grassroots 
organization be created. The prioritized list is a result of a 
scientific survey of the limiting factors within each of--
within that particular WRIA. The citizens group then gets 
together and prioritizes how they think those particular 
projects should happen. And they're required to place them into 
a scheduling--construction scheduling technique called 
critical-path scheduling.
    We are also in the process right now of making sure that we 
have the accountability that I think you and Congressman Dicks 
have asked for, by having the single checkbook approach that I 
spoke of earlier. The projects from each WRIA are forwarded to 
what's called an interagency review team or a board. At 
present, Representative Regala and I have sponsored a bill, or 
she sponsored the bill, and we came to an agreement that that 
board consist of six agencies that goes ahead and takes a look 
at what the priorities are across the entire State, so that we 
can have a Statewide response.
    This is a Statewide issue, and we're concerned that if we 
end up fragmenting the funding or fragmenting the effort, we 
not only lose the ability to keep the information on a 
schedule--and once that happens we begin to lose the ability to 
relate the projects so they logically fit together for 
accomplishing the goal for the entire streamshed or watershed, 
as we saw with what Louise was talking about.
    Mr. Dicks. Jim, is this where the scientific input is 
supposed to occur?
    Mr. Buck. No; the scientific input occurs at the WRIA level 
as the technical assistance group goes out and does the 
limiting factors analysis. They then sit in as the projects are 
put together. And of course, you can't do a project without 
going through the conservation commissioner or the Department 
of Fish and Wildlife. And you have to have a hydraulics permit, 
so the science is fairly built into that. Now, if we're going 
to influence different science, then we're going to have to 
influence those two agencies. And technically, what we'd like 
to see is--from my engineering background, is a standard 
specification, similar to what we have for highways, that would 
tell these outfits, you know, given the particular stream 
condition or whatever you have, this is what we think ought to 
be done. And of course, then it's reviewed by the people from 
the Conservation Commission or the Department of Fish and 
Wildlife. And if Ecology or one of the other agencies needs to 
get involved, they do, too.
    Now, Representative Regala last year wisely placed a 
scientific review panel, independent science review panel that 
looks over the science from basically the ESU level. We wanted 
to create this as a stream-by-stream input that went to each 
WRIA. After you got the WRIA plan together, then you could 
combine the different WRIAs that were in an evolutionarily 
significant unit, into a recovery plan for the whole unit. And 
I'm really concerned that if we begin to fragment this out, you 
will not have a credible recovery plan that will be capable of 
being rolled up to a unit.
    Ms. Regala. Let me address your question. I do believe that 
it would be beneficial for us to have more in the line of a 
block grant. It's our responsibility to coordinate our efforts.
    I think we have to go back to what I was talking about 
earlier, that each species in each area is very, very 
different. And so if we base this on--ensuring recovery means 
we have to look at what the limiting factors are in each area. 
Then in each area of the State exactly how we start or what the 
priorities are may be a little different.
    In some areas, for example in Representative Buck's area--
Buck's area, we probably have a number of streams who have 
good-quality habitat; one of the problems is, they need to be 
able to access that, that habitat. In other areas of our State 
the issue is water and how much water is there in a stream, or 
do we have flooding conditions at one point of the year and 
too-dry a stream at the other point part of the year. Then I 
believe that what we need to do is focus on solving those 
problems with regards to the hydrograph of our streams. That's 
where we need to start, rather than restore--repairing an area, 
restoration. And in other areas, certainly, preservation of 
good-quality habitat is another thing.
    So it's going to be our responsibility to look at those 
limiting factors, make determinations as to what's the first 
priority in each ESU, and then fund those efforts. And if you 
send us money with lots of strings tied to it, it makes it much 
more difficult to do that.
    On the other hand, your dollars that you send down to help 
us buy out fishing licenses, that's fine. And I heard an 
earlier panel talking about the Mitchell Act hatcheries. I do 
believe they need to be funded, but we also want to make sure 
that they are funded in a way that makes them usable under ESA, 
so that we're not impacting wild stock. So that's another area 
where there could be some dedicated kind of funding.
    Mr. Thiele. Thank you. I feel that any funds that come down 
should go to the State, and continue some sort of an equitable, 
honest appraisal of those funds by the ESUs--not to say that 
each one of those ESUs should have equal funding, but there 
should be a small amount of money for each ESU to continue work 
in their area. As the plan that we have here, we have gone 
through tech committees and everything else. We, the three 
counties in the Upper Columbia ESU, sat down and prioritized 
our funds. We tried to keep it in a third/third basis, but one 
of the counties does not have as many fish projects as the 
others have. So we worked within our own region to disburse 
these funds. Everybody's happy there with it. But we feel that 
there should be some equitable distribution of those funds to 
all the ESUs.
    Ms. Miller. I believe that we have a little bit of a 
disconnect in terms of the bureaucratic ability to actually get 
the money on the ground in a timely manner. We have the money 
at the State now for this year's projects. The problem is, if 
you're--if you're somebody that's going to work in the streams 
to do those projects that were identified in the Federal 
Register, you have to be getting your permits and starting your 
work now. Your window is maybe four months, maximum.
    Nobody's seen the dollars yet, so everybody is out 
investing their own dollars, hoping that when the Office of 
Financial Management figures out how to actually get their 
checklist in place, that the money will backfill. And of 
course, as you probably understand, it's some of the areas that 
have more resources within their budgets that are able to front 
for the projects that are happening. So that's one problem. 
It's not necessarily a problem of getting to the State, it's 
how do we expeditiously get it out there on the ground to do 
the projects.
    I definitely agree with a Statewide science panel, which is 
what I think the two legislators were talking about. But it's 
not there yet. We've been talking about this for months and 
suggesting that it shouldn't just be State scientists, but we 
should have academic people, tribal--and we have some excellent 
local biologists and scientists that have been working in their 
watersheds for years and years.
    Mr. Dicks. Who appoints this science panel?
    Ms. Miller. You'll have to ask the legislature whether they 
have a process for doing that. We've been recommending it to 
the Governor's Salmon Team. I've been recommending it for seven 
months now, that I feel we do need to have a Statewide 
screening that takes a look at everybody's--each WRIA or each 
ESU, if they want to put it together, all their projects, and 
makes that scientific judgment first.
    Then I believe you need to have interaction with some sort 
of a larger group. And I think the government council that's 
been appointed that includes cities, counties, tribes, State 
legislators, and both federal and State governmental people, is 
the second place it could go to. That way you'll get input from 
all the interested stakeholders. They could be the final 
deciders, sort of prioritize the funds that are available, and 
then it could be distributed.
    I think that in some areas we already have done the early 
action plan. We're negotiating it with NMFS right now; in tri-
counties that is true. I think each one of the counties and 
many of the cities within the tri-counties have their own 
individual plans as sort of a fallback, if they have to, to 
negotiate individually. But what we heard from NMFS was ``We 
don't want to look at all these plans individually; we need to 
get to larger units that we can look at--and by the way, would 
you loan us some people to help us?'' So we are loaning them 
people. We are now being asked to loan them two biological 
experts to do section 7 consultations, and we are going to do 
that.
    So I think that what we're talking about and what 
Representative Buck is talking about with the WRIAs is, some of 
us have already done the early action work, and now the next 
job is what I said: the twelve to eighteen months that it takes 
those WRIAs from the ground up to develop the long-range plans. 
Then that's what can feed into the Statewide science panel, and 
that can feed into a broadbased stakeholders group, maybe 
appointed by the governor--the one we have now is appointed by 
the governor--and then the distribution that happens after 
that.
    Senator Gorton. Go ahead.
    Mr. Dicks. I want to compliment this panel particularly, 
because I know everybody has been deeply committed to this 
issue, and Representative Buck and Representative Regala in the 
legislature, and all of you at the local level have done a 
tremendous job. And I think the tri-county effort has provided 
real leadership and momentum in recognizing the difficulty of 
this problem.
    There's been some concern however. I've noted in the press, 
about whether the State legislature will come up with the 
funding that's necessary to match the federal funds, assuming 
we can get them appropriated. We have some of the same problems 
you have. We have budgetary caps and you've got 601--neither 
make our lives easy in terms of actually fulfilling our 
commitments. But what do you think about the State funds? I 
know you two have been leaders; you've done a great job. How 
does it look down there?
    Ms. Regala. Well, Congressman Dicks, you touched on one of 
the challenges, the other challenges that we have this year 
with our budgeting process, and that is 601. You know, we have, 
besides salmon recovery to deal with, we have teachers who feel 
they need an adequate salary. We have counties that would like 
us to help them with a number of the mandates they feel we've 
given them. We have education to deal with. There are many, 
many issues.
    Salmon is very high on the list with regard to the things 
that we are continually talking to our colleagues about that 
need--needs adequate funding. We are still in the budget 
negotiating process. You know, we have this very unique 
situation going on in the House this year.
    Mr. Dicks. Right.
    Ms. Miller. And we have two House budgets at the moment, 
and so we are working on that and trying to come to some 
agreement. And then that means that we also have to work with 
the Senate. We're continuing to push forward in emphasizing how 
important it is that there is funding in our budget to do the 
kinds of things that we need to do as a first step, and 
especially in order to show our partnership with you as you 
continue to send funding to us.
    Mr. Buck. I have to agree with Representative Regala, and I 
have to compliment her today because we have complemented each 
other's testimony very well, as far as giving you, you know, an 
overall view of what things have been going on in Olympia.
    But I do think that we need to keep your question in 
context, congressman. If this is the last legislative session--
or this is not the last legislative session that will ever be, 
and if it is, it won't matter. [Laughter.]
    But you know--you know, I think that when you realize the 
immense job that we have ahead of us, the little bit of dollars 
that we're talking about, whether we're going to get or not get 
this year, will never be noticed in what's going on; it's 
basically budget dust.
    I think that if you take a look at the animal that we're 
dealing with right now, if we do--if we go out to Bear Creek 
with Louise and we do every single thing that we can do right 
this summer, that Bear Creek needs, we won't know if we've been 
successful for four years. And the way that--until the fish 
come back.
    Mr. Dicks. Right.
    Mr. Buck. The way that our laws are written right now, for 
us to have a run that's out of trouble as far as salmon and 
steelhead trout inventory is concerned, we have to have three 
consecutive improving returns. So that means we're looking at a 
minimum of seven years here. My guess is that the overall work 
that we're going to have to do is in the twelve-to forty-year 
range, just because of the nature of the animal we're dealing 
with.
    So when we're talking about this, it becomes an issue of 
cash flow, and an issue of how good we do with opening the 
habitat that has to be opened right away, that will give 
breeding stock a good place to go, or preserving the places 
that--you know, that are still good. So I think that we can 
assure you that, yeah, we're going to do a good job down there 
in the legislature, and the money will be there for a match. 
But I think I'd be really remiss if I didn't remind everybody 
in the room that this is a long-term commitment, and it won't 
be the last time we'll be asking you for money on this.
    Mr. Dicks. Well, we recognize that this is going to be a 
multi-year effort. We clearly understand that at our level, and 
we know you do too. And there's always concern, ``Can we 
deliver?'' We recognize the difficulties you're operating 
under, we have the same problems in Washington.
    Mr. Drewell. I don't disagree at all with what the two 
representatives have said, for the most part. But dust settles, 
and----
    [Laughter.]
    Mr. Dicks. How about smoke, too?
    Mr. Drewell. But at the local government level--and NMFS 
has every--I think has every legitimate reason to ask us to 
display some degree of certainty as we go forward in these 4(d) 
negotiations, for us to be able to go forward with a sense of 
confidence and predictability. As we partnered up locally, 
we're still waiting for a managing partner, and that's the 
State. We need you folks to move those dollars along. And I'm 
not saying anything you haven't said yourself. But for us to be 
as forthright as possible and to be as responsive, we need to 
have those dollars brought forward in a predictable fashion.
    Senator Gorton. None of you even commented on one element 
of my question, and that is where these private non-profit 
volunteer groups fit into the structure of what you're talking 
about.
    All right, Louise; you put your arm up first.
    Ms. Miller. I did, because it's been a very important part 
of how you got to the Waterways 2000 program and how you got to 
some acres along Bear Creek that are already preserved, that 
are keeping it healthy for the fish that come back. Two years 
ago, maybe it's two and a half years ago now, when the sockeye 
came back, we had 65,000 sockeye come back in the stream 
system.
    Senator Gorton. Fantastic.
    Ms. Miller. I mean, this is unbelievable. I've got pictures 
this year of the biggest, hugest Chinook pairs I've ever seen, 
who came up Bear Creek and then made a huge left-hand turn at 
Cottage Creek, which is a creek so small in the system that 
even me, with my short legs, can jump over it. And they spawned 
in that creek. Why did they spawn in that creek? Because the 
water was cooler in that creek. It was clean, it was healthy--
there were mussels there. But the water was cooler. It was a 
hot fall and a hot summer.
    I think that if we didn't have all of those citizens out 
there that got all involved in looking at what was going on on 
their land, having education programs, going out and pulling 
out nasty stuff and putting in good stuff, actually working to 
restore stream banks, that you don't have your long-term 
stewardship. And if you don't have that long-term stewardship 
with somebody looking right at their piece of land and saying, 
``I'm willing to go into a conservation easement here to keep 
the stream corridor healthy,'' then you don't have somebody 
that sees ``Oh, we need to spend some money on this, and I'm 
willing to invest in a Waterways 2000.'' I think the State is 
saying the same thing. That's why Jim Buck and Debbie, they 
developed this WRIA process, because that's where you start 
from the bottom up and you bring the citizens in. And believe 
me, they can tell you a lot more about that stream than your 
own biologists would know till they go out there. So if you 
don't have those groups working every day, going out and 
measuring the water, taking the--I mean, you know, people are 
doing this every day as volunteers. And that's where you get 
that multiplication factor of the real investment in the 
present health and the future health of the system, and really 
getting back harvestable levels.
    Mr. Dicks. Senator Gorton and I have helped fund at the 
federal level--$750,000 for salmon enhancement groups. That 
doesn't sound like a lot of money, but it really makes a 
difference. Hood Canal had serious problems, and because of 
where they're located and----
    [Laughter.]
    Well, we had to have a demonstration project, and they did 
not let us down. We don't have all the money like King County 
does, either. You are very fortunate. All those great 
taxpayers.
    Ms. Regala. They are.
    Mr. Dicks. And they really are committed.
    Ms. Regala. They are committed, and they've demonstrated it 
by agreeing to tax themselves and agreeing to--by the way, some 
of the people that have given conservation easements and got in 
the public benefit rating, you need to know it's really not a 
big gain for them, because if they don't write off the taxes, 
then, you know, their income level, what do you have? They 
don't really benefit from it. But they're committed. And 
furthermore, they're watching that stream every day. That's 
what's really critical. And they're teaching their children, 
and the children are teaching their teachers. And that's how 
you multiply it. I mean, you really--I said $7 to $1 is what we 
really got out of it. Lord knows, we could probably multiply it 
greater than that, by all of the volunteer hours and volunteer 
groups that have gone out there and really made this happen. 
And it's happened, as far as I can tell, all over this State.
    Mr. Dicks. Well, I know, for example, the Hood Canal group 
got money from the State, from the legislation enacted last 
year. They repositioned culverts to restore and open up all the 
habitat that's been closed. So, it is certainly a partnership, 
and we appreciate your efforts. And we're not going to forget 
eastern Washington either.
    Mr. Thiele. Oh, I apologize, but her working over there in 
King County has been a tremendous asset to Okanogan County. 
Because those people come over there with a mindset that 
they're going to protect the waters over there, and with their 
mindset and their ability to pony up these bucks, that's what 
we've been able to do. We haven't had the dollars. When you got 
$2.5 million is all your ad valorem tax base for a whole damn 
county is, you don't have much money to spend on salmon. So 
when these people have come over here, they've given us their 
conservancy easements, and that's what we have done to protect 
the WRIA 48 or the Methow Valley for years to come. And that's 
why our fish are coming back. It's the people that she's taught 
over there that's come over the hill, bought places over there 
and said, ``OK, county commissioners, we want our area over 
here to have three times the amount of regulation on it as you 
have in the rest of the county. You go ahead and be the cowboys 
and the sheepherders over there, but we're over here with our 
summer homes and whatnot; let's protect the fish here.'' And 
those people are the ones that have ponied up the time, the 
conservancy easements for our trails and paths over there, and 
have helped us immeasurably through their different 
organizations that have come over and put bucks into Okanogan 
County to protect the salmon.
    Mr. Dicks. The senator has provided real leadership on the 
Bonneville issue, on the oversight and the scientific panel.
    Mr. Thiele. Yes.
    Mr. Dicks. I think that was long, long overdue.
    Mr. Thiele. I think we're going to need a little more 
oversight to make sure that some of that--what was it, $460 
million--gets back to these people who are trying to do these 
projects in the eastern part of the State, too. I think that 
definitely has to be something we work on together.
    Senator Gorton. Thank you all very much. This has been a 
most enlightening panel. We appreciate your efforts.
STATEMENTS OF:
        WILL STELLE, NATIONAL MARINE FISHERIES SERVICE
        CURT SMITCH, SPECIAL ASSISTANT TO GOVERNOR GARY LOCKE ON 
            NATURAL RESOURCES
        BILLY FRANK, NORTHWEST INDIAN FISHERIES COMMISSION
        BOB LOHN, BONNEVILLE POWER ADMINISTRATION
        TOM DWYER, U.S. FISH AND WILDLIFE SERVICE

                    SUMMARY STATEMENT OF WILL STELLE

    Senator Gorton. OK, the panel V, the next panel: Will 
Stelle, Curt Smitch, Billy Frank, Bob Lohn, and Tom Dwyer.
    Thank you. This group has waited a long time and with great 
patience. And I consider a great deal of the expectations now 
are being laid on all of you, and we appreciate your work as 
well. Will, we'll start with you.
    Mr. Stelle. Thank you, Mr. Chairman and Congressman Dicks. 
I've got a written statement which I'd like to submit for the 
record.
    Senator Gorton. It's in the record.
    Mr. Stelle. And let me move through this quickly.
    First of all, this has been a wonderful day and this is a 
wonderful hearing, and I want to thank you, Congressman Dicks, 
and your staff, for putting together just a hell of a set of 
sessions.
    Mr. Dicks. Thank you.
    Mr. Stelle. It's an extraordinary degree of unanimity that 
all the panelists here had voiced today on what the nature of 
the problem is and how to approach it. I'm impressed; I'm 
mightily impressed.
    Mr. Chairman, my name is William Stelle, and I'm the 
regional administrator of the National Marine Fisheries Service 
for the Northwest Region. I'd like to make several basic points 
in my testimony to you today.
    First and foremost, the federal government, like all of you 
and us, is committed to saving the salmon. It is a matter of 
law and good sense.
    Second, we are committed to good science. Science should 
guide decisions. Science and knowledge is a vital resource, and 
we must make that knowledge available to all people, to enable 
them to choose the right course. This is a crucial point to 
which I will return.
    Third, we are committed to forge new partnerships with 
States, counties, the tribes, and the economic sector here in 
the Pacific Northwest, promoting regional efforts to develop 
home-grown solutions. We are enormously pleased with the 
leadership and sense of responsibility that many people in 
government and the private sector have exhibited on the salmon 
issue here in the Puget Sound region and elsewhere across the 
State. We are greatly encouraged by the response of the States, 
county, and tribal leadership to the prospects of these 
listings, to step up and take responsibility. How to shape the 
Endangered Species Act to work with local initiatives is the 
best challenge we could imagine. We are committed to success.
    Fourth, we are committed to inventiveness and creativity as 
we tackle these tough issues. In many respects, we must be 
prepared to open ourselves up to new solutions. I am confident 
that they are there. We should invite and encourage creativity 
and inventiveness in forging solutions.
    Fifth, we are committed to fulfilling federal treaty 
responsibilities to the tribes of the Pacific Northwest. This 
is a matter of federal law and obligation, and we must 
recognize it and adhere to it. For the tribes, salmon is 
culture, history, and tradition, not just a question of fish or 
cow or chicken for dinner. This is a central point, not a side 
point.
    Further, we are committed to protecting the environment and 
the growing economy of the Pacific Northwest. The economy of 
this region is booming, and we are convinced that salmon 
recovery and economic growth are not only compatible, but 
mutually reinforcing. Protecting salmon means protecting our 
stream systems, the bloodstream of our landscape. Twenty years 
from now, people here will treasure healthy landscapes and 
vibrant salmon populations, and it will be value added to our 
region.
    Finally, we are renewing our commitment to successful 
resolution of the Pacific salmon treaty issues with the 
Canadians. I'd like also to touch on that further.
    Mr. Chairman, first on the funding initiative, let me skip 
my written testimony and simply observe, in answer to your 
question, the federal proposal of this administration was--had 
two components to it: first, a fund for State/tribal/local 
initiatives to help defray the costs of these salmon responses. 
Our view is that, as a general matter, the decisions on how 
that money should be disbursed should be left to State, local, 
and tribal authorities. And we will seek only minimal 
restrictions on it.
    Second, we do believe that transparency is very, very 
important. We should defer to the State and local and tribal 
authorities on how best to spend the money, what we should 
collectively insist on knowing, how it was spent and whether it 
was well spent.
    Third, there is an issue of funding for NMFS capacity. We 
have a very serious capacity problem here in the Northwest, and 
we expect our workload to triple, at least, with these new 
listings. We need to be able to be prepared to meet that new 
workload. And it's simply a matter of fact: we've got to build 
capacity to make sure that the permit processes don't stall 
out, they move through promptly.
    Now a note on science. Again, Mr. Chairman, let me just 
summarize by observing, one, that the federal agencies have 
invested enormous time and effort over the last fifteen years 
in developing hugely valuable expertise, scientific expertise 
on how aquatic systems work and how salmon populations thrive. 
We should pool that expertise, one, and two, make it available 
to empower State agencies, local county agencies, tribal 
capacity, watershed groups, give them the knowledge that we 
have invested and generated in what works and what doesn't 
work, and how to set the right kind of priorities. The National 
Science Council has issued a directive to the federal 
departments to do that work. Making that happen is enormously 
important to increase the efficiency and effectiveness of this 
effort. And I ask both of your helps in helping us make this 
happen. It's enormously important.
    How can we ask individual county governments to know 
everything that they want to know on what works? We, the 
federal science agencies, have an enormous reservoir of 
information. We do a mediocre job, at best, of making that 
information available. We should be forced to do better.

                           prepared statement

    Finally, to the issue of the Canadian--negotiations with 
the Canadians. You've heard a lot about that today; you are 
very educated in it. We are making good progress. At the end of 
the day, though, Mr. Chairman, whether or not we are able to 
bring that agreement home will rest largely with you and your 
colleagues in Congress, including the Alaskan delegation, and 
with the governors and the tribes. And we ask for your support 
and commitment to bring it home; it is vitally important for 
the larger effort.
    Thank you for the opportunity to be here today. I admire 
your endurance. And I look forward to your questions.
    [The statement follows:]

               Prepared Statement of William Stelle, Jr.

    Mr. Chairman and Members of the Subcommittee, my name is 
William Stelle, Jr., and I am the Regional Administrator of the 
Northwest region of the National Marine Fisheries Service. 
Thank you for inviting me to this hearing, and thank you as 
well for taking the time to focus on the important topic of 
today's hearing, the restoration of salmon runs in the Pacific 
Northwest.
    I would like to make several basic points in my testimony 
this morning. First and foremost, the Federal Government, like 
all of us, is committed to saving the salmon. It is a matter of 
law and of good sense. As Mayor Schell of Seattle aptly phrases 
it, in saving salmon we may well be saving ourselves.
    Second, we are committed to good science. Science should 
guide decisions. Science and knowledge is a vital resource, and 
we must make that knowledge available to all to enable people 
to choose the right course. This is a crucial point to which I 
will return.
    Third, we are committed to forge new partnerships with 
states, counties and the private sector here in the Pacific 
Northwest, promoting regional efforts to develop homegrown 
solutions. We are enormously pleased with the leadership and 
sense of responsibility that many people in government and the 
private sector exhibited on the salmon issue here in the Puget 
Sound region. We are greatly encouraged by the response of the 
states, counties and tribes to the prospects of listings to 
step up and take responsibility. How to shape the Endangered 
Species Act (ESA) to work with local initiatives is the best 
challenge we could imagine. We are committed to success.
    Fourth, we are committed to inventiveness and creativity as 
we tackle the tough issues. In many respects, we must be 
prepared to open ourselves to new solutions. I am confident 
that they are there. We should invite and encourage creativity 
and inventiveness in forging solutions.
    Fifth, we are committed to fulfilling treaty 
responsibilities to the tribes of the Pacific Northwest. This 
is a matter of Federal law and obligation, and we must 
recognize it and adhere to it. For the tribes, salmon is 
culture, history and tradition, not just a question of fish or 
cow or chicken for dinner. This is a central point, not a side 
point.
    Further, we are committed to protecting the environment and 
the growing economy of the Pacific Northwest. The economy of 
the northwest is booming, and we are convinced that salmon 
recovery and economic growth are compatible and mutually 
reinforcing. Protecting salmon means protecting our stream 
systems, the bloodstream of our landscape. Twenty years from 
now, people will treasure healthy landscapes and vibrant salmon 
populations, and it will be value added to the region.
    Finally, we are renewing our commitment to successful 
resolution of Pacific salmon treaty issues. I would also like 
to touch on this further into my testimony.

                     the coastal salmon initiative

    The President has proposed a major initiative to bolster 
and deploy existing and new Federal capabilities to assist in 
the conservation of at-risk Pacific salmon runs in California, 
Oregon, Washington and Alaska. This Presidential initiative is 
intended to respond to the listings of these runs under the ESA 
by forming lasting partnerships with state, local and tribal 
efforts for saving Pacific salmon and their important habitats. 
It will promote the development of Federal-state-tribal-local 
coordinating capabilities to ensure close partnerships in 
recovery efforts and to promote efficiencies and effectiveness 
in the recovery effort through enhanced sharing and pooling of 
capabilities and information.
    We are working with the four states, local officials and 
the tribes to detail the specifics of the proposal, and are 
making excellent progress in those efforts. Leaders in 
Washington State at every level are hard at work on this 
effort, and we believe Congressional approval for the new 
initiative is vital. We need your help in making this proposal 
a reality.
    The President has also proposed a substantial increase in 
funding for the National Marine Fisheries Service of $25 
million to build the capacity to handle the workload associated 
with these new listings and our science work. That workload is 
growing exponentially as Federal agencies, developers and state 
and local authorities seek ESA approvals for their activities. 
NMFS has an enormously talented professional staff, and they 
are working overtime to respond, but we need additional 
capacity. It is crucial. We strongly recommend to you the 
recommendation of the Administration to increase that capacity, 
and we believe that a broad cross-sector of the community also 
understands the need and supports the increases.

                         the science initiative

    Saving salmon and doing so efficiently will require the 
best science possible. While the salmon effort will require 
work at all levels of government and the private sector, the 
Federal sector has unique assets and capabilities in the 
science arena that it can, and should, deploy. These 
capabilities extend from basic research programs into the 
causes and effects of the decline of salmon populations and the 
ecology upon which they depend to data gathering and management 
capabilities to mapping salmon populations and their habitats 
at multiple scales to effectiveness monitoring and evaluation. 
All targeted to answer the basic question on many minds: What 
should we do to help? What works? Where should we spend our 
efforts best?
    Mustering the existing science capabilities in the Federal 
sector and making those capabilities and the learning that they 
generate available to the many communities involved with salmon 
restoration will be a vital part of the empowerment of those 
communities to meet the salmon challenge with inventiveness and 
confidence. Federal investments in aquatic sciences relating to 
the ecology of the west coast are substantial, stemming from 
the Northwest Forest Plan, the Bay-Delta effort in California 
and the east side land management science assessments. These 
investments have produced enormous improvements in the science 
of healthy stream systems, which are what salmon need. We 
should muster that knowledge and analytical capacities and make 
them available to our state, local and tribal partners and the 
economic sector. To do so will increase the ability to do the 
right things and in the right priority.
    The Federal agencies are now inventorying their science 
capabilities and the ability to make those science assets 
available to our partners. While science issues tend to be 
relegated to second ticket, we believe this effort is 
enormously important for the long term effort, and we ask your 
active support for it.
    Finally, I would like to address the salmon negotiations 
with the Canadians. We are currently engaged in constructive 
and promising discussions with the Canadians to put into place 
long term science based regimes for managing fisheries along 
our coasts. We need an agreement that establishes a scientific 
foundation for establishing what the fish need first and 
foremost, and which then makes the allocation decisions on a 
fair basis. This subject has significance for coastal stocks in 
Alaska, Washington and Oregon and in the Columbia Basin. We are 
optimistic of the discussions thus far, but their fate may well 
rest in your hands. We need the strong bipartisan support of 
the Northwest and Alaskan delegation in this effort to make 
this possibility a reality.
    Mr. Chairman and Members of the Committee, I thank you once 
again for taking the time to conduct this hearing. I would be 
happy to respond to any questions you may have.

    PREPARED STATEMENT OF HON. DAVID ANDERSON, P.C., M.P., CANADIAN 
                    MINISTER OF FISHERIES AND OCEANS

    Senator Gorton. This is an appropriate point at which to 
say we have a submission from the Canadian Government to this 
hearing, that will be made a part of the record, and I think 
will help us reach a solution.
    [The statement follows:]
    Prepared Statement of Hon. David Anderson, P.C., M.P., Canadian 
                    Minister of Fisheries and Oceans
    I would like to say how I am pleased to be here in Seattle with the 
World Affairs Council. Let me also say what an honor it is to share the 
stage with Governor Gary Locke, a man whose leadership on salmon issues 
will be valued for many years to come.
    Ladies and gentlemen, you don't need a minister of fisheries to 
tell you that fish swim. And you don't need a Canadian to tell you that 
your American fish sometimes swim in our waters. But the fact that they 
do, and the fact that our salmon swim through your waters too, gives us 
a lot to talk about.
    We have always taken great pride that the Canada-U.S. boundary is 
the longest undefended border in the world. But beneath the surface of 
the Pacific, where the wondrous salmon swim, the border is merely a 
figment of the human imagination. It's irrelevant to the survival of 
the salmon.
    What is relevant is that Pacific salmon stocks have been dwindling 
all up and down the West Coast of North America--from California to 
Alaska. Some of the causes are beyond human control, but others are 
not.
    When our two nations signed the Pacific Salmon Treaty in 1985, we 
wanted a framework for fair and responsible management of the resource. 
But through most of this decade, the Treaty has been a forum for 
confrontation, finger pointing and deadlock.
    But those days are coming to an end because the fish are running 
out of time. Our children will not forgive us if we let our 
international boundary, our short-term economic interests or our 
domestic politics imperil this species for a moment longer.
    Ladies and gentlemen, my message today is about an opportunity that 
must be seized. We have the opportunity to step back from the brink of 
extinction for Pacific salmon. By putting conservation first, we can 
move beyond entrenched interests and mutually destructive positions. 
Conservation means more fish for everyone in the future.
    This means breaking away from conventional thinking and adopting a 
new approach. That's what we're working hard to do in Canada. Last year 
Canadians took unprecedented conservation actions. Our measures, 
together with steps taken in U.S. fisheries, led to a very simple and 
obvious conclusion--more fish returned to Canadian and American rivers.
    This year, we can do more. This year, we can advance this powerful 
formula and pursue the same conservation-based approach to Pacific 
Salmon Treaty negotiations. This year can be a turning point for our 
salmon. I'd like to take a few moments now to discuss, from Canada's 
point of view, how we got to this crossroads.
    In the spring of 1998, I was presented with evidence from Canadian 
scientists that some of our coho stocks were at risk of extinction even 
with no fishing whatsoever and that urgent action was required if 
stocks were to be protected. Of greatest concern were coho from the 
Skeena River in the north and coho from the upper Thompson River in the 
south.
    While a near-total shutdown of fishing was a real option, our 
biologists and managers were able to design a better approach. In 
Canada, we are reducing the size of our fleet and we are placing a new 
emphasis on selective fishing (the targeting of abundant stocks while 
avoiding weaker ones). Starting last year, Canadians only harvest 
stocks that can sustain a harvest, and we spare those stocks that 
cannot.
    In Canada, we are taking to heart a principle so simply described 
by writer Michael Wigan in his book ``The Last of the Hunter 
Gatherers--Fisheries Crisis at Sea:'' ``The merits of a fisherman can 
no longer be measured solely by how much he catches, but also on what 
he does not.''
    This permanent shift to a more sustainable way of fishing has not 
been without pain. Those earning their living from the salmon resource 
in British Columbia are facing up to fundamental change and that is 
never easy. I pay tribute to their resilience. The Government of Canada 
has invested $400 million to rebuild the resource, change the way we 
fish and assist individuals and communities adjust to these changes.
    Canada's domestic conservation measures allowed us, in effect, to 
say to our U.S. counterparts: ``Now that we in Canada are getting our 
own house in order, let's get on with the job of cooperating to 
conserve Pacific Northwest salmon stocks.''
    Last year, we achieved a breakthrough because Americans south of 
our border were willing to meet us half way. In our discussions, 
Governor Locke and I agreed that conservation is a crucial matter for 
both domestic policy and international cooperation. The outcome last 
year was two interim agreements covering southern fisheries.
    In the first agreement, reached in June 1998, Washington State 
agreed to reduce by 22 percent its catch of fragile coho stocks bound 
for the upper Thompson River. In fact, my scientists advised me last 
month that the reduction achieved was actually 75 percent lower than 
the previous year.
    In July, a second agreement was struck that protected coho and the 
sensitive Early Stuart run of Fraser River sockeye by restricting when 
the Washington fleet could fish. Still, the agreement allowed 
Washington to catch 23.3 percent of the total allowable catch on prized 
Fraser River sockeye, a figure squarely in the middle of the range seen 
in recent years.
    Canada also put in place size restrictions in late February for 
chinook salmon to mirror actions in the U.S., resulting in a 25 percent 
reduction in harvest of the threatened Nooksack chinook.
    These international agreements, combined with our own domestic 
measures, resulted in an exploitation rate of less than two percent on 
our Thompson River coho, and approximately three percent on our upper 
Skeena coho. By putting more than 97 percent of the stocks on the 
spawning beds, we have begun the long road of re-building.
    Yet in Canada, when these agreements were first announced--long 
before the results were known--they were subject to fierce criticism 
from stakeholders. People believed we had given all our cards away. 
They said we let too many fish pass through our waters, without getting 
enough back.
    This criticism summarizes the thinking of the past--thinking that 
said: ``we don't win unless you lose;'' and ``fish are simply 
commodities to be killed.'' This thinking adds up to a zero-sum game--
it's a recipe for extinction and has been discredited.
    Last year, I said this game is over. Standing at the crossroads of 
our bilateral relationship over salmon, I think we can say that the 
clearest lesson we have learned is that confrontation has made everyone 
poorer, but putting the fish first can turn everyone into winners in 
the long run.
    Our constituents--both Canadians and Americans--are tired of 
arguments over who gets to catch the last fish. Average citizens all 
along our coast care deeply about the salmon. They want their 
grandchildren to experience them. They want responsible management, 
respect for science and they want us to work together.
    As I have outlined, the new dynamic, based on conservation and 
cooperation, is working. Conservation measures, both domestic and 
bilateral, mean more fish in rivers all over the coast and on both 
sides of the border.
    Yes, fishing has its place, but if we don't put the fish first 
there will be nothing to catch. People understand this. They understand 
that quality of life is not a concept applicable to human beings in 
isolation. That's why they support bold measures to protect Pacific 
salmon.
    Here in the Pacific Northwest, the Endangered Species Act 
contributes to intensifying the legitimate and profound public concern 
for salmon. It also adds incentive and urgency to the extensive efforts 
your citizens are making to protect and restore salmon habitat.
    These efforts cost hundreds of millions of dollars every year. I 
want to acknowledge the political and financial commitment of U.S. 
municipal, state and federal governments as well as private interests 
in taking responsibility for saving salmon.
    But I also have to say this: spending dollars to improve freshwater 
habitat is only part of the equation. No matter how much you spend on 
the land, you will not get full value for the money unless a 
sustainable harvest is part of the equation. These two are the yin and 
the yang of salmon recovery.
    Money can put more smolts into the ocean, protect habitat and 
improve water quality, but only human ingenuity and sacrifice will 
ensure that the salmon actually get back to their spawning beds.
    And this brings me right to the point: We need to reach a long-term 
coast wide arrangement under the Pacific Salmon Treaty--now more than 
ever before.
    Canada and the US share strong ties economically, politically and 
culturally. American residents made 15 million trips to Canada last 
year. The United States and Canada engage in more than $1 billion in 
trade every day.
    So, what kind of message does it send the world when two prosperous 
nations, with the biggest trading relationship on earth, cannot solve a 
shared conservation problem? What chance do we stand globally if we 
can't get it right, right here?
    Ladies and gentlemen, I am convinced we can get it right. We have 
the opportunity. We have the best convergence of events in many years. 
I can tell you that there have been very constructive discussions 
between scientists and fish managers from Canada, Washington State, 
Oregon, Alaska, the US federal government and the tribes for the last 
several months.
    What we need now and over the next two months is the political will 
to close the deal. Last year Canada and the United States took some 
important first steps, but we did not get an agreement with Alaska 
because we had differences over science and we did not have a common 
framework for resolving these differences. We cannot allow another year 
to pass without fixing this problem.
    And I understand that all jurisdictions have political realities. 
The special interests of the commercial fishery, particularly in 
Alaska, have always exerted great influence on Treaty discussions and 
have prevented any changes to their fisheries.
    This is an important factor. But here's another: neither the 
patience of Canadians nor the health of the resource will support the 
status quo.
    The next step is for us to move now to government to government 
negotiations for long-term, coast-wide arrangements that will rebuild 
the Pacific salmon resource. And while we concentrate on growing the 
size of the available resource, it is necessary for both parties to 
share the burden of conservation.
    The solution lies in both Canada and the US being very realistic in 
their positions and, as Dr. David Strangway and Mr. William Ruckelshaus 
recommended last year, more fish must move to Canada.
    This year, we have the opportunity to take a broader view. I 
believe we can seize the opportunity. I believe we must.
    Ladies and gentlemen, Canadians and Americans have each made 
mistakes separately in our own waters. And we have made mistakes 
together. Now we must make solutions together.
    The opportunity is ours. As stewards of our environment, we don't 
have the right to pass up this opportunity. Let us reach across that 
border that is irrelevant to the fish, and secure a better future for 
ourselves and for the magnificent Pacific salmon.

                    SUMMARY STATEMENT OF CURT SMITCH

    Senator Gorton. Mr. Smitch.
    Mr. Smitch. Thank you, Mr. Chairman, Congressman Dicks. On 
behalf of the State of Washington, I want to express our 
appreciation, as the governor did, for your holding this 
hearing here on an issue that's so important to this region.
    I think you both are aware that this is a historic debate 
that's occurring in the region. Between how we're going to 
continue to accommodate, basically, in the State of Washington, 
an addition of 100,000 people a year, and maintain our natural 
resources, amenities like those of us who grew up here are 
familiar with, and maintain our economic vitality. This has 
never been done on a scale that we're trying to do this. And we 
don't have a cookbook. We don't have a--really, a map of how to 
do this. And so we're all struggling, and your appearance here 
is very comforting to all of us that we're going to have the 
delegation working with us on a very difficult problem.
    Let me also say it's obvious that the status quo is not 
working for salmon. And that's one of the premises that we're 
operating on in the State as we attempt to come up with 
Statewide salmon recovery strategy, is that we all have to 
change some of the things we're doing, and what we're doing 
simply is not working. That is an issue that is before all of 
us.
    We have divided those issues into the four Hs; you've heard 
a lot about that today, so I won't mention that.
    But I'd like to describe for you, after us spending, the 
State, the last 2 years looking at this full-time, the key 
issues that I think are before us and that I would like to 
offer for your consideration. They key issues are, and I will 
revisit these: governance, you've heard a lot about that today; 
budget, both federal and State; water and forests; and the 
United States-Canada treaty. Those are really the sideboards of 
the discussion that's going on out here. Let me return to each 
of those.
    On governance, we're struggling with, on the federal side 
in particular, how do we allocate the funds. This has raised 
questions about who's involved, who's going to be accountable 
for those funds, and who finally makes the decisions on the 
allocation of those funds. Who sets the priorities? This is an 
issue where we have struggled with--we did set up a process, 
Senator Gorton and Norm, based on the $20 million you gave us. 
We have learned an awful lot about how to actually get a block 
grant from the federal government onto the ground. And we have 
used the government council structure that Louise talked about 
to do that on this first pass.
    We also, though, in governance have an issue of who's 
accountable for development and implementation of the salmon 
strategy. While they're related, they're a little bit 
different, and we are, I think, not as clear on that. Who is 
going to be held accountable by the National Marine Fisheries 
Service for meeting ESA requirements at local, State level, and 
making sure we can do this from the WRIA to the State level. 
This is a very difficult issue. What it has raised for us is 
the tension between having a ground-up local-driven process, 
and at the same time having some performance measures across 
the board that actually recover salmon. And this tension 
between how much top-down and how much bottoms-up do you have, 
is at the heart of this governance issue that we're struggling 
with. And we're working with the legislature on that. And 
frankly, right now I'd say they have a lot of bills that have--
there's a lot of ideas, but we have not reached resolution 
between the executive branch and the legislature at this point 
in time on governance, and we're working that.
    On budget, again, we do need some guidance, senator, and 
I've talked a little bit with Congressman Dicks about this. 
From the Congress, the next time around--we've learned some 
things, and we've learned in contracting. In the contracting 
process, which Louise sort of hinted at, and she was very 
generous, we got the money in December, and we're trying to get 
it out the door. And we're finding the contractual requirements 
on the State, from the federal process, legitimate as they are, 
are some things that we are hearing from our attorney general's 
office that, if we had some additional guidance from you, it 
would speed this up.
    Senator Gorton. OK.
    Mr. Smitch. OK. We will bring those up to you.
    Senator Gorton. Tell us specifically what you need.
    Mr. Smitch. Yeah, and that will help a lot.
    On the State side, again we are dealing with the 
accountability issue on whether this continues to go through 
the State agency process or we have a single place where all 
State and Federal money go through. While that sounds 
attractive, we're finding out it's very complex, and we haven't 
resolved that.
    And I would say, Congressman Dicks, on the question of 
where we are with the legislature on the budget, we're close, 
but there are some significant differences on how we're 
actually spending the money between our various budgets. The 
amount is between $50 and $38 million. That's a distance we can 
close. You both are professionals at closing things like that. 
But we also have some differences on how we allocated the money 
within our respective budgets, but we do have a process set up 
to narrow that, and I'm hopeful that the two----
    Mr. Dicks. I'd like 50 better than 38.
    Mr. Smitch. Thank you, congressman. It's one of the reasons 
I've always admired you. [Laughter.]
    I agree with you.
    Finally, I'll close briefly, Mr. Chairman. Water is really 
the most difficult issue before the State. Our legislature is 
struggling mightily with this. The legislature has been unable 
for the last 20 years to deal with these issues because they're 
so very difficult. But the National Marine Fisheries Service 
has made it very clear to us that without dealing with water, 
you truly cannot deal with salmon. So we're still working to 
close the distance there on some of these water issues.
    In the forest piece, I want to just mention that, frankly, 
is moving through the legislature. I am confident we will get 
something out of the process that will support the agreement 
that was negotiated. But if not, I want to say to you, Mr. 
Chairman and Congressman Dicks, the message we're going to send 
to everybody in the State is ``Here is a group that came 
forward on their own initiative and negotiated in good faith 
for two years, and we ducked them and we did not follow through 
in supporting that agreement in the legislature.'' If we do 
that, I don't think we'll see another sector come to the table. 
So for us, this is a huge building block in the governor's 
salmon recovery strategy, and we encourage your continued 
support of that effort.
    Finally, United States-Canada, Mr. Chairman, Congressman 
Dicks, you have heard we cannot recover Puget Sound Chinook 
without a United States-Canada salmon agreement. We cannot get 
people to do the kinds of things we're going to need to do on 
the habitat side without having that agreement. So for us, it's 
crucial. The governor is personally involved, as you know, 
Senator Gorton; you've met with him on this issue. Norm, you've 
met with him on this, along with Governor Kitzhaber and 
Governor Knowles. So we are going to need your help, as Will 
said, and assistance of the White House. The climate is very 
good this year. You had a very important gentleman sitting 
beside you here today, frankly probably holds the key to this. 
But the parts are all on the table now, and I think with your 
support and with the White House support, we can close this.
    Thank you.
    Senator Gorton. Good.
    Mr. Frank.

                    SUMMARY STATEMENT OF BILLY FRANK

    Mr. Frank. Thank you, Senator and Congressman.
    And this is a great day, as you heard all of your 
testimony, and it's a great day for me to sit here and see 
Senator Gorton and Congressman Norm Dicks and our senator from 
the north, Ted Stevens.
    I particularly--maybe I better introduce myself for the 
record, but I'm Billy Frank, chairman of the Northwest Indian 
Fisheries Commission, and--but I'm not going to talk from this 
testimony; you already have it, and I never do anyhow, and----
    [Laughter.]
    But you know, to me, the stars are lining up, and I've 
talked to our Congressmen about these. And the stars, when they 
line up--the Magnuson Act and reauthorization was a star for us 
in the Northwest and along the Pacific coast, and the 
reauthorization of that act--and you two were very important to 
that, and our Senator from the north.
    But today is another one. The initiative that the President 
came out with, that was a big star for the Pacific salmon, and 
getting the attention to that in this hearing today. And our 
Senator came out with another number; I like that number. And 
you came out with $200 million today; I like that number and--
but I like 10 percent of that going to the tribes, as far as 
the funding is concerned. And, but as you heard in here, 
everything that was happening on our watersheds--and we're 
involved in them--you heard that testimony today.
    That's why I like to sit in Louise's chair right here. I 
told her she's talking for all of us when she talks about 
putting these watersheds together and talking about the little 
things like temperature of the water, where the Chinook salmon 
will go to, and how we'll have to measure that in the future.
    But the tribes are there. Tribes are there, not only every 
day, but 24 hours a day. They're there because you two, Senator 
and Congressman, in the appropriations have put us there, have 
appropriated that money from Congress and allowed us to 
participate on them watersheds in a very positive, proactive 
way. And that's exactly what we're doing. We're doing that at 
every level with the Federal Government as our partner and the 
State as our partner, and moving forward and moving the issues 
forward and kicking them down the road. The Tri-County is very 
important to what they're doing that relates to the other side 
of the mountain, of taking--we have to include all of the State 
of Washington, the Pacific coast, every one of our counties. 
They all have to participate. We have to go clean down the 
coast, take our story down there, our positive stories, our 
models that we're working on here. These are very important to 
everything that we're doing.
    Coordination, that the senator had mentioned, is very 
important to coordinate everything that we're doing here. And 
we look to the State of Washington to line up that coordination 
and make it work. We want to take part in all of that. We want 
to be proud of everything that we do here, and we're proud of 
what we're doing here now. We're proud of our Whatcom County 
people that are coming forward, and our Skagit County people 
that are coming forward, and working on down in our Thurston 
County area and our tri-counties. We're proud of all of these 
things that are working on the watersheds.
    We know that the salmon only stay in the watersheds a short 
distance of time, but we're out there working on them bays, 
too. We're out there working with the ports, we're out working 
with the cities, we're out working on the private beaches, 
we're out working with the neighbors. You know, these are very 
important things that we're doing in the Northwest.
    And they came from the Congress. When we first went back 
there to talk about the eagles that were declining in the 
Northwest back in the 1970's, and how we brought them back by 
working together, all of us. And these are very important 
things that we're talking about.
    The funding, yeah, we need funding. And we need to go back 
and tell our story to the Appropriations Committee back there 
and to both sides of the aisle. I think it's very important 
that we--we can tell our story the best right here. You've had 
them all here today; they've told you exactly what is happening 
on the watershed, what's happening in your own back yards, and 
they've had you out there to some of them projects. And they're 
very important, very important to all of us.
    The science committee that has been talked about on this 
table, you know--don't forget the tribes when you talk about 
the science committee. The mayor of Gig Harbor the other day 
said, ``You better have the tribes at the--when it comes to 
science, to have them in the committee.'' Now, this is the 
mayor of Gig Harbor; she should have been here today.
    Mr. Dicks. Very enlightened. [Laughter.]
    Mr. Frank. Right; very enlightening. I mean, I love them 
people over there; they're a fishing community, you know. But 
we have to be there; the tribes have to be there. When you come 
to science, we have science, we have the people, we have 
information. We need to share all of this with each other, and 
we got to make it happen. And it only takes us to make it 
happen, all of us together, everybody that's in the room. Our 
United States Congress, our delegation that's been here, that 
great senator from Alaska--you guys can work that and make that 
money kind of build. The cap's going to be pulled off. Cap's 
got to be pulled off in the State. Who in the hell is working 
on that? What the hell are we going----
    Mr. Dicks. We have a secret plan.
    Mr. Frank. Oh, we got a secret plan; yeah. [Laughter.]
    You know, they're all talking back and tell me ``Oh, we 
don't have any money.'' You know, Jesus--you know, we're 
working on a little bit now, but you know somebody's got to be 
thinking these and strategizing and taking us out into the next 
fifty years.

                           prepared statement

    And I appreciate Senator Gorton, I appreciate Congressman 
Norm Dicks, and all of our other legislative and senators. 
Today is a good day for all of us to enjoy and laugh a little 
bit, and keep working and moving forward.
    Thank you.
    Senator Gorton. Thank you. Thank you very much.
    [The statement follows:]
                 Prepared Statement of Billy Frank, Jr.
    Honorable members of the Committee, I am Billy Frank, Jr., chairman 
of the Northwest Indian Fisheries Commission and member of the 
Nisqually Indian Tribe. I have lived on the Nisqually River my entire 
life, as have all of my ancestors for thousands of generations. My 
tribe, and the other tribes of the Pacific Northwest are known as the 
fishing tribes by people all across this continent because we have 
always depended on salmon, as well as other species of fish, from time 
immemorial. Our culture, our economy, our entire existence is now and 
has always been connected with the salmon. When non-Indians first came 
to this land, they marvelled over the salmon resource. The giant fish 
filled the rivers and the marine waters, where they found ample, cool, 
clean water, and all other components of life-sustaining habitat. We 
have always respected the salmon. The resource has always been sacred 
to us. It is what we eat, and thus it has always been part of us and we 
have always tried to protect it.
    That is why the tribes felt compelled to reserve their fishing 
opportunities when they entered into treaties with the United States 
government. It is why we work so hard to protect and preserve these 
rights today. But the fact is that we have not truly had an opportunity 
to manage the resource since that right was reaffirmed by federal court 
in the 1970's. By then, the writing was already on the wall. Millions 
of people had already moved here. The rivers had been dammed. The 
forests had been cut. The habitat was on a downward spiral. In this 
past two decades, the population of human inhabitants has skyrocketed, 
along with development, pollution and the demand for indiscriminate 
uses of water.
    Tribal and non-tribal fisheries managers have realized that the 
increasing problems facing wild salmon require a focused cooperative 
approach in efforts to protect, restore and manage the resource. 
Several cooperative planning efforts have been used to address the 
problems confronting wild salmon populations. Although there has been a 
general failure on the part of the new Administration in Washington 
State to adequately collaborate with the tribes in its salmon recovery 
efforts, we have worked hard to cooperate in fisheries planning, 
enhancement, disease control, and habitat restoration projects whenever 
we could over the past 20 years. Tribal fisheries managers have 
implemented historic cutbacks in fisheries, for example. The tribes are 
excellent resource managers and have always structured their fisheries 
based on a weak-stock management approach. They work to develop fishery 
regimes that will have the least impact on the weakest stocks while 
maximizing harvest opportunity on stronger wild and hatchery stocks.
    But it has become abundantly clear that depleted stocks cannot be 
rebuilt by fisheries restrictions alone. The habitat on which the fish 
depend must be restored and protected if there is to be any meaningful 
recovery of the salmon resource.
    The Endangered Species Act is a powerful tool to prevent species 
extinction. The ESA gives federal entities the ability to regulate and 
even halt activities detrimental to the continued survival or recovery 
of a weak stock, giving that species an opportunity to rebuild. The 
recent listing of nine species of salmon in the Northwest marks one of 
the first times the ESA has been implemented in a large metropolitan 
area.
    From the tribal perspective, we must all do more than what the ESA 
requires--merely prevent extinction of fish, wildlife and plants by 
preserving remnant populations that are essentially little more than 
museum specimens. Instead, we must restore these populations to healthy 
levels that will again support harvest. The tribes have seen many 
streams lose their salmon runs, and have refused to wait for federal 
government intervention before taking action. Steps have already been 
taken to strengthen and restore salmon populations in western 
Washington. Restoring fish and fish habitat has been a major tribal 
goal for many years. In the early 1990's, for example, tribal fisheries 
managers joined with state fisheries managers to develop the Wild Stock 
Restoration Initiative in response to the poor condition of some salmon 
stocks in western Washington. The co-managers first developed a 
statewide inventory of all salmonid stocks and their health. The Salmon 
and Steelhead Stock Inventory and Analysis (SASSI) began in the spring 
of 1992. It took about one year to complete the inventory and 18 months 
to complete the detailed appendices which provide the data and 
information used in the evaluation of stock status. SASSI grouped 435 
salmon and steelhead stocks into five status categories. Of the total, 
187 stocks were categorized as healthy; 122 depressed; 12 critical; 113 
unknown; and one extinct. SASSI must be periodically updated and 
revised to reflect changes in stock status gathered through monitoring 
and evaluation. This systematic, scientific approach to the issue of 
declining fish runs has given the co-managers a wealth of information 
on the condition of the health of nearly every salmon and steelhead 
stock in the state, and clearly identifies those fish stocks that need 
immediate help. While compiling the SASSI document, it became apparent 
to the co-managers that it would be impossible to adequately assess 
salmon and steelhead habitat within the scope of the stock inventory. 
Because freshwater habitat is a basic limiting factor for the 
production of some salmon species, it was clear that an inventory of 
salmon and steelhead habitat must also be compiled. Work on this second 
step in the Wild Stock Restoration Initiative the Salmon and Steelhead 
Habitat Inventory and Assessment Project (SSHIAP) began in 1995. SSHIAP 
will ultimately result in a blueprint for joint tribal/state 
cooperative action to document current habitat conditions, assess the 
role of habitat degradation and loss on the condition of salmon and 
steelhead stocks, develop stock- or watershed-specific strategies for 
habitat protection and restoration, define a cooperative process to 
implement habitat restoration and protection strategies and develop and 
implement a long-term monitoring system that will assist in adaptive 
management. Through the Wild Stock Restoration Initiative, the tribes 
are now defining management goals and objectives for fisheries and 
developing both regional and watershed specific plans.
    The state and tribes have committed to further responding to wild 
salmon stock declines through improved planning processes like 
Comprehensive Coho and Comprehensive Puget Sound Chinook. The goal of 
Comprehensive Coho and Comprehensive Puget Sound Chinook management 
plans are to restore the productivity, production and diversity of 
salmon stocks originating in the streams tributary to Puget Sound and 
the Washington coast to levels that can sustain ceremonial, 
subsistence, and other fisheries. This can be accomplished through the 
protection, restoration and enhancement of salmon habitat; responsible 
management of fisheries to ensure that adequate spawning adults escape 
to use the available habitat; and hatchery programs that provide 
fishery benefits and enhance the productivity of natural stocks.
    The processes are designed to modify the way salmon are managed by 
moving away from using a fixed number as a harvest target and toward a 
percentage of the overall run size, known as an exploitation rate, in 
concert with freshwater habitat improvements and firm hatchery 
guidelines. This approach has been used for coho management for several 
Puget Sound stocks during the past three years and fisheries co-
managers are working on applying the process throughout western 
Washington. A new Comprehensive Coho fisheries ``model,'' designed to 
give fisheries managers an accurate reflection of how their management 
issues are affecting coho stocks, is expected to be completed soon. 
Comprehensive Coho has been in development since 1993, but new efforts 
to develop a Comprehensive Puget Sound Chinook Management Plan are now 
on the fast track due to the NMFS listing of Puget Sound chinook salmon 
as ``threatened'' under ESA.
    The recognition by Comprehensive Coho and Comprehensive Puget Sound 
Chinook management plans that harvest, habitat and hatcheries cannot be 
addressed in isolation is a critical step toward ensuring the health, 
maintenance and restoration of the productivity, diversity and capacity 
of all stocks and providing for the optimal utilization of coho and 
chinook salmon resources. For example, when long-term problems are 
rooted primarily in habitat degradation, rather than overfishing, 
fishing restrictions alone cannot restore depressed stocks to their 
full productive potential. The key to healthy stocks and sustainable 
fisheries, therefore, lies in a comprehensive approach that also 
includes protecting productive habitat and restoring degraded habitat.
    Despite efforts by the tribes to engage the State of Washington in 
a joint plan to address salmon recovery needs, the tribes have been 
excluded from the state's salmon recovery planning process. 
Consequently, the tribes have been working on their own plan. The plan, 
expected to be unveiled in 1999, will be used by tribes in their 
watersheds and will provide a framework for incorporating other 
regional plans. The tribal plan focuses on the management of habitat, 
harvest and hatcheries, and will serve as a tool for NMFS to create a 
high standard for habitat protection under ESA. It is hoped other 
agencies and organizations will endorse, integrate and/or adopt the 
plan for implementation. Regional or watershed initiatives are at the 
heart of the plan. Specific recovery plans will be developed for each 
watershed and will guide how fisheries, habitat and hatcheries will be 
managed.
    The tribes believe the ESA can be administered in a manner that 
prevents species important to tribal communities from becoming extinct, 
and can be administered in a manner that reaffirms federal trust 
responsibilities, treaty-reserved rights, and tribal sovereignty. 
Tribes believe that fish and wildlife resources and the ecosystems on 
which they depend must be managed in a holistic manner that recognizes 
that all things are connected.
    Results of the Wild Stock Restoration Initiative and tribal salmon 
recovery plan and the many ongoing efforts of the tribes and state to 
address the decline of wild salmon stocks should figure prominently in 
the ESA decision-making process. So, too, should the federal trust 
responsibility to the tribes and the terms of the treaties.
    Clearly, there is need for funding, directed to the tribes, to 
support our ongoing efforts. Specific funding needs of the NWIFC member 
tribes will be provided in testimony to the Appropriations Committee at 
a later date.

                     SUMMARY STATEMENT OF BOB LOHN

    Senator Gorton. Mr. Lohn.
    Mr. Lohn. Senator Gorton, Congressman Dicks, for the 
record, my name is Bob Lohn. I'm fish and wildlife director for 
the Bonneville Power Administration. On behalf of our 
administrator, Judi Johansen, I appreciate Bonneville's--I want 
to express Bonneville's appreciation for your holding this 
hearing.
    And personally, having worked so long in the contentious 
wars of the Columbia Basin salmon, it is good to be part of an 
attitude that sees help and sees the strength of cooperation. 
So for me personally, it's been an enlightening day.
    And one other passing comment: Congressman Dicks, I 
particularly appreciate your interest in Caspian terns. I was 
down working on that project in both islands about a week ago, 
and if time permits later in the hearing, I'd be happy to give 
you an update. Because in that too, there's a nice small story 
of local cooperation and how something good is coming out of 
the circumstances.
    Mr. Dicks. Good.
    Mr. Lohn. Commissioner Thiele testified as to the size and 
scale of our funding. Actually, I was pleased and appreciative 
that out of the confusion of this accounting, he'd been able to 
make considerable sense, and by and large, the picture is 
roughly right. I'd like to focus in a little bit so we're clear 
about which categories we're talking about, and then simply 
open it to you for further questions, as you would please, 
about how that money is being allocated or how it might 
otherwise be allocated.
    Bonneville's cash payments are in three categories. The 
first is what we call capital repayment. It's essentially our 
mortgage payment on the work done by the Corps of Engineers and 
other borrowing we've done for--on behalf of the region. 
Currently that mortgage payment is in the zone of--oh, roughly 
$80 million per year. It's rising rapidly. As you would know, 
the mortgage payment doesn't go up when the appropriations are 
made, they go up when the plant-in-service date is declared--
that is, when the work is completed. We're due shortly to see a 
substantial rise there.
    Second category--and by the way, that's a reimbursement to 
the federal treasury. The rule of thumb, incidentally, is, when 
an appropriation goes to the Corps of Engineers for work on the 
Columbia River for fish and wildlife, roughly 75 percent will 
be repaid by the region--that is, funded through Bonneville.
    Second category, what we call reimbursables: these 
initially were reimbursing the federal treasury for annual 
appropriations; now in some instances we repay the agencies 
involved directly. Much of this money goes for fish hatcheries 
in Oregon, Idaho, and Washington, including the Lower Snake 
River Compensation Plan hatcheries. Some of this money also 
goes to pay for the annual operation and maintenance costs of 
the Corps of Engineers for the fish structures at the various 
dams. And finally, we pay as a fish cost about half of the 
annual budget of the Northwest Power Planning Council, so in 
other words, about $3 million a year in this category. Total in 
this category, roughly $40 million a year.
    Finally, there's the direct program. Technically speaking, 
that's $100 million worth of expense and $27 million of 
capital, but practically speaking, it's $127 million available 
each year for spending on fish and wildlife projects.
    Pursuant to the Northwest----
    Mr. Dicks. Can the counties that we heard from, like 
Okanogan, apply for money under that fund?
    Mr. Lohn. Yes, sir, they can. However, there is a--there is 
a fairly detailed prioritization process. First of all, we meet 
the immediate needs of ESA. Secondly, we respond to the program 
developed by the Power Planning Council, and there is a lengthy 
process there. The process begins each fall with a 
recommendation--with a call for proposals. This year, for 
example, we received somewhat over 450, I believe. Currently, 
we have ongoing about 350 projects. In fact, this year there 
was some very discouraging language saying we didn't think 
there would be much room for new projects while accommodating 
existing ones. Even so, there were over a hundred new proposals 
coming in.
    Senator Gorton has helped enormously with that process by 
creating an independent science review panel. That group, the 
ISRP, reviews each of the proposals. The agencies and tribes 
also do that. This wealth of recommendation comes together in 
the Northwest Power Planning Council, and they issue their 
recommendations to us. Generally speaking, we follow them to 
the letter.
    Funds, incidentally, that are not actually paid out--I 
mention this because it's unusual in federal programs. Funds 
that are not actually paid out are carried over, with interest, 
from year to year. So this is not a circumstance where money is 
lost if it's not spent. And the region actually has paid some 
attention to facing decisions as to whether projects are ready 
to go or not.
    So with that as what's available in the prioritization 
process, I guess a couple of numbers relative to Washington, 
and then one closing comment about how the money is spent.
    In the State of Washington last year, just to give you an 
example, the four--five principal contractors--that is, the 
four tribes and the Washington Department of Fish and 
Wildlife--received under the direct program about $21 million; 
another $2 million or more came under the Lower Snake Comp 
Program. So we're looking at about $23 million just to those 
five contractors.
    I don't have a breakout by each of the watersheds, but if I 
look at it in another way, how much of--how many of the billing 
addresses we paid out money to were in the State of Washington, 
recipients in Washington got about $52 million of the last 
year's $127 million. Now, not all of those were Washington 
projects, but that'll give you the general feel.
    Thank you.

                     SUMMARY STATEMENT OF TOM DWYER

    Senator Gorton. Mr. Dwyer.
    Mr. Dwyer. Thank you.
    Senator Gorton. We welcome you here as the last witness; 
you've waited patiently for a long time.
    Mr. Dwyer. Yeah. I meant to say also that Will Stelle 
doesn't ordinarily let me go last, you know.
    Mr. Chairman and Congressman Dicks, my name is Thomas 
Dwyer. I'm the deputy regional director for the Pacific Region 
of the Fish and Wildlife Service.
    Accompanying me here today is Gerry Jackson, who's sitting 
in the second row back there. He's our new supervisor of the 
Fish and Wildlife Service's office in Lacey, Washington.
    I want to thank you very much----
    Senator Gorton. You need to be a little closer to that 
microphone, too.
    Mr. Dwyer. I want to thank you very much today for inviting 
the Fish and Wildlife Service to this hearing.
    As you know, the Fish and Wildlife Service and the National 
Marine Fisheries Service jointly share responsibility for 
administration of the Endangered Species Act, and both agencies 
are actively involved in the effort to recover listed fish, 
including bull trout and various runs of salmon. And I want to 
let you know that the Fish and Wildlife Service is very 
committed to this problem and to solving this problem.
    Today I want to very quickly focus on three issues: one, 
some information about what the Northwest is really facing 
today because of some of the actions the Fish and Wildlife 
Service has taken in listing bull trout; I want to talk a 
little bit about how we can make compliance with the Endangered 
Species Act easier for everyone; and finally, I want to talk a 
little bit about the $20 million that were provided in the Fish 
and Wildlife Service's budget this year to the State of 
Washington.
    First, what really does the Northwest face because we've 
listed bull trout this year? The Klamath and Columbia River 
Basin distinct population segments of the bull trout were 
listed by the Fish and Wildlife Service last June, and the Fish 
and Wildlife Service will determine by this June whether to 
list other population segments, including the coastal Puget 
Sound population. And that's the population that I think would 
be of most interest to this group here today.
    When we do a listing of our species under the Endangered 
Species Act, we normally accompany it with a special 4(d) rule, 
that in this case allows for fishing to continue for bull 
trout. We would hope to do that also if we end up listing the 
coastal Puget Sound population in June.
    We also try to deal with, in our--in our listing actions 
and in our proposed rules, information on what really would 
constitute problems with the Endangered Species Act when we do 
these listings. And I'll go into that in a little bit later 
here.
    If we think of federal lands, Federal and State lands as 
being affected both by listings under the ESA, of course, 
everyone knows logging, mining, grazing, other activities on 
federal lands then become susceptible to requirements under 
section 7 of the Endangered Species Act, and we end up having 
to do consultations with the Bureau of Land Management and the 
Forest Service. And we've been lucky enough to be able to work 
through a streamlined process with both of these agencies, and 
this agreement on streamlining has been in place for a couple 
of years, and the National Marine Fisheries Service works with 
us also on this process.
    When it gets to private land, it gets a little more 
difficult. As I said, when a listing occurs, we try to put in 
our rules what really would constitute a violation of the 
Endangered Species Act, and this normally would involve what 
would affect directly harming fish, and perhaps also what would 
affect harming fish habitat. What we're trying to do, then, to 
make things easier for people in the Northwest, is get the word 
out that incidental take permits through our section 10 of the 
Act, which really involves habitat conservation plans, are 
really the way to go to protect people and to help everyone 
work together to recover--recover these species.
    Going to how our agencies can make the ESA compliance 
easier, again if I go to private lands, the Fish and Wildlife 
Service and NMFS have collectively developed new tools, using 
the flexibility of the Endangered Species Act to create 
incentives for private landowners to voluntarily conserve 
listed and unlisted species, by providing these landowners with 
regulatory certainty.
    One of these new tools, which we hope to have in final form 
by this summer, is called the Safe Harbor Policy. It applies to 
listed species, and it involves a formal agreement that 
establishes a baseline for the enrolled property, and a 
determination by the services that a net conservation benefit 
would be provided for the covered species. Then under this 
agreement, the Service will authorize incidental take of these 
covered species up to the agreed-upon baseline on the enrolled 
property, without any additional requirements by the landowner.
    We've also, the Fish and Wildlife Service and NMFS, 
introduced streamlining procedures and other improvements in 
our Joint Habitat Conservation Planning Handbook. These 
measures include combining HCPs and National Environmental 
Policy Act documents, establishing a low-effect HCP category 
with expedited permit-approval procedures for low-impact 
projects, establishing specific time periods for processing 
incidental take statements under HCPs, allowing for unlisted 
species to be named on these incidental take permits if they 
are adequately addressed, so there's no need to amend a permit 
later if a species gets listed.
    Finally, the Fish and Wildlife Service has done quite a bit 
of work developing some interim guidance on bull trout 
conservation. We've done this because we haven't yet been able 
to complete recovery planning for bull trout. This guidance was 
developed as a tool to be used really by everyone, biologists, 
administrators, you know, county and city governments, who want 
to participate in bull trout conservation and recovery efforts 
and who want to also know how their effect--how their 
activities may affect bull trout. It provides valuable 
information to all entities on bull trout needs, impacts of 
these activities, and broad-scale landscape recommendations for 
the conservation and recovery of bull trout. Again, as I said, 
we hope to have a complete bull trout recovery plan done 
sometime in the next 18 months.
    Finally, let me close with a little bit--with a few 
comments on how the 19--fiscal year 1999 salmon money, you 
know, is being allocated and spent in the State of Washington.
    As you know, the $20 million was appropriated to the State 
of Washington through the Fish and Wildlife Service's budget 
for salmon recovery efforts. And it's supposed to be involved, 
you know, with on-the-ground projects to restore salmon in 
strategic planning efforts, including watershed assessments.
    The Washington Governor's Salmon Recovery Office--and Curt, 
sitting next to me here, is the man responsible for this--
really has the responsibility for administration, project 
allocation, and accountability of these funds. The Fish and 
Wildlife Service is providing technical assistance to the 
Governor's Salmon Office in an advisory capacity to facilitate 
project selection and implementation. I'm the project officer 
for the Fish and Wildlife Service for these funds.
    State salmon recovery efforts will include both habitat 
protection and restoration. Habitat protection addresses the 
potential loss, of course, of the high-quality habitat, and 
would encompass diverse efforts necessary to restore these 
habitats.

                           prepared statement

    We've provided technical review on over 150 project 
proposals so far, working in cooperation with the Governor's 
Salmon Office, and where appropriate, we've made 
recommendations on ways to improve or enhance these projects. 
From the very beginning, we've tried to be a value added to 
this whole process. There was a very short timeframe involved 
here from the time funding was appropriated until work can 
actually get done on the ground, as we've heard several panel 
members say today. We very quickly developed a grant agreement 
with Curt Smitch's office and made the funds available 
electronically, and now we're working with the State of 
Washington on really contract requirements to get the work done 
on the ground.
    I'd be glad to answer any questions you might have.
    [The statement follows:]
                   Prepared Statement of Thomas Dwyer
    Mr. Chairman, Senators, Representatives and distinguished members 
of the panel, my name is Thomas Dwyer, Deputy Regional Director for 
Region 1 of the U.S. Fish and Wildlife Service. Accompanying me today 
on behalf of the Service is Gerry Jackson, the new Supervisor of our 
State Fish and Wildlife Office in Lacey, Washington. Gerry has just 
taken this position and formerly was the Service's Assistant Director 
for Ecological Services in Washington, D.C.
    As you know, the U.S. Fish and Wildlife Service and the National 
Marine Fisheries Service share responsibility for the administration of 
the Endangered Species Act. Both agencies are actively involved in the 
effort to bring back the listed fish, including bull trout and various 
runs of salmon. We appreciate the many efforts you have made to rebuild 
these fish stocks and intend to continue working closely with all of 
you in this historic and monumental undertaking.
    Today, we appear before you to answer questions which your staffs 
have transmitted to us and which bear directly on the subject of saving 
fish species in the Puget Sound listed under the Endangered Species 
Act. Those questions and answers are as follows:
            how the fiscal year 1999 salmon money was spent
    The $20 million appropriated to the U.S. Fish and Wildlife Service 
and conveyed to the State of Washington for salmon recovery efforts is 
funding both on-the-ground projects to restore salmon and strategic 
planning efforts, including watershed assessments. The Washington 
Governor's Salmon Recovery Office is responsible for the 
administration, project allocation, and accountability of the funds. 
The Fish and Wildlife Service is providing technical assistance to the 
Governor's Salmon Recovery Office in an advisory capacity to facilitate 
project selection and implementation.
    State salmon recovery efforts include both habitat protection and 
restoration. Habitat protection addresses the potential loss of high 
quality habitat and encompasses diverse efforts, from the acquisition 
of property and/or development rights to changes in zoning laws to 
provide adequate riparian buffers. Approximately $5 million is being 
spent on habitat acquisition. Habitat restoration efforts focus on 
returning degraded habitat to functioning salmon habitat. It includes a 
variety of activities, such as the following: restoring riparian areas, 
wetlands and estuaries critical to the salmon life-cycle; providing 
adequate instream flows; removing and replacing of poorly designed 
culverts blocking fish migration; and, introducing no-till agricultural 
methods in areas of highly erodible soils.
    Strategic planning efforts are occurring on several scales. At the 
watershed level, planning efforts are funded to assess watersheds and 
identify the most effective restoration options. Regional planning 
efforts are focused on developing coordinated regional recovery 
activities which involve the full suite of stakeholders (e.g., private 
landowners, tribes, County, State, industry, environmentalists, etc.), 
addressing needed changes to State and County regulations to accomplish 
recovery, and developing baseline information and recovery strategies 
on salmon and bull trout to facilitate Endangered Species Act 
coordination with the Federal agencies.
    The Fish and Wildlife Service is providing technical reviews on the 
over 150 project proposals submitted to the Governor's Salmon Recovery 
Office. A limited number of site visits are conducted in reviewing the 
proposed projects. Where appropriate, recommendations on ways to 
improve or enhance specific project designs and improve their 
effectiveness are provided to the Governor's Salmon Recovery Office. 
Following approval and funding of the projects, we will assist private 
landowners and the State in project implementation and monitoring. As 
of March 30, the Fish and Wildlife Service had completed reviews on all 
of the 123 proposals provided to us.
   how all the federal agencies are coordinating with regard to the 
               impacts of salmon and bull trout listings
    With regard to Endangered Species Act (ESA) section 7 consultation 
for the threatened bull trout, the Fish and Wildlife Service (FWS) has 
worked with the Forest Service (FS) and the Bureau of Land Management 
(BLM) to develop an approach that incorporates a ``matrix'' to assist 
in assessing impacts of actions on Federal lands to bull trout. This 
approach also provides for watershed-scale consultations, which more 
efficiently assess the cumulative impacts of actions on bull trout.
    The matrix was modeled after a similar matrix developed by the 
National Marine Fisheries Service (NMFS) for the same purpose relative 
to listed salmon and steelhead. In compiling and assessing information 
upon which the matrix is based, field units were encouraged to use 
watershed boundaries already agreed to under consultation for listed 
salmon and steelhead, wherever possible. In many cases, staff from the 
FWS, NMFS, FS and BLM meet jointly to evaluate impacts of proposed 
actions to salmon and bull trout, to streamline the consultation 
process.
    The Fish and Wildlife Service and the National Marine Fisheries 
Service are jointly conducting programmatic consultations with the Army 
Corps of Engineers, the Federal Highways Administration and the Federal 
Emergency Management Agency. By conducting these consultations on a 
programmatic level, the workload should be reduced. The Fish and 
Wildlife Service and the National Marine Fisheries Service are also 
conducting training for Federal agencies and local jurisdictions that 
often serve as agencies and participate in consultation.
    With regard to operation of Columbia and Snake River dams, the FWS, 
NMFS, Corps of Engineers, Bonneville Power Administration and Bureau of 
Reclamation met in the summer of 1998 to discuss approaches for 
efficiently and effectively completing ESA consultation on the 
operation of Federal facilities, and their effects to salmon, bull 
trout and other listed aquatic species such as the Kootenai River 
sturgeon and Snake River snails. In addition, a Federal caucus is 
working on a ``green paper'' to evaluate potential impacts of harvest, 
hatcheries, habitat and the hydro system on Columbia River salmon and 
steelhead.
    The Fish and Wildlife Service and the National Marine Fisheries 
Service have coordinated in the development of Habitat Conservation 
Plans, in the negotiation of a Forestry Module for Washington State 
Forest Practices Rules, and in the development of a riparian standard 
for the Conservation Reserve Enhancement Program. Federal agencies also 
coordinate with other government agencies through participation on the 
Washington Government Council on Natural Resources.
    In addition, FWS, Environmental Protection Agency (EPA), and NMFS 
regional executives have been meeting on a regular basis to integrate 
Clean Water Act and ESA programs. ESA section 7 consultation between 
the FWS, NMFS and EPA has been taking place in Oregon and Idaho on 
proposed changes to water quality standards which may affect bull 
trout, salmon, steelhead and other listed aquatic species.
what the pacific northwest will face in the coming year as a result of 
                              the listings
    The Klamath and Columbia River distinct population segments of the 
bull trout were listed as threatened in June 1998. The Fish and 
Wildlife Service will determine whether to list the other distinct 
population segments of this species in the Pacific Northwest in June 
1999. The proposed rule for these other populations included a special 
4(d) rule allowing sport fishing to continue in accordance with State, 
Tribal, and National Park fish and wildlife conservation laws and 
regulations. This should permit continuation of most recreational 
fisheries within the range of the bull trout. The Fish and Wildlife 
Service and the States will develop and distribute informational 
materials in areas affected by this listing to inform anglers and other 
interested parties about the biology and identification of bull trout 
and pertinent fishing regulations.
    The joint NMFS/FWS proposal to list the southwestern Washington/
Columbia River ESU of coastal cutthroat trout, and to delist the Umpqua 
River cutthroat trout was published in the Federal Register on Monday, 
April 5.
    Logging, mining, grazing, and other activities on Federal land will 
be subject to the requirements of section 7 of the ESA. Consultations 
with the Bureau of Land Management and the Forest Service have been 
streamlined through an inter-agency agreement between those agencies 
and the Services. This agreement has been in place for several years 
and is successfully enhancing interagency coordination to adequately 
address the conservation of listed species under section 7. As a 
result, time lines for completing the process have been reduced.
    Incidental take permits and accompanying Habitat Conservation Plans 
will be required for non-federal landowners to take federally listed 
wildlife or fish if such taking occurs incidentally during otherwise 
legal activities.
            how the agencies will make esa compliance easier
    The Natural Resource Conservation Service (NRCS), FWS, NMFS, EPA 
and the State of Washington entered a Memorandum of Agreement in March 
1998 that will contribute to salmon habitat recovery and benefit other 
species on non-Federal lands through a cooperative, watershed-based 
approach. While the NRCS has no regulatory function under ESA, their 
unique agricultural assistance programs and ties to private non-Federal 
land owners provide an opportunity to assist those land owners in 
complying with ESA regulatory requirements while providing benefits for 
wildlife. A similar agreement was signed by the same Federal parties 
and the State of Oregon in May 1998, and a third such agreement 
involving the State of California is currently in the signature 
process.
    In the signed memoranda of agreements (MOAs), the Federal agencies 
listed above and the respective States will (1) implement a process to 
provide landowners with incentives that encourage the use of 
appropriate management practices; (2) facilitate better cooperation 
among the participating agencies; (3) encourage local watershed 
planning efforts; and (4) provide private landowners certainty that 
agricultural programs implemented under NRCS technical guidance will be 
in compliance with ESA regulatory requirements.
    The FWS and NMFS (collectively, the Services) have developed new 
tools using the flexibility of the ESA to create incentives for private 
landowners to voluntarily conserve listed and unlisted species by 
providing landowners with regulatory certainty. These new tools are the 
Safe Harbor and Candidate Conservation Agreements with Assurances 
Policies (to be finalized soon).
    The Safe Harbor policy applies only to listed species and involves 
a formal agreement that establishes a ``baseline'' for the enrolled 
property, and a determination by the Service(s) that a ``net 
conservation benefit'' will be provided for the covered species. Under 
this agreement, the Services will authorize future incidental take of 
covered species above the agreed-upon baseline conditions on the 
enrolled property without any additional requirements.
    The Candidate Conservation Agreements with Assurances Policy also 
involves establishing a formal agreement with a landowner that will 
provide for removing threats to non-listed species with the ultimate 
goal of not having to list it under the ESA. However, if in the future 
the species is listed, the landowner will have regulatory assurances. 
Addressing the needs of species before they become listed, usually 
allows for greater management flexibility.
    The Services have introduced streamlining measures and other 
improvements in the joint Habitat Conservation Planning (HCP) Handbook. 
These measures include: (1) combining HCPs and National Environmental 
Policy Act documents; (2) establishing a ``low effect'' HCP category 
with expedited permit approval procedures for low-impact projects; (3) 
establishing specific time periods for processing incidental take 
permit applications; (4) allowing for unlisted species to be named on 
the incidental take permit if they are adequately addressed in the HCP 
(eliminating the need to amend the permit if that species is 
subsequently listed); and (5) allowing for mitigation and monitoring 
activities resulting in take to be authorized under the section 
10(a)(1)(B) permit rather than a separate 10(a)(1)(A) permit.
    The Fish and Wildlife Service and the National Marine Fisheries 
Service will encourage programmatic consultations where there is a 
Federal nexus and large scale HCPs to accommodate as many landowners as 
practicable. For example, we are working together with the Washington 
Department of Fish and Wildlife on an HCP that will cover activities 
permitted through the Department of Fish and Wildlife's hydraulics 
permits.
    The Fish and Wildlife Service has developed Bull Trout Interim 
Guidance. This guidance was developed as a tool to be used by Fish and 
Wildlife Service biologists in participating in bull trout conservation 
and recovery efforts. The focus of the guidance is on the effects of 
land management on bull trout and their habitat. It provides valuable 
information to all entities on bull trout needs, impacts of activities, 
and broad landscape-scale recommendations for the conservation and 
recovery of bull trout and will assist in developing projects that 
ensure that the needs of the bull trout can be met.
what federal and local needs are to be met to conform to the demands of 
                              the listings
    Federal agencies primarily affected by the bull trout listing are 
the FS and the BLM. Federal land management in the western half of 
Washington State is primarily governed by the Northwest Forest Plan, a 
Federal landscape plan specifying coordinated management direction. ESA 
section 7 bull trout and salmon consultations are conducted in a 
streamlined fashion in accordance with the NW Forest Plan. Although the 
bull trout and salmonid listings will increase the workload of the FS, 
BLM, FWS, and NMFS, the listings are not likely to affect the overall 
implementation of, or land management direction provided by, the NW 
Forest Plan. In the Eastern half of the State, the affected Federal 
agencies will also conduct ESA section 7 consultations, but without the 
overarching guidance provided by a landscape-level planning process 
until the Interior Columbia Basin Ecosystem Management Plan is adopted 
and implemented.
    Due to the unprecedented nature and scope of recent ESA listing 
decisions, and to meet the needs of the affected public, it is 
anticipated that the workload will be significantly increased for the 
affected Federal agencies. The FWS will strive to make these workload 
demands a priority in the President's budget process.
    The fiscal year 2000 President's Budget includes a $3.1 million 
increase in Consultation funding for Region 1 (Idaho, Washington, 
Oregon, California, Nevada and the Pacific Islands). The FWS will 
effectively use those portions of the $3.1 million that can be applied 
to the bull trout workload to make consultations with Federal land 
managers, in particular, a priority. The FWS will work with the FS, BLM 
and other Federal agencies to establish partnerships and develop 
strategies for streamlining procedures in an attempt to avoid delays 
directly associated with section 7 consultation processes.
    Another important component of ESA efforts for bull trout is the 
development of a recovery plan for the species. A recovery plan will 
establish guidelines for actions necessary to recover the species, thus 
facilitating land use planning at the land unit level (e.g., a national 
forest) and providing a basis for coordination across land ownership 
boundaries. We urge your support for the fiscal year 2000 President's 
Budget increase request for Recovery which will help insure rapid 
completion of a bull trout recovery plan.
    The FWS has been working with the FS and BLM since fall 1998 on the 
ESA section 7 approach for bull trout. We have been largely successful 
in implementing a consistent, streamlined approach for meeting section 
7 requirements for this species. Similar efforts will be pursued with 
other Federal agencies to reduce the potential for project delays 
related to required consultations.
    At the time of listing the bull trout in July 1998, the FS and BLM 
identified 7,000 on-going actions in the Columbia River Basin which 
would require section 7 consultation. Those two agencies have been 
working with the FWS to complete those consultations, and to address 
any new, proposed actions for 1999. The three agencies met in the 
summer and fall of 1998 and screened all those actions to sort them 
into categories for further section 7 consultation. Since then, the 
focus has been on compiling the necessary documentation by the FS and 
BLM (biological assessments), and in developing concurrence letters 
(informal section 7 consultation) and biological opinions (formal 
section 7 consultation) by the FWS. Schedules for completing the 
section 7 consultations have been discussed and agreed to by the three 
agencies at the local level (each National Forest and BLM District). 
All three agencies are committed to completing consultations in a 
timely manner.
    Non-Federal land owners will need to either avoid ``taking'' the 
listed bull trout and salmon or pursue incidental take authorization by 
developing a HCP and obtaining an ESA section 10 incidental take 
permit. The Services are also considering the development of special 
rules, pursuant to section 4(d) of the ESA, to further define the take 
prohibitions for some of the threatened species and exempt some forms 
of take from these prohibitions. In any case, we believe that local 
governments must be involved at a watershed planning level to reflect 
and integrate local needs and issues. Likewise, the Fish and Wildlife 
Service can bring valuable fish and wildlife expertise to watershed 
planning efforts. We have been asked to participate in several efforts; 
however, lack of staffing has prevented us from meeting the demand.
    The Fish and Wildlife Service is involved in the review of the 
State of Washington's Salmon Recovery Plan: Extinction is Not an 
Option. Through our review of the constituent elements of the plan, we 
will make recommendations to conserve and recover bull trout. We will 
also identify opportunities to participate in regional planning efforts 
and the development of state, county or local rules and regulations 
that can become components of special 4(d) rules and HCPs. One such 
effort has been started by a Tri-County group consisting of 
jurisdictions from King, Snohomish, and Pierce counties. We intend to 
participate fully in this effort.
    The FWS and NMFS share the goal of restoring heathy fish 
populations. There are a number of tools available to local governments 
for complying with the ESA and continuing economic development. The 
most promising tools for aquatic systems are HCPs and the MOA with 
NRCS. However, many of these tools require additional, knowledgeable 
staff at all levels from the Federal government to local communities. 
Regardless of staffing levels, agencies will have to prioritize 
activities and focus on efforts that result in the most conservation 
and recovery of salmon and bull trout. Funding should be focused on 
these priorities. We look to the state of Washington to take the lead 
in prioritization of actions based on the best available science.
      how bull trout and salmon habitat needs do or don't overlap
    All salmonids require aquatic habitats that are cold, clean, 
complex, and connected; however, bull trout tend to have more 
restrictive biological requirements. In other words they need habitat 
that is colder, cleaner, more complex and more connected. Therefore, 
greater protection of these important habitat components is needed.
    Most bull trout spend their entire lives in freshwater environments 
and are therefore more vulnerable to land management activities 
affecting streams, rivers and lakes. The salmon ocean cycle reduces the 
salmon's dependence on the freshwater habitat for fulfilling all life-
history stages, although the freshwater environment is critical to the 
functions of spawning, incubation, and juvenile rearing.
    Bull trout are either resident or migratory. Migratory fish may be 
adfluvial (lake-dwelling), fluvial (river dwelling), or anadromous 
(ocean dwelling). Historically, migratory life-history forms of bull 
trout were more prevalent. Open migratory corridors, both within and 
among tributary streams, large rivers, and lake systems are critical 
for maintaining bull trout populations. This allowed access to a larger 
prey base for both sub-adults and post-spawners. Habitat degradation 
and dams have now isolated many resident and migratory bull trout 
subpopulations that historically were inter-connected as complex 
metapopulations. This loss of connectivity has caused decreased genetic 
fitness between and within nearby subpopulations as well as 
extirpations of bull trout stocks.
    The salmon life cycle has a saltwater or ocean component with a 
very large prey base available for sub-adult and adult fish. At all 
life history stages bull trout need access to an adequate prey base, 
which for adults necessitates habitats accessible through migratory 
corridors with suitable temperature, habitat complexity, and passage. 
Apex predators, such as bull trout, are more extinction prone than 
species lower in the food chain. In stable ecosystems, top level 
predators have small population sizes, thus environmental disturbances 
tend to affect species more at the top of the food web than at lower 
levels.
    Bull trout are among the most cold water adapted fish and require 
very cold water for incubation, juvenile rearing and spawning. These 
temperatures may in some cases be so cold as to exclude other native 
salmonids from utilizing the same spawning and rearing habitat as bull 
trout. Cold water temperatures may reduce the likelihood of invasion by 
brook trout and other non-native fish into bull trout watersheds.
    Since bull trout eggs reside in such cool water, they require a 
long period of time (220+days) from egg deposition until emergence, 
making them especially vulnerable to effects of temperature, sediment 
deposition, and bedload movement during this period. After emerging 
from spawning gravels, juveniles are found in areas with overhead cover 
and low substrate embeddedness. Juveniles are largely nocturnal and 
very cryptic, since they utilize the interstitial spaces between 
substrates for refugia. This makes bull trout especially vulnerable to 
effects of sediment deposition, bedload movement, and changes in 
channel structure.
    Spawning, incubation and juvenile rearing are the bull trout life 
history stages that require coldest water temperatures and lowest fine 
sediment levels. Juvenile rearing and spawning typically occur in the 
smaller tributaries and headwater streams that may be upstream of 
anadromous salmonids, and therefore they are more directly influenced 
by conditions in non-fish bearing streams. Greatest riparian protection 
should be provided around bull trout spawning and rearing streams 
(often headwater streams and often the smaller fish-bearing streams), 
and the non-fish bearing streams above them that provide high quality 
water to downstream areas used by the fish.
        how hcps will address the needs of bull trout and salmon
    Congress intended that the HCP process would be used to reduce 
conflicts between listed species and economic development activities, 
and would be used to develop ``creative partnerships'' between the 
public and private sector in the interests of endangered and threatened 
species conservation. The Services have been successful in balancing 
biology with economics by developing these creative partnerships. One 
of the great strengths of the HCP process is its flexibility in being 
adaptive to a wide range of biological, geographical, and developmental 
scenarios. The ESA and its implementing regulations establish basic 
biological standards for HCPs, but otherwise allow HCP participants to 
be creative. As a result, the HCP program has produced some remarkably 
innovative land-use and conservation plans.
    In order for the Services to approve an HCP, it must satisfy the 
section 10 issuance criteria. Specifically, section 10(a)(2)(A) of the 
ESA requires an applicant for an incidental take permit to submit an 
HCP that specifies, among other things, the impacts that are likely to 
result from the taking and the measures the permit applicant will 
undertake to minimize and mitigate such impacts. Issuance of a section 
10 permit must not ``appreciably reduce'' the likelihood of the 
survival and recovery of the species in the wild.
    It is envisioned that HCPs for bull trout and salmon will be 
structured so as to meet the needs of the applicants, as well as 
provide for the long-term conservation of the bull trout and salmon.
    Examples of Aquatic HCPs:
1. Mid-Columbia Public Utility District (PUD) HCP
  --Proposed HCP has been developed over the past 3+years.
  --NMFS is lead agency, as only steelhead and salmon are included as 
        covered species.
  --PUD's (Chelan and Douglas counties) proposal is an attempt to 
        provide 100 percent no net impact to covered species, 95 
        percent survival of juveniles at the projects (dams) and 91 
        percent juvenile survival overall (including through the 
        downstream reservoir) for covered species in exchange for 
        incidental take authorization under section 10(a)(1)(B) of the 
        ESA.
  --The balance between 91 percent survival through the reservoir, 95 
        percent survival at the project, and the 100 percent no net 
        impact standards is to be made up through the PUDs funding of 
        additional hatchery operations and habitat improvement projects 
        in the region.
  --Three projects addressed: Wells and Rocky Reach Dams, Douglas 
        County, Washington; Rock Island Dam, Chelan County, Washington.
  --This is the first HCP developed for hydroelectric projects.
  --Although FWS does not have regulatory authority over covered 
        species, the PUDs consider FWS involvement crucial, as FWS will 
        be a key party in the upcoming Federal Energy Regulatory 
        Commission (FERC) re-licensing process for both PUDs in the 
        near future (3-10 years). The PUD's goal is to have all key 
        parties, including the affected Yakama, Colville, and Umatilla 
        tribes, participate in the negotiations and agree to the final 
        conservation plan so that operations authorized under the plan 
        will not be challenged during the FERC relicensing process.
  --Permit issuance pending.
2. Cedar River Watershed HCP (City of Seattle)
  --Objectives are to provide reliable high quality drinking water for 
        city customers, manage the watershed's resources, and generate 
        hydroelectric power while complying with the ESA.
  --Entities involved and which have signed an Agreement in Principal 
        in 1997 include the Seattle City Council, Seattle Public 
        Utilities, U.S. Army Corps of Engineers, Washington Dept. of 
        Fish and Wildlife, Washington Dept. of Ecology, FWS and NMFS.
  --Size of the watershed is 90,546 acres.
  --Covered activities include: forest management such as regeneration 
        cutting, commercial and precommercial thinning, and salvage 
        logging; road maintenance and construction; activities 
        associated with operation of the municipal water and 
        hydroelectric supply including operation, maintenance and 
        improvement of facilities at Landsburg, Cedar Falls and Masonry 
        Dam; maintenance of trails and rights-of-way; and, new 
        watershed educational center.
  --The HCP is one facet of a larger program. The city is also 
        negotiating an Instream Flow Agreement to protect, restore and 
        improve fish habitat in the Cedar River to establish binding 
        minimum instream flow requirements to replace the currently 
        non-binding ones, and also the Landsburg Mitigation Agreement 
        for fish passage and proposed fish hatchery.
  --The City wants ESA coverage for approximately 90 listed and 
        unlisted aquatic and terrestrial species.
  --The City intends to apply for certification under the Smartwood 
        program founded by the Rainforest Alliance in 1989. The program 
        promotes an ecosystem-based approach to forest management. The 
        applicant's watershed forest management plans and activities 
        are reviewed by an independent, multi-disciplinary team of 
        scientists that evaluate environmental, economic, and social 
        impacts of the plans. A potential advantage of certification 
        could be premium prices attached to green forest products 
        produced from the watershed.
3. Tacoma Public Utilities HCP
  --The City of Tacoma wants an HCP that will cover forest management 
        activities in the Green River watershed, and activities related 
        to two other planned projects. One project involves 
        construction of a 33.5-mile long pipeline from the diversion 
        dam to the City. The other is to increase the size of the dam 
        and reservoir. Some of the activities include: water withdrawal 
        at the dam; fish bypass during construction of the pipeline and 
        dam and reservoir; realignment, enlargement, and addition of 
        upgraded fish screens and bypass facilities; installation, 
        monitoring and maintenance of instream structures; operation 
        and maintenance of a wetland restoration project; restoration 
        of anadromous fish by trapping and hauling adults returning to 
        the area; and, possible planting of hatchery juveniles.
  --The applicant is seeking coverage for about 25 listed and unlisted 
        aquatic and terrestrial species.
  --The plan area includes the Tacoma owned and operated water 
        diversion dam and facilities (Headworks) on the Green River, 
        and about 13,600 acres of land upstream from the dam. The Green 
        River is a principal source of municipal and industrial water 
        for the City and portions of King and Pierce counties.
  --Entities involved include the City of Tacoma, Tacoma Public 
        Utilities, Washington Dept. of Fish and Wildlife, U.S. Army 
        Corps of Engineers, Washington Dept. of Ecology, Muckleshoot 
        Indian Tribe, FWS, and NMFS.
    In closing, I would like to reiterate on behalf of the Service our 
great appreciation for your support for the health of fish and wildlife 
in the Pacific Northwest.
    This concludes my statement. Gerry Jackson and I are pleased to 
respond to any questions you may have.

                          NEW STATE EMPLOYEES

    Senator Gorton. Mr. Smitch, I think in one of the earlier 
panels, I don't remember the witness so I won't name the 
witness, someone took a shot at you, or at least at the State 
budget, to the effect that a considerable portion of the money 
in the capital budget is going, not to the ground, not to these 
volunteer agencies, but to new people working as State 
employees. Do you want to comment on that? And do you want to 
comment on what you feel the role of these volunteer citizen 
groups to be?
    Mr. Smitch. Yes, Senator, I'd be happy to. If they're 
commenting on the State's capital budget process, in the 
governor's budget the overwhelming majority of that is passed 
through to local government. There has been in the House 
version right now--and we have, as was said, a Senate 
Republican and a Democratic version. Some of that money has 
been allocated for some other activities, and that's one of the 
issues we're trying to reconcile. So we, as the governor said, 
are very mindful that we cannot be using federal money in 
particular, but even the State money, to be building a staff of 
FTEs. So we're scrubbing that very carefully. I think you will 
hear from all the agencies and all the governments involved 
some level of infrastructure is going to be necessary for doing 
the accountability, doing the data, doing the assessment, doing 
the monitoring. But we're trying to minimize that at the State 
level for us.
    We think, Senator, that volunteer groups, as was said here, 
are crucial. As Louise said, this has to be a grounds--a 
ground-up approach. We've committed to that approach. How you 
fund volunteers, senator, is a very difficult issue, because 
there isn't accountability measures over volunteers, by almost 
definition. Representative--Representatives Regala and Buck in 
2496 tried to set up a process, that at least what comes out of 
that process goes to the State for some overall scientific 
screening. And I think, as Louise pointed out, she supports 
that. We support a Statewide screen in there. So we're trying 
to figure out how do we take taxpayer money, put it out to 
volunteer groups, and assure them that they're getting the best 
bang for their buck. So it's a hard issue, because at one 
level, by the nature of it, they need to not have a lot of 
restrictions and requirements, because they're providing the 
energy and the enthusiasm and the on-site information to get 
this done. At the same time, at the end of the day, we know the 
federal government is going to say, ``Did or did not those 
efforts make a difference for both salmon recovery and meet ESA 
requirements?'' That's what we're struggling with, is how to 
marry those two in some way--very different expectations.
    Senator Gorton. One more question for me, and I'll just go 
across the group here. I'd also like your reaction to Bill 
Ruckelshaus' suggestion, but I'm going to make it a little 
harder for you full-time people here. You can answer it both 
with Congressman Dicks' suggestion.
    But first, is it a good idea to have some coordinator like 
that? And second, would it be a better idea to do it in the way 
that Congressman Dicks suggested, say you two as partners, or 
would it be better to have a coordinator, someone to try to 
coordinate all these things, perhaps from outside of the 
professional government at all--without him in the room, say 
Bill Ruckelshaus himself, or some citizen with the kind of 
reputation that he has, but nonetheless appointed jointly by 
the governor and by the president? Could all of you comment on 
at least your initial thoughts about that idea?
    Mr. Lohn. Thank you, senator. As the Independent Science 
Advisory Board, which is also basically the ISRP, has 
frequently pointed out, the region has good projects, but no 
framework, no common plan. Having ultimately some individual, 
some entity that brings it together and says, ``All right, 
there's some judgment calls, but here's what we're going to 
do,'' would be very valuable. As to who should do it, I think 
that's a political question that I would leave to your 
judgment, as long as it's a person with sufficient authority, 
political, legal, or persuasive, to bring others into following 
a common vision. Thank you.
    Mr. Stelle. Good question, senator. First of all, to the 
issue of ``Is coordination among these activities useful and 
desirable?'' the answer, I think the obvious answer, is yes.
    The tough issue is how. To the question of how, first, we 
at the federal level have fairly intentionally taken a more 
low-profile role as these initiatives take root, under the 
premise that they will better take root if left to themselves 
for a while. And what we see now sprouting up across the 
landscape are these very exciting initiatives with the tribes, 
with the counties, in the private sector, and with the State 
agencies. So at this stage we have--we have very intently stood 
back, not tried to provide any kind of rigorous guidance on it, 
in favor of that more local home-grown flavor. As things grow 
in complexity, then maybe the approach warrants some 
adjustment.
    To the question of ``Do we need some significant pooh-bah 
designated to come in and orchestrate everything?'' I'm fairly 
cautious about that. People tend to say, ``Yes, that's a good 
idea,'' until the pooh-bah tells them what to do, and then 
suddenly it's not such a good idea, like ``Who the heck are 
you?'' So my instinct on this one is first of all to advise 
caution, and maybe, in fact, to ask the key entities for their 
collective advice to you on answering the question on how, at 
this stage in time. I would posit the question to myself and to 
the federal entities, to the State and to the tribes and to 
county authorities, ``Can you give us your recommendation on 
how to set up a better, more reliable, but not overly 
cumbersome coordinating mechanism?'' And I think that asking 
that question and assigning to us collectively the 
responsibility to give you a good answer is, again, more in 
keeping with a little bit more local flavor than simply saying, 
``President Clinton and Governor Locke, go find some pooh-bah 
to get our house in order.'' That--I think I have a little 
pause on that as the right remedy at this time.
    To the question of coordination, absolutely. Tell us here 
who are working on the ground to give you a collective answer 
on that. And I think that we can.
    Senator Gorton. Thank you. Thank you. Very good.
    Mr. Smitch. Mr. Chairman, as I mentioned, probably one of 
our biggest challenges is the governance issue, the issue that 
Bill Ruckelshaus put on the table and others have spoken to 
here. I share many of Will's concerns. We have been working on 
this since you provided us with the $20 million, you and 
Congressman Dicks. A year ago we knew that the challenge before 
us of allocating this funding on the ground, that met local 
needs, but at the same time it was screened scientifically and 
was--identified some list of priorities, was going to be a 
challenge. And it has turned out to be that.
    And I would say, by the way, that--to Tom's credit, the 
first set of projects did go out this week, some in the Puget 
Sound, the majority of them, interestingly enough, in eastern 
Washington.
    Here's the problems that we see, that we find, and we still 
are wrestling with. Who's going to be at the table? If you're 
really going to make decisions there, then everybody wants to 
be there. If--and they have a very hard time saying a different 
person can represent their interests. So that's one question. 
And frankly, this is what the legislature is struggling with. 
They're trying to set up an independent board: it started at 
three, the last version was seventeen, and they have yet begun 
to go through the second iteration, because now that people 
think all of the State and federal money is going to go through 
that board, that board is going to make the decisions, now they 
want to revisit who's on there. OK, so this--we will not 
resolve that this session; that's my guess. So who's on there?
    Then who's accountable? You have to tell us who want to be 
accountable for the expenditure of federal money. My sense, 
senator, as you said to me one time earlier in this process, 
``I don't want to be chasing thirty-nine counties and 279 
cities around the table, trying to figure out how the money's 
being spent; I want somebody that I can go to and say, `You're 
on the hook.''' Right now you've said you want the State on the 
hook. So who's accountable?
    And then who's going to make, as Louise said, the actual 
priority decision, becomes very, very important. And I would 
submit one of the problems on the Columbia River is, in the 
final analysis on these ESA-related decisions, they're the NMFS 
and the Fish and Wildlife Service's call, regardless of what 
forum we set up. So we want a forum where they're at the table, 
because ultimately, that's who we're going to get ESA 
assurances from, and know whether or not we're providing salmon 
recovery. They make the call.
    We have the government council, senator, right now, that 
has at least worked on the first $20 million, where we at least 
have the governments there. Now, do we need to improve that or 
modify that to have nongovernmental players at the table? We 
have the ports, the quasi-governments; we're looking at the 
utilities. Do we need to expand that? That is a very fair 
question, one we're looking at. And that seems to be a place 
where we can work and make these kinds of very hard allocation 
decisions and move forward.
    What is emerging is a sense that we need some statewide 
screen, science-based, that allocates the money between the 
regions. There are seven regions. Once you're within those 
regions, that structure--we're finding out we've pulled 
everybody together in local government. We have a number of 
variations, and they all work for their own local area, so it's 
hard to say we have to have one model. Southwest Washington, 
the legislature passed a bill, created a council. Five counties 
participate in that, they set the priorities, and it's working 
and we're funneling money through that. Tri-County has a 
voluntary effort that works. Upper Columbia is probably going 
to move to that. Southeast Washington used the 2496 House bill 
that Regala and Buck spoke to you about, and they're allocating 
their money through that. So we're finding, once you get to the 
regional level, some of them have very competent science 
screens. They probably don't need a lot of duplication at the 
State level. Some of them have almost nothing, and are going to 
need backup at the State level. So I think the coordination is 
not as bad as some would portray it. It is a problem, because 
we're doing both vertical within, from a WRIA to the top of the 
region, and then we're doing it across regions. I think, at 
least at the cross-regions, senator, we're going to have to 
have a statewide--some kind of statewide forum. I'm not so sure 
that forum should be messing around too much clear down at the 
WRIA level. So I'm with Will: I think we can give you several 
options to look at, and then you tell us how you want to build 
the accountability in, who you want to hold accountability, 
accountable for the implementation of the funds and meeting ESA 
requirements. And that will probably help force that 
discussion.
    Mr. Dicks. Let me just ask about this point, as I 
understand Mr. Ruckelshaus' testimony, he says there needs to 
be coordination because there are a number of scientific 
reviews under way. Maybe this is an effort with a number of 
subcommittees, one of which would be the allocation of funds, 
another would be helping to develop a recovery strategy, and 
the third might be marshaling of all the various science. We 
might have subcommittees under your governor's governance, with 
maybe a Federal/State lead. That was what I was thinking about, 
so that you could address these separate subjects. And now the 
question then becomes, do you need to have some new person come 
in to coordinate all these things, or do you have, like we had 
in timber, fish, and wildlife? You know, you both were 
representatives there, one Federal, one State, the private 
sector was there, and you worked on this one particular part of 
the problem. That might be a model, as well. But I like the 
idea of your coming back to us, with some ideas about how we 
can work on coordination. I think that's a pretty good idea, 
senator, and maybe we should ask them to do that.
    Senator Gorton. Let's let the last two speak, and then 
we'll----
    Mr. Dwyer. I think I agree a lot with what Will and Curt 
have said. Is better coordination necessary? Well, absolutely. 
Are there some other facts that we all really understand? And 
that is, there are some federal agencies, say Fish and Wildlife 
Service or NMFS, that are responsible for implementing the 
Endangered Species Act. Everyone wants to know who's going to 
make the final decisions.
    You know, my last thought would be, when you go to 
discussing this overall coordination role, you really have to 
involve Fish and Wildlife Service and NMFS and the State and 
the tribes, and then it goes down to the counties and the 
cities also, so--and what's the best process to do that? I'm 
not sure I've got a great answer for you right now. There are 
variations of that going on, as Curt described, already. And 
maybe some of the problem with people who think there's not 
enough coordination is maybe because they don't really 
understand some of the stuff that's going on now, and aren't 
now players at the table, and maybe that's because of funding 
or other reasons. But I think there are some models out there 
that have been tried. Some haven't worked. There are some other 
partial models that are now working. And I think the idea of us 
giving you some further ideas would be useful.
    Senator Gorton. Billy?
    Mr. Frank. My friend Bill Ruckelshaus, who I have a lot of 
respect for, was going to Montana, and he and Jill were going 
to fish over there, and then he took that envoy to Canada, and 
he hasn't been there ever since. And he went--you know, they 
just didn't agree on whatever he was doing, you know. But not 
unless this czar is going to be an Indian, you know, we----
    [Laughter.]
    Mr. Dicks. You're against the czar unless it's you. Right? 
[Laughter.]
    That'd be a different matter, Billy?
    Mr. Frank. And we look to the State of Washington and the 
federal government and our partners, and as well as our 
counties and cities and local governments, to do what they do. 
But it's important that somebody's in charge here. I mean, we 
can't come back to you next year and report to you if this is 
still going like it is. There's a whole lot of things here 
today come out, and they're floating in the air. Positive 
things. But somebody has to put it together and measure this 
along the way.
    And you know, the accountability to this funding, boy, 
that's important. And we've got to account for every dime we 
spend, and where is it going to, and what is it doing? You 
know, we got to come back to you and report to that, you know. 
And coordination is--somebody's got to coordinate this, and 
it's so important that it gets done.
    But you know, you've heard the feds and the State talking 
about thinking a little bit about how this all comes up, and we 
couldn't answer to a lot of questions a year ago, or even six 
months ago, because a lot of things have been happening. Out of 
this process you are going to get different leaders, younger 
leaders coming up, thinkers, creative people thinking about how 
we can put this together. And hopefully--and that's happening 
right today. And that's a real positive step forward of how we 
can get from A to B to C at the end of this whole process that 
we're going to be doing.
    Senator Gorton. Well, personally Will, I think your 
response was thoughtful and appropriate, and to the best of my 
ability, we're going to inquire of all of you as to how this 
goes on. Ruckelshaus' idea was an intriguing one, but we need 
that decision to come up from the bottom rather than down from 
the top.
    I have one more narrow Columbia River-related question for 
you, but I'll submit it to you in writing and you can get back 
to me.
    But you had your hand up, so----
    Mr. Stelle. Yes, Mr. Chairman. If I may, just two 
additional quick points on this coordination issue, to speak to 
questions you raised earlier.
    First is science. Again, I think that in the area of 
science, information, mapping capabilities, analytical 
capabilities, modeling capabilities, data management, et 
cetera, et cetera, et cetera, things that are largely value-
neutral and things that are devoid of policy--the coordination 
issue can be handled a little bit differently on that type of 
work. And on that type of work I think that the federal 
agencies, the State agencies, particularly where--and the 
tribal capacity in science--we need to force a much better 
integration of our science knowledge and delivery services to 
those who want to know. So I think there's a little bit of a 
separate answer when it comes to the mustering and making 
available of relevant information.
    Mr. Dicks. Are you talking about, like, a database?
    Mr. Stelle. Absolutely. And frankly----
    Mr. Dicks. Which everyone use?
    Mr. Stelle [continuing]. What I'd like--my view is that 
pulling all of the databases and modeling capacity, loading up 
that system, developing the software to make that system 
available and accessible to local people, that's a big job. And 
my own view is that if you ask the feds to do it, it may take 
us five years. And we----
    Mr. Dicks. Ask Microsoft, then.
    Mr. Stelle [continuing]. We've got capacity here in the 
Northwest region, people that--with 5 or 10 people, they can 
put together a SWAT team, move in, spend 6 months, build the 
hardware system, build the software system, load it, and make 
it deliverable, and you would find it just sprouting across the 
landscape because suddenly people would have access to 
information that they cry out for on what works; what should I 
do, where to set my priorities? So on the science issue and the 
delivery mechanisms, there's some unique opportunities here.
    Senator, to your question of what are the goals, we have 
statutory obligations under the Endangered Species Act to 
develop recovery plans. And the way we have been thinking about 
approaching those obligations is in a two-tiered method, the 
first one of which is largely a technical exercise of 
establishing measurable goals for what delisting, for what 
recovery looks like. What kind of populations, in what 
abundance, over what time, distributed across the region, what 
does that look like, and how can we develop some measuring 
capabilities to assess that over time? And we believe that that 
is a role and a responsibility that we have, and we're prepared 
to engage in that.
    The second thing is how to get there from here. And in 
answering the question of ``how,'' the design of a recovery 
strategy and the implementation of a recovery strategy, that's 
where we believe there is--there may well be a special primacy 
role for State, tribal, and local authorities in helping us 
shape the how.
    On the ``what is the goal,'' it's largely--it's very much a 
technical issue. I think we have a special responsibility to 
provide that to the region. On the ``how,'' that's very 
intensely collaborative.
    Mr. Dicks. I just want to ask a couple of questions. What 
are the things that are being discussed between the Tri-County 
group and the National Marine Fisheries Service in terms of 
recovery strategy?
    Mr. Stelle. Again, as Louise pointed out earlier, the tri--
and Bob did--the Tri-County initiative is really focussed on 
how can they shape the exercise of their authorities and 
responsibilities in order to begin to restore--protect and 
restore the productivity of the habitats within their 
jurisdiction. What kind of things do county governments do that 
affect the protection and restoration of that habitat, and how 
can they make adjustments, either through their ownership 
authorities or through their regulatory land use authorities? 
That is part and parcel of a larger recovery strategy, because 
there are many things affecting the salmonid life cycle that go 
well beyond county authorities.
    What we are working on with the counties is, first of all, 
reviewing their early action initiatives, which is a first cut 
by them, a very good first cut, at what kind of early actions 
can we implement on the ground to get this ball rolling while 
we fine-tune a larger habitat restoration strategy. And we are 
working with them on those early action initiatives and trying 
to answer the question that they have asked of us, ``Of this 
set of activities and commitments we're prepared to make, or 
have made, what kind of ESA safe harbors can you provide to us 
for these types of activities?'' And that gets into some of the 
regulatory stuff about certainty, and reliability, and 
predictability, et cetera, et cetera, et cetera.
    So this is first, the stage one is a set of early action 
initiatives to get the ball rolling in protecting and 
restoring, while the larger assessment and strategic planning 
for watershed restoration overall occurs.
    Mr. Dicks. Now, the Tri-County group obviously is well-
financed, and they have professional staff and a lot of 
ability.
    Mr. Stelle. Yes. Yes.
    Mr. Dicks. I represent some counties that don't have those 
kinds of resources: Kitsap County, Jefferson, Clallam, Mason, 
Grays Harbor.
    Mr. Stelle. Yes.
    Mr. Dicks. Are they going to work through the state, or are 
they going to have their own independent piece of this? How is 
it going to work?
    Mr. Smitch. Congressman, we've been working with Will on 
exactly this issue. We had built in the budget the ability to 
develop the technical capacity, either at the state or at the 
local level, in those county areas that don't have that 
capacity at this point in time. And we were also--some of the 
federal money that comes through is for planning and 
assessment. Right now that's running at about 19 percent, I 
think, of what was provided. And somebody here earlier said 
that across the ESUs we probably need some base level of 
funding, congressman, so that people can, in fact, develop 
their plans and get some of that capacity.
    But we assume in those areas where they simply don't have 
it, the State's going to have to step in and provide that 
technical support to the extent we can. And that's one of the 
areas we have some disagreement right now on the budget, is how 
to build that technical capacity at the local level in these 
counties that simply don't have it. So we're working on that, 
and we've identified it as an issue.
    Mr. Dicks. For example, I talked to our county 
commissioners in Kitsap County who said they just hired their 
first biologist. We've done a lot of good work on Hood Canal, 
but there are other parts of the county where a lot of work 
hasn't yet been done. Will, under the Endangered Species Act, 
if these counties are a little behind, are they going to have 
time to catch up? What's the time frame?
    Mr. Stelle. A couple of things on that, congressman. First 
of all, as a practical matter there is no way that we would 
ever contemplate bringing and enforcement action under the 
federal Endangered Species Act against a county authority that 
was working hard to try to develop a restoration strategy for 
their watersheds. Won't happen. Shouldn't happen. Dumb idea. 
We've got a lot bigger problems to deal with on major 
activities with major impacts.
    That doesn't deal with the issue of potential third-party 
lawsuits, and we recognize that. And that's a little bit of a 
random factor here that, frankly, it's difficult to control one 
way or the other. But as to whether or not we will be providing 
the kind of encouragement that we can under the law to let 
these local initiatives grow, absolutely.
    I have to say, though, again, back to this science issue, 
it may well be in some closet somewhere--in fact, it's a 
guarantee--that probably the Forest Service research station 
has extensive GIS mapping and habitat analyses for all of the 
rivers in those three counties, and time set data. Now, what 
you need is the ability for that single county biologist to tap 
into that knowledge so that he or she doesn't have to go 
reinvent the wheel. It's there somewhere, guaranteed. We have 
to make it available. That's the science initiative. It's 
absolutely essential. There's no way you can expect individual 
county authorities on limited budgets to replicate the enormous 
monitoring and research that we've done on the ground across 
the landscape.
    Senator Gorton. And shouldn't be done, if it could.
    Mr. Stelle. No.
    Senator Gorton. No.
    Mr. Dicks. Well, Billy, I'm glad to see you here today in 
good health, and you get the final word.
    Mr. Frank. Could I--you know, I told you, both of you, that 
the salmon is lining up, the stars are lining up, you know. And 
you heard it all today, and very positive. Attitudes are really 
good. But there's one thing that's not lining up, and that's 
the water. And the salmon need the water. And the people that 
are dealing with water are still dealing--you heard today, 
everybody's talking about the salmon, ``What's good for the 
salmon?'' Well, in water, they're saying, ``What's good for 
me?'' It isn't ``What's good for salmon,'' it's ``What's good 
for me?'' So the special interests are still talking about 
``What's good for me?'' And they're not going to get--they're 
down to one page, or one line in the legislature now. You know, 
they haven't included people, and they're fighting with each 
other.
    So we've got to get beyond that, you know. And so that 
attitude's got to change within that forum, that water forum. 
So thank you. Thank you.
    Senator Gorton. Well, with that, I want to thank you. And a 
couple of observations. In many respects this has been a 
different kind of Congressional hearing than most of the 
hearings that Norm Dicks and I attend, where you have at least 
two highly-contrasting points of view engaged in a debate with 
the voting members ultimately being the judges, or having to 
reach a compromise.
    Here, we have had everyone, probably representing the vast 
majority of the people of the State, sharing at least the same 
general goal. Many of the differences as to how to reach those 
goals have been rather subtle, and can easily pass over each 
one of us. But we do have an opportunity, because of the broad 
consensus on an overall goal, to try to see to it that we make 
it in a very constructive fashion, that we do a better job than 
we did with forests, and do a better job in Puget Sound than 
we've done with the Columbia River.
    I really appreciate all you've said, Mr. Stelle, about your 
role and the relationship between your statutory 
responsibilities and your own feeling of how these policies 
should be implemented. And the same to you, Mr. Smitch. I hope 
that we may have helped the whole process of bringing together 
people across the spectrum.
    And for us, our primary goal is to try to see to it that we 
get as many dollars as we possibly can, out of a very 
restricted federal budget, for this problem, and to give you 
the maximum amount of ability to see to it that those dollars 
are used effectively to meet the problem.
    Mr. Dicks. And I would just add one thing. I think, again, 
we heard today from almost everyone that the United States-
Canada agreement, along with the federal resources, are the 
twin pillars of what we have to do. The funding will be more 
long-term for habitat. But we can get salmon in the gravel this 
fall if we can get a United States-Canada agreement.
    Senator Gorton. In the next few months. That's correct.
    Now, just one procedural matter before we adjourn. I want 
to thank Henry Yates of the Port of Seattle----
    Mr. Dicks. Hear, hear.
    Senator Gorton [continuing]. Who helped get this room for 
us, and Judy Matthews of Host Marriott Services in helping with 
all of these arrangements.

                         CONCLUSION OF HEARING

    And finally, the formal record of this committee will be 
open for two weeks. Anyone, whether they were witnesses here or 
not, can submit written comments for the record. They will be a 
part of the record. You can send them either to Congressman 
Dicks' office or my office, but it will be a joint record.
    With that, we thank all of the participants and all of the 
spectators. It's been a most educational day.
    [Whereupon, at 3:20 p.m., Wednesday, April 7, the hearing 
was concluded, and the subcommittees were recessed, to 
reconvene subject to the call of the Chair.]

                                   - 

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
